<html>
<title> - NOMINATION OF JOHN F. KERRY TO BE SECRETARY OF STATE</title>
<body><pre>[Senate Hearing 113-163]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-163
 
                      NOMINATION OF JOHN F. KERRY 

                        TO BE SECRETARY OF STATE
=======================================================================



                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 24, 2013

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/





                  U.S. GOVERNMENT PRINTING OFFICE
86-451                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         MARCO RUBIO, Florida
ROBERT P. CASEY, Jr., Pennsylvania   RON JOHNSON, Wisconsin
JEANNE SHAHEEN, New Hampshire        JEFF FLAKE, Arizona
CHRISTOPHER A. COONS, Delaware       JOHN McCAIN, Arizona
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                RAND PAUL, Kentucky
CHRISTOPHER MURPHY, Connecticut
TIM KAINE, Virginia
               William C. Danvers, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                                  (ii)        




                            C O N T E N T S

                              ----------                              
                                                                   Page

Clinton, Hon. Hillary Rodham, Secretary of State, U.S. Department 
  of State, Washington, DC, introductory statement...............     5
Corker, Hon. Bob, U.S. Senator from Tennessee, opening statement.     3
Kerry, Hon. John F., U.S. Senator from Massachusetts, nominated 
  to be Secretary of State.......................................     8
    Prepared statement...........................................    14
    Responses to prehearing questions submitted by Senator Bob 
      Corker.....................................................    66
    Responses to questions submitted for the record by the 
      following Senators:
        Robert Menendez..........................................    89
        Bob Corker...............................................   116
        Barbara Boxer............................................   125
        Benjamin L. Cardin.......................................   130
        Robert P. Casey, Jr......................................   132
        James E. Risch...........................................   137
        Marco Rubio..............................................   149
        Tom Udall................................................   163
        Christopher Murphy.......................................   166
        Ron Johnson..............................................   167
        Jeff Flake...............................................   168
        John Barrasso............................................   174
        Rand Paul................................................   188
McCain, Hon. John, U.S. Senator from Arizona, introductory 
  statement......................................................     6
Menendez, Hon. Robert, U.S. Senator from New Jersey, opening 
  statement......................................................     1
Warren, Hon. Elizabeth, U.S. Senator from Massachusetts, 
  introductory statement.........................................     4

                                 (iii)


                      NOMINATION OF JOHN F. KERRY 

                        TO BE SECRETARY OF STATE

                              ----------                              


                       THURSDAY, JANUARY 24, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
                              ----------                              

Hon. John F. Kerry, of Massachusetts, to be Secretary of State
                              ----------                              

    The committee met, pursuant to notice, at 10:07 a.m., in 
room SH-216, Hart Senate Office Building, Hon. Robert Menendez, 
presiding.
    Present: Senators Menendez, Boxer, Cardin, Casey, Shaheen, 
Coons, Durbin, Udall, Murphy, Kaine, Corker, Risch, Rubio, 
Johnson, Flake, McCain, Barrasso, and Paul.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Good morning. This hearing of the Senate 
Foreign Relations committee to consider the nominee for the 
Secretary of State will come to order.
    Let me again ask as I did yesterday. Since the full Senate 
has not yet passed the committee resolution seating members, I 
ask unanimous consent of returning members to allow our 
prospective members to participate in today's hearing. And if 
there is no objection, it is so ordered.
    Let me start with saying that you are not at the table yet, 
Senator, but we are going to have you there shortly. Let me 
say, Senator Kerry--or should I say ``Mr. Chairman,'' since you 
are still our committee's chair--that I am deeply humbled to 
preside over the committee today as we consider your 
nomination. We are honored to welcome you as the President's 
nominee for a position you have most deservedly earned from the 
first time you testified before Chairman Fulbright as a young 
returning Vietnam war hero in 1971 to the day the President 
nominated and announced your nomination as Secretary of State. 
You may not be aware of it, but you will be the first member of 
this panel to ascend directly to the position since Senator 
John Sherman of Ohio became President McKinley's Secretary of 
State more than 100 years ago. So you are clearly making 
history once again.
    Yours is a big chair to fill and I will do my best today to 
live up to your example. I have watched your lead on the 
committee with an equally deep and abiding commitment to get to 
the heart of the matter, always probative, always open to 
debate, always ready to mitigate disagreements, always looking 
for the truth, for answers, uncovering the facts, hearing all 
the evidence, and then publicly speaking truth to power based 
solely on what was the best interests of the Nation.
    As a Senator, as a member of this committee, and as 
chairman, you have already built strong relationships with 
leaders around the world which will help you seamlessly into 
the role of Secretary of State. You will need no introduction 
to the world's political and military leaders and will begin on 
day one fully conversant not only with the intricacies of U.S. 
policy but with an understanding of the nuanced approach 
necessary to effectively interact on the multinational stage.
    When Vice President Biden sat in this chair, he said on 
more than one occasion: ``Good international relationships are 
always predicated on strong interpersonal relationships.'' I 
think we can all agree that you have set the highest standard 
for developing those relationships throughout your career, and 
as Secretary of State you will continue to strengthen those 
relationships on behalf of the President in the furtherance of 
American foreign policy.
    I will have some questions later on policies and your 
views, including how you explain to world leaders how you could 
have been rooting for the Boston Red Sox instead of what the 
world knows is the New York Yankees as the team of the world. 
[Laughter.]
    But let me say, Mr. Chairman, it has been a pleasure 
working with you. I am looking forward to continuing to work 
with you on the issues you have championed over the years: 
fighting global terrorism, preventing the spread of nuclear, 
biological, and chemical weapons, fighting for human rights and 
against HIV/AIDS around the world, fighting crime, corruption, 
drug trafficking, and standing up as you always have for the 
interests of the Foreign Service around the world.
    In your new role, should you be confirmed--and I know you 
will--your portfolio will be greatly expanded. You will be 
center stage representing the interests of all of us from 
securing our embassies and protecting our overseas personnel to 
promoting commerce, enhancing cross-cultural ties, and keeping 
America secure through cooperation where possible and isolation 
where necessary as in the case of Iran.
    And of course, it goes without saying that you have truly 
been a world leader on one of the most consequential issues of 
our time: climate change. And it heartens me to know that 
someone with your commitment to the issue will be our voice to 
the world.
    The fact is whatever the challenges we will face, in my 
view the State Department could not be in better hands.
    When it comes to America's role in world affairs, I know we 
agree that it is critical that the United States remains fully 
engaged, that we project not only the power of our military 
strength when necessary, but the wisdom of our democratic 
ideals as we adjust to the new threats and new demands we will 
inevitably face. And there is no doubt you will be tested in 
your new role as Secretary, nor is there any doubt that you 
will pass any test with honors as you always have.
    Before I recognize Senator Corker, let me thank you on 
behalf of the committee for all you have done through your long 
and illustrious career here in the Senate and in the 
chairmanship of this committee. In anticipation of your 
confirmation by the full Senate, I wish you good luck and 
Godspeed on the many journeys that lie ahead, and we will look 
forward to having a close working relationship with you as the 
next Secretary of State.
    Let me now recognize Senator Corker, the ranking member, 
for his comments.

              OPENING STATEMENT HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Well, thank you, Mr. Chairman, and I thank 
our three distinguished guests who are going to introduce the 
chairman in just a moment.
    I want to say to the chairman I want to thank you for your 
courtesy over the last 6 years I have served on this committee.
    I look at you in being nominated for this as someone who 
has almost lived their entire life, if you will, for this 
moment of being able to serve in this capacity. There is no one 
in the U.S. Senate that has spent more time than you have on 
issues of importance to our country. The experience you 
developed while being on this committee and spending time 
abroad with world leaders with your wife, who is at your side 
today--there is almost no one who spent that kind of time and 
effort.
    So I am happy for you. I know the many conversations we 
have had over the last 2 weeks--you are very anxious to serve. 
You are ready to go. My sense is your confirmation will go 
through very, very quickly.
    I do look forward to your testimony today.
    Secretary Clinton is here today after a day of hearings 
both here and in the House.
    And I think you know you are inheriting a department that 
like many departments throughout Government has numbers of 
challenges. We saw systemic issues that need to be addressed 
and they are in the process of being addressed right now. Our 
Nation has budgetary constraints which means that in all of 
these departments creativity is going to have to be utilized to 
make sure that we make the most of what we have in making sure 
that our U.S. interests are put forth.
    We have a world that is a dangerous world, and things 
continue to come over the transom sometimes at surprising 
times. And I know as Secretary of State, you are going to have 
to lead our country in addressing those as they come about.
    I do hope that you will work closely with this committee, 
as you have worked very closely with this committee over the 
last many years, in helping us work with you to make sure that 
as we move ahead, we move ahead together and that it is 
seamless.
    We have many challenges, and I know on Monday President 
Obama said that America will remain the anchor of strong 
challenges in every corner of the globe, and we will renew 
those institutions that extend our capacity to manage crises 
abroad, for no one has a greater stake in a peaceful world than 
its most powerful nation. I could not agree more.
    I look forward to, again, hearing your testimony today 
about what you hope to do in your new capacity.
    And I certainly welcome the three distinguished people who 
are here today to introduce you which I know is a tremendous 
honor for you.
    Thank you for your service. I look forward to your 
testimony.
    Senator Menendez. Thank you, Senator.
    We have a star-studded panel here to introduce the nominee, 
starting with--I will introduce you in the order of your 
presentation. But I just want to start off by welcoming back 
the Secretary again, and we appreciate you coming back to us so 
soon. And again, you know, the thanks of the committee and a 
grateful nation for an incredible service to our country.
    My understanding, although I am being told differently, are 
you going, Senator Warren? Senator Warren, who is our new 
colleague from the great State of Massachusetts, is going to be 
part of introducing her senior Senator before the committee, 
then Secretary Clinton, and then our distinguished colleague, a 
member of this committee now as well, Senator McCain. With 
that, Senator Warren.

              STATEMENT OF HON. ELIZABETH WARREN, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Warren. Thank you. Thank you, Senator Menendez.
    It is an honor to be here with Secretary Clinton and 
Senator McCain to introduce my senior Senator and my friend, 
Senator John Kerry. I have the privilege of speaking for a man 
I know will continue in the tradition of John Quincy Adams and 
Christian Herter as great Secretaries from the Commonwealth of 
Massachusetts.
    Although John learned much about diplomacy overseas and in 
the Senate, he would be the first to tell you that 
Massachusetts is also a great teacher of diplomatic skills, 
whether it was negotiating his way to make the ballot as a 
long-shot underdog in a five-way heavily contested State 
convention back in 1982 or the way he brought labor and 
management to the table, locked the parties in his Senate 
office over a long weekend, brought in Dunkin' Donuts and 
negotiated an end to the 92-day-long Brockton nurses strike. If 
anyone wants to learn diplomacy, come try Massachusetts 
politics. John certainly has.
    John's story is well known to many of us--from his youth as 
the son of a Foreign Service officer, seeing diplomacy up close 
and learning about foreign policy around the dinner table each 
night to his service in combat in Vietnam.
    Less well known is the story of his foreign policy work 
inside the Senate: his 90 overseas trips that he made in 28 
years on the Foreign Relations Committee, his work with Dick 
Lugar to ensure free elections in the Philippines, his work 
with Bill Frist on AIDS in Africa, his work as chairman on the 
New START Treaty, and his very public and successful diplomatic 
interventions in Afghanistan, Pakistan, and Sudan. I think one 
day historians will judge his Senate years in terms of his 
impact on foreign policy much the same way so many recognize 
Senator Ted Kennedy's impact on domestic policy.
    From his many years in the U.S. Senate, John has developed 
a very personal understanding that we represent not just States 
or government, but also people. I once asked John why he loves 
the Senate. He said it is the pride that he feels in trying to 
get things done for people. For 3 years now, he has been 
working quietly to help a father from Newton, MA, Colin Bower. 
His two sons were kidnapped and taken to Egypt. John even 
called former President Mubarak and had a screaming match with 
him about it. Five times he has been to Egypt since then and 
every time Colin has been at the top of his list in every 
meeting.
    Every Senator here has a Colin Bower. It is what we do. We 
fight for people back home. As Secretary, John will understand 
that and bend over backward to help us do that. He will be a 
terrific bridge from the Hill to the administration.
    I know that John cares deeply about our country and our 
national security. I know he believes through and through in 
the good that America can do in the world because he has seen 
it and he has lived it all his life, from seeing the Marshall 
Plan in action with his father in post World War II Europe, to 
volunteering to serve in the military, and then traveling all 
these years as a Senator. John says America is not exceptional 
because we say we are; we are exceptional because we do 
exceptional things. When the airplane--the one that says on the 
side ``United States of America''--lands anywhere in the world, 
I will be proud that it will be John Kerry representing us.
    Thank you.
    Senator Menendez. Thank you, Senator.
    Secretary Clinton.

 STATEMENT OF HON. HILLARY RODHAM CLINTON, SECRETARY OF STATE, 
            U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Secretary Clinton. Thank you, Mr. Chairman.
    It is very good to be back and to have this opportunity to 
join with Senator Warren and Senator McCain in introducing 
President Obama's nominee to be the next Secretary of State. I 
was very honored when John asked me to take part in this 
because John is the right choice to carry forward the Obama 
administration's foreign policy, and I urge his speedy 
confirmation.
    As we have heard from both the chairman and the ranking 
member and just now, Senator Warren, he will bring a record of 
leadership and service that is exemplary. He has a view of the 
world that he has acted on, first as that young returning 
veteran from Vietnam who appeared before this committee through 
the time that he served with such distinction as its chairman.
    He has been a valued partner to this administration and to 
me personally. He has fought for our diplomats and development 
experts. He understands the value of investing in America's 
global leadership. And as we work to implement the 
Accountability Review Board's recommendations, he is committed 
to doing whatever it takes to prevent another attack and 
protect our people and posts around the world.
    Now, working together, we have achieved a great deal, but 
the State Department and USAID have a lot of unfinished 
business from Afghanistan to nonproliferation, to climate 
change, to so much. We need to sustain our renewed engagement 
in the Asia-Pacific, continue ramping up economics as a tool 
for advancing American interests and jobs, pressing forward 
with unleashing the potential of the world's women and girls, 
keep championing the kind of smart power that looks to 
innovation and partnerships with governments and people alike 
to promote peace and stability.
    John has built strong relationships with leaders in 
governments here and around the world, and he has experience in 
representing our country in fragile and unpredictable 
circumstances. He was in Pakistan and Afghanistan a few years 
ago, and we were consulting over the phone. He played an 
instrumental role in working with President Karzai at that time 
to accept the results of the election and to move forward. I 
had to call Harry Reid and ask Harry not to schedule any votes 
so that John could continue to stay there to see that mission 
through. But that is what he does. He is a determined and 
effective representative of the United States, has been as a 
Senator, will be as Secretary.
    Let me close by saying that leading our diplomats and 
development experts is a great honor, and every day, as I 
testified yesterday, I have seen firsthand their skill, their 
bravery, their unwavering commitment to our country. I have 
been proud to call them colleagues and to serve as Secretary of 
State, and I am very pleased that John will be given the 
chance, subject to confirmation, to continue the work of a 
lifetime on behalf of our country.
    Thank you.
    Senator Menendez. Thank you, Madam Secretary.
    Senator McCain.

                STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    Senator McCain. Thank you, Mr. Chairman.
    I am pleased to be here with Senator Warren and Secretary 
Clinton to introduce and speak, say a few words about my 
friend, Senator Kerry, to the committee.
    Obviously, the nominee does not need to be introduced to 
the committee on which he has served for over a quarter of a 
century and as its chairman for the last 4 years. So I can 
dispense with the customary summary of the nominee's record of 
public service and qualifications for the office for which he 
has been nominated. They are well known to you and to all of 
our colleagues.
    But I would like to take a few moments to attest to the 
personal qualities that Senator Kerry would bring to the office 
of Secretary of State which I think are well suited to the 
position.
    He and I have been friends for quite a long time now. We 
have had our disagreements, which is unsurprising given our 
political differences. As is often the case in our business, 
our friendship has been affected from time to time by our 
enthusiasm for our differing views and by the competitive 
nature of politics, but the friendship has endured. I believe 
it is based in mutual respect. Some observers have attributed 
that respect to the fact that when we were much younger, nicer, 
and better looking men than we are now, Senator Kerry and I 
spent some time at the Navy's behest in a certain Southeast 
Asian country in less pleasant circumstances than we are 
accustomed to in the U.S. Senate.
    While I have always respected and honored Senator Kerry's 
service in Vietnam, my respect for John as a Senator and my 
support for his nomination today originated in a very different 
experience. Although that experience, too, concerned the 
country and the war he and I were privileged to serve in, it 
did not require marshal valor. On the contrary, it required, at 
least on Senator Kerry's part and considerably less so on mine, 
extraordinary diplomatic skills.
    The administrations of President Reagan and George Herbert 
Walker Bush had pursued limited engagement with the Government 
of Vietnam for the purpose of encouraging Vietnam to provide 
answers to the fates of many Americans who were still listed as 
POW/MIAs. That effort was led by a man both John and I respect 
enormously, Gen. John Vesey, former Chairman of the Joint 
Chiefs, who continued as the President's Special Emissary to 
Vietnam in President Clinton's administration.
    By the early 1990s, I think both John and I had come to the 
view that it would be better for our country to have a 
relationship with Vietnam that served our current and future 
interests than one that continued to nurse the hostilities of 
our recent tragic past. But we both understood that could never 
be the case unless we knew American soldiers were not still 
kept against their will in Vietnam and until Vietnam fully 
cooperated in helping us account for Americans who did not 
return home from the war.
    To help find answers to their fates, in 1991 then-Senate 
Majority Leader Mitchell and Minority Leader Dole appointed a 
select committee which John and Senator Bob Smith chaired and I 
was appointed as a member as well. Members of that committee 
had passionate and conflicting views on the subject of whether 
or not Vietnam still kept American POWs. The subject was 
controversial and provoked the strong passions of many 
Americans, not the least of which were the families of the 
missing. Most Americans who cared about this issue were people 
of sincere good will and honesty.
    But there were also a few charlatans and con artists 
involved in the activist community who, for various reasons, 
promoted all kinds of conspiracy theories and implausible 
scenarios. On many occasions, our public hearings became a 
circus. Behind the scenes, arguments between members often 
became as heated and as personal as any I have ever 
experienced.
    Getting information about POW/MIAs from the intelligence 
community was fraught with the usual objections and 
difficulties and getting information from the Vietnamese even 
more so. It was not a pleasant experience, to say the least, 
but through it all, John led the committee with fairness to all 
sides, with persistence in the pursuit of the truth, and with 
an absolute unshakeable resolve to get a result that all 
members could accept. Really, no matter how contentious and at 
times crazy things got, John always believed 
he would eventually get all the committee to see reason and 
provide an answer that would be accepted by most veterans and 
most, if not all, Americans who cared so much about the issue. 
And he did. He got all the members to agree to an exhaustive 
investigative report that concluded there was not credible 
evidence that Americans remained in captivity in Vietnam. It 
was a masterful accomplishment.
    After that experience, John and I worked together to 
encourage the Clinton administration and the Government of 
Vietnam to begin normalizing relations. I witnessed John's 
diplomatic skills in practice again, his patience, his 
persistence, his persuasiveness, his tact, and his singular 
focus on getting the best result possible in negotiations with 
a diverse array of government officials in both countries, 
convincing a reluctant administration to make what the 
President's advisers considered a politically perilous decision 
and reluctant fellow Senators to vote for a resolution 
recommending normalization. It was an impressive performance to 
say the least.
    Helping to establish a relationship with Vietnam that 
serves American interests and values, rather than one that 
remained mired in mutual resentment and bitterness is one of my 
proudest accomplishments as a Senator, and I expect it is one 
of John's as well. Working toward that end with John and 
witnessing almost daily his exemplary statesmanship is one of 
the highest privileges I have had here.
    Should he be confirmed--and I am confident he will be--to 
become our next Secretary of State, I am sure we will have our 
disagreements which I know neither of us will hesitate to bring 
to the other's attention. But I know he will acquit himself in 
that office with distinction and use as many talents and his 
indefatigable persistence to advance our country's interests. 
And I commend his nomination to you without reservation.
    Senator Menendez. Wow. You might want to rest your case 
there, Mr. Chairman. [Laughter.]
    Senator Menendez. With our thanks to this distinguished 
panel, we thank you very much, Madam Secretary. Thank you again 
to our colleagues.
    And now we call up Chairman Kerry. Mr. Chairman, we welcome 
you to the other side of the committee and look forward to your 
testimony and any introductions you may want to make.

      STATEMENT OF HON. JOHN F. KERRY, OF MASSACHUSETTS, 
                    TO BE SECRETARY OF STATE

    Senator Kerry. Mr. Chairman, Ranking Member Corker, and 
members of the committee, thank you very, very much.
    I am in awe of the wonderful comments that were just made 
and I appreciate them, and I will say a little bit more about 
them.
    Before I begin, I would like to have the privilege of just 
introducing very quickly. I think most of you know my wonderful 
wife, Teresa, who has been part of this great journey for a 
long time. My brother, Cam, who is serving over in the Commerce 
Department as counsel there, and I trust that they know he is 
here and have given him time off. And my daughter, Vanessa, and 
her husband, Brian, both of whom are working as physicians at 
Mass General in Boston, and another daughter who is not here, 
Alexandra, and three stepsons who likewise are spread around 
the world. But we are thinking about them as we embark on this 
wonderful journey.
    For 29 years, I have sat up on the dais where you all are 
and I have kind of looked down at the witnesses and wondered 
what they are thinking sometimes as we questioned them. And I 
do not want this to affect your opening questions, but let me 
say I have never seen a more distinguished and better looking 
group of public officials in my life. [Laughter.]
    Suddenly I am feeling a lot of sympathy for the folks who 
sit down here.
    I want you to know that a couple nights ago I was watching 
``Godfather II.'' So be forewarned. If someone suddenly shows 
up with my long lost brother back in the audience, all bets are 
off, folks.
    And I am enormously grateful for the generous comments of 
the chair and the ranking member. Thank you very, very much. 
Thank you also for your tremendous cooperation over the course 
of the last years, and providing that you get me out of here 
quickly, I will be able to congratulate you more fully when you 
officially assume your responsibilities.
    I will tell you, all of you on this committee, the new 
members particularly, that I have enjoyed chairing this 
committee and working with you as much as anything that I have 
done or been privileged to do in all of my career. I think this 
is one of the great committees of the U.S. Senate, and it is 
the only major committee that I have served on since day one 
when I arrived in the Senate in 1985. As you know, the 
committee carries special, consequential responsibilities with 
respect to the security of our Nation, and I thank each and 
every one of you for the serious consideration that you give 
and have given to the challenging issues and for the remarkable 
cooperation that I have had as chairman of the committee. If 
confirmed, I look forward to continuing to work particularly 
closely with all of you as we tackle some of the toughest 
issues and challenges that I have seen in the entire time I 
have served on this committee. And I particularly welcome the 
new members in that regard.
    I am very grateful to President Obama for nominating me and 
entrusting me with this important responsibility, and I am 
particularly grateful to Secretary Clinton, Senator McCain, and 
Senator Warren for their introductions of me just now. I will 
not take it personally that this may be the one item in 
Washington that seems to unite Democrats and Republicans to get 
me out of the Senate quickly. [Laughter.]
    Secretary Clinton particularly has served above and beyond 
the call of duty. I think everybody on this committee would 
agree her service has been superb and we all thank her for a 
job well done, for her tireless efforts on behalf of our 
Nation. She has set a very high mark for the stewardship of the 
State Department and her commitment to country. And I can 
pledge to you that with the consent of the Senate I will do 
everything in my power to summon every energy and all of my 
focus to build on her record and on the President's vision.
    Senator McCain, as he mentioned, is a longtime friend. We 
met here in the Senate, coming from very different political 
positions and perspectives, but you know, we found common 
ground. I will never forget standing with him in Hanoi in the 
cell in the Hanoi Hilton in which he spent a number of years of 
his life, just the two of us, listening to him talk about that 
experience. I will always be grateful for his partnership in 
helping to make real peace with Vietnam by establishing the 
most significant process in the history of our country or of 
any country for the accounting of missing and dead in any war 
and then for working to lift the embargo and ultimately 
normalize relations with an old enemy. John had every reason to 
hate, but he did not. And instead, we were able to help heal 
deep wounds and end a war that had divided too many people for 
much too long.
    And as we talk about war and peace and foreign policy, I 
want all of us to keep in our minds, as I think we do, the 
extraordinary men and women in uniform who are on the front 
lines even as we meet here today, the troops at war who help 
protect America. I can pledge to you that as a veteran of war, 
I will always carry the consequences of our decisions in my 
mind and be grateful that we have such extraordinary people to 
back us up.
    I also thank my new colleague, Senator Warren, for her 
generous comments. She is a longtime, fierce fighter for what 
is just and fair. And if her testimony has had effect today and 
helps win votes for my confirmation, she will become the senior 
Senator of our State in a record few legislative days. I spent 
29 years. [Laughter.]
    It is humbling to appear before you in this new role as 
President Obama's nominee for Secretary of State. But my 
approach to this role, if confirmed, is also deeply informed by 
the 28-plus years that I have been privileged to spend in the 
Senate. That perspective will remain with me if confirmed as 
Secretary. And I am already excited by the many ways that we 
can work together and in which we must work together in order 
to advance America's security interests in a complicated and 
ever more dangerous world.
    I would add that I am particularly aware that in many ways 
the greatest challenge to America's foreign policy will be in 
your hands, not mine, because while it is often said that we 
cannot be strong at home if we are not strong in the world, in 
these days of fiscal crisis and as a recovering member of the 
Super Committee, I am especially cognizant of the fact that we 
cannot be strong in the world unless we are strong at home. And 
the first priority of business which will affect my credibility 
as a diplomat and our credibility as a nation, as we work to 
help other countries create order--the first priority will be 
that America at last puts its own fiscal house in order.
    I really cannot emphasize to you enough how imperative this 
is. People all over the world are looking to the United States 
for leadership. We are known as the indispensable nation for 
good reason. No nation has more opportunity to advance the 
cause of democracy. No nation is as committed to the cause of 
human rights as we are. But to protect our Nation and make good 
on our promises, as well as to live up to our ideals and meet 
the crisis of this moment, it is urgent that we show people in 
the rest of the world that we can get our business done in an 
effective and timely way. It is difficult enough to solve some 
of the problems that we face, but I will tell you it becomes 
impossible, or near impossible, if we ourselves replace our 
credibility and leverage with gridlock and dysfunction. I have 
heard it in my trips and Secretary Clinton has heard it in her 
trips. And any of you who travel will begin to hear questions 
about whether or not the United States can, or will, deliver.
    Moreover, more than ever foreign policy is economic policy. 
The world is competing for resources in global markets. Every 
day that goes by where America is uncertain about engaging in 
that arena or unwilling to put our best foot forward and win, 
unwilling to demonstrate our resolve to lead is a day in which 
we weaken our Nation itself. My plea is that we can summon 
across party lines, without partisan diversions, an economic 
patriotism which recognizes that American strength and 
prospects abroad depend on American strength and results at 
home. It is hard to tell the leadership of a number of 
countries that they have to deal with the IMF, balance their 
budget, create economic order where there is none if we do not 
provide it for ourselves.
    It is also imperative that in implementing President 
Obama's vision for the world, as he ends more than a decade of 
war, that we join together to augment our message to the world. 
President Obama and every one of us here knows that American 
foreign policy is not defined by drones and deployments alone. 
We cannot allow the extraordinary good that we do to save and 
change lives to be eclipsed entirely by the role that we have 
had to play since September 11, a role that was thrust upon us.
    American foreign policy is also defined by food security, 
energy security, humanitarian assistance, the fight against 
disease and the push for development as much as it is by any 
single counterterrorism initiative, and it must be. It is 
defined by leadership on life-threatening issues like climate 
change or fighting to lift up millions of lives by promoting 
freedom and democracy from Africa to the Americas or speaking 
out for the prisoners of gulags in North Korea or millions of 
refugees and displaced persons or victims of human trafficking. 
It is defined by keeping faith with all that our troops have 
sacrificed to secure for Afghanistan. America lives up to her 
values when we give voice to the voiceless.
    I share with the President the conviction that it is 
equally imperative that we assert a new role in the world of 
increasing failed and failing states. Burgeoning populations of 
young people hungry for jobs, opportunity, individual rights, 
and freedom are rebelling against years of disenfranchisement 
and humiliation. A fruit vendor in Tunisia who ignited the Arab 
Awakening wanted dignity and respect. He wanted to sell his 
fruit without corruption and abuse. That is what led him to 
self-immolate. The youth of Tahrir Square who brought Egypt its 
revolution represented a generational thirst for opportunity 
and individual participatory rights of governance, not a 
religious movement. The developed world can do more to meet the 
challenge and responsibility of these aspirations. With the 
help of all the members of this committee, I am determined to 
help President Obama meet this moment. It is vital for our 
Nation that we do so.
    The world is well aware that we face a number of immediate 
dangerous challenges, particularly in the Middle East and south 
and central Asia. Given our extraordinary interest in 
nonproliferation, we must resolve the questions surrounding 
Iran's nuclear program. The President has made it definitive. 
We will do what we must do to prevent Iran from obtaining a 
nuclear weapon. And I repeat here today our policy is not 
containment; it is prevention. And the clock is ticking on our 
efforts to secure responsible compliance. This administration 
working with Congress and an unprecedented international 
coalition has put into place crippling sanctions on Iran. Mr. 
Chairman, you have been a leader in that effort and I know will 
continue to be. President Obama has stated again and again--and 
I want to emphasize this. He and I prefer a diplomatic 
resolution to this challenge, and I will work to give diplomacy 
every effort to succeed. But no one should mistake our resolve 
to reduce the nuclear threat.
    Nearly 42 years ago, Chairman Fulbright first gave me the 
opportunity to testify before this committee during a difficult 
and divided time for our country. Today I cannot help but 
recognize that the world itself then was in many ways simpler, 
divided as it was along bipolar cold war antagonisms. Today's 
world is more complicated than anything we have experienced, 
from the emergence of China to the Arab Awakening, inextricably 
linked economic, health, environmental, and demographic issues, 
proliferation, poverty, pandemic disease, refugees, conflict 
ongoing in Afghanistan, entire populations and faiths 
struggling with the demands of modernity and the accelerating 
pace of technological innovation invading all of that, shifting 
power from nation states to individuals.
    With the end of the cold war, Henry Kissinger pointed out 
in his superb book on diplomacy--he said: ``None of the most 
important countries which must build a new world order have had 
any experience with the multistate system that is emerging. 
Never before has a new world order had to be assembled from so 
many different perceptions or on so global a scale. Nor has any 
previous order had to combine the attributes of the historic 
balance of power system with global democratic opinion and the 
exploding technology of the contemporary period.'' That was 
written in 1994 and it may be even more relevant today.
    So this really is a time for American leadership, a time 
for fresh thinking, a time to cross party lines and divide and 
come together in the interests of our Nation, a time to find 
ways to work together to maximize the impact of all of 
America's resources, including the great resource of this 
committee and of the U.S. Senate.
    If I am confirmed, one of the first things that I intend to 
do is sit down with Senator Menendez and Senator Corker and 
invite all the members of this committee to come together, 
hopefully at a time when there is no interruption and we can 
actually really dig in and talk about how we can have a 
constructive dialogue and a collegial relationship because, 
even as we pride ourselves on the separation of powers and the 
unique oversight role that the committee plays, the challenges 
in the world are so enormous that we would do our country a 
disservice if we did not identify the ways that we can help 
each other to confront a unique set of questions globally.
    If you confirm me, I would take office as Secretary proud 
that the Senate is in my blood but equally proud that so, too, 
is the Foreign Service. My father's work under Presidents, both 
Democrat and Republican, took me and my siblings around the 
world for a personal journey that brought home the sacrifices 
and the commitment the men and women of the Foreign Service 
make every day on behalf of America. I wish everyone in the 
country could see and understand firsthand the devotion, 
loyalty, amazingly hard and often dangerous work that the 
diplomats on the front lines do for our Nation. Theirs is a 
service which earns our country an enormous return on 
investment. I will be proud and honored to represent them and I 
will work hard to augment our public diplomacy so that the 
story is told at home and abroad.
    Everyone on this committee knows well that the road ahead 
is tough, but I believe just as deeply that global leadership 
is a strategic imperative for America. It is not a favor that 
we do for other countries. It amplifies our voice. It extends 
our reach. It is the key to jobs, the fulcrum of our influence. 
And it matters. It really matters to the daily lives of 
Americans. It matters that we get this moment right for 
America, and it matters that we get it right for the world.
    One discussion that I particularly look forward to 
beginning with you, my colleagues, and with our country is 
about the commitment that we make in our foreign affairs 
budget, less than 1 percent of the entire budget of Government 
at a time that the world is getting smaller, that our economy 
depends on its relationship with every other country in the 
world, that we face a more global market than anytime in our 
history. So not just in my briefings at the State Department 
but in my conversations with business leaders, in my trips to 
crisis areas, to war zones, to refugee camps, and in some of 
the poorest countries on earth, I have been reminded of the 
importance of the work that our State Department does to 
protect and advance America's interests and do the job of 
diplomacy in a dangerous world and particularly I think there 
is more that can be done to advance our economic capacity and 
interests.
    In this debate and in every endeavor, I pledge to work very 
closely with this committee, Mr. Chairman and Mr. Ranking 
Member, not just because it will be my responsibility but 
because I will not be able to do this job effectively, nor will 
our country get what it needs to out of these initiatives 
without your involvement and your ideas going forward.
    So thank you, Mr. Chairman and members of the committee. I 
know there is a lot of ground to cover.
    Senator Menendez. The committee will be in order. The 
committee will stand in recess until the police can restore 
order.

    [Recess.]

    Senator Menendez. Welcome, Mr. Chairman. [Laughter.]
    Senator Kerry. Well, you know, I will tell you, Mr. 
Chairman, when I first came to Washington and testified, I 
obviously was testifying as part of a group of people who came 
here to have their voices heard. And that is above all what 
this place is about. So I respect, I think, the woman who was 
voicing her concerns about that part of the world. And every 
one of you have traveled there. Some of you were there 
recently. Senator McCain, you were just there. You were in a 
refugee camp, but I know you heard this kind of thing. People 
measure what we do. And in a way that is a good exclamation 
point to my testimony.
    So, Mr. Chairman, I know there is a lot of ground to cover, 
and as a veteran of the committee, I know we do better when we 
are having a good dialogue. So I look forward to having that 
dialogue. Thank you.
    [The prepared statement of Senator Kerry follows:]

             Prepared Statement of Senator John F. Kerry, 
                     Nominee for Secretary of State

    Mr. Chairman, Ranking Member Corker, Members of the Committee, I am 
enormously appreciative for the very generous comments of the Chair and 
Ranking Member.
    I will tell you that I have enjoyed chairing this committee and 
working with all of you as much as anything I have been privileged to 
do in my career. I think this is one of the great committees of the 
Senate and it is the only major committee I have served on every single 
day since I arrived here in 1985. As you know, the committee carries 
special responsibilities for the security of our Nation and I thank 
each and everyone of you for the serious consideration you have brought 
to challenging issues and for the incredible cooperation I have 
received as chairman. If confirmed, I look forward to continuing to 
work closely with all of you as we tackle some very tough problems. And 
I particularly welcome the new members in that regard.
    I am very grateful to Secretary Clinton, Senator McCain, and 
Senator Warren for their introductions. Secretary Clinton has been 
superb and we all thank her for a job well done and for her tireless 
efforts on behalf of the Nation. She has set a high mark for her 
stewardship of the State Department and her commitment to country. I 
can pledge that, with the consent of the Senate, I will do everything 
in my power to build on her record and the President's vision.
    Senator McCain is a longtime friend. We met here in the Senate 
coming from very different political positions and perspectives but we 
found common ground. I will always be grateful for his partnership in 
helping to make real peace with Vietnam by establishing the most 
significant process in the history of our country for accounting for 
the missing and dead of any war, and then for lifting the embargo and 
ultimately normalizing relations with an old enemy. John had every 
reason to hate but he didn't. Instead, we were able to help heal deep 
wounds and end a war that divided too many for too long.
    And as we talk about war and peace and foreign policy, I want us 
all to keep in our minds the extraordinary men and women in uniform who 
are on the front lines, the troops at war who help protect America. As 
a veteran, I will always carry the consequences of our decisions in my 
mind and be grateful that we have such extraordinary people to back us 
up.
    And I thank my new colleague, Senator Warren, for her generous 
comments. She is a long time, fierce fighter for what is just and fair 
and if her testimony has an effect today and helps win votes for my 
confirmation, she will become the Senior Senator of our State in a 
record few legislative days!
    It is humbling to appear before you in a new role as President 
Obama's nominee for Secretary of State. But my approach to this role, 
if confirmed, is also deeply informed by the 28-plus years that I've 
spent serving here on this committee and in the Senate. That 
perspective will remain with me if confirmed as Secretary, and I'm 
already excited by the many ways in which we can work together and in 
which we must work together to advance America's security interests in 
a complicated and even dangerous world.
    I would add that I'm particularly aware that in many ways the 
greatest challenge to America's foreign policy will be in your hands, 
not mine--because while it's often said that we can't be strong at home 
if we're not strong in the world, in these days of fiscal crisis, and 
as a recovering member of the Super-Committee, I am especially 
cognizant of the fact that we can't be strong in the world unless we 
are strong at home--and the first priority of business which will 
affect my credibility as a diplomat working to help other countries 
create order, is whether America at last puts its own fiscal house in 
order.
    I can't emphasize enough how critical this imperative is. People 
all over the world are looking to the United States for leadership. We 
are known as the indispensable nation for good reason. No nation has 
more opportunity to advance the cause of democracy and no nation is as 
committed to the cause of human rights as we are. But to protect our 
Nation and make good on all our promises, as well as to live up to our 
ideals and meet the crisis of this moment, it is urgent that we show 
people we can get our business done in an effective and timely way. It 
is difficult enough to solve some of the problems we face, but it 
becomes near impossible if we ourselves replace our credibility and 
leverage with gridlock and dysfunction.
    More than ever, foreign policy is economic policy. The world is 
competing for resources and global markets. Every day that goes by 
where America is uncertain about engaging in that arena, unwilling to 
put our best foot forward and win, unwilling to demonstrate our resolve 
to lead, is a day in which we weaken our Nation itself. My plea is that 
we can summon across party lines, without partisan diversions, an 
economic patriotism which recognizes that American strength and 
prospects abroad, depend on American strength and results at home. It 
is hard to tell the leadership of any number of countries they must get 
their economic issues resolved if we don't resolve our own.
    It is also imperative that in implementing President Obama's vision 
for the world as he ends more than a decade of war, we join together to 
augment our message to the world. President Obama and every one of us 
here knows that American foreign policy is not defined by drones and 
deployments alone. We cannot allow the extraordinary good we do to save 
and change lives to be eclipsed entirely by the role we have had to 
play since September 11, a role that was thrust upon us.
    American foreign policy is also defined by food security and energy 
security, humanitarian assistance, the fight against disease and the 
push for development, as much as it is by any single counterterrorism 
initiative. It is defined by leadership on life threatening issues like 
climate change, or fighting to lift up millions of lives by promoting 
freedom and democracy from Africa to the Americas or speaking out for 
the prisoners of gulags in North Korea or millions of refugees and 
displaced persons and victims of human trafficking. It is defined by 
keeping faith with all that our troops have sacrificed to secure for 
Afghanistan. America lives up to her values when we give voice to the 
voiceless.
    I share with the President the conviction it is equally imperative 
we assert a new role in a world of increasing failed and failing 
states. Burgeoning populations of young people, hungry for jobs, 
opportunity, individual rights and freedom, are rebelling against years 
of disenfranchisement and humiliation. A fruit vendor in Tunisia who 
ignited the Arab Awakening wanted dignity and respect. He wanted to 
sell his fruit without corruption and abuse. The youth of Tahrir Square 
who brought Egypt its revolution represented a generational thirst for 
opportunity and individual participatory rights of governance--not a 
religious movement. The developed world can do more to meet the 
challenge and responsibility of these aspirations. With the help of all 
the members of this committee, I am determined to help President Obama 
meet this moment.
    The world is well aware we face a number of immediate, dangerous 
challenges, particularly in the Middle East and South and Central Asia. 
Given our extraordinary interest in nonproliferation, we must resolve 
the questions surrounding Iran's nuclear program. The President has 
made it definitive--we will do what we must to prevent Iran from 
obtaining a nuclear weapon. I repeat here today: our policy is not 
containment. It is prevention and the clock is ticking on our efforts 
to secure responsible compliance. This administration, working with 
Congress and an unprecedented international coalition, has put into 
place crippling sanctions on Iran. President Obama has stated again and 
again, he prefers a diplomatic resolution to this challenge, and I will 
work to give diplomacy every effort to succeed. But no one should 
mistake our resolve to reduce the nuclear threat.
    Nearly 42 years ago Chairman Fulbright first gave me the 
opportunity to testify before this committee during a difficult and 
divided time for our country. Today I can't help but recognize that the 
world itself then was in many ways simpler, divided as it was along 
bipolar, cold war antagonisms. Today's world is more complicated than 
anything we have experienced--from the emergence of China, to the Arab 
Awakening; inextricably linked economic, health, environmental and 
demographic issues, proliferation, poverty, pandemic disease, refugees, 
conflict ongoing in Afghanistan, entire populations and faiths 
struggling with the demands of modernity, and the accelerating pace of 
technological innovation shifting power from nation-states to 
individuals.
    With the end of the cold war, Henry Kissinger pointed out in his 
superb book on Diplomacy: ``None of the most important countries which 
must build a new world order have had any experience with the 
multistate system that is emerging. Never before has a new world order 
had to be assembled from so many different perceptions, or on so global 
a scale. Nor has any previous order had to combine the attributes of 
the historic balance-of-power system with global democratic opinion and 
the exploding technology of the contemporary period.'' That was written 
in 1994. It may be more relevant today.
    So this really is a time for American leadership, a time for fresh 
thinking, and a time to find ways to work together to maximize the 
impact of all America's resources, including the United States Senate.
    If I am confirmed, one of the first things I intend to do is to sit 
down with Senator Menendez and Senator Corker and all the members of 
the committee to talk about how we can have a constructive dialogue and 
a collegial relationship because, even as we pride ourselves on the 
separation of powers and the unique oversight role the committee plays, 
the challenges in the world are so enormous that we would do our 
country a disservice if we did not identify the ways we can help each 
other confront a unique set of questions globally.
    If you confirm me, I would take office as Secretary proud that the 
Senate is in my blood--but equally proud that so too is the Foreign 
Service. My Dad's work under Presidents, both Democratic and 
Republican, took me and my siblings around the world for a personal 
journey that brought home the sacrifices and commitment the men and 
women of the Foreign Service make every day on behalf of America. I 
wish everyone in the country could see and understand firsthand the 
devotion, loyalty, and amazingly hard, often dangerous work that our 
diplomats on the front lines do. Their's is service which earns our 
country an enormous return on our investment. I will be proud and 
honored to represent them and I will work hard to augment our public 
diplomacy so that the story is told at home and abroad.
    Everyone on this committee knows well the road ahead is tough. But 
I believe just as deeply that global leadership is a strategic 
imperative for America, not a favor we do for other countries. It 
amplifies our voice and extends our reach. It's the key to jobs, the 
fulcrum of our influence, and it matters--it really matters to the 
daily lives of Americans. It matters that we get this moment right for 
America and it matters that we get it right for the world.
    One discussion that I particularly look forward to beginning with 
you, my colleagues, and with our country, is about the commitment we 
make in our foreign affairs budget--less than 1 percent of the entire 
budget of the government. Not just in my briefings at the State 
Department but in my conversations with business leaders and in my 
trips to crisis areas, war zones, and refugee camps in some of the 
poorest countries on earth, I have been reminded of the importance of 
the work our State Department does to protect and advance America's 
interests and do the job of diplomacy in a dangerous world.
    In this debate, and in every endeavor, I pledge to work closely 
with this committee and the Congress--not just because it will be my 
responsibility, but because I will not be able to do this job 
effectively without your involvement and ideas going forward.
    Thank you, Mr. Chairman and Members of the Committee. I know 
there's a lot of ground to cover and, as a veteran of this committee, I 
know we do best when we are engaging in a dialogue. I look forward to 
doing that now.

    Senator Menendez. Thank you, Mr. Chairman, for your very 
thoughtful presentation.
    On behalf of the committee, we welcome Teresa and all of 
the family. And we thank you for your commitment as well 
because, obviously, it is a commitment of family as well to the 
service that Senator Kerry will provide as Secretary of State 
and there are sacrifices in that. So we appreciate it very 
much.
    Let me start off with a round of questioning. The Chair 
recognizes himself.
    And let me say that I think we all appreciate and embrace 
your offer of engagement with this committee. We look forward 
to that, and having come from the Senate, I know that we will 
particularly appreciate your understanding of this institution 
and its importance and of the committee. And so we really 
embrace that offer and look forward to that moment.
    Let me start off with Iran. In the last 13 months, Congress 
has passed and the President signed three major sets of 
sanctions against Iran. They have been tremendously effective 
in reducing Iran's oil revenues and at least nominally bringing 
Iran to a negotiating table.
    However, Iran remains defiant, entrenched in its nuclear 
weapons ambition. It has not slowed its enrichment activities. 
The IAEA believes that Iran has conducted live tests of 
conventional explosives that could be used to detonate a 
nuclear weapon at the Parchin military base, to which it denies 
IAEA entry. And between May and August of this year, Iran has 
more than doubled the number of centrifuges at its fortified 
Fordo facility which is buried deep inside a mountain to 
protect it against strikes.
    Now, Iran claims it needs higher grade uranium for the 
purposes of peaceful nuclear programs, but a country with 
peaceful ambitions does not enrich uranium in defiance of U.N. 
Security Council resolutions. It does not fail to disclose its 
operations or hide them inside a mountain. And a peaceful 
nation does not breach the international inspections regime 
compelled by the Nuclear Nonproliferation Treaty.
    So, Mr. Secretary--Mr. Senator, in this respect----
    [Laughter.]
    Senator Kerry. I thought this could be quick. [Laughter.]
    Senator Menendez. I have a sense of clairvoyance.
    In this respect, many of the sanctions are overseen by the 
Department of State in terms of enforcement, and it is crucial 
that that enforcement can bring a verifiable agreement 
hopefully with Iran. Under your leadership, will the Department 
be committed to the full enforcement of the sanctions passed by 
the Congress and to multilateral efforts to ensure the 
adherence of other nations to these sanctions?
    Senator Kerry. Yes, totally. I might just quickly add and 
very quickly. The rial has dropped by about 80 percent. Other 
nations have been extraordinarily cooperative in reducing their 
dependence on Iranian oil. There is a clear indicator of the 
impact these are having, and I think the Congress deserves 
credit, together with the administration, for having put the 
toughest sanctions and the biggest coalition together in 
history.
    Senator Menendez. In that respect, as we hope that--while 
the President said all options are on the table, we hope that 
the sanctions, which are a peaceful diplomacy tool, ultimately 
drive us to a successful conclusion. What would be the basic 
parameters in the P5+1 effort in terms of enrichment capacity, 
retention of enriched uranium, the Fordo facility inspections? 
What would you see as part of any agreement?
    Senator Kerry. Well, we would seek compliance with the 
requirements of the IAEA and the requirements of the U.N. 
resolutions that have been passed with respect to it and 
compliance with the NPT itself.
    Now, I am not going to--it would be totally inappropriate 
for me here to begin to negotiate with myself and the committee 
with respect to how they would come into compliance or what 
would be required.
    I can tell you this. It is going to be imperative that they 
come into full compliance, and there are several ways in which 
we might be able to get there, most prominently obviously the 
P5+1. But the President has made it clear that he is prepared 
to engage, if that is what it takes, in bilateral efforts, and 
hopefully there is a negotiation going on right now for the 
next meeting of the P5+1. I think everybody is very hopeful 
that we can make some progress on the diplomatic front now.
    And so I simply say, Mr. Chairman, that Iran--I would say 
this to the Iranians. I hope they listen. They have continually 
professed the peacefulness of their program. It is not hard to 
prove a peaceful program. Other nations have done that and do 
it every day. And it takes intrusive inspections. It takes 
living up to publicly arrived at standards. Everybody 
understands what they are. The allies in the P5+1 have made it 
clear, and that includes very powerful entities, obviously, 
people who have been supportive of Iran in other ways at times, 
China, Russia. They have made it clear that we are all united 
in this standard and that we are looking for the full 
compliance with the NPT. So I think the process itself has to 
flesh out the details, but the Iranians need to understand that 
there is no other agenda here. If their program is peaceful, 
they can prove it and that is what we are seeking.
    Senator Menendez. Let me move to Afghanistan. President 
Karzai was here with President Obama. In essence, they 
announced a series of agreements that would ultimately--as we 
move in that transition, we would have the largest civilian 
mission in the world in Afghanistan. Can you articulate what 
you believe the administration's end goals are in Afghanistan, 
and what metrics would you use to guide our continued presence? 
Is it our intention to focus, for example, on strengthening 
institutions, supporting civil society, achieving development 
goals, or will the mission be guided by success in 
counterterrorism?
    Senator Kerry. Well, the mission is really a twofold 
mission, Mr. Chairman. It is to, No. 1, turn over 
responsibility to the Afghan Forces for them to be able to 
assume responsibility for security, which is slated to begin in 
earnest--I mean, it has begun already, but a milestone will 
take place in the spring. President Karzai in his visit here 
moved that date up himself and has asked for it to be 
accelerated. It is the judgment of General Allen and others 
that we are on target to be able to meet a more rapid rate of 
turnover, and that will mean our troops, in the near term at 
some point this year, will not be in the lead and will not be 
the ones principally taking the brunt of any kind of 
activities; offensive activities.
    The second purpose is to maintain a capacity to prevent the 
kind of basing for terrorism which took us there in the first 
place. So there will be a counterterrorism mission that will 
continue. President Obama has been very clear about the fact 
that that counterterrorism mission will continue beyond 2014 
and that the training will probably continue beyond 2014. So 
there is going to be, according to the President's own 
statement, some measure of engagement, but the effort is to 
have the Afghans in the lead, the continued training of the 
forces, build an enduring partnership with Afghanistan, and 
support an Afghan-led reconciliation, not a United States-led 
but Afghan-led reconciliation, if it is possible. And 
obviously, the strategy is to have a sufficient capacity within 
the ANSF that if it is not possible to have that, the 
Government of Afghanistan is still sustained.
    Senator Menendez. Finally, the Western Hemisphere; 2013 
will be a year of great change in the Western Hemisphere, 
particularly in Latin America. The impending change of 
leadership in Venezuela will have a profound internal impact 
but also ripple effects on the political and economic relations 
throughout the hemisphere. The newly elected President of 
Mexico is talking about refocusing his bilateral relationship 
emphasizing economic cooperation while continuing to prioritize 
security concerns. The Colombian Government's peace talks with 
the FARC have the potential to turn the page in a long-running 
conflict. Public security questions throughout the region, the 
desire of the region to engage in more critical ways on a 
broader-based agenda.
    It would be my hope that upon your confirmation, Mr. 
Secretary, that your leadership would consider more strategic 
level approaches to the region, taking advantage of changing 
political tides and opportunities to enhance multilateral 
efforts on counterterrorism, narcotics trafficking, 
transnational crime organizations, opening up new markets, and 
of course a commitment to our democracy programs throughout the 
region and, for that fact, throughout the world.
    So can you briefly talk to me about your views and vision 
as it relates to what I think is a new and momentous 
opportunity in the hemisphere?
    Senator Kerry. Well, I agree with you, Mr. Chairman. It is 
an opportunity that is staring at us, and I hope that we can 
build on what Secretary Clinton has done and the Obama 
administration has already done in order to augment our efforts 
in that region. You have had the Merida Initiative working with 
Mexico. There has been increased effort on antinarcotics, 
antiviolence. There has been the Central American Regional 
Security Initiative. There has been development assistance in 
Guatemala, Honduras. Energy initiatives with Brazil. And energy 
and climate initiatives, I should say, with Brazil. There is 
increasing economic integration.
    But as we all know, there have been some outlier states 
that have not been as much a part of--not been as cooperative 
or in a position to be as cooperative, and we all know who they 
are. And I think depending on what happens in Venezuela, there 
may really be an opportunity for a transition there. Likewise, 
I would hope that in Bolivia, Ecuador, we could make progress.
    One of the great stories of Latin America is Colombia. I 
can remember when I was working on the Western Hemisphere 
Subcommittee and Senator Dodd was here and others, and we were 
very engaged at that period of time. There had recently been an 
assassination of 13 members of the Supreme Court in one room in 
Colombia. The Presidential candidates were assassinated. You 
could not run for office, and frankly President Uribe stepped 
up at a critical moment and began the process of rescuing that 
nation. And President Santos now is doing an amazing job. We 
have created our greater economic relationship by passing the 
trade agreement. We have to build on that, and I think that is 
an example really for the rest of Latin America as to what 
awaits them if we can induce people to make a better set of 
choices, frankly.
    I think there are some other things that have contributed 
to the gap in our relationship with some of those other 
countries. I hope to perhaps be able to try to see if there is 
a way to bridge some of that, and I would do it in close 
consultation with you, Mr. Chairman, and the members of the 
committee. But I think there are some ways to improve and 
augment our efforts in Latin America.
    Senator Menendez. Thank you.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    And, Mr. Chairman, I really was touched by your opening 
comments. As I mentioned, I think you have led a life that has 
brought you to this moment. I am happy for you that you are 
going to be able to express yourself in this way as Secretary 
of State and for your family. So I really am thrilled that you 
are in a position that I know you have longed for and think you 
can make a major difference in.
    I also want to say that I asked you 73 questions in 
advance, and I appreciate the responses that we received this 
morning. And I know we will have a few more. But thank you for 
your diligence. I know it took a lot of time, and many of the 
detailed questions we have already spoken about.
    The President has nominated someone for Secretary of 
Defense, and we all will be meeting with him and his hearing 
will be next week. He was part of a group called Global Zero. 
And for those of us who care deeply about our nuclear arsenal 
and modernization and that type of thing, some of the things 
that were authored in this report candidly are just concerning. 
Typically there is a tension. The Defense Department presses 
for weaponry and making sure that our country is safe. The 
State Department presses for nuclear arms agreements and 
reductions. And so in the event this person is confirmed, that 
balance is not going to be there.
    You and I spent a lot of time on the START Treaty. I helped 
you in that effort. You let me be involved in the ratification. 
Modernization was to take place at a pace that is not 
occurring.
    And I am just wondering if there is something you might say 
to me that sees our future in a way that--with the combination 
of possibly these two people, one leading the State Department, 
but one leading the Defense Department in a role that has been 
very different than previous defense leaders. Is there 
something you can say to assure me about our nuclear posture in 
the future and the role that you are going to play in that 
regard?
    Senator Kerry. Absolutely. Not a question I was 
anticipating, but I am really happy to be able to speak to it.
    First of all, again, not requested, but I will say this. I 
know Chuck Hagel, and I think he is a strong, patriotic former 
Senator and he will be a strong Secretary of Defense. And I 
have dealt with him in any number of fora. He has been the head 
of the Atlantic Council. That is a mainstream, thoughtful 
foreign policy/security engagement. And I think some of the 
things that have been--sort of some of the efforts to color 
Senator Hagel's approach on some of these things do not do 
justice.
    Senator Corker. But on Global Zero----
    Senator Kerry. Well, let me come to it. I am going to come 
to it.
    Senator Corker. OK.
    Senator Kerry. I absolutely intend to come to it because I 
think it is very important to think about it.
    Senator Corker. Yes.
    Senator Kerry. When that initiative sort of first came out 
and we began to hear about the potential of people who said let 
us get no nuclear weapons, I sort of scratched my head. I said 
what. How is that going to work? Because I believe in 
deterrence and I find it very hard to think how you can get 
down to a number in today's world. But the whole point is they 
are not talking about today's world.
    Henry Kissinger, Jim Baker, I think Jim Schlesinger, former 
Secretaries of Defense, many others have all agreed with that 
as a goal for the world. It is a goal. It is an aspiration, and 
we should always be aspirational. But it is not something that 
could happen in today's world, and nor could any leader today 
sit here or in any other chair and promote to you the notion 
that we ought to be cutting down our deterrent level below an 
adequate level to maintain deterrence.
    Now, the military has very strong views about what that is. 
We have cut down to some 1,500 now. There is talk of going down 
to a lower number. I think personally it is possible to get 
there if you have commensurate levels of inspections, 
verification, guarantees about the capacity of your nuclear 
stockpile program, et cetera.
    Now, Senator, I know you are deeply invested in that 
component of it, the nuclear stockpile proposal. We can come to 
some of that maybe later in the hearing here. But I believe we 
have to maintain that because that is the only way you maintain 
an effective level of deterrence. And the Russians certainly 
are thinking in terms of their adequacy of deterrence, which is 
one of the reasons why they have missile defense concerns.
    So I do not think Senator Hagel is sitting there or he is 
going to go over to the Defense Department and be a proponent. 
You know, this is talking about conflict resolution, changes 
that have to take place in societies. You know, it is worth 
aspiring to, but we will be lucky if we get there in however 
many centuries the way we are going. And so I think we have to 
be realistic about it, and I think Senator Hagel is realistic 
about it.
    Senator Corker. I especially appreciated your opening 
comments about the fiscal issues we face. For a moment, I was 
wishing you had been nominated for Secretary of the Treasury. 
But I do appreciate both those comments and the ones you just 
made.
    You have been a Senator for 29 years. You have got vast 
amount of experience. The President was actually under your 
tutelage when he came in as a junior member of this committee, 
like we all are when we first come up.
    Senator Kerry. I distinctly think he would object to the 
concept of being under anybody's tutelage. [Laughter.]
    Senator Corker. I will let him call and object.
    I would just say that you have strong opinions, heartfelt 
feelings about what we ought to be doing as a nation in foreign 
relations.
    Senator Kerry. That is right.
    Senator Corker. And I am just wondering in the meetings 
that you all had together--yesterday Secretary Clinton alluded 
to differences that she had as it relates to north Africa and 
how we deal with al-Qaeda. Have you all been able to talk 
through some of those issues, and what has been the 
relationship? Do you see any major differences in your view of 
the world and the ones that the President has laid out?
    Senator Kerry. The President has purposefully, and I have 
purposefully, kept away from any deep-dive discussions during 
the nominating process partly because he has not had time and I 
have not had time. We do intend to sit down next week, and I 
look forward to having that conversation with him.
    Senator Corker. You spent a lot of time with Assad in 
Syria, as many of us have from time to time. And I know you 
spent a lot of time really trying to move him more toward a 
Western alliance. You know, he saw himself as that bridge 
between Iran and us, and I know you spent a lot of time with 
him in that regard. Obviously, things have taken a different 
turn since that time.
    Was there anything about those negotiations or discussions 
that you have taken away and that has, if you will, informed 
you as you move ahead?
    Senator Kerry. Well, the answer is, ``Yes.'' It sort of 
reinforces the notion that sometimes there are moments where 
you may be able to get something done in foreign policy, and if 
the moment somehow does not ripen correctly or get seized, you 
miss major opportunities.
    I think that there was a moment where Syria had an interest 
because of its burgeoning youthful population, young people. I 
remember President Assad said to me I have 500,000 kids who 
turn 18 every year, and I do not have a place to put them. I do 
not have jobs for them. I need to be able to change what is 
happening here. Clearly, thinking down the road, he wanted to 
try to find some way to reach out to the West and see if there 
was some kind of an accommodation.
    History caught up to us. That never happened and it is now 
moot because he has made a set of judgments that are 
inexcusable, that are reprehensible, and I think is not long 
for remaining as the head of state in Syria. I think the time 
is ticking. And I think you saw the comments recently of 
Special Envoy of Russia Mikhail Bogdanovich who said that it 
seemed as if the opposition was moving now and winning, and we 
have seen the exodus of a certain number of Russians who were 
lifted out of Syria. So I think the process is moving in a way 
that now makes that ancient history, but it does underscore how 
if you get the right pieces together at the right moment, 
things might conceivably be different some day.
    Senator Corker. I thank you for your opening comments, for 
your answers here, your answers in advance. I do know that your 
confirmation is going to be speedy, and I look forward to 
having the same relationship we have had in the past. I may 
call you ``sir'' in the future, but thank you so much for being 
here today and for taking this responsibility on.
    Senator Kerry. Well, Senator, thank you very much. You have 
been a gentleman in all of our dealings and candid, and I 
appreciate that. I look forward to continuing that with every 
member of the committee.
    Senator Menendez. Senator Boxer.
    Senator Boxer. Thank you.
    Senator Kerry, thanks for stepping up to this challenge. It 
is a daunting challenge, and I think there is maybe a handful 
of people in the Nation who could do it and you are one of 
those.
    I have sat very near you in a couple of committees, this 
one, many, many, many years; Commerce Committee, many years. I 
have worked with you on climate issues. I have worked with you 
on women's issues. And again, I just feel you are the right 
person for this moment.
    Many foreign policy experts and historians have written 
that the low and sad status of women around the world is 
hurting entire regions of the world to achieving democracy and 
economic growth. And you covered a lot of ground in your 
opening statement, but you did not get into this area which is 
of concern to a number of us here. So I have a couple of 
questions on that.
    Under Secretary Clinton's leadership, the State Department 
has fought to protect the rights of women and girls in 
Afghanistan, to end the use of rape as a weapon of war in the 
Congo, to promote women's economic empowerment in places like 
Asia, Africa, and Latin America, and to ensure that women play 
a meaningful role as new governments and political structures 
take shape in the Middle East and north Africa.
    If confirmed, will you ensure that the position of 
Ambassador at Large for Global Women's Issues is retained and 
that the office is effectively resourced?
    Senator Kerry. Yes.
    Senator Boxer. Senator Landrieu and I wrote a bill to 
expand scholarship opportunities for women in Pakistan, and we 
wrote it after the--well, the heart-wrenching attack on Malala 
Yousafzai. And we dedicated this bill to her. And we do not 
create anything new, but we called for an expanded scholarship 
program in Pakistan for disadvantaged young women. I know you 
have not seen the legislation. Would you commit to me to see 
the legislation and work with us, and if you think it is well 
done and if it meets your standard, would you help us in 
getting it through here?
    Senator Kerry. Absolutely. Senator, let me just say that 
Secretary Clinton and Melanne Verveer, who was her appointee, 
special ambassador with respect to global women's affairs, have 
done an outstanding job. And obviously, Secretary Clinton has 
made this a high priority.
    Senator Boxer. She has.
    Senator Kerry. I think, as you know, I made it a priority 
on the committee----
    Senator Boxer. You did.
    Senator Kerry [continuing]. Because you chair the 
subcommittee that I included women's and girls' and all women's 
issues under that aegis. And you have been the chair of that 
and have done a terrific job on it. We had a trafficking 
hearing here----
    Senator Boxer. Yes.
    Senator Kerry [continuing]. Which I thought broke new 
ground. Secretary Clinton has put a serious focus in the State 
Department on human trafficking. I intend to continue that. I 
think it is critical.
    But more importantly, what you are talking about with 
respect to women and girls, in South Africa, in Guatemala, in 
other parts of the world, in Africa, women have stepped up as 
peacemakers. Women have made the difference in many of these 
instances with respect to the security of communities, the 
attitude of a state, its willingness to reach out and be 
inclusive. As we all know in Afghanistan, when we went into 
Afghanistan, I think there were about 800,000 kids in school 
and no girls. Today there are close to 9 million kids in school 
and almost 50 percent are girls. It is an extraordinary story, 
and I think everyone in the Congress should be proud of it. I 
think we need to continue that and I intend to.
    Senator Boxer. Well, I am very glad. And the reason I press 
you on specifics is to send a message from this hearing to 
these women and girls around the world that they will not be 
forgotten, that in fact you will continue, that you have been a 
champion of this.
    There was a national action plan. It was announced by the 
White House. It is being implemented by Executive order. It 
ensures that the United States makes sure that women are 
included in all conflict prevention and resolution efforts such 
as ensuring that women are at the table during the peace 
processes. And it sounds so simple, but I have met with many 
women from Afghanistan who are just devastated that there are 
not enough women sitting at the table. And you have made the 
point that women in many of these places are the peacemakers. 
They do come forward with the right attitude.
    So I am asking you if you intend to commit to the continued 
implementation of the National Action Plan on Women, Peace, and 
Security.
    Senator Kerry. I do and I actually was reading it last 
night. President Obama issued that and I think it is really 
important.
    With respect to Afghanistan, we have made it clear--the 
administration has made it clear and I will support that if and 
when I become Secretary of State--and that is the commitment 
that if there is a negotiation with the Taliban, one of the 
conditions is they have to give up any association with al-
Qaeda. They have to commit to nonviolence, but most importantly 
with respect to this issue, they must commit to respect the 
Constitution of Afghanistan and the current status of women and 
girls within their society.
    Senator Boxer. I have two more questions.
    You have been a supporter of CEDAW before, the Convention 
to Eliminate All Forms of Discrimination against Women. I know 
it is a tough issue here. I do not think it should be, but it 
is. I just want to make sure you continue to support the 
ratification.
    And then I have one quick question on another subject.
    Senator Kerry. The answer is, ``Yes.'' And let me just say 
on that, I look forward to meeting with the committee privately 
sometime hopefully down at the State Department and we can talk 
about treaties and America's interests, and I look forward to 
that.
    Senator Boxer. Good, because I think there could be some 
reservations that we could agree on that could resolve some of 
the underlying current of disagreement here, which I think we 
should move forward it.
    The last question is about the Keystone XL pipeline. How 
will you ensure that any administration decision regarding the 
Presidential permit for Keystone takes into consideration the 
potential impacts of the pipeline on water and air quality and 
mitigates any increases in the carbon pollution issue?
    Senator Kerry. Well, Senator Boxer, as I think you know, 
there is a statutory process with respect to the review that 
falls to the State Department and elsewhere, and that is 
currently ongoing. And I have already checked into it. It is 
underway. It will not be long before that comes across my desk, 
and at that time I will make the appropriate judgments about 
it. But it does require we are responsible for the 
environmental review, and there are specific standards that 
have to be met with respect to that review. I am going to 
review those standards to make sure they are complete obviously 
and my own judgments about it, but work with the Legal 
Department at the State Department which, incidentally, is a 
superb, unbelievable group of lawyers with great skill and we 
will analyze it and make a judgment.
    Senator Boxer. Thank you. I want to just say thank you so 
much, Mr. Chairman--I still call you that--and just say how 
much I look forward to voting for you. Casting that ``aye'' 
vote will be a great honor and privilege for me.
    Senator Kerry. Thank you, Senator.
    Senator Menendez. Senator Risch.
    Senator Risch. Thank you. Senator, while you and Teresa are 
out globetrotting, I want you to be assured that Vicky and I 
will look carefully after your Idaho property. I know you dream 
about retiring there some day.
    I want to talk about----
    Senator Kerry. Will you come with the property? [Laughter.]
    Senator Risch. Like my dad said, we will see.
    Senator, I want to talk about the relationship with Russia 
and the arms control agreements that we have had. You had made 
a statement previously that you would not be able to come 
before this committee and recommend new arms control measures 
until compliance and verification issues regarding existing 
agreements were fully settled. You and I have sat through some 
classified briefings, and I do not want to get into details 
that we should not get into. But I would like your thoughts on 
where we are at the present time regarding compliance and 
verification in a general fashion.
    Senator Kerry. Well, Senator, I appreciate your concern 
about this. And we have had a lot of conversations especially 
with the ranking member and previously with Senator Kyl. And I 
think it is fair to say this, that we have made significant 
progress toward a full funding of the amount of money that was 
committed. As Senator Corker remembers, I think it was about 
$85 billion over 10 years. I went and reviewed the amount of 
money that is now scheduled over the 10 years. It is slightly 
below that, but it is not way below it. There is no sort of 
undermining, if you will, of the fundamentals of the 
commitment. There is an increase. In fact, there was a 5-
percent increase this year over last year, and it is probably 
one of the few--I am not going to say only, but one of the very 
few parts of the budget that has grown and that has increased. 
I think it was about $7.6 billion or $8 billion last year, and 
in the first year, it had the full amount of funding that it 
was supposed to have and the next year it fell off by about $.2 
billion or something to that effect. In the outgoing years, it 
is slightly below where it was, but the laboratories and the 
folks involved in it say this is in no way diminishing our 
stockpile efficiency. So I think we are on track.
    And what we need to do is sit down, Senator Corker, you, 
myself, Senator Risch, others who are interested, with the 
budget folks, with the administration, and kind of work through 
what is going to happen here.
    But what I want to emphasize to you, because I made the 
commitment in a serious way, it is important for any 
administration to keep faith with the commitments it makes to 
Senators and particularly in the course of an agreement to a 
treaty, and if people's votes depend on that, there is an even 
higher obligation in a sense. So I recognize that and I respect 
it.
    I do not think we are so far off that any Senator ought to 
sit there and say somebody has not kept faith. That is No. 1.
    No. 2, there was also an agreement that there should begin 
negotiations with respect to the reduction of tactical nuclear 
weapons. That dialogue is taking place. I am not going to sit 
here and tell you it is a formal negotiation, but there is a 
dialogue ongoing in keeping with that provision. And hopefully 
we can get the relationship with Russia back to a place. I 
think it would be disingenuous and naive of me to sit here and 
not acknowledge to my colleagues, you know, that slid backward 
a little bit in the last couple of years, and with the most 
recent decision of Russia with respect to adoptions, we have 
some ground to try to make up. What I do not want to do is 
prejudice that possibility here today or in the next days. I 
would like to see if we can find some way to cooperate. We need 
their help and cooperation with respect to Syria.
    I would also say that with respect to Russia, Russia has 
helped on a number of different things that are critical to us 
and people should not overlook them. They did cooperate on the 
START Treaty itself. They did cooperate on the P5+1 and are 
cooperating today in that initiative.
    They have cooperated on the sanctions. They have cooperated 
with respect to the PNTR and trade and WTO accession.
    And I think it is fair to say that everybody here knows 
that they warned us and said if you do X, Y, or Z on such and 
such a thing, we may respond and we have gotten into that 
little sort of back and forth. So we are going to have to work 
our way through it. I am confident we can, and I look forward 
to working with you.
    Senator Risch. Senator, I appreciate your candor on the 
acknowledgment of the slippage.
    Having been a member of this committee as long as you have 
and I know you have a deep appreciation for the constitutional 
process regarding foreign relations matters, there are a lot of 
us that are becoming increasingly concerned about all this talk 
regarding executive agreements as opposed to treaties that are 
negotiated by the executive branch, as contemplated by the 
Founding Fathers, and ratified, if appreciate, by this 
committee and eventually by the full Senate.
    Can you give us your view on matters regarding executive 
agreements? How do you feel about that and the bypassing of the 
committee?
    Senator Kerry. Well, every administration in history, 
Republican and Democrat alike, have entered into executive 
agreements.
    Senator Risch. You agree the better process would be to 
submit it to this committee.
    Senator Kerry. Well, it would depend. I would say to you, 
Senator, that it would depend on what the subject matter is and 
what the sort of scope is and whether or not it falls under a 
traditional treaty purview or it falls under executive 
agreement purview. I do not want to be commenting in some 
prophylactic way one side or the other without the specific 
situation in front of me, but I am confident the President is 
committed to upholding the Constitution.
    I will say this to all of you. There is no better way to 
guarantee that whatever concerns you have about the President's 
desire to move on an executive agreement would be greatly 
nullified or mollified if we could find the way to cooperate on 
a treaty or on the broader issues that face the Nation. But you 
know, I think there is a lot of frustration out there that some 
of the automatic ideological restraint here that prevents the 
majority from being able to express their voice has restrained 
people and pushed people in a way where they have got to 
consider some other ways of getting things done.
    Senator Risch. Well, and that is exactly what concerns us, 
Senator Kerry, the fact that it is OK to do this through the 
regular order if it gets done, but if it is not going to get 
done, then the ends justify the means. It is OK to end run 
around the Congress. And I got to tell you that I feel strongly 
that that is not the appropriate way to do it. The Founding 
Fathers did not say do this if it is convenient and it is OK to 
not do it if it is not convenient. So I have real difficulties 
with it.
    Senator Kerry. I would agree with you, and I am not 
suggesting that that is the standard, but I am suggesting to 
you--and I think you know exactly what I am talking about--that 
there are times around here when in recent days only--and I do 
not want to get deeply into it--where certain arguments that 
are not necessarily based either on fact or science or anything 
except a point of view of some outside entity have prevented 
certain things from being able to be done. And I think what we 
ought to do is sit down, all of us on this committee--and I 
look forward to doing this--and let us have a discussion about 
what the facts tell us. Let us have a discussion and see if we 
could arrive mutually at agreeing that there is actually some 
truth about something. And if there is some truth about it, 
maybe there is a way for us politically to be able to do it in 
keeping with what you would call the ``regular order.'' And so 
I am not saying that we ought to do it. I am just saying I 
understand the frustration that leads people to think about it. 
And as I say to you, I will comment on it on any particular 
instance when it is relevant.
    Senator Risch. Thank you.
    Senator Menendez. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Senator Kerry, it has been a real pleasure to serve with 
you in the U.S. Senate. I thank you for your extraordinary 
record of public service from your military days to your 
service here in the Senate. People have talked about your 
service on different committees. I remember your chairmanship 
of the Small Business Committee and your advocacy for small 
business. The same energy you brought to the chairmanship of 
this committee you brought to helping small businesses in our 
country. So I applaud you and thank you for your willingness to 
continue to serve our Nation and I look forward to you serving 
as Secretary of State. It is going to be great for our country.
    I must admit I had prepared two sets of questions, one much 
more difficult than the other depending on the outcome of this 
weekend. [Laughter.]
    It worked out well.
    Senator Kerry. I am taking it for the Red Sox. I am taking 
it for the Patriots. If the standard here is which team you 
root for, I am screwed. [Laughter.]
    Senator Cardin. As long as the outcome is OK, we will 
forgive you. But you will have to show some of your diplomacy 
here.
    But Secretary Clinton really advanced the integration of 
our national security baskets working with the Secretary of 
Defense on the use of our traditional military and the use of 
diplomacy in international development assistance, recognizing 
that all three are interrelated into our national security 
needs, that if we are going to have a country that is reliable, 
we need to have a sustainable economy in that country. The 
country needs to respect the human rights of its citizens. That 
has been certainly, I think, the hallmark of what we have tried 
to move forward.
    We have also learned that American interests are not served 
by giving aid to a country where that money is used to funnel 
corrupt leaders. As you know, I serve as the Senate chair of 
the Helsinki Commission. You are a former member of the 
Helsinki Commission. Secretary Clinton was a former member of 
the Helsinki Commission. We recognize the importance of 
advancements on human rights issues. And I appreciate the 
comments that you made in your opening statements concerning 
this.
    You mentioned trafficking. Trafficking actually started 
with the work of the Helsinki Commission where we advanced that 
not just in the United States but globally.
    Working with Senator Lugar, we advanced in the last 
Congress the transparency for resources being used to help the 
country rather than again financing corruption by having more 
transparency.
    Senator Boxer has mentioned the gender equity issues, which 
is critically important for sustainable governments.
    So I just want to give you a chance to expand a little bit 
on your commitment to make the highest priority working with 
us, working with the Helsinki Commission to advance American 
values on human rights in countries that we deal with on a 
bilateral and multilateral basis whether, again, it is to fight 
corruption, to protect children who are trafficked, to deal 
with gender equity issues. These are American values. These are 
important for our national security. And I would like to give 
you an opportunity to express your priorities for these issues.
    Senator Kerry. Well, let me begin, Senator Cardin, by 
expressing my admiration and respect for your leadership on the 
Helsinki Commission. You have done as much, if not more, than 
any chairman that I can remember or any representative on our 
committee, and I really think you have been just superb in your 
perseverance and vision. And I appreciate it and I thank you 
for it.
    As I said in my opening, I mean, we are the indispensible 
nation with respect to this. The levels of corruption in some 
places has grown beyond anything that I have seen in the 29 
years--now in my 29th year on this committee. I am deeply 
disturbed by it and troubled by it in terms of what it means 
for people's rights and abilities in countries. There is not 
any continent that does not see some kind of issue with respect 
to that.
    So we have huge challenges, and I think the United States 
has a fundamental obligation that comes from the definition of 
who we are as a nation. It comes from our Declaration of 
Independence. It comes from our own struggles here in our own 
country to keep faith with those who are struggling in various 
parts of the world. And we do it in many ways. The State 
Department gives awards of different kinds to women 
particularly who have stood out and stood up. There are other 
entities within the United States where we choose to do this. 
We are funding many different efforts in many parts of the 
world right now to help develop whether it is global health or 
whether it is education. We are doing things that are making a 
difference in people's lives with respect to those rights.
    I am absolutely committed. USAID gets criticized, and there 
have been some obvious problems with our contractor/aid 
relationships in the past. The committee did, I think, some 
superb work in putting out a report last year with respect to 
some of that. But I think we can do more even than we are doing 
today and more effectively.
    Senator Cardin. I appreciate that.
    You just had a discussion with Senator Risch on Russia.
    We have seen some slippage since the breakup of the cold 
war ending. You mentioned Secretary Kissinger's comments in 
1994. The complexity of this arrangement. We have seen 
slippage. We have seen slippage in Russia with their human 
rights attentions. There has been slippage among our allies and 
friends, what has happened in Hungary with recent elections and 
the government trying to change the constitutional protections 
and slippage in the Ukraine with imprisoning their opposition.
    So our relationships with other countries can be mature 
enough where we can build strong alliances but still raise 
critical concerns when particularly they violate commitments 
they have made. The Helsinki Final Act applies in all three of 
those countries, and we have seen their violations.
    So I just want to underscore your commitment to be able to 
raise these issues of concern to countries that we need to have 
good relations with on other issues that we will make a high 
priority their commitment to live up to the basic human rights 
of their citizens.
    Senator Kerry. Senator, let me just say to you. I have 
occasionally wrestled with that when I have made a visit to one 
country or another and we have a primary objective and we are 
trying to get it done. But I have never hesitated in any visit 
to raise human rights concerns usually in the context of 
particular individuals where we are trying to get them out of a 
jail or trying to get them out of the country. And I obviously 
will continue to do that, as I know Secretary Clinton has. She 
has been diligent about it and I intend to continue.
    Senator Cardin. And let me just lastly mention you 
mentioned Darfur, I think, in your opening comments where the 
humanitarian crisis was so severe. We still have concerns in 
the southern Kordofan and in the Blue Nile. South Sudan still 
has problems. Burma, where had hope in November--there has not 
been any progress made. I hope that you will make these areas 
where 
there are humanitarian crises a highest priority to try to 
protect the safety of the people that live in these areas.
    Senator Kerry. Well, I will and I intend to do that. First 
of all, the President, I think, will continue with an 
appointment of a special envoy to the Sudan. We have just had 
Princeton Lyman there, Ambassador Lyman, who has done a superb 
job under tough circumstances. I was there, myself, during the 
course of their referendum on the independence. I have met with 
President Kiir many times. I met with--obviously not with 
Bashir, but with people underneath him in the north. And my 
hope is that we can get the status of a number of components of 
the CPA that were not fulfilled finally fulfilled.
    Blue Nile, South Kordofan are a human tragedy. The bombings 
are continuing. There is starvation taking place, displacement, 
and in some ways Darfur has slipped backward.
    So the NCP, which governs the north, needs to be held 
accountable and we will, but the south also needs to show 
greater determination and better governance. And so we have got 
our work cut out for us with respect to both, but I promise you 
it is going to remain a focus.
    Senator Cardin. You have a full agenda.
    Thank you, Mr. Chairman.
    Senator Menendez. Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman.
    Senator Kerry, congratulations on your nomination. You have 
been nominated at an interesting time in American foreign 
policy. We are having this debate in this country. We are well 
aware of it because we have had it on this committee as well. 
On one hand, we cannot solve every problem in the world. We 
never have been able to do that, but we certainly cannot do it 
now. We cannot afford it. No single nation can.
    On the other hand, America is indispensable in the world. 
The world is a dangerous place when America is not leading. And 
in fact, the fundamental issues that confront the world today 
require coalitions of nations to confront it. The only nation 
on earth that can form these coalitions and lead them is us. It 
is not the United Nations. It is not the Organization of 
American States or any of these other multilateral 
organizations. It is the United States of America that can help 
form these coalitions to confront global challenges and help to 
lead them.
    And so the central issue of foreign policy today is this 
balance between making sure that we are not trying to do more 
than we can and ensuring that we are not doing less than we 
should. And where that really comes to play, for example, is 
this debate on foreign aid where, on the one hand, there has 
been this perception created in this country that foreign aid 
is 20 percent of our budget when in, fact it, is a very small 
percentage. On the other hand, our foreign aid has to make 
sense. You touched upon it a moment ago about foreign aid going 
to countries that are corruptly using it, and so we ought to 
make sure that our foreign aid is furthering our national 
interests.
    So what I hope you would help me with--because in your 
testimony you alluded to President Obama's vision for the 
world. In the 2 years I have been here, I have struggled to 
fully understand what that vision is. If you go through the 
different countries, Russia has been mentioned. The situation 
there has deteriorated as Russia and its leadership have made 
the decision that they want to recapture some of the cold war 
stature that they had and the best way to do that is to be 
confrontational with us.
    We had a hearing yesterday on Libya. What we did not get a 
chance to talk about is how United States policy toward Libya 
in the Qaddafi conflict created many of the conditions that led 
to the attack on the consulate. A weak government, the forming 
of these militias is all the product of an extended, protracted 
conflict where the United States, once it made its decision to 
get involved--and we can debate whether we should have gotten 
involved or not. But once it made their decision to get 
involved, got involved in the early stages and then turned the 
rest of it over to our allies who simply did not have the 
capability to bring that conflict to a quick conclusion, and as 
a result, created the weak government and the situation that we 
faced there.
    We have repeated that in Syria where again we can debate 
whether it was in our national interest or not to get involved. 
As Iran's best friend, as the grand central station for 
terrorists all over the world, I think it was in our national 
interest to help an opposition form and organize itself. We 
have been so disorganized in our involvement in Syria that now 
we are at a point where the opposition in Syria, when they 
win--and they will win--are just as angry at us as they are at 
Russia and China and the other nations, and Iran and other 
nations that stood with Assad.
    We go to Latin America where, on the one hand, in 2009 the 
administration condemned what happened in Honduras, which is 
debatable whether that was a coup or not. On the other hand, 
they stole an election in Nicaragua. I had to hold up a 
nomination here just to get a strongly worded statement out of 
the administration.
    We move over to the Middle East where Israel quite frankly 
has been concerned, whether they admit it publicly or not, that 
for the early years of the administration, they were more 
focused on the Palestinian question as the biggest issue in the 
Middle East when, in fact, the biggest issue in the Middle East 
is that Iran wants a nuclear weapon so they can attack Israel 
and potentially other nations.
    You talked about Iran. In 2009, the people of Iran took to 
the streets in defense of the principles that we say we stand 
for, and the President of the United States says we are not 
going to interfere in their sovereignty. That totally 
demoralized the opposition.
    North Korea today announced that they are developing a 
weapon that can reach the United States of America. And lest 
anybody accuse me of being overly partisan here, I think the 
Bush administration was wrong to remove North Korea from the 
list of state sponsors of terrorism, and I hope we will reverse 
that.
    And finally, China and the territorial conflicts that are 
going on in Southeast Asia and throughout the region. China is 
being increasingly aggressive about their territorial claims, 
and their neighbors are looking to the United States and U.S. 
leadership 
as a counter balance. We talked about it, and I congratulate 
the President for talking about pivoting to Asia, but if this 
sequester goes through, what are we going to pivot with?
    And so these are the fundamental issues that we face. And 
my question to you is, As you sit with the President and as 
part of his Cabinet help him form a vision for the world and 
for the U.S.'s role in the world over the next few years, what 
advice are you going to give him in terms of what the U.S.'s 
role should be and how that should be reflected in our foreign 
policy?
    Senator Kerry. Well, Senator, that is obviously a very 
broad and comprehensive question, and I appreciate----
    Senator Rubio. You have two minutes to answer it.
    Senator Kerry. Well, you know, I mean, I could say to you, 
look, let us sit down and talk about it and we will get 
together and go through it. But let me just give you--I want to 
do that, but let me say a few things to you about this.
    As you know, there was a debate as it was in Congress about 
whether or not anything should have been done in Libya. And the 
President moved and the President decided that he was going to 
become engaged through NATO in ways that our interests, I 
think, at the time and got the job done. I thought it was 
smart. I thought the way he approached that was, in fact, very 
effective, and the results obviously were exactly what we 
wanted to achieve.
    We could tell that if we did this, and, Senator McCain, you 
were deeply involved in that. We recommended the no-fly. We 
pushed for certain things, and those things were put into 
place. And it was affected without American boots being put on 
the ground at a time when we had just come out of Iraq and we 
have American soldiers, the largest number, in Afghanistan. And 
so I think the American people approved of the way in which 
that was handled.
    Now, the aftermath of all of these places--I asked every 
member of the committee, we need to spend some time on this, 
all of us. There is a monumental transformation taking place. 
This is the biggest upheaval in that part of the world since 
the Ottoman Empire, since it came apart. And as all of us know, 
many of the countries--lines drawn were drawn in relatively 
arbitrary fashion, and people were put in places of power as 
the sort of vestige of the period of colonial enterprise and of 
that war.
    It is a highly sectarian, divided, tribal part of the 
world. And I am not sure that every policy has always been as 
sensitive or thoughtful about that as it perhaps ought to be.
    Senator Rubio I know my time is up--I just want to clarify. 
On my statement about Libya, I was not suggesting that the 
United States should have invaded or put soldiers on the 
ground. We did certain things in the first 48 to 72 hours of 
that conflict. Had we extended that for a couple of weeks, that 
conflict would have ended a lot sooner. And I think in 
hindsight, a shorter conflict there would have certainly led to 
a government that would have been stronger and less instability 
than what exists today.
    Senator Kerry. Well, Senator, honestly it might have or it 
might not have. There is no way--you know, Gadhafi had patched 
together a remarkable set of, you know, mixture of various 
tribes, and he had cut deals over time with all those tribes. 
And those tribes had created their sort of tiers of power 
structure, which was the reason that you had a revolution, and 
the revolution sought to, you know, give more people more 
opportunity and change.
    It is going to take time. It took us a while. You know, we 
went from Articles of Confederation to a Constitution. And 
finally through the Constitution, we went through a lot of 
upheaval, including a Civil War because of the things that were 
written 
into the Constitution before they were written out.
    So we need to be sort of thoughtful about the history and 
the culture and the nature of the places that we are dealing 
with, and you cannot just take an American concept and plunk it 
down or a Western concept and plunk it down and say this is 
going to work.
    So all I am advocating for is to be thoughtful about this. 
I think there is a struggle that is going to go on while we are 
here, while I am Secretary and you are Senators. There is a 
struggle going on for the minds of people in many parts of the 
world. I believe we can do a better job frankly of galvanizing 
people around the values and ideas that we have organized 
ourselves around, but we have to do it, I think, in a lot of 
different ways.
    And one of the things--and I do not have all the answers to 
this as I sit here today--but there is a new media. There is a 
new--you know, there are alternative means of communication, 
bringing people together. There are other avenues.
    I will give you one. Prince Ghazi of Jordan and King 
Abdullah of Saudi Arabia have been engaged in an interfaith 
initiative. I was privileged to speak at a meeting of an 
offshoot of it at Yale University a couple of years ago where 
there were 68 mullahs, imams, grand mufti, ayatollahs, who 
came, and there were 68 evangelicals who were there. And this 
meeting, you know, sought to try to find some of the 
commonality of the Abrahamic faiths, which is there.
    I think those are the kinds of things that we need to 
explore so that, as I said in my opening, we cannot afford a 
diplomacy that is defined by troops, or drones, or 
confrontation. We have to find a diplomacy that achieves 
understanding, rapprochement, whatever you want to call it, 
through other kinds of fora and initiatives.
    Now, specifically, and we are all going to have to face 
this, Egypt is a quarter of the Arab world. It is critical to 
everything that we aspire to see happen in the Middle East--
peace with Israel, protection of the Sinai security, the 
development of that part of the world with respect to an 
economy that is open, and competitive, and based on rule of law 
and rules of the road.
    How are we going to do that when you have 60 percent of the 
population of the region is almost under 30, 50 percent is 
under the age of 21, and 40 percent is under the age of 18, and 
it is growing. And if they do not find jobs, if they do not get 
educated, and if we do not do something, all of us, in the 
developed world, and I am including China in the near developed 
at least, and I would say developed, Russia, South Korea, 
Brazil, Mexico. Those developed countries that have the 
capacity are going to have to come together and think about 
this because everybody is affected.
    And I think that is the challenge for all of us.
    And so, you know, Senator, that is sort of my response to a 
very big question that is a very legitimate question, and we 
ought to really sit down, as we will, I know, and work through 
this in the days ahead.
    Senator Rubio. Thank you.
    Senator Menendez. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman. And, Senator 
Kerry, I am thrilled to be here with you on the other side of 
that desk as the nominee for Secretary of State. I cannot think 
of anyone better to continue the efforts of the current 
administration at this challenging time for the United States 
and the world. So thank you for being willing to take on this 
task.
    And let me welcome your family, Teresa and Cam and Vanessa 
and her husband here. We are delighted that you are able to be 
here with us this morning, too.
    And let me just say I look forward to casting my vote in 
support of you as Secretary of State. And I am also happy to 
join you in defending the Red Sox and the Patriots. [Laughter.]
    Senator Kerry. Finally. Thank you.
    Senator Shaheen. I want to begin by echoing Senator Boxer's 
concern about continuing to support an agenda that urges equal 
rights and opportunities for women around the world. I think 
about if we had a situation in many of the conflict areas that 
we are facing now where women share the same equality and 
opportunity that the men do in those areas, that we would be 
facing a very different challenge.
    I also want to go back--you mentioned Syria and being in 
what appears to be the final period of the Assad rule in Syria. 
One of the real issues that we are facing there is what happens 
to the chemical weapons should Assad fall.
    Yesterday at the hearing on Benghazi, there were several 
references to the weapons in Libya that have now fallen into 
the hands of terrorists in Africa and Algeria. We saw some of 
those weapons on the recent terrorist attack there.
    So when I asked General Mattis, who is the CENTCOM 
commander, about this issue, he suggested that it is going to 
require an international effort to secure these weapons when 
Assad falls. I wonder if you could talk a little bit about how 
you view that international effort coming together, and what 
role the Secretary of State should play in that.
    Senator Kerry. Senator Shaheen, it is an important 
question. The President's policy, he has made very clear, is 
that if we have evidence that they are using them or about to 
use them, if they lose them, i.e., lose control over them, or 
if they move them in any significant way, that would change the 
calculation.
    Now, the administration is drawing up contingency plans and 
working with neighbors in the region, NATO and others, in order 
to do that. I cannot go into those today because I am not read 
in on them yet. I am not briefed in on exactly what those 
contingencies are. I just know that they are making them, and 
they are deeply concerned about it.
    Senator Shaheen. And should we feel some confidence that 
Russia and China might join into an international effort on 
chemical weapons should there be concerns about what happens to 
those weapons?
    Senator Kerry. I cannot tell you whether or not. Again, I 
just do not know about the details of the plans. I do know that 
they have expressed public concerns about that.
    And, in fact, I do know there were conversations with the 
Russians when the first indicators took place about the 
potential of movement, and the Russians apparently were deeply 
concerned and they also weighed in at that time. So I think 
there is a serious concern everywhere that those weapons not 
fall into the wrong hands.
    Senator Shaheen. Thank you. Senator Cardin mentioned the 
good work that you did as chair of the Small Business 
Committee, something that is very important as we think about 
the economy of the United States, and, as you pointed out, of 
the other developing countries around the world.
    One of the efforts of this administration has been to 
promote business advocacy abroad for domestic businesses at 
home. I led a trade mission to India about a year and a half 
ago with a number of businesses from New Hampshire. And they 
talked about how important it was to have that support from the 
state officials in India as they were looking to try and 
establish those business relationships.
    Can you talk about how you might continue that and commit 
that this is something that you would be focused on, and 
willing to continue to support?
    Senator Kerry. Well, as I said in my opening, I think 
foreign policy is increasingly economic policy. And we have an 
Under Secretary for economic affairs, economics energy, et 
cetera.
    I think that the State Department historically used to have 
the Foreign Commercial Service in it back in 1979. It slipped 
away I think under Secretary Muskie at the time. I think that 
is something we ought to be doing in a very significant way, 
obviously working with Treasury, with Agriculture. Ag has an 
enormous amount of interest abroad and engagement abroad. 
Commerce Department obviously does. Treasury Department does.
    I think there is much more we can do to augment our 
engagement with the private sector and their desires and needs 
abroad.
    I'll give you an example. When I was in Hong Kong a number 
of years ago, I was struck. I met with our Foreign Commercial 
Service people there. We had three of them, three people in 
Hong Kong. And they said they were overwhelmed. They had no 
ability to be able to marry RFPs from China to companies 
commensurate with much smaller countries. France was there. 
Germany was there. England, others were much more aggressive in 
their promotion of their companies. And that is the world we 
are living in today.
    So I think we have to be much more aggressive in that 
respect. It is not an expenditure. I do not view it as 
spending. I view it as investing, and it returns on investment 
many, many times over. So I intend to focus on that I want to 
get in and feel it a little more and, you know, get to know the 
folks who are working on all of that and see what they think 
about it. But I think there is a lot we can do.
    Senator Shaheen. Thank you. My time is almost over, but I 
wanted to raise a final point about the Western Balkans. With 
so much conflict going on across the Middle East and northern 
Africa, we forget that not too long ago we were involved in 
conflict in the Western Balkans. And there has been tremendous 
progress that has been made in that area, but we still have a 
stalemate in Macedonia over the name issue. We still have the 
Serbia-Kosovo dialogue that has not been completed. We still 
have those countries that aspire to ascendency into the EU.
    And I would just urge you that further progress in that 
area is going to continue to require American leadership. And I 
hope that we will continue to work in the region to ensure that 
they continue to make progress.
    Senator Kerry. We will, Senator, and I just want to thank 
you for your leadership of the European Affairs Subcommittee. 
You have been absolutely terrific on it, and I will look 
forward to working with you. Thanks.
    Senator Shaheen. Thanks.
    Senator Menendez. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman. Senator Kerry, I 
really appreciate your thoughtful opening statement. I 
appreciate your thoughtful response to these questions. I have 
a great deal of respect for your level of experience, your 
depth of knowledge in these areas, and I would have enjoyed 
working with you as a member of the committee. I am going to 
enjoy working with you as Secretary of State, and I mean that 
in all sincerity.
    Senator Kerry. Thank you.
    Senator Johnson. I want to have a very close working 
relationship. As you said in your opening statement, these are 
complex issues. These are dangerous times.
    You know, I certainly grew up hoping with that maxim of 
politics ends at the water's edge was actually true. I am not 
sure it ever was, but I think it is something we can aspire to. 
I truly believe we share the same goals. You know, we want a 
secure America. We want a prosperous America.
    Now, I think that starts being open and honest with each 
other, so I hate to go back to yesterday's news, but I think 
this is important. Yesterday when I was asking I thought a 
relatively simple question, I realize being persistent, 
Secretary's Clinton's reaction was, ``What difference at this 
point does it make,'' trying to get to the truth of the matter 
in Benghazi. And I had run out of time, so I did not really 
have a chance to answer the question.
    Let me quickly answer it, and I would like to get your 
reaction. I think it makes a big difference. I think it matters 
a great deal that the American people get the truth.
    I think they have the right to be told the truth. I think 
they have the right to know what happens. And I think it makes 
a big difference whether or not the American people have the 
confidence that the President and the administration is being 
truthful with them.
    So I guess my question is, Do you agree with that, and are 
you willing to work with me, or do you basically kind of agree 
with Hillary Clinton that is kind of yesterday's news, and let 
us move on?
    Senator Kerry. Well, Senator, if you are trying to get some 
daylight between me and Secretary Clinton, that is not going to 
happen here today on that score. But I think you are not--I 
think you are talking past each other.
    Senator Johnson. We could be.
    Senator Kerry. I do not think that was the question. I 
think that if your question is, Should the American people get 
the truth and does it matter? Hillary Clinton would say, 
``Yes,'' and I say ``Yes.'' But that is not what I think she 
was referring to. I think what she was referring to was sort of 
the question of, you know, the sequencing and the timing of how 
particular information came in with respect to the talking 
points and the public statements that were made. And there was 
a difference of opinion, in my judgment, as to how you saw that 
versus how she saw it.
    Senator Johnson. But the point I was making is we could 
have avoided all this controversy, you know, this doubt for a 
couple of weeks by just making a couple of phone calls.
    Let me ask you, as chairman of the Foreign Relations 
Committee, did you make any phone calls to those evacuees? Did 
you ascertain whether there was a protest or not early on?
    Senator Kerry. Again, I do not want to go back and 
relitigate some of the events that took place. Yes, I made 
phone calls. I was in constant touch with the State Department. 
I was talking to Under Secretary Nides and others immediately, 
and we were involved in what was happening.
    Senator Johnson. How soon did you know there were no 
protests, I mean, because it is pretty obvious by the 
Accountability Review Board report that there were no protests. 
I mean, did you know that pretty immediately?
    Senator Kerry. Senator, the intel that I got and that I was 
told by people was that there were no protests in Benghazi, but 
that there had been protests in Cairo.
    Senator Johnson. And we understood that. But that was not 
the issue. It was really were there protests in Benghazi.
    Senator Kerry. But I do not think----
    Senator Johnson. Is there a reason that we would not have 
those Department of State officials, those security people, 
testifying before us so we can find out who knew what when, I 
mean, to actually get to the bottom of that?
    Senator Kerry. There is no reason down the road, I would 
assume, but for the moment I know that there is an FBI 
investigation going on because I personally called the FBI 
director and was debriefed by him, and was told that they are 
making progress, and that some things, you know, may or may not 
be ripe to take place in the not too distant future, because I 
was anxious to know that.
    Senator Johnson. OK. Well, will you work with me then on an 
ongoing basis then just so we can get that behind us so we can 
find out what actually happened, and then we can move beyond 
that. I mean, can you just make that commitment to me?
    Senator Kerry. Well, I think, Senator, in all fairness, I 
think we do know what happened. I think that it is very clear--
were you at the briefing with the tapes?
    Senator Johnson. No.
    Senator Kerry. Well, there was a briefing with tapes which 
we all saw, those of us who went to it, which made it crystal 
clear. We sat for several hours with our intel folks who 
described to us precisely what we were seeing. We saw all of 
the events unfold. We had a very complete and detailed 
description.
    Senator Johnson. Yes, we know what happened in Benghazi now 
because we have the reports. What we do not know is why we were 
misled. But again, let us--you know, I am just looking to make 
sure that you as Secretary of State will work with me so we 
actually do find out what the administration knew----
    Senator Kerry. But again in fairness----
    Senator Johnson [continuing]. The American public.
    Senator Kerry. Senator, in fairness, I do not want the 
American people to be left with a misimpression here. When you 
say ``why we were misled,'' that implies an intent to actually 
mislead you somehow. I think that there was a description of a 
variance in talking points. I do not know why that happened, 
but there was a description of that.
    Senator Johnson. Now I am asking, will you help us get to 
the bottom of why that happened? Then we can move on. I just 
want to get that behind us. I just want that commitment.
    Senator Kerry. The State Department will continue to 
cooperate----
    Senator Johnson. That would be great.
    Senator Kerry [continuing]. As it has in every respect to 
any 
request that of this committee.
    Senator Johnson. OK.
    Senator Kerry. Or any committee of relevant jurisdiction.
    Senator Johnson. Great, and I appreciate that commitment. I 
just want to go back. You said foreign policy is economic 
policy. I could not agree more. I mean, we do not have the 
luxury of deciding whether we want to compete in the global 
economy. We must compete. And, you know, I agree with Senator 
Corker, maybe you should have been, you know, up for an 
economic position here.
    But will you utilize your position as Secretary of State to 
try and get the President to work with us to solve the debt and 
deficit issue, because this is a matter of a prioritizing of 
spending, and I just do not think we can continue to tax the 
American economy. We need economic growth. But it is about 
prioritizing spending.
    And I am fiscal conservative who believes that foreign aid 
can be extremely useful. But we have to get our spending under 
control. Will you utilize your position as Secretary of State 
to encourage the President to work with us in good faith to 
solve the debt and deficit issue?
    Senator Kerry. Well, Senator, I spent 6 months, I guess it 
was, or 5 months as a member of the Super Committee, and I put 
an enormous amount of energy and hoped that we would be able to 
get the big bargain, grand deal.
    I am not here to go through all the details of why we did 
not, but there was a very hard line, nonnegotiating position 
that prevented us from being able to come to an agreement, 
which incidentally we just came to. But we came to it with far 
less on the table and far less accomplished than we would have 
had if it had come to that agreement 6 months or ago or a year 
ago.
    So my hope is, yes, I certainly will weigh in on that to 
the degree that it has an impact on my ability to do my job and 
the ability of the State Department to be able to do its job. 
We cannot reduce the funding for some of these initiatives that 
we are engaged 
in without great cost to our ability to be able to help 
American businesses, help create jobs, and help strengthen our 
security in the world.
    So it is in my interests to get this budget effort 
resolved, even though I will be negotiating other things. I 
will certainly weigh in with anybody who will listen with 
respect to the imperative of getting it done. But it requires 
some compromise and some reasonableness on everybody's part.
    Senator Johnson. OK. Well, thank you. I really do look 
forward to working closely with you. Thanks.
    Senator Kerry. Thank you.
    Senator Menendez. Senator Coons.
    Senator Coons. Thank you. I want to thank Senator Menendez 
for chairing this critically important hearing today, and to 
express my strong support, Senator Kerry, for your nomination 
to serve as our next Secretary of State. To Teresa and your 
family, welcome and thank you for all you have done to support 
John's tremendous service to our country and the continuation 
of your family's long tradition of public service.
    Now, I have deeply enjoyed serving under you here on the 
Foreign Relations Committee the last 2 years as I have chaired 
the Africa Subcommittee and had the opportunity from a close 
vantage point to watch as you have led the ratification of the 
new START Treaty, as you have personally intervened to resolve 
diplomatic crises in difficult places, from Pakistan and 
Afghanistan to Egypt and Sudan. And I really look forward to 
working with you on some of the challenging issues that face 
our country and the world.
    Let me start, if I might, by referring back to something a 
number of Senators have referred to, your opening statement in 
which you said that foreign policy more than ever is economic 
policy. And I just want to say I have been deeply encouraged by 
your response to Senator Shaheen's comments and Senator Rubio's 
questions. In my view, Africa is a continent that holds 
enormous promise, where 7 out of 10 of the fastest-growing 
economies in the world currently exist, and where sadly our 
Foreign Commercial Service is woefully underrepresented, and 
where our opportunity to advocate for American business and 
American values needs and deserves more attention.
    As you know, I chaired two hearings on this last year.
    I am about to come out with a report from the subcommittee.
    And I would be interested, as my first of several 
questions, in how you see us successfully competing with China, 
which has a rapidly growing footprint across Africa, in both 
economic opportunities and our differing values agenda, and 
what difference that makes going forward in how you would 
address that as Secretary.
    Senator Kerry. Well, Senator Coons, I want to begin by 
thanking you, and I will say to all the members of the 
committee, you know, one of the pleasures of having been 
chairman of the committee was watching individual Senators kind 
of pick their targets and go after things. Senator Isakson is 
not on the committee any more, but he and Senator Coons were a 
terrific team with respect to Africa. And I know Senator McCain 
just took a trip, an important trip. He was in Cairo in Egypt, 
but he was also in Afghanistan. I just met with the members of 
that trip. It was a bipartisan trip.
    Senator McCain, Senator Lindsey Graham, Senator Ayotte and 
Whitehouse and Blumenthal, I think----
    Unidentified Speaker. Senator Coons.
    Senator Kerry. And Senator Coons, correct. And, you know, 
that kind of report and that kind of intervention has an 
impact. And I know already from reports that what you all did 
there had an impact with President Morsi, had an impact on 
policy. And so I urge all the members of the committee to be 
ready and willing to travel and to engage in the way that 
Senator Coons has done. I think it is valuable.
    Now, with respect to China and Africa, China is all over 
Africa. I mean, all over Africa. And they are buying up long-
term contracts on minerals, you name it. And there are some 
places where we are not in the game, folks. I hate to say it, 
and we have got to get in it. But it takes a little bit of 
resourcing. Believe me, somebody is paying for those folks to 
be over there, and somebody is investing in their investment of 
time.
    And we have to be prepared because I think that what we 
bring to the table is frankly a lot more attractive than what a 
lot of other countries bring to the table. People like to do 
business with American businesses. We are open. We are 
accountable. We have freedom of creativity and other kinds of 
things.
    And I think that if we can organize ourselves more 
effectively in this sector, we can win. And when I say ``win,'' 
I do not mean win in terms of, you know, cold war terms. I mean 
win in terms of, you know, business contracts, business 
opportunities, jobs for Americans, ability to export, import, 
all of these things that make a difference to what the average 
American pays for the goods they use in everyday life.
    So I think there is a lot of opportunity, and I look 
forward to working with you to develop it.
    Senator Coons. You mentioned earlier there are just three 
Foreign Commercial Service officers in Hong Kong. As Senator 
Durbin knows all too well, there are only 10 on the entire 
continent of Africa. And it would be great to work with you.
    We have also worked together before on the issue of 
poaching and the tragedy of wildlife being killed all across 
the continent, which then helps finance transnational criminal 
and terrorist networks. That is also an area where I think we 
need to stand up and challenge China on being the largest 
market to which a lot of this illegal product is going.
    On the trip that I just took with Senator McCain, Senators 
Whitehouse, and the others that you referenced, we visited a 
Syrian refugee camp and heard very sharp feedback on their 
perception that the humanitarian aid we have provided so far--
the more than $200 million in humanitarian aid we have 
provided--has not reached the people on the ground, has gone 
through Damascus and the Red Crescent, but not through the 
Syrian Opposition Council.
    What would you do as Secretary to ensure that we are more 
effectively and visibly engaged in supporting the opposition 
that we have now recognized?
    Senator Kerry. Supporting the opposition in?
    Senator Coons. Syria.
    Senator Kerry. Oh. Well, there is a discussion going on 
right now about other kinds of possibilities. I know Senator 
McCain cares about it, and I have offered to sit down with 
Senator McCain, and you, and others and work this through. And 
I think, in fact, Senator Whitehouse asked to see some folks at 
the White House to talk to them about this.
    But we need to change Bashar Assad's calculation. Right 
now, President Assad does not think he is losing, and the 
opposition thinks it is winning. That is not an equation that 
allows you to reach some accommodation for transition.
    The goal of the Obama administration, I think the goal of 
the international community, is to affect some kind of orderly 
transition. Now, it is complicated by the fact that now a 
second envoy, Lakhdar Brahimi, has been engaged after Kofi 
Annan's efforts, and both have found an intransigence on the 
part of the opposition to be willing to negotiate a departure.
    The Russians have indicated, and I have had personal 
conversations prior to being nominated as Secretary, with 
Foreign Minister Lavrov, which indicated a Russian willingness 
to, in fact, see President Assad leave, but they have a 
different sense of the timing and manner of that.
    So my hope would be that if confirmed and when I get in 
there, to have an ability to really take the temperature of 
these different players and get a sense of sort of where it is. 
But we have to increase, I think, the ability of the 
opposition--strike that. We have to increase the readiness of 
President Assad to see the die is cast, the handwriting is on 
the wall, to be willing to make a judgment here that will save 
lives, and hold the state together in a transition.
    Senator Coons. Thank you. And I might in closing, it is my 
view that these admirable diplomatic efforts need to continue. 
But we frankly also face a very narrow window to make a 
difference on the ground in support of the opposition that we 
have recognized. I will follow up----
    Senator Kerry. I hear you, and I understand exactly what 
you are saying, and you do not wind up with them blaming you 
for not--I get it. But you also need to have some 
understanding, which I do not think is clear yet, of what step 
one brings you. What is step two? What is step three? And there 
is not a clarity to that right now, particularly with the 
presence of al-Nusra, al-Qaeda from Iraq, et cetera.
    And I think--look, I do not--what I commit to do is sit 
with you guys, all of you as much as possible. Let us sit with 
the administration, which I will then be part of, and see how 
these equations work through as we go forward.
    Senator Coons. We have plenty of challenges in Kenya, in 
Mali, across the continent and the world. I am grateful for 
your willingness to step up and take on this role, and look 
forward to voting in support of your confirmation.
    Senator Kerry. Thank you, Senator.
    Senator Menendez. Senator Flake.
    Senator Flake. Thank you. Thank you, Senator Kerry. And I 
have had the opportunity while I was in the House to travel a 
few times overseas with you, and I have seen the regard and 
respect that officials in other countries have for you, and for 
your record, and for what you have done. And I appreciate that 
and think that you are well suited obviously for this position.
    Let me just mention one item briefly and then ask a few 
questions. With regard to Cuba, I have felt perhaps differently 
than some of my colleagues on this panel that the best way to 
foster change and progress toward democracy is to allow 
travel--free travel--of Americans to let them go as they wish. 
I do not think that that is a weakness or any capitulation at 
all. I think it is a way to show strength.
    In fact, I have often felt that if we want a real get-tough 
policy with the Castro brothers, we should force them to deal 
with spring break once or twice. [Laughter.]
    But in all seriousness, this President has taken measures 
to allow more Americans to travel freely.
    Relatives travel for religious, cultural, education 
purposes. I think that is a good thing. I hope that you will 
find ways to continue that and continue more innovative 
approaches to deal with change there.
    With regard to the United Nations for a minute, the PA was 
granted membership into UNESCO in 2011, and then in 2012 full 
membership by the General Assembly. That, in my view, and I 
think all of ours, is an impediment to real negotiations that 
have to happen. The General Assembly has had a habit of doing 
this over the years and the decades. We all remember in the 
1970s, I believe, they designated the PLO as the sole and 
authentic representative.
    I spent time in southern Africa. They had designated one of 
the parties in the country of Namibia as the sole and authentic 
representative of the people, and that did nothing but delay 
meaningful negotiations between the parties that needed to 
happen.
    From your position at the State Department, what measures 
will you take to ensure that our position--the Congress' 
position, is to deny funding to some of these U.N. organs if 
such recognition is made. And I know there is some wiggle room 
for the administration to deal with that. But what is your 
position in that regard, and how can you make sure that our 
interests are carried forward?
    Senator Kerry. Well, let me say categorically, and I think 
the administration made this clear in its vote and its public 
statements, that we do not feel that unilateral steps are 
helpful on either side anyway. They are not a substitute for 
the parties negotiating and resolving the issues.
    With respect to some of the funding on the collateral 
memberships, if you will, because they are not a full member, 
but we have found that, you know, we are better able to 
actually protect against nefarious activity and, in some cases, 
resolutions which attack Israel or other things. We are better 
able to affect that and negate it if we are participating. And 
if we, you know, cease to pay the dues and so forth to take a 
different attitude, then we sort of lose the opportunity to 
protect our friends, which we want to have.
    Now, I will emphasize that they are getting close to a line 
that would be very damaging if there were any effort to take 
Israel, for instance, or any other country, the ICC, if there 
is any effort to try to invoke other power. That is the kind of 
unilateral action that 
we would feel very, very strongly against and see it as 
extremely counterproductive.
    My hope is, you know, there were just elections yesterday. 
We do not know what kind of government will be formed or where 
things will go. But my prayer is that perhaps this can be a 
moment where we can renew some kind of effort to get the 
parties into a discussion, to have a different track that we 
have been on over the course of the last couple of years.
    And I would like to reserve all of the capacity to be able 
to do that, so I am just going to stop with what I have said. 
But unilateral efforts are not helpful. We oppose them, and we 
do not think they are--I do not think symbolic or other kinds 
of efforts are what we need. We need real negotiation. We need 
real results. We need progress.
    Senator Flake. Thank you. Just 2 weeks ago, some of us 
returned from Afghanistan, seeing the operations there. And you 
have described it well, I think, in your opening statement 
about the progress being made for the Afghan security forces to 
take over.
    If we take back and look at Iraq for a minute, some of us 
traveled there in the couple of years before that conflict 
ended there, and saw some of the building that was going on, in 
particular, for planning for a more robust presence than we 
currently have. There are a lot of State Department or Embassy 
buildings that lay vacant now.
    And I am wondering what are we doing to ensure that we do 
not do that same thing in Afghanistan. What lessons are we 
learning from Iraq? We overbuilt there, and when taxpayers see 
that kind of thing happening--there was a report on the news a 
while ago about this kind of thing. What can we do--and some of 
this is outside of your purview. It is with Defense and the 
bases in Afghanistan. But what can we do with regard to the 
State Department to ensure that whatever presence we have, and 
I hope we do have a residual presence and agreement to go on to 
carry out the mission that you outlined. But what are we doing 
to make sure that it is right sized?
    Senator Kerry. Well, that is a very good question, Senator. 
And, in fact, the State Department has a specific group, a 
transition group that has drawn the lessons from Iraq that 
comes out of that experience, and that is applying them to this 
transitional effort in Afghanistan now.
    I am not familiar with everything that they have dug into. 
I know they are doing it. I know it exists. And I think people 
are thinking very hard right now about what size footprint 
ought to exist post the 2014 transition.
    Let me make clear that I think we have about a thousand-
something personnel now directly in the Embassy in Iraq still. 
We have some 4,000--slightly less than 4,000 contractors in 
Iraq still. That is a pretty big footprint post-war. And 
similarly in Afghanistan, we are pretty large.
    I intend to look at that very, very closely, partly because 
there are obviously deep security concerns that we understand 
post-Benghazi. But also because there is just a legitimate 
question of what size, you know, footprint do you want in the 
aftermath.
    But I can assure you, a lot of very qualified expert people 
who went through the Iraq experience are specifically taking 
the lessons from that and applying them to this transition in 
Afghanistan.
    Senator Flake. Thank you.
    Senator Kerry. And I am sure, you know, in a future hearing 
at some time down the road, we will dig into that a little more 
I am sure.
    Senator Flake. Thank you.
    Senator Menendez. Senator Casey.
    Senator Casey. Senator Kerry, it is great to see you in 
this 
capacity, of what is really the threshold of a new chapter in 
your life of service. So we are very happy to see you here 
today. I will not congratulate you because we are still in the 
process, but I think that will be forthcoming.
    I am also grateful that Teresa is here. With all due 
respect to the nominee, you are my constituent, Teresa, so if 
you need something, I hope you call us. [Laughter.]
    Senator Casey. But I wanted to explore----
    Senator Kerry. She needs a vote for me. [Laughter.]
    Senator Casey. I think that will be forthcoming as well.
    A couple of issues. I wanted to focus on two places and 
three questions. One is Afghanistan and the second is Pakistan.
    With regard to Afghanistan, the first question relates to 
President Karzai and the elections ahead of them. When he was 
here just a couple of weeks ago, I had the chance to visit with 
him in Leader McConnell's office. A number of us, including 
Senator Kaine were there. I asked him directly about the 
elections and also asked him about my second question.
    But I wanted to get your sense of where you see those 
elections going, what efforts you can undertake to make sure 
that they are free and fair because they have become, I think, 
central to the next chapter in this transition. I just wanted 
to have you comment on that.
    The second question as it relates to Afghanistan is one 
that Senator Boxer raised, and her work on women and girls has 
been exemplary. I have an amendment that we got through the 
National Defense Authorization Act, which will require both 
State and Defense to file a report on their efforts to promote 
the security of Afghan women and girls.
    Just by way of itemization, monitoring, and responding to 
changes in women's security will be part of the report. Second, 
improving gender sensitivity and responsiveness among the 
Afghan security forces, and increasing their recruitment and 
retention of women in the Afghan security forces will also be a 
part of the report.
    So both with regard to the election and women and girls.
    Senator Kerry. Senator, with respect to the women and 
girls, I had a conversation with Senator Boxer earlier and with 
Senator Cardin in which I committed to the ongoing significant 
efforts of Secretary Clinton has invested in. We will continue 
to have the Ambassador and Special Office, two different things 
within the State Department.
    But more importantly, we think that there cannot be an 
effective peace, and there will not be in Afghanistan, if we 
cannot hold onto the gains and continue them, continue the 
progress that is being made with respect to women's 
participation in Afghan society. And so we remain committed to 
that, and I will work in every way possible to augment that.
    I have had some--a number of people have made suggestions 
to me. I will not go into all of them now because of time, but 
they 
are exciting. There are people who want to be involved in this 
endeavor. They have been inspired by what Secretary Clinton and 
Melanne Verveer have done. She has been the ambassador in that 
role. And so we are going to continue to do that.
    Now on the elections, there is a group within the American 
initiative within our effort in Kabul, in Afghanistan, working 
very hard on the sort of rules of the road for the election, 
and working with Afghan election commission. They are working 
right now on some of the computer programming and other things 
that are necessary in order to be able to guarantee that the 
voting lists are up, and accurate, and available.
    There have been meetings with potential candidates for 
President, with the opposition folks and others in Afghanistan 
in an effort to be inclusive and transparent in the process. 
And I think President Karzai knows--I have said this personally 
to him. I have said it publicly in a press conference in 
departure from Kabul, and I have said it here in the Senate as 
chairman, that having an acceptable election--it is not going 
to be perfect. We are not going to be able to have perfection 
in this process for a lot of different reasons. But having an 
election that passes muster and is acceptable according to 
international observers and standards will be critical to our 
ability to have the kind of transition we want to have, and to 
have confidence that the government that succeeds in 2014 has 
legitimacy.
    If it does not have legitimacy, if we do not succeed in 
that effort, it is going to be very, very difficult to convince 
the American people and convince our allies in ISAF and beyond 
to stay engaged in this effort if they are not willing to 
provide for themselves with respect to that.
    I went through this personally with President Karzai in the 
last election where there were serious questions about the 
propriety of the process, and we have to sort of strike a 
compromise about it. I do not think there will be room for a 
compromise in the aftermath here. So this is a very, very 
important initiative, and I will certainly make sure that we 
are riding herd on it very, very closely.
    Senator Casey. Thank you. And second, with regard to a 
terribly difficult challenge we have with regard to the IEDs 
that are constructed somewhere between Pakistan and 
Afghanistan. They become the roadside bombs that have killed so 
many of our troops--they are the leading cause of death--and 
wounded so many as well.
    We know that a legal impediment in Afghanistan does not do 
us much good because of the calcium ammonium nitrate that comes 
across the borders from Pakistan. This has been not just 
horrific to watch, but it has been terribly frustrating. I have 
been to Pakistan three times, and in the last visit I told the 
Pakistani leaders, we need you to help us with this, not only 
to protect our GIs, but to protect your own people. And they 
promise, and they promise, and they talk about a great plan and 
a strategy. And so far their response is completely inadequate. 
And I know you have worked on this, as has Secretary Clinton.
    And I just want to get your sense of how we can make 
progress on that and how to put--to use every bit of diplomacy, 
engagement, and pressure, to insist that the Government of 
Pakistan takes steps which are readily identifiable to reduce 
this flow of this substance.
    Senator Kerry. Well, Senator Casey, I will just say 
quickly, first of all, you have been a terrific leader on it, 
and you have paid a lot of attention to this, and it has made a 
difference. And it is frustrating.
    I have had those conversations. I have had them at the 
highest level with President Zardari, with General Kayani, with 
General Pasha when he was there as the intel chief. I have not 
been back to Pakistan in the last year or so for a number of 
different reasons, but I have been in touch with General Kayani 
before, again, I was nominated. And he and I look forward to 
having a conversation, as I do with President Zardari and the 
civilian leadership and see if we cannot find a metric here 
that works for both of us because we have to.
    I will not go into the intel here. You know it full well. 
There is no question about where it is being produced, where it 
is coming from, or how. And it just has to be one of those 
things that we see greater cooperation on.
    Senator Casey. Thanks very much.
    Senator Kerry. Thank you.
    Senator Menendez. Senator McCain.
    Senator McCain. Well, thank you, and again thank you for 
allowing me the honor of introducing you to the committee. And 
I look forward to many of our spirited conversations that we 
have had for many years.
    I did not want to bring it up, but since it was brought up, 
I have to respond again. Americans do care. They do care. They 
do care why four Americans were murdered. We do care why the 
American people were misled. They were misled by the talking 
points that Secretary Rice told the American people which were 
false. They were misled when the information that we needed to 
know about how those talking points were put together, which we 
still do not know the answers to many months later.
    We were misled when it was--when we are not allowed to--
when we do not--still have not gotten answers why there was not 
better security at the consulate when there were clear 
indications of the threat. We were misled when we were not told 
that there was a request for the 16-member security force to 
remain at the consulate and were removed.
    The list goes on and on.
    We still have not gotten the answers as to what happened at 
Benghazi, and for anyone to say that we do not care what 
happened is absolutely false. And I can tell you that because I 
talked to the families of those who were murdered. And we 
will--there are some of us that will continue our efforts to 
find out the answers to these questions.
    The American people deserve them, including why the 
President of the United States, after alleging in a debate with 
Mitt Romney, said that he had called it a terrorist act, when, 
in fact, he had not. In fact, that same day he did an interview 
with CBS news saying he did not know what happened. As far as 2 
weeks later he told various news programs that he did not know 
what was the cause of it. We knew what the cause of it was. We 
knew that people do not bring RPGs and mortars to spontaneous 
demonstrations.
    So there are some of us who will not give up on this 
despite what some in the media think we should do until we get 
all of the answers.
    While I was hanging on every word that you were saying, 
John, I happened to glance at my apps. Here is a BBC News 
report. It says, ``The U.N. says there has been a huge leap in 
the numerous--numbers of Syrian refugees arriving in Jordan, 
putting a considerable strain on the resources. The UNHCR said 
that more than 26,500 refugees have crossed into Jordan since 1 
January. Officials from BBC said that up to 3,000 were arriving 
every day, and at least 50,000 were waiting to cross.''
    That happens to be the camp that we visited. That happens 
to be the camp where just a few days before there was a very 
bad storm, and these tents were blown down, and there were 
riots, and demonstrations, and anger, and frustration, and the 
belief that we are not helping them. The anger that we felt 
when a young woman who is a teacher said, this generation--this 
next generation of children will take revenge on those that did 
not help them.
    We are sowing the wind in Syria, and we are going to reap 
the whirlwind. And that whirlwind will be the increased 
presence of 
al-Qaeda and Islamist groups which are now flooding into Syria, 
as you know. Sixty thousand dead and counting, and the fall of 
Assad is, ``inevitable?''
    You know that Assad is thinking about plan B, and that is 
going to the coast and doing some ethnic cleansing, and having 
Alawites there.
    I appreciate your optimism about the Russians. The Russians 
continue to supply them with arms. The Russians continue to 
veto every single resolution that might do something about 
Syria, and of course, Putin has just enacted one of the most 
inhumane laws in preventing Americans from adopting Russian 
children, who clearly are now deprived of an opportunity of a 
better life.
    So I do not think the status quo in Syria is something that 
we just need to have some more conversations about. I think we 
ought to tell the Syrian people that we are either going to 
help them or we are not. And we know that a no-fly zone, and we 
know that the supply of arms so that they can defend themselves 
to counter the arms that are being provided by the Iranians, 
and the Iranian Revolutionary Guard on the ground. And there 
are now hundreds of thousands of refugees that are putting the 
strain on our allies.
    I have had a lot of conversations. We have a lot of 
hearings. We have not done anything, and we have got, again, 
60,000 dead after 22 months, and all I get frankly from the 
administration is the fall of Assad is, ``inevitable.'' I 
agree, but what about what happens in the meantime?
    So I hope that you, and I know you are deeply concerned 
about that situation. But it is terrible. It is heartbreaking. 
To meet a group of young women, as I did in a camp in Turkey, a 
refugee camp, who have been gang raped is really a horrible 
experience. And we can do a lot more without putting American 
boots on the ground, and we can prevent this further slaughter 
and massacre and inhumanity. Otherwise we will be judged very, 
very harshly by history.
    I hope that, and I know that from our previous 
conversations, that you will make this your highest priority. 
And I look forward to at least exploring and try to implement a 
different policy than the one that we have pursued for the last 
22 months. I thank--go ahead, please.
    Senator Kerry. Well, John, thank you. I have--and you know 
this because you and I have talked about this at great length--
I have complete understanding of where you are coming from on 
this. I have known your frustration. I know what you are trying 
to say about it.
    I do want to just say to you that I do not want 
inquisitiveness or curiosity about what possibilities might 
exist with the Russians to be translated into optimism. I do 
not have optimism. I have hope because the easiest way to 
resolve it would be if they were to be able to help--if 
together we are able to find some track that changed the 
equation and the calculation of Assad.
    What I think everybody worries about, John, is that if you 
have a complete implosion of the state, nobody has a clearer 
definition of how you put those pieces back together, No. 1. 
And No. 2, you have a much greater risk with respect to the 
chemical weapons.
    Now, that is why I want to get in and see what the 
contingency plans are, because I cannot measure risk without 
having the sense of what is on the table. What I do know is 
that there are a lot of weapons there. There are people in the 
gulf, and you know who they are, who are not hesitating to 
provide weapons. And that is one of the reasons, together with 
the fact that al-Nusra has been introduced to the equation, 
that the movement on the ground is faster than the movement in 
the politics.
    So that is what makes this very complicated. And I am 
deadly serious when I say to you we are going to have to sit 
down. There is nothing we need more than congressional 
consensus, if we can build it, on something like this, 
particularly if the worst happens and you have, you know, 
disintegration.
    There are other forces at play that none of us have any 
control over. One of the things that has struck me in the last 
years the more I have traveled to the region and talked to 
people is the depth of the sectarian divide, and you know it 
well. Sunni, Shia considerations enter deeply into lots of 
judgments out there. And so we have to be particularly--and 
then others. I mean, you have got 74 percent of Syria is 
Sunni--is Muslim, and of that, you know, you have got about 16 
percent that is made up of the Alawite and then some Shia. And 
the Alawite are about 13 percent. Christians are about 10 
percent. Jews are about 3 percent.
    So you have this breakdown with interests in various parts 
of the country. And I know one of the scenarios everybody is 
talking about is that people could sort of break up off into 
their places. And the Kurds could be up in the northeast, and 
you could have a disintegration, and who knows where that 
leads.
    These are the risks. I mean, this is what is at stake in 
this new world that we are dealing with, and nobody could sit 
here and tell you how it all plays out. But we are going to get 
our heads together, regardless of party, and think about the 
interests of the United States of America, think about the 
region, think about the interests of the neighbors, think about 
the interests of our friends, like Israel, and figure out how 
we come up with an equation that is workable and meets those 
interests.
    Now, a final comment, John--I do not want to go on about 
it, but I did not suggest, and I do not want to suggest, and 
nor do I believe that Secretary Clinton was saying people do 
not care about knowing what happened. I think she was talking 
about the difference between what the recommendations of the 
ARB were and implementing them, and this notion that we have to 
go backward.
    But here is what I say to you. After 29 years here--in my 
29th--I respect the prerogatives of the U.S. Senate and the 
Members of Congress. You represent the American people. You are 
the other branch of government. You have the right to know what 
took place. And I have an obligation, commensurate with the, 
you know, regulations and classifications and privacy and other 
things that are in play here, to help you get the answers. And 
we will do that, and I hope we can do it in a noncontentious, 
appropriate way.
    Senator McCain. Thank you. Could I just mention, Mr. 
Chairman, very quickly, I think you would agree with me that 
every day that goes by in Syria, it gets worse.
    Senator Kerry. Every day that goes by, it gets worse.
    Senator McCain. It gets worse. So there is a, it seems to 
me, a very strong impetus that we realize that the present 
policy is not succeeding, and to look at other options to 
prevent what is going on for now 22 months and 60,000 dead.
    I thank you for your indulgence, Mr. Chairman.
    Senator Kerry. I would agree, but I think you would agree 
with me that whatever judgments you make, they have to pass the 
test of whether or not if you do them, they are actually going 
to make things better.
    Senator McCain. Absolutely.
    Senator Kerry. And you have to make a test of the cost 
analysis in doing that. And I mean all kinds of costs--human 
life costs, pressure--affect on other countries.
    Senator McCain. Thank you.
    Senator Menendez. Senator Durbin.
    Senator Durbin. Thank you very much, Mr. Chairman.
    John, thank you for being here--excuse me. Teresa, it is 
great to see you and the family here as well.
    The spirited questioning from our mutual friend, John 
McCain, is not unexpected. He promised it, and he delivered it. 
But I do recall his opening comments introducing you, and it 
brought me back to my first days in the Senate when you and 
John McCain, Vietnam veterans, worked together in a noble task 
to establish normal relations with Vietnam, which continue to 
this day, and to deal with the controversial, contentious issue 
of POWs and MIAs. And I came to you as a brand new Senator, 
both of you, on behalf of Pete Peterson, the Congressman from 
Florida who had been named Ambassador--the first Ambassador to 
Vietnam by President Clinton. Pete Peterson himself, a 5-year 
prisoner of war as an Air Force pilot. And you two did an 
extraordinary job of moving him forward and giving him that 
chance to serve. And, John McCain, thank you for reminding me 
of that chapter in my public career, and reminding me what you 
and John Kerry accomplished together.
    I want to ask you a question about the role of the 
Department of State in the security of the United States. It is 
often called upon to negotiate, to make us safer. Certainly 
since World War II, that has involved nuclear weapons, and it 
does to this day as we discuss the future of nuclear entrants, 
like, God forbid, Iran, into the nuclear club, which we do not 
want to see happen.
    We also know after 9/11 there came a new threat, terrorism, 
in a different form--biological/chemical weapons and stateless 
organizations that attacked the United States and killed 
innocent people.
    But it was, I think, last year or the year before that we 
were briefed by the State Department and Department of Defense 
about the greatest threat to the security of the United States, 
and it was not either of those things. It was cyber security. 
And I think you may have attended the briefing, the classified 
briefing for Members of the Senate, Democrats and Republicans. 
And they explained to us this invisible war that goes on even 
as we meet between the United States and many who are not our 
friends, that are trying to invade us, invade our 
infrastructure, invade our technology, and do great harm to us, 
not just in economy terms, but in terms of human life. And we 
were told this is the most serious threat facing us today.
    It brings to mind the fact that in the 21st century, war as 
we know it is much different. It is a war involving the 
invisible workings of computers. It is a war involving drones 
and aircraft.
    So I would like you, if you could, to just reflect on this 
in terms of the role of the Secretary of State of the United 
States in negotiations to make us safer in a world where cyber 
security is our greatest threat.
    Senator Kerry. Well, Senator, that is a huge question, and 
you have hit the nail on the head with respect to a significant 
threat. And as you know, there is legislation, or there was 
legislation, last year, which we tried to get through here, 
which would have helped us, a very small step incidentally in 
trying to deal with this issue.
    Much of this, as you know, is classified, and so it is hard 
to, you know, sort of lay it out in full for the American 
people. But every day while we sit here, right now certain 
countries are attacking our systems. They are trying to hack 
into classified information, to various agencies of our 
government, to banking structures. Money has been stolen from 
accounts and moved in large sums from entities. I mean, there 
is a long list of grievances with respect to what this marvel 
of the Internet and the technology age has brought us.
    But it is threatening. It is threatening to our power grid. 
It is threatening to our communications. It is threatening, 
therefore, to our capacity to respond. And there are people out 
there who know it, and there are some countries that we are 
engaged with, and all the Senators know who they are, who have 
a very good understanding of this power and who are pursuing 
it.
    So it is sort of the modern day, I guess I would call it, 
the 21st century nuclear weapons equivalent, that we are going 
to have to engage in cyber diplomacy and cyber negotiations, 
and try to establish rules of the road that help us to be able 
to cope with this challenge.
    Now, there are enormous difficulties ahead in that because, 
as you know, and I think I would just try to be very brief 
about it. I think most diplomacy is an extension of a 
particular nation's interests, and in some cases it is an 
extension of their values. And sometimes you get a terrific 
opportunity to mix the two, and then you really can do things 
that meet all of your aspirations. But sometimes, you know, you 
are more weighted toward the interests than the values, and you 
can all pick different countries and different things we have 
done that meet that.
    This is one where we are going to have to find a way to 
address the interests of other states to somehow find common 
ground, if that makes sense to you. And, you know, we are just 
going to have to dig into it a lot deeper. I do not have a 
magic silver bullet to throw at you here today.
    Senator Durbin. I wanted to bring it up because I think it 
is topical and timely in terms of our 21st century challenge. 
And when you become Secretary of State, which I believe you 
will and hope you will, this will be front and center.
    I would also like to come down to a much more mundane issue 
I raised before with the current Secretary, and that is the 
impact of sequestration on the Department of State. We are 
literally weeks away from mandated budget cuts within the 
Department of State. We have spent yesterday and even again 
today talking about security at our embassies, consulates, and 
for our men and women who risk their lives to represent 
America.
    So I would just ask you in closing that you would try to, 
as soon as you can, report to us about the impact of these cuts 
on our State Department, which has a very small percentage of 
our budget, but is going to face some substantial cuts because 
of the sequestration requirements.
    Senator Kerry. I am glad you raise it. We are going to have 
to talk about it. And I would just signal to my colleagues that 
yesterday you had a hearing in which two very distinguished, 
you know, people were the basis of a report on which you were 
having the hearing, which is the ARB. And Admiral Mullen and 
Secretary Pickering have said we need $1.2 billion or more, you 
know, to be able to do what we need for security.
    So if you want the American presence out there, and you 
want to provide an adequate protection so we are not here for 
another Benghazi hearing, we are going to have to deal with--
that is why I said we have got to get our business done here 
and do it the right way.
    One final comment, Mr. Chairman. I just want to say to 
people that--well, I will wait until we come to the budget, and 
we will do it then.
    Senator Menendez. All right. Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman. Yesterday with 
Secretary Clinton, I asked about the administration's assertion 
that al-Qaeda had been decimated. And she said what we are 
seeing now are people who have migrated back to other parts of 
the world where they came from, primarily who are in effect 
affiliates, part of the jihadist syndicate. She said some are 
like Al Qaeda in Islamic Maghreb--I will use that name. Others 
use different names.
    She said the fact is they are terrorists. They are 
extremists. They have designs on overthrowing existing 
governments. So she said that we do have to contend with the 
wannabes and the affiliates going forward.
    So I would ask your assessment on the strength today of 
al-Qaeda, the affiliates, the wannabes, and the challenge it is 
going to present to you as Secretary of State.
    Senator Kerry. Well, it is very real, but I agree 
completely with Secretary Clinton's statement and her 
appraisal. The core 
al-Qaeda, when we talk about core al-Qaeda, we are talking 
about the al-Qaeda that took us to Afghanistan and to Pakistan. 
That is core al-Qaeda. Those are the people who attacked the 
United States of America. Those are the people that we approved 
military action against, I think unanimously, in the U.S. 
Congress in 2001.
    Now, they have migrated. If you go to the intel, and I 
think this is unclassified--I know it is unclassified--Osama 
bin Laden in the documents that came out of Abbottabad, is 
quoted as urging his cohorts to go to other places to get away 
from the airplanes, get away from the drones. And he 
specifically encouraged al-Qaeda to disperse, and they did.
    In addition to that, we have been--the Obama 
administration--under the directive of the President, who 
undertook the most concentrated effort in history in terms of 
targeting a specific terrorist group, we have taken out a huge 
proportion of the leadership of core al-Qaeda, a huge 
proportion. You do not want to be No. 3 or, you know, No. 4 in 
line in that business because they are disappearing as fast as 
they get the job.
    Obviously the top dog who took--Zawahiri, who took the 
place of Osama bin Laden, is still at large, but I think there 
are those in the intel community and the administration who 
believe that over the course of the next months that core al-
Qaeda can really be almost degraded to the point that that is 
no longer the threat.
    The threat, however, has augmented in Al Qaeda in the 
Arabian Peninsula, Al Qaeda in Iraq, which is now playing in 
Syria, and Al Qaeda in the Maghreb. And I think that is why the 
United States, the President has made the decision to support 
the efforts of the French in Mali, and that is why there has 
been a very focused effort, including going after al-Awlaki in 
Yemen, to focus on that part of the world.
    Now, there is a success story even as I talk about that 
increased threat--Somalia. In Somalia where the al-Shabaab 
became associated with al-Qaeda, we have, in fact, been able, 
in concert with others, not alone, to drive al-Shabaab back and 
actually see a government emerge, which we have now recognized 
and which we 
are in a position to help, hopefully, stabilize and move to a 
better relationship.
    So we can change these things, but it takes a focused 
effort. It takes perseverance. It does not happen overnight. 
But I would also argue it takes something more than just the 
drone effort and the other effort. It takes that effort to 
develop a government like we did in Somalia.
    We have to be prepared to do that in the Maghreb.
    Senator Barrasso. I am looking at--we talked yesterday 
about bringing to justice the killers who attacked our people 
on September 11, and the President said he would bring those 
killers to justice. The fact that that hasn't happened, do you 
think that has emboldened the recent attack in Algeria because 
no one yet has paid a penalty for the attacks?
    Senator Kerry. Senator, I cannot get into anybody's mind 
about what they do or do not know about that, or what they 
perceive about it. I will tell you this. If so, it is going to 
be short-lived because I know from talking to the FBI director 
that they are pursuing that diligently. He was personally just 
in Libya meeting on this, and those efforts are going to 
continue. And I know that this President, you know, he does not 
bluff about these kinds of things. He has said they are going 
to pay a price. He said he would go into Pakistan if we had 
evidence that we needed to operate on. He did it, and I am 
confident that when and if we are prepared, that we will 
execute with respect to finding justice for what happened in 
Benghazi.
    Senator Barrasso. I wanted to move to the Keystone XL 
pipeline. I know that Senator Boxer asked a question. You said 
it would not be long before it crosses your desk.
    Yesterday a majority of Senators, a bipartisan group of 
Senators, nine Democrats, signed on to a letter to President 
Obama requesting that he expeditiously approve the construction 
of the pipeline. We are asking that the review process be 
completed by the end of March, and I hope you would be able to 
comply with that as well.
    Senator Kerry. I will try. I need to check back in with the 
Legal Department and make sure. I do not want to make a promise 
that I am unaware of what can be fulfilled. But I can tell you 
this. It is happening in the appropriate due course of 
business, and we will try to get it done as soon as we can.
    Senator Barrasso. I had a chance one time to visit with 
Senator Sam Nunn, who you served with, and he said that, you 
know, you have to think about what is in the vital interests of 
the United States, what is important for the United States, and 
what is in the humanitarian issue as we look at limited 
resources.
    I know climate change has been a big issue that you have 
been concerned about, focused on, it seems, over the next 25 
years, the global energy needs are going to increase about 50 
percent, that emissions are going to go up significantly, 
primarily because of China and India. And we could do 
significant harm to the U.S. economy, I think, by putting 
additional rules and regulations with very little impact on the 
global climate.
    And so in this tight budget environment with so many 
competing American priorities, I would ask you to give 
considerable thought into limiting significantly resources that 
would not help us as an economy, not help us as a country, and 
not help us globally in perhaps the efforts that you might be 
pursuing. I do not know if you have specific thoughts on----
    Senator Kerry. I do. I have a lot of specific thoughts 
about it, Senator, more than we are going to have time to do 
now. So I am not going to abuse that privilege, but I will say 
this to you. The solution to climate change is energy policy, 
and the opportunities of energy policy so vastly outweigh the 
downside that you are expressing concern about. And I will 
spend a lot of time trying to persuade you and other colleagues 
of this.
    If you want to do business, and do it well in America, we 
got to get into the energy race. Other countries are in it. I 
can tell you in Massachusetts that the fastest-growing sector 
of our economy is clean energy and energy efficiency companies, 
and they are growing faster than any other sector. The same is 
true in California.
    This is a job creator. I cannot emphasize that strongly 
enough. The market that made America rich--richer. We have 
always been rich. But the market that made us richer in the 
1990s was the technology market. It was a $1 trillion market 
with 1 billion users, and we created greater wealth in American 
than has been created even in the raging time of no income tax, 
and the Pierponts, Morgans, and Mellons, and Carnegies, and 
Rockefellers. We created more wealth in the 1990s. And every 
single quintile of American worker went up, everyone.
    So we can do this recognizing that the energy market is a 
$6 trillion market compared to one with, what, 4 billion, 5 
billion users today going up to 9 billion over the course of 
the next 20, 30 years.
    This is a place for us to recognize what other countries 
are doing and what our states that are growing are doing, which 
is there is an extraordinary amount of opportunity in 
modernizing America's energy grid. We do not have even have a 
grid in America. We have a great, big open gap in the circle of 
America. You got an East Coast grid, a West Coast grid, you 
have got a Texas grid, and then you got a line that goes from 
Chicago out over to the Dakotas.
    We cannot sell energy from Minnesota to Arizona, from 
Arizona to Massachusetts, or to the coal States and so forth. 
It does not make sense. And we cannot be a modern country if we 
do not fix that infrastructure.
    So I would respectfully say to you that climate change is 
not something to be feared in response to--I mean, the steps to 
respond to it. It is to be feared if we do not. Three thousand 
five hundred communities in our Nation last year broke records 
for heat. We had a rail that because of the heat bent, and we 
had a derailment as a result of it. We had record fires. We had 
record levels of damage from Sandy, $70 billion. If we cannot 
see the downside of spending that money and risking lives for 
all the changes that are taking place, to agriculture, to our 
communities, to the ocean, and so forth, then we are just 
ignoring what science is telling us.
    So I will be a passionate advocate about this, but not 
based on ideology, based on facts, based on science. And I hope 
to sit with all of you and convince you this $6 trillion market 
is worth millions of American jobs and leadership, and we had 
better go after it.
    Senator Barrasso. Thank you, Mr. Chairman.
    Senator Menendez. Senator Udall.
    Senator Udall. Thank you, Mr. Chairman. And to my good 
friend, Senator Barrasso, Wyoming is a producer State. New 
Mexico is also a producer State. And I have found the same 
experience that Senator Kerry has talked about in terms of 
Massachusetts. In New Mexico, the fastest growing sector are 
these renewable jobs. And so I think it is a big opportunity 
for us. We should be pursuing it. I agree with what he just 
said.
    And I hope that we can work with each other because we 
should try to pull together, and discuss the facts, and really 
pursue this sector that is going to be so vital to the future, 
and vital actually to job growth.
    But, John, great to have you here. You have really earned 
this, there is no doubt about it. It is great to see Teresa and 
Vanessa. And I was walking over my second time back here, and I 
saw the cutest grandchild I have seen in a long time. I said, 
are you going to bring him in, and they said, no, no, he was 
going to wait outside. But anyway----
    Senator Kerry. He's shy. [Laughter.]
    Senator Udall. In my observation here, in my short period 
on the Foreign Relations Committee, I think a great deal of 
what good foreign policy is about is building personal 
relationships, and building personal relationships with leaders 
around the world. And the one thing that I have really 
observed, Senator Kerry, of you is that you have done that. And 
we have had so many of these private meetings across over there 
in the Capitol in the small Foreign Relations room. And I could 
just feel with meeting with all these leaders the tremendous 
respect that they have for you and the ability you are going to 
have to build on that to make an excellent Secretary of State. 
So I am very excited about this opportunity for you.
    And in my first question here, I wanted to focus on Mexico 
and Central America. During the last decade, relations between 
the United States and Mexico have strengthened as a result of 
our shared security goals relating to the Merida Initiative. 
And one of the pillars of that initiative includes judicial 
reform, and I think you know this very well.
    However, the Federal Government and many of the Mexican 
states have yet to pass legislation which would change their 
judicial system from an inquisitorial system to an adversarial 
system.
    I had a lot of experience with this as a state attorney 
general a ways back. We actually would meet every 6 months with 
Mexican states, and they asked us to loan people to them to 
help train in the adversarial system.
    And so my question is, How can the United States better 
work with our neighbors in Mexico to improve transparency, 
efficiency, and the quality of the judicial system, and improve 
this transition they are trying to make from inquisitorial to 
an adversarial system?
    Senator Kerry. Well, Senator Udall, first of all, thank you 
for your generous comments. I very much appreciate them, and 
appreciate working with you on a lot of these issues.
    We are engaged now, and you know this. I mean, there are 
ongoing efforts with respect to the justice system. There has 
been a lot of focus, as you know, on guns, and narcotics, and 
so forth, and there has been a shift in policy within Mexico. 
The President was, you know, recently here for meetings, and my 
hope is that we can keep--I mean, I want to keep the existing 
efforts going which could become subject to the sequestration 
and budget effort. So I guess we're going to have to convince 
our colleagues of the importance of these kinds of initiatives 
actually taking root and having the willingness to kind of stay 
at them until we do get more results. Mexico has been under 
siege, and everybody knows that. And it has been very, very 
difficult. A lot of courage exhibited by military folks and 
police.
    I think there is an effort now to try to move it somewhat 
away from the military and more into the justice system, which 
is why we are going to have to double our efforts here and make 
sure we are funding the personnel and the program itself. So I 
will work with that, but we need the cooperation up here to get 
that kind of commitment.
    Senator Udall. Great. Thank you very much.
    As you know, the new President of Mexico, President Enrique 
Pena Nieto, has stated that his strategy with regards to 
security cooperation is to achieve a ``Mexico in peace'' is 
what he calls it and that his government will not abandon the 
fight against organized crime. How will you work to ensure that 
areas of mutual interest between the two countries get the 
attention they deserve and how we get that cooperation along 
the border?
    Senator Kerry. Look, I----
    Senator Udall. It just seems to me that is absolutely 
crucial is the cooperation along the border. They have six 
border states. We have four. And it is crucial that we work 
with each other on that.
    Senator Kerry. Well, President Pena Nieto is, indeed, 
trying to move this, as I said, in a different direction. This 
has been a highly militarized and very violent initiative over 
the last years. You know, I am a former prosecutor. You are a 
former attorney general. I was the chief administrative 
prosecutor in one of the 10 largest counties in America, 
Middlesex County, and I loved prosecuting. It was a great job.
    I remember we created a drug task force and had all kinds 
of plans for how to proceed to minimize the impact of narcotics 
on our communities. And one of the things I learned is that 
there is no one approach. You have got to be doing everything 
that you need to do. And that means domestically in the United 
States, you have got to do education and you have got to do 
treatment.
    Because what we have is just a revolving circle of demand, 
and we are the principal demand country. Not alone now. Europe 
is huge demand, Russia. There are other countries now 
increasing demand.
    So cocaine routes and marijuana routes, et cetera, are not 
just coming up from Colombia and other countries where it has 
been produced in Latin America and the Caribbean up to here, 
but it is going across the Atlantic and out into other 
countries now. And it comes from Asia into other countries. It 
is pandemic.
    And so, I think we need a more comprehensive approach, one 
where it is less accusatory, finger pointing, and you work 
cooperatively to understand everybody's role in trying to do 
something about it. I have always felt that this label of ``war 
on drugs'' is kind of artificial because, you know, war implies 
it is all out. You have got to win.
    And I don't think it has ever been all out, and 
principally, because we have always failed to do our part with 
respect to treatment and education and abstinence, so forth. So 
we have got to reengage ourselves, and I think that would help 
establish credibility and viability with other countries.
    Senator Udall. Thank you very much for those answers.
    Thank you, Mr. Chairman.
    Senator Menendez. Senator Paul.
    Senator Paul. Senator Kerry, thanks for coming today and 
for your testimony.
    I agree with candidate Barack Obama, who said in 2007 that 
the President doesn't have the power under the Constitution to 
unilaterally authorize a military attack. I would like to know 
if you agree with candidate Barack Obama or if you agree with 
President Barack Obama, who took us to war in Libya without 
congressional authority, unilaterally.
    Senator Kerry. Well, Senator Paul, one of the things this 
committee has spent a lot of time on is the War Powers Act, 
which I support. And I believe in congressional authority to go 
to war. I have argued that on occasion with respect to some 
things here, but there are occasions, which I have supported, 
where a President of the United States has to make a decision 
immediately and implement that decision, execute on it 
immediately.
    I supported Ronald Reagan when he sent troops into Grenada. 
I supported George H.W. Bush when he sent troops into Panama. I 
supported President Clinton when, against the will of the 
Congress, he did what was needed to be done in Kosovo, Bosnia, 
and so forth. And in this particular instance, I think the 
President behaved in that tradition.
    Senator Paul. I would argue, though, that the Constitution 
really has no exceptions for when you are having a tough time 
or when people disagree with you that you just go ahead and do 
it.
    Senator Kerry. Well----
    Senator Paul. In the early 1970s, you know, after Vietnam, 
you were quite critical of the bombing in Cambodia because I 
think you felt that it wasn't authorized by Congress. Has your 
opinion changed about the bombing in Cambodia? How is Cambodia 
different than Libya?
    Senator Kerry. Nor did my opinion change or has it ever 
altered about the war in Vietnam itself, where I don't 
believe--and I argued then.
    Senator Paul. Is Cambodia different than Libya?
    Senator Kerry. Well, Cambodia; yes, it is. Because it was 
an extension of the war that was being prosecuted without the 
involvement of Congress after a number of years.
    Now that is very different than something----
    Senator Paul. Length of time, but similar circumstances. A 
bombing campaign unauthorized by Congress.
    See, the Constitution really doesn't give this kind of 
latitude to sometimes go to war and sometimes not go to war.
    I thought Barack Obama was very explicit, and it is what I 
liked about him, frankly. People think, oh, you know, Rand Paul 
certainly didn't like anything about Barack Obama. I did like 
his forthrightness when he ran for office and said no President 
should unilaterally go to war. The Constitution doesn't allow 
it.
    Senator Kerry. Well, I respect that. Look, you can be 
absolutist and apply it to every circumstance. The problem is 
it just doesn't work in some instances. When 10,000 people are 
about to be wiped out by a brutal dictator and you need to make 
a quick judgment about engagement, you certainly can't rely on 
a Congress that has proven itself----
    Senator Paul. Do you think----
    Senator Kerry [continuing]. Unwilling to move after weeks 
and months sometimes.
    Senator Paul. Do you think a U.N. resolution is sufficient 
to go to war?
    Senator Kerry. No. No, I think a U.N. resolution--when you 
say ``sufficient to go to war,'' I think a U.N. resolution is a 
necessary ingredient to provide the legal basis for military 
action in an emergency. It is not, by any means, sufficient to 
require the United States to do something because we obey our 
Constitution and our interests and our rights.
    But I think----
    Senator Paul. You have heard President Morsi's comments 
about Zionists and Israelis being bloodsuckers and descendants 
of apes and pigs. Do you think it is wise to send them F-16s 
and Abram tanks?
    Senator Kerry. I think those comments are reprehensible, 
and those comments set back the possibilities of working toward 
issues of mutual interest. They are degrading comments. They 
are unacceptable by anybody's standard, and I think they have 
to appropriately be apologized for.
    Now President----
    Senator Paul. They only understand strength.
    Senator Kerry. Let me just finish.
    Senator Paul. If we keep sending them weapons, they are not 
going to change their behavior.
    Senator Kerry. Let me just finish. President Morsi--
President Morsi has issued two statements to clarify those 
comments, and we had a group of Senators who met with him just 
the other day, who spent a good part of their conversation in 
relatively heated discussion with him about it.
    But not everything--you know, this is always the 
complication in dealings in the international sector. Not 
everything lends itself to a simple clarity, black-white, this-
that every time. We have critical interests with Egypt, 
critical interests with Egypt.
    Egypt has thus far supported and lived by the peace 
agreement with Israel. Israel--and has taken steps to begin to 
deal with the problem of security in the Sinai. Those are vital 
to us and to our national interests and to the security of 
Israel. In addition to that, they have followed through on the 
promise to have an election.
    Senator Paul. You know, but I know things are not black and 
white, but the things----
    Senator Kerry. Let me just--you know, they have had an 
election. They had a constitutional process. There is another 
election that is coming up shortly for the lower House. The 
fact that sometimes other countries elect somebody that you 
don't completely agree with doesn't give us permission to walk 
away from their election.
    Senator Paul. But this has been our problem with our 
foreign policy for decades, Republican and Democrat. We funded 
bin Laden. We funded the mujahedeen. We were in favor of 
radical jihad because they were the enemy of our enemy. We have 
done this so often.
    I see these weapons coming back to threaten Israel. I see 
support for Syrian rebels coming back to threaten Israel as 
well.
    Senator Kerry. Well, as you know, Senator----
    Senator Paul. I see problems with this.
    Senator Kerry. As you know, Senator, in any of the arms 
sales that the United States has ever engaged in in that part 
of the world, there is always a measure, a test, which is 
applied with respect to a qualitative difference in any of 
those weapons with respect to Israel's defense and security. 
And we do not sell weapons and will not sell weapons that might 
upset that qualitative balance.
    Senator Paul. Yes, so we sell 20 F-16s to Egypt. We have 
got to give 25 to Israel. Sounds like we are fueling an arms 
race. Why don't we just not give any weapons to Israel's 
enemies? That would certainly save us a lot of money and might 
make it safer for Israel.
    One final question----
    Senator Kerry. Better yet, until we are at that moment 
where that might be achievable, maybe it would be better to try 
to make peace.
    Senator Paul. One final question, if I could, Mr. Chairman? 
It is very short. Would you consider supporting conditioning 
aid to Pakistan on the release of Dr. Shakil Afridi? I am 
afraid if we don't support informants who have helped us, we 
are not going to get many more informants.
    Senator Kerry. Well, let me speak to that. First of all, I 
have talked directly to President Zardari, and I have talked 
directly to General Kayani about Dr. Afridi. And like most 
Americans, I find it, as you do, incomprehensible, if not 
repugnant, that somebody who helped to find Osama bin Laden is 
in jail in Pakistan. That bothers every American.
    That said, the Pakistanis make the argument that he didn't 
know what he was doing, that he didn't know who he was 
specifically targeting or what was happening----
    Senator Paul. You think he knew he was helping Americans, 
though?
    Senator Kerry. Let me just finish. Let me just finish. He 
clearly knew what he was doing in that because they also make 
the argument that he was doing that as a matter of regular 
course of business for him.
    Now, that said, that is no excuse. I am simply explaining 
to you that rather than cut aid, which is a pretty dramatic, 
draconian, sledgehammer approach to a relationship that really 
has a lot of interests. You know, we have our ground line of 
communications, which is the military's complicated word for 
roads, that go to Afghanistan, and that route is critical to 
our supply of our troops.
    We have----
    Senator Paul. The word I used, though, is ``condition,'' 
not ``cut.''
    Senator Kerry. We have, in addition to that, had 
intelligence cooperation. Our folks were able to cooperate on 
the ground in Pakistan. That is one of the ways we were able to 
get Osama bin Laden. I don't think the Pakistanis have, 
frankly, gotten credit sufficiently for the fact that they were 
helpful.
    It was their permissiveness in allowing our people to be 
there that helped us to be able to tie the knots that focused 
on that, to some degree. Not exclusively, obviously, but to 
some degree.
    In addition, they have lost some 6,000 people just in the 
last year in their efforts to go after terrorists. They have 
lost about 30,000 people over the course of the last several 
years because they have been willing to engage the 
insurgencies. And so, you know, there are things that the 
Pakistanis have done, as complicated as the relationship has 
been.
    Now I think that I intend to raise the issue of Dr. Afridi 
with them. I can promise you that. But I am not going to 
recommend, nor do I think it is wise for American policy to 
just cut our assistance. We need to build our relationship with 
the Pakistanis, not diminish it.
    Senator Paul. Thank you.
    Senator Menendez. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.
    Welcome, Senator Kerry. I am sorry that our careers in the 
Senate will only overlap for a few weeks, but I want to thank 
you. Because for those of us in our corner of the country who 
have come into public service in the last 10 to 20 years, it 
has been your example that has inspired many of us to do so. 
Not only your ability to both position yourself as a spokesman 
for the disenfranchised and dispossessed, but also as a steward 
of our country's interests around the world.
    I think there are a lot of us who came into public service 
in part because of your work for our region. I thank you for 
that.
    I wanted to spend my short time turning to the Asia-Pacific 
region and specifically spending a little bit of time on China 
as well. Secretary Clinton, in a speech that she gave in 
Singapore sometime back, crafted a great and very simple phrase 
about how today, for the first time in modern history, you can 
become a global superpower simply through the power of your 
economy, not by the power of your military. China is obviously 
the best example of that, though it has now turned its focus to 
military might as well.
    In Connecticut, we have about 40 percent of our exports 
sent to that region today. On an annual basis, we are 
increasing our country's exports to the region by a 25 to 30 
percent clip.
    And yet we know, again specifically with respect to China, 
that those numbers pale in comparison to what they could be 
because high-tech manufacturers cower at the prospect of 
sending products there that will immediately be replicated and 
sold in counterfeit markets. Military manufacturers in 
Connecticut can't even get into China, even as their 
competitors there get a pretty fair shot at getting into our 
market.
    Secretary Clinton also talked a lot about this new concept 
of economic statecraft, and I wanted to get your thoughts about 
how we can use and continue to use the power of the Department 
of State to try to pressure the Chinese to both correct its 
flaws with respect to its disposition on intellectual property, 
to pressure that nation to open up its markets to more American 
goods, and then in general how you see our ability to really 
exercise economic pressure on that region to be a source of 
what we hope is a doubling of exports, as the President has 
commanded us to do over the next 5 years.
    Senator Kerry. Well, first of all, Senator, thank you for 
your nice comments. I really appreciate it. And welcome to the 
committee. I am delighted to see you and Senator Kaine on the 
committee.
    Senator Reid called me, and we chatted about the folks who 
might serve on the committee, and I am delighted that both of 
you are there. And I am sorry that, obviously, we won't be 
working together on the committee. But believe me, we are going 
to be working together, and I look forward to it.
    Look, Secretary Clinton, if she was sitting here--and she 
has--previously said, and I will simply reiterate and 
underscore, China is an ongoing process, and it takes 
commitment and perseverance to break through on one issue or 
another. We have a lot of issues with China.
    My intention is to continue to focus, as the administration 
has begun through its rebalancing, to grow that rebalance 
because it is critical for us to strengthen our relationship 
with China. China is the other sort of significant economy in 
the world and obviously has a voracious appetite for resources 
around the world. And we need to establish rules of the road 
that work everybody.
    That is why the administration came up with the Trans-
Pacific Partnership in an effort to try to help establish 
greater leverage, if you will, for this notion of broadly 
accepted rules of the road, which are critical to our doing 
commerce. But on things like intellectual property, market 
access, currency, there are still significant challenges ahead 
with China.
    Now my hope is that Xi Jinping and the new administration 
will recognize also the need to sort of broaden the 
relationship with us in return. I could envision a way in which 
China could play a much more significant role as a partner in 
any number of efforts globally. We shouldn't be viewed as--I 
mean, we will be competitors in the economic marketplace, but 
we shouldn't be viewed as adversaries in some way that 
diminishes our ability to cooperate on a number of things.
    China is cooperating with us now on Iran. I think there 
might be more we could perhaps do with respect to North Korea. 
There could be more we could do in other parts of the Far East. 
And hopefully, we can build those relationships that will 
further that transformation.
    We make progress. It is incremental. You know, it is a 
tough slog, and there just isn't any single magic way to 
approach it. But if we can find a better sense of the mutuality 
of our interests and the commonality of goals that we could 
work toward--climate change is an example.
    If we just sit around where we are today in respect to the 
comments I think Senator Barrasso or somebody made, we are 
going to have a problem because China is soon going to have 
double the emissions of the United States of America. So we 
have got to get these folks as part of this unified effort, and 
I intend to work very, very hard at trying to do that.
    Senator Murphy. I appreciate that. I appreciate that.
    The one probably most important stumbling block to that 
growing diplomatic partnership that I agree could have 
transformational potential for the world is the potential 
conflict between China's growing military footprint in the 
region and now our pivot to Asia when it comes to our military 
interests as well.
    And we have seen these growing territorial disputes between 
China and the Philippines, and China and Japan, and Korea and 
Japan. How do we ramp up militarily in the region without 
getting drawn in to a lot of these disputes, which we have no 
immediate interest in, but makes it a little bit harder to stay 
disconnected from if we just have a larger footprint there?
    Senator Kerry. Well, Senator, I am not convinced that 
increased military ramp-up is critical yet. I am not convinced 
of that. That is something I would want to look at very 
carefully when and if you folks confirm me and I can get in 
there and sort of dig into this a little deeper.
    But we have a lot more bases out there than any other 
nation in the world, including China, today. We have a lot more 
forces out there than any other nation in the world, including 
China, today. And we have just augmented, the President's 
announcement, in Australia with additional Marines. You know, 
the Chinese take a look at that and say, ``What is the United 
States doing? Are they trying to circle us? What is going on?''
    And so, every action has its reaction. It is the old--you 
know, it is not just the law of physics. It is the law of 
politics and diplomacy. I think we have to be thoughtful about 
sort of how we go forward.
    Pivot, also I want to take on the word ``pivot.'' I think 
``pivot'' implies that we are turning away from somewhere else. 
I want to emphasize we are not turning away from anywhere else. 
Whatever we do in China should not, or in the Far East--in 
Indonesia, which is rapidly growing and enormously important, 
Vietnam, all of these countries--should not come and, I hope, 
will not come at the expense of relationships in Europe or in 
the Mideast or elsewhere. It can't.
    What we need to do is try to bring Europe along with us to 
a recognition of the opportunities in the Far East. It would 
improve our clout. It would leverage the market. Perhaps there 
has 
been some talk about a U.S.-EU trade relationship. I don't know 
whether that can become a reality or not. But I think that we 
need to think thoughtfully about not creating a threat where 
there isn't one and understanding very carefully where we can 
find the basis of better cooperation.
    Now I want to emphasize that I don't want somebody out 
there saying, well, Kerry has a mistaken notion of what China 
is up to or what they are doing. I am not saying you don't have 
to be pretty careful and vigilant and understand where it is 
going, and I am not talking about retreating from our current 
levels whatsoever. I am simply trying to think about how we do 
this in a way that doesn't create the reaction you don't want 
to create.
    Senator Murphy. Thank you.
    Senator Menendez. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    Senator Kerry, your 29 years of service on this committee 
is a great example for those of us newcomers, and I thank you 
for that and look forward to working with you as Secretary.
    A comment and two questions. In the chair's opening round 
of questions, he raised issues about our relations in the 
Western Hemisphere, and that is deeply important to me.
    Those have also been touched on in your responses to 
Senator Udall and in the reference to the Trans-Pacific 
Partnership in the discussion with Senator Murphy.
    I worry a little bit that for many understandable reasons 
our foreign policy has been very oriented East-West, but the 
North-South axis is also incredibly important. I worry about 
the Chinese being all over the Americas and Iran having 
economic ties and state-sponsored Spanish language broadcasts 
throughout the Americas.
    And in a time of inattention, it is not as if we are 
standing still. We can be seeing our influence erode. And so, I 
would just, as you have talked about these matters today, I 
really, really hope that the State Department has that North-
South axis as a key focus.
    On to a question on a topic, your opening comments 
demonstrated what has long been a position of yours that you 
understand that we have an unbreakable bond with Israel. And 
that is why the definitive statement about Iranians' nuclear 
ambitions that we have a policy of prevention, not containment, 
was very heartening to hear. I believe that very deeply.
    As much as I believe that, I also believe that as difficult 
as it looks, we also long for the day, long for the prospect 
that there would be peace between a secure Jewish State of 
Israel and an independent and prosperous Palestine. It might 
seem unlikely, but the current peaceful relationships in 
Ireland seemed equally or more unlikely 30 years ago.
    What would your approach be as Secretary of State in trying 
to advance that day so that it might be sooner rather than 
later?
    Senator Kerry. Well, part of my approach to help advance 
that day is not to be too explicit here today. I have a lot of 
thoughts about that challenge, and one of the things I can 
guarantee you is that I don't want to prejudice it by public 
demands to any party at this point in time.
    I think, you know, I will say this. President Obama is 
deeply committed to a two-state solution. I have been reading 
lately speculation about whether or not he is committed to the 
process or what he thinks or believes, et cetera. I think a lot 
of it is simply wrong, blown out of proportion. The President 
understands the stakes and the implications in the Middle East.
    And the almost so much of what we aspire to achieve and 
what we need to do globally, what we need to do in the Maghreb 
and south Asia, south-central Asia, throughout the gulf, all of 
this is tied to what can or doesn't happen with respect to 
Israel-Palestine. In some places, it is used as an excuse. In 
other places, it is a genuine, deeply felt challenge.
    I am not going to say anything that prejudices our ability 
to try to get a negotiation moving in the appropriate way, in 
the appropriate manner, and I am not even going to go into what 
that is. But I think I personally believe--I have been at this 
for, what, almost 29 years on this committee. We have been at 
this. I have watched all of it.
    I was on the lawn when we were there with the handshake--
Arafat, Begin. And I have been through seven Prime Ministers 
and nine in all. Two of them were the same. And I have seen Wye 
Plantation and Madrid and Oslo and Taba and so forth.
    We need to try to find a way forward, and I happen to 
believe that there is a way forward. But I also believe that if 
we can't be successful, the door or window, whatever you want 
to call it, to the possibility of a two-state solution could 
shut on everybody, and that would be disastrous, in my 
judgment.
    So I think this is an enormously important issue, and I 
will never step back from my commitment to the State of Israel, 
which I have shown for the 29 years I have been here. But I 
also will not step back from my understanding of the plight of 
Palestinians and others who are caught up in the swirl of this. 
Young children, who I have seen, who have hopes for future, and 
I would like to see us deliver.
    Senator Kaine. The State Department and Secretary play 
critical roles in human rights, and you have touched on those 
today. Just a recent example that you were involved in in some 
way was the activity of Secretary Clinton and others on behalf 
of the human rights activist Chen Guangcheng in China.
    A human rights issue that I am concerned about is religious 
freedom. You and I share a faith background, and we also share 
a commitment to that bedrock American principle that all should 
be able to worship as they please or not without official 
pressure or punishment or preference.
    Whether it is marginalization of Muslims in Europe or 
repression of Christians or Baha'is in the Middle East or anti-
Semitism anywhere, the United States has a valuable role to 
play, and the State Department does as well, in the protection 
of religious minorities. And I would love to hear you just talk 
about that for a second.
    Senator Kerry. Well, I couldn't agree more, and I am glad 
you raised that issue. It is at the core of who we are. The 
tolerance on which the United States is founded is one of our 
greatest attributes. And it is interesting, I will tell you 
that we have gone through our own sort of turbulence on that. 
We didn't arrive at it naturally.
    You know, the Puritans came to Massachusetts, and there 
were a few excesses. Then a guy named Roger Williams left 
Massachusetts and went down and traveled through the forests 
through the winter and came out on a bay and called it 
Providence, and it is now Providence, RI. And you had, you 
know, John Davenport and others who went down to New Haven, CT, 
and they all were getting away from religious persecution right 
here in our own country.
    It took us a while to get it right, and I think we do.
    And needless to say, one of the roles of the State 
Department is to help people understand what an essential 
ingredient tolerance is, and diversity and pluralism, to the 
ability of a country to flourish and people to have their 
rights. That is one of the big challenges that we face.
    I am sure my advisers at the State Department would say, 
you know, stop there, Senator. [Laughter.]
    Senator Kerry. But I am going to say--I will say something 
additional, which is I have a lot of friends who are Muslim who 
I have learned--who I have met and built relationships with 
over the years in my travels. And leaders in that region will 
be the first to tell you, me, others that what you see in 
radical Islam is not Islam. It is radical Islam. It is an 
exploitation and hijacking of an old and honored religion.
    And what we need to do is find a way--and this is something 
we have to work at--for people to understand the degree to 
which that is happening and becoming, in some places, an excuse 
for their disenfranchisement, for being deprived of good 
governance, for being deprived of a good economy, of jobs, of 
opportunity. One of our missions is to not let that be an 
excuse.
    So I think that carrying the banner of religious tolerance, 
of diversity, and pluralism is critical. I know we have raised 
that with President Morsi. I have personally raised it with 
him. I think I was the first American to meet with President 
Morsi before he became--even knew he was a candidate. And we 
talked about the need for the Brotherhood to be able to respect 
the diversity of Egypt.
    Now that hasn't happened completely as much as we would 
like in the constitutional process. But as I said, that is an 
ongoing process, and we need to work together in order to try 
to do it. But, Senator, you raise a central, central issue with 
respect to what is happening to the politics of certain regions 
of the world, and it has got to be front and center in our 
dialogue.
    Senator Kaine. Thank you.
    Senator Menendez. Senator Corker, final comment?
    Senator Corker. Mr. Chairman, thank you for having the 
hearing.
    And Mr. Chairman, I think all of us who have known you and 
known of your service here for 29 years thought that you would 
acquit yourself well today, but I think you have acquitted 
yourself exceptionally well and know you are going to be 
confirmed in the next very few days. And I just thank you for 
your--I thank you for the fact that you want to serve in this 
position, but also the fact that you have developed such an 
extensive background and understanding.
    And I know you are going to be really good in this job.
    I look forward to working with you and thank you for the 
patience today.
    Senator Menendez. Mr. Chairman, two quick questions I think 
would be very easy and hope we can get commitments from you on.
    One is having gone through the lengthy hearings on the 
Administrative Review Board's recommendations and what happened 
in Benghazi, can we be assured that you will personally oversee 
the implementation of the ARB and have your senior leadership 
make it a top priority?
    Senator Kerry. Absolutely.
    Senator Menendez. And second, with reference to our 
democracy programs worldwide, can we expect you to be a strong 
supporter of those programs?
    Senator Kerry. Yes.
    Senator Menendez. And then, finally, a comment. I had no 
intention of raising it, but, you know, to suggest that spring 
break is a form of torture to the Castro regime, unfortunately, 
they are experts about torture, as is evidenced by the 
increasing brutal crackdown on peaceful democracy advocates on 
the island. Just in the last year, over 6,600 peaceful 
democracy advocates detained or arrested.
    Just this past Sunday, the Ladies in White--a group of 
women who dress in white and march every Sunday with a gladiola 
to church--tried to come together to go to church this past 
Sunday. And the result of that--these are individuals who are 
the relatives of former or current political prisoners in 
Castro's jails--the result is that more than 35 of the Women in 
White were intercepted, beaten with belts, threatened to death 
by agents aiming guns at them, and temporarily arrested.
    And then we have a United States citizen who all he tried 
to do is give access to the Internet to a small Jewish 
population in Havana and has been languishing in jail for 
nearly 4 years. That is real torture.
    Mr. Chairman, you have given an incredibly thoughtful, 
extensive, passionate at times, and an incredible depth of 
knowledge before this committee for nearly 3 hours and 50 
minutes. It is a testament to your long service, your long 
commitment, and what we can expect of you as the next Secretary 
of State.
    And I know that your father, Richard, who also served this 
country, would be extremely proud of you today.
    The committee will receive questions for the record until 
the close of business today. So we urge members who may have 
any questions to do so by the close of business today. We 
encourage the nominee, as well as the Department, to respond to 
the questions as expeditiously as possible.
    Senator Menendez. And with that, with the thanks of the 
committee, this hearing is adjourned.
    Senator Kerry. Thank you, Mr. Chairman.
    [Whereupon, at 1:50 p.m., the hearing was adjourned.]
                              ----------                              


       Additional Questions and Answers Submitted for the Record


Responses of Secretary-Designate John F. Kerry to Prehearing Questions 
                    Submitted by Senator Bob Corker

    Question. What do you believe is the role of the Congress in 
establishing U.S. foreign policy? What role, specifically, do you 
believe the Senate Foreign Relations Committee should play?

    Answer. My time as a Senator reinforces my belief that the Congress 
is, and must remain, a vital partner in the establishment, oversight, 
and implementation of U.S. foreign policy. The Department looks to the 
Congress for authorization and funding of its conduct of foreign 
policy, provision of necessary legislation, and oversight of the 
execution of the President's foreign policy agenda. If confirmed, I 
look forward to working with the Congress on all of these important 
issues.
    As the standing committee charged with leading the debate on 
foreign policy within the Senate, the Senate Foreign Relations 
Committee (SFRC) is specifically instrumental in establishing and 
implementing U.S. foreign policy. Through its jurisdictional powers 
over executive nominations, treaties, and foreign policy legislation, 
as well as its oversight over foreign aid and programmatic funding, the 
SFRC shapes the parameters within which the Department of State 
operates.

    Question. Since the tragic incident in Benghazi, the term 
``expeditionary diplomacy'' has been used to describe U.S. diplomatic 
activities in relatively unstable areas with a small/light footprint.

  <diamond> In your view, what does it mean to engage in 
        ``expeditionary diplomacy,'' and can you provide several 
        examples where the United States is currently engaged in 
        expeditionary diplomacy and an assessment of the advantages and 
        disadvantages to doing so?
  <diamond> When and where is expeditionary diplomacy appropriate?

    Answer. A New Kind of Civilian Expeditionary Capacity. As we expand 
U.S. expeditionary capacity for conflict and crisis, we are building on 
the experience of innovative field officers at State and USAID who have 
set new standards for impact on the ground. These kinds of efforts must 
become a part of the ``new normal'' for our personnel deployed to 
conflict and post-conflict environments.

  <bullet> In the contentious Tagab Valley in Eastern Afghanistan, 
        State personnel helped local officials design and hold the 
        first cross-valley shura to bring together former fighters and 
        establish community-based security arrangements. Along nearby 
        Highway 1, a critical supply line for U.S. and allied forces, 
        USAID field personnel, deployed in interagency teams with the 
        military and local partners, used a databased conflict survey 
        to develop localized jobs programs along stretches of road 
        notorious for attacks.
  <bullet> In Haiti, State and USAID field officers worked with the 
        U.N. mission, the Haitian Government, and NGOs in the slums of 
        Cite Soleil to increase effective local police presence and 
        establish community-based initiatives that reduce the influence 
        of local gangs.
  <bullet> In Darfur, Sudan, following the 2005 peace agreement, State 
        Civilian Response Corps members set up a field presence in El 
        Fasher to increase understanding of local conflict dynamics and 
        worked with the African Union to bring additional militias into 
        the peace agreement, resulting in a ``peace Secretariat'' to 
        support confidence-building measures.

    Question. Will you commit to preconsultation on process for 
treaties with the members of the committee?

    Answer. Having served in the Senate for 27 years, I can assure you 
I respect the Senate's constitutional role in the treatymaking process.
    I agree that consultation and coordination with members of the 
Senate Foreign Relations Committee have played, and will continue to 
play, a critical role in successful treaty ratification processes. If 
confirmed, I look forward to discussing the administration's treaty 
priorities.

    Question. Condition 12 of the resolution of ratification 
accompanying New START required the President to certify to the Senate 
that ``the United States will seek to initiate, following consultation 
with NATO allies but not later than one year after the entry into force 
of the New START Treaty, negotiations with the Russian Federation on an 
agreement to address the disparity between the non-strategic (tactical) 
nuclear weapons stockpiles of the Russian Federation and of the United 
States.'' The President made the required certification and 
consultation with our NATO allies has taken place, but here we are 
almost 2 years after entry into force of New START, the negotiations 
have not commenced.

  <diamond> What do you intend to recommend to the President about how 
        to eliminate the disparity described in Condition 12 of the New 
        START resolution of ratification?

    Answer. This issue is very important--as a Senator, I assisted in 
crafting the language in the New START resolution of ratification that 
addressed the disparity between U.S. and Russian nonstrategic nuclear 
weapons (NSNW).
    The administration has been actively working on this issue, through 
the Bilateral Presidential Commission's Arms Control and International 
Security Working Group. The administration has also begun a dialogue 
with Russia regarding NSNW, their effect on stability and transparency 
regarding them. That dialogue will continue.
    As part of this process, it is critical that we continue to consult 
with our NATO allies, who have said they look forward to developing and 
exchanging NSNW transparency and confidence-building ideas with Russia.

    Question. During the 2010 debate around consideration of the New 
START Treaty, you played a critical role in negotiations that provided 
the necessary assurances to gain support for ratification. Much of that 
support was gained through commitments to modernization of our nuclear 
weapons--commitments to which the administration has not lived up to 
fully. This lack of followthrough has made a significant, negative 
impression about the value of any process where such assurances are 
sought in order to gain support for ratification, and I fear to the 
administration's credibility on treaties. Aside from my displeasure 
with the failure to meet its commitments, I fear that it will also 
seriously diminish the Senate's willingness to consider treaties and 
ratify them. I know you share my concern with this.

  <diamond> Can I get your assurance that you will do all you can to 
        ensure that the administration follows through on the 
        commitments they made on nuclear weapons modernization?

    Answer. The President and the administration believe that a 
credible and affordable modernization plan is necessary to sustain the 
nuclear infrastructure and support our Nation's deterrent.
    The National Nuclear Security Administration will continue to 
update and improve the exact details of these modernization plans as it 
completes the designs and analyzes the infrastructure needed to support 
the stockpile. The programs and capabilities of our long-term 
modernization plans for the nuclear infrastructure remain critically 
important and, if confirmed, I will vigorously support these programs.
    It is worth noting that the FY 2013 nuclear stockpile budget was 5 
percent above the amount appropriated by Congress for FY 2012. This was 
one of the few accounts in the entire U.S. Government that received an 
increase of this size, and it demonstrated the administration's support 
for the modernization of the U.S. nuclear weapons complex in a time 
when there is significant scrutiny of all budgets.

    Question. In April 2012, Senator Lugar, Congressman Berman, and 
Congresswoman Ros-Lehtinen sent a letter to Secretary of State Clinton 
objecting to the State Department's unilateral modifications to the 
prenotification consultations on U.S. arms sales that have been used 
for nearly three decades.

  <diamond> (a) As Secretary of State, will you reinstate the decades-
        old practice?

    Answer (a). As noted above, my time as a Senator reinforces my 
belief that the Congress must remain a vital partner in the oversight 
of U.S. foreign policy, and I am committed, if confirmed, to ensuring 
that Congress and, specifically, the committees of jurisdiction in the 
Senate and the House, continue to play an important role in the arms 
sales process. Congress retains the same statutorily provided 
opportunities to block major arms sales that it has for decades, but as 
you know, the informal consultation process has developed to make sure 
that the Congress and the executive branch find as much agreement as 
possible on proposed sales in a way that does not needlessly undermine 
our relations with allies and foreign partners. I am committed not only 
to ensuring that Congress is provided ample time and information to 
conduct its necessary review but also to making sure that American 
businesses, our Armed Forces who are cooperating with foreign partners, 
and our foreign partners themselves are not undermined because of 
unnecessary delays in this process.

  <diamond> (b) If the Obama administration's modifications to the arms 
        sale process stand, how will you ensure that proposed arms 
        sales to potential adversaries of Israel do not compromise the 
        Israeli military's qualitative edge?

    Answer (b). My commitment to Israel's security is unwavering. Any 
developments I believe pose a threat to Israel's qualitative military 
edge (QME) will be carefully considered and responded to appropriately. 
I will not proceed with the release of any military equipment or 
services that could pose a risk to our allies or compromise regional 
security in the Middle East. Through the Congressional Notification 
process, I will ensure Congress is engaged in the assessment and 
decision process.

    Question. The United States is not a party to the Rome Statute of 
the International Criminal Court. However, the United States has 
cooperated with the ICC on an ad hoc basis and has supported U.N. 
Security Council referrals to the ICC in the cases of Sudan and Libya. 
The Obama administration has been conducting a lengthy review of U.S. 
policy toward the Court.

  <diamond> (a) Under what circumstances should the United States 
        cooperate with the ICC?

    Answer (a). Although the United States is not a party to the Rome 
Statute of the International Criminal Court, we have supported the 
ICC's prosecutions of those cases that advance U.S. interests and 
values, consistent with the requirements of U.S. law. For example, the 
ICC has outstanding arrest warrants for Joseph Kony and two other 
senior LRA leaders. The United States has an interest in seeing these 
men brought to justice, and in providing support for these cases.

  <diamond> (b) How, if at all, should U.S. law be changed to allow 
        direct American support for the Court?

    Answer (b). The primary law governing the situations in which the 
United States may provide support for the Court is the American 
Service-Members' Protection Act. The administration is not seeking 
changes to the law at this time.

  <diamond> (c) Would you cooperate with the ICC if it decided to 
        proceed with a case involving Israeli actions in the 
        Palestinian territories?

    Answer (c). No; we would not support cooperating with the ICC in 
any such cases.

  <diamond> (d) How, if at all, does the ICC have any jurisdiction over 
        U.S. servicemembers or officials?

    Answer (d) The Rome Statute provides that the ICC may assert 
jurisdiction over crimes committed (1) by nationals of states parties, 
or (2) on the territory of states parties. The United States has 
expressed concerns over the Rome Statute's assertion of jurisdiction, 
in the absence of Security Council authorization, over nationals of 
nonparty states that have not consented, and we would oppose any effort 
by the ICC to assert jurisdiction over U.S. servicemembers or 
officials.

  <diamond> (e) As Secretary of State, would you seek U.S. ratification 
        of the Rome Statute?

    Answer (e). The administration has no plans to seek ratification of 
the Rome Statute, but has indicated that it is in the interests of the 
United States to continue to engage with the Court and support its 
prosecution of cases that advance U.S. interests and values.

    Question. In 2011, the Obama administration announced the so-called 
``Asia Pivot'' to reinvigorate the U.S. presence in the region. But it 
is not clear exactly what that means or what it may guide us to do 
differently.

  <diamond> Can you define U.S. objectives in the region, including 
        criteria to measure successes and/or failures of the pivot?

    Answer. I see the administration's strategic ``rebalance'' as 
reflecting the recognition that the United States must substantially 
increase its political, economic, and defense investments in the Asia-
Pacific given the region's fundamental importance to our future 
prosperity and security. If confirmed, I look forward to supporting 
this rebalance as the United States continues to deepen its engagement 
in this vital region.
    The objectives of the rebalance are to strengthen our treaty 
alliances, deepen partnerships with emerging powers, shape an effective 
regional architecture, increase trade and investment, update our force 
posture, and promote democratic development.
    Maintaining peace and security across the Asia-Pacific is central 
to global progress, including through halting proliferation in North 
Korea, maintaining freedom of navigation in the region's maritime 
spaces including the South and East China Seas, and promoting increased 
transparency in the region's military activities. Our treaty alliances 
with Japan, the Republic of Korea, Australia, the Philippines, and 
Thailand, as well as our security relations with Taiwan, are the 
cornerstone of our strategic position in the Asia-Pacific and continue 
to ensure regional stability and enhance our regional leadership. In 
response to the changing security environment in Asia, the United 
States should seek to modernize our alliances to provide the United 
States with the flexibility to respond to a range of traditional and 
nontraditional security challenges.
    The administration has also advanced efforts to strengthen our 
relationships with major emerging powers--such as China, Indonesia, and 
India--and other regional partners that reflects a comprehensive U.S. 
approach in the region. Pacific Island countries remain vital to U.S. 
interests due to our shared history, common values, defense 
partnerships, commercial links, people-to-people ties, and alignment on 
international issues, most fully expressed in our Compacts of Free 
Association with three island nations--the Federated States of 
Micronesia, the Republic of the Marshall Islands, and the Republic of 
Palau. The administration has asked these partners to help solve shared 
problems and shape a rules-based regional and global order.
    The U.S. rebalance to the Asia-Pacific region emphasizes the 
importance of multilateral cooperation to address complex transnational 
challenges and build effective institutions that reinforce the system 
of rules, norms, and responsibility. If confirmed, I will continue to 
deepen our engagement with ASEAN and the region's other multilateral 
fora, including the East Asia summit and the Pacific Islands Forum, as 
well as stressing regional cooperation on economic issues through APEC.
    Economic vitality in the United States in part depends on the 
ability of U.S. firms to tap the growing consumer base of the Asia-
Pacific region. The United States is a major trade and investment 
partner in the region and this partnership remains essential to our 
economic vitality. U.S. leadership on the Trans-Pacific Partnership 
(TPP) will advance the rules-based trading system that has brought 
prosperity to both the United States and the region.
    Asia's remarkable economic growth over the past decade and its 
potential for continued growth in the future depend on the security and 
stability that has long been guaranteed by the U.S. military, including 
more than 75,000 American servicemen and servicewomen serving in Japan 
and the Republic of Korea. The challenges of today's rapidly changing 
region--from territorial and maritime disputes to freedom of navigation 
issues to the heightened impact of natural disasters--require that the 
United States pursue a more geographically distributed, operationally 
resilient, and politically sustainable force posture. In pursuit of 
this objective, the United States should continue modernizing its 
basing arrangements with traditional allies in Northeast Asia, while 
enhancing our presence in Southeast Asia and into the Indian Ocean.
    Across the Asia-Pacific region, the United States should seek to 
foster sustained adherence to democratic practices and improved 
governance, quality health and education, strengthened disaster 
preparedness and emergency response, and increased natural resource 
management, which will contribute to greater human security, stability, 
and prosperity, as well as deepened U.S. ties in the region.

    Question. In 2011, you voted for a bill that was designed to label 
China a currency manipulator and compel the Chinese to revalue the RMB 
or face trade repercussions. In a floor speech following your vote, you 
said that you had ``reluctance to see us engage in an effort that I 
think can put other efforts at risk in certain ways.'' As Secretary of 
State, you will touch one of the United States most important bilateral 
economic relationships, our relationship with China.

  <diamond> (a) Given that you so clearly felt that there was 
        substantial risk in the approach that the Senate took up in 
        2011, would you pledge to take a leadership role in persuading 
        Congress to look for more appropriate and meaningful ways to 
        engage China?

    Answer (a). It is imperative that we get our relationship with 
China right, given the effect its economic policies have on the United 
States and on the world economy. China's growing economic relevance has 
become more apparent through their cooperation in support of a 
sustainable global recovery over the past few years. Our interest must 
be in developing a positive, cooperative, and comprehensive 
relationship with China that delivers benefits to both our countries 
and to the broader international community.
    As a part of developing this relationship, we must find ways to 
address the array of issues born of our substantial and complex 
bilateral economic engagement. To be effective, we must press for 
changes and encourage positive developments in China's policies and 
behavior through a coordinated U.S. approach. This approach must be 
based on results-oriented dialogue, both in our bilateral engagements 
as well as in international fora such as the G20.
    We will need to look closely at ways to enhance our engagement with 
China as it emerges from its ongoing leadership transition. We must 
build on the successes of the U.S.-China Strategic and Economic 
Dialogue and the Joint Commission on Commerce and Trade, and we must 
leverage such engagements to make progress in areas where progress has 
been insufficient.
    The management of our economic relationship cuts across a range of 
U.S. agencies, including USTR and the Departments of Treasury, 
Commerce, Energy, and Agriculture, in addition to State. If confirmed, 
I look forward to working with other agencies and with Congress to 
develop effective strategies that achieve results for U.S. businesses 
and workers.

  <diamond> (b) Do you think that the measures prescribed by the 
        legislation are helpful or harmful to your broader objectives 
        as Secretary of State?

    Answer (b). I defer specific questions about currency to the 
Treasury Department. I agree with the broader objective of leveling the 
playing field in China for U.S. businesses and workers. If confirmed, I 
would work in collaboration with other agencies to ensure that we use 
all the tools at our disposal to direct China toward full compliance 
with its international trade and commercial obligations, including its 
commitment to enhance exchange rate flexibility. China's currency has 
appreciated more than 30 percent since 2005, but the exchange rate does 
not yet fully reflect market forces.
    More broadly, we must remind China of how both our countries 
benefit from China's increased integration into the rules-based 
international economic system--and of the level playing field this 
system requires. If confirmed, I would make clear that leveling this 
playing field remains one of our top bilateral priorities.

    Question. How can the United States promote human rights in China?

    Answer. The promotion of human rights remains at the forefront of 
American diplomacy worldwide, and the U.S. Government should speak with 
one voice on our human rights concerns. We are committed to promoting 
universal values, such as transparency, rule of law, human rights, and 
good governance. We do this because it is the right thing to do, and 
also because now, more than ever, it is obvious that human rights' 
failings in countries around the world, including China, have 
consequences for U.S. interests--from economic and monetary policy, to 
climate change, to national security. All branches of the U.S. 
Government should be involved in making the case to China that the 
respect for rule of law, freedom of expression, a robust civil society 
and respect for religious and cultural differences are in its own best 
interest.
    The integration of human rights into the Strategic and Economic 
Dialogue over the past 2 years has been an important step in the right 
direction, but more can be done. We will continue efforts to bring 
together representatives of agencies working on a wide range of issues 
to discuss common issues and identify ways we can deliver a coordinated 
message to China that respect for universal human rights will help, not 
hinder, its efforts to maintain economic growth and stability.
    The human rights dialogue provides an important opportunity to have 
detailed discussions with Chinese officials on key human rights issues 
as well as an opportunity to raise cases of political prisoners. The 
dialogue fits into the administration's two-pronged approach. This 
approach combines consistently and directly raising, with Chinese 
officials at all levels, the issues that they consider to be most 
``sensitive''--like the cases of Nobel laureate Liu Xiaobo or the 
situation in Tibet--while at the same time discussing with them how 
improving protections for human rights will enable them to address the 
issues that they themselves have identified as of practical concern--
like how to respond to popular discontent with pollution and food 
safety protections.
    We will continue to support programming in the areas of rule of 
law, civil society, and public participation and broadening and 
institutionalizing dialogues that have a practical focus such as the 
Legal Experts Dialogue.
    Finally, we will continue to increase our efforts to advocate 
multilaterally, including through coordinated action with like-minded 
governments in multilateral forums.

    Question. Chinese military vessels have been increasingly engaging 
in aggressive maneuvers in the South China Sea that are perceived by 
our allies in the region, including Japan, as part of a concerted 
effort by Beijing to intimidate and project military power.

  <diamond> How should the United States react to Beijing's 
        provocations?

    Answer. The United States has a national interest in the 
maintenance of peace and stability, respect for international law, 
lawful unimpeded commerce, and freedom of navigation in the South China 
Sea.
    The United States does not take a position on competing sovereignty 
claims over land features in the South China Sea and believes the 
nations of the region should work collaboratively and diplomatically to 
resolve the various disputes without coercion, intimidation, threats, 
or the use of force.
    The United States strongly supports efforts by ASEAN and China to 
make meaningful progress toward finalizing a comprehensive Code of 
Conduct to establish rules of the road and clear procedures for 
addressing disagreements. The United States calls on the parties 
involved to accelerate progress toward a Code of Conduct.
    The United States continues to urge all parties to clarify and 
pursue their territorial and maritime claims in accordance with 
international law, including the Law of the Sea Convention.

    Question. How will the United States continue to build a 
relationship with India that establishes mutual goals and addresses 
areas of mutual concern?

    Answer. Strengthening our strategic partnership with India is a top 
priority for the United States. If confirmed, I plan to use the U.S.-
India Strategic Dialogue as a catalyst for further interagency action 
to implement the President's vision of a deepened bilateral 
relationship to face shared challenges. This vision includes five key 
areas of activity: defense cooperation; partnering on shared interests 
in South and East Asia; homeland security, intelligence, and 
counterterrorism cooperation; cooperation in multilateral institutions; 
and an enhanced economic and energy relationship.
    India will be one of our closest partners in Asia, which will 
contribute to the security of the whole region. Building on our robust 
military exercises, dialogues, and defense trade relationship ($8 
billion and growing), we seek to transition to a relationship of 
coproduction and, ultimately, joint research and development.
    In South and East Asia, we both have an interest in ensuring the 
region remains peaceful and offers opportunities for increasing trade 
and prosperity. India's economy is key to the success of the New Silk 
Road vision and to building a network of trade and transit linkages to 
its east in an Indo-Pacific Economic Corridor of enhanced prosperity 
and strengthened security for the nations of Southeast Asia, including 
Burma. Our consultations with India include trilateral discussions with 
Japan and with Afghanistan.
    We share with India the focus on preventing another attack by a 
terrorist group against U.S. or Indian interests in the region or 
elsewhere. Our joint counterterrorism efforts and enhanced information-
sharing, including through the Homeland Security Dialogue, have built 
an important new bridge between our respective governments.
    While in India, President Obama expressed support for a reformed 
U.N. Security Council that includes India as a permanent member. We 
consulted closely with India on the significant challenges addressed by 
the Security Council during India's 2-year term from 2011-2012, and 
hope to see India take a greater role in this and other institutions in 
supporting global prosperity, democratic changes, and advancing human 
dignity.
    Our strong economic relationship continues to underpin our 
bilateral ties; bilateral goods trade more than quadrupled between 2000 
and 2011 from $14.3 billion to $57.8 billion, and total trade, 
including services, is on track to reach $100 billion in the near term. 
We seek continued growth in our bilateral trade relationship, enhanced 
investment opportunities, including through the conclusion of a 
Bilateral Investment Treaty, and further opportunities for U.S. 
businesses in Indian markets. Full implementation of the U.S.-India 
Civil Nuclear Cooperation Initiative, beginning with the expected early 
conclusion of commercial contracts for U.S. firms, remains a top 
priority.
    The increasingly dense web of people-to-people ties plays an 
important role in cementing our relationship, with over 3 million 
Indian Americans in the United States and 100,000 Indian students 
studying in the United States, and contributes to the kinds of 
innovative collaboration that can benefit citizens of both countries.

    Question. What are your expectations for the scheduled Presidential 
elections in Afghanistan in 2014? What can the United States do to 
ensure those elections are free and fair, and ensure a peaceful 
transition of power?

    Answer. The Afghan Government has announced that in 2014 they will 
undertake Presidential and Provincial Council elections. Their goal for 
the Presidential election, which we share, is for a peaceful transfer 
of power from President Karzai to his successor following a credible 
and inclusive election process. We are realistic and clear-eyed about 
the challenges for the upcoming elections, but we are encouraged by 
actions the Afghans are taking in conformance with their laws and to 
honor commitments to the international community. As a crucial first 
step, the election commission has announced April 5, 2014, as the date 
for the elections, which is within the timeframe required by the Afghan 
Constitution.
    President Karzai has stated many times, including at the White 
House on January 11, 2013, that he will step down at the end of this 
term, as required by Afghanistan's Constitution. We have no reason to 
doubt his intention to step down and to transfer political authority to 
his successor following the election process.
    Afghanistan's Parliament and the Cabinet are consulting on changes 
to the legislative framework for elections and the best methods of 
identifying and registering voters to prevent fraud. We have encouraged 
the Afghan authorities to adopt laws that will both ensure the 
political independence of the election administrators and allow 
election disputes to be resolved openly and fairly.
    In President Obama's and President Karzai's joint statement of 
January 11, President Karzai outlined the Government of Afghanistan's 
plans to hold free, fair, inclusive, and democratic elections in 2014. 
The Leaders reviewed preparations for the 2014 elections and agreed 
that independent Afghan institutions are to lead election preparations 
and implementation, in close consultation with legitimate stakeholders 
in the democratic process.
    We will continue to support the Afghan electoral authorities, the 
Afghan Government, Parliament, and civil society in their efforts to 
strengthen the electoral system and to minimize electoral fraud. We are 
coordinating with the U.N. on training, public information campaigns, 
fraud mitigation, domestic observation efforts, and improved ways to 
identify eligible voters. And we will continue to consult with the 
Afghans on their support requirements from the international community.
    USAID is the lead agency in providing assistance and administering 
programs to build the capacity of Afghan institutions and civil society 
in managing and participating in electoral processes. Their emphasis is 
on supporting independent electoral institutions, expanding political 
participation, encouraging greater citizen participation in the 
elections, and building the capacity of Afghanistan's Parliament.
    Both USAID and the Department engage regularly in diplomatic 
channels with Afghan officials, civil society, and political leaders to 
support the Afghans' commitment as stated in the Strategic Partnership 
Agreement to free, fair, and transparent elections in which all those 
who participate do so freely without internal or external interference.

    Question. How do you assess the effectiveness of President Hamid 
Karzai's government? What more should the United States do to curb 
widespread corruption in the Afghan Government? Which regions might you 
anticipate a need for funding that is not in the current budget 
request?

    Answer. We have seen substantial progress over time, especially 
when we consider the baseline from where the country started. 
Afghanistan is now a democratic country with an elected government and 
a constitution that provides a framework for rule of law. The Afghan 
Government has made significant gains in providing basic education and 
health care, transportation infrastructure, and telecommunications 
capability to its people.
    At international conferences in Bonn, Istanbul, Chicago, and Tokyo, 
the international community and the Afghan Government laid out long-
term strategies in which assistance commitments from the international 
community are contingent upon the Afghans strengthening governance and 
utilizing assistance for sustainable projects that meet national 
priorities. President Obama and President Karzai signed a Strategic 
Partnership Agreement last May to set out the expectations for both 
sides as we move forward in building an enduring relationship beyond 
2014.
    There are still challenges in security, the political process, and 
economic development, which President Obama discussed with President 
Karzai during their strategic talks 2 weeks ago. During these talks, 
the two Presidents reviewed our Strategic Partnership Agreement and the 
commitments of both sides to make sure we're on the same page as the 
transition process continues. As President Karzai said in his own 
remarks during the visit, Afghanistan is a country moving forward, a 
country in which ``a new period is beginning'' and in which Afghans 
will build on the progress of the last 10 years, with U.S. support. We 
remain committed to an enduring partnership with Afghanistan that 
allows both sides to sustain and enhance the gains of the last 10 
years.
    There is no question that corruption remains a fundamental 
challenge in Afghanistan. We are working hard with Afghan partners to 
address the problem by promoting transparency and good governance while 
working to prevent fraud, waste, and abuse. And we will continue to 
side with and support the Afghan ministries, governors, and local 
leaders committed to combating corruption and delivering services to 
their people.
    President Karzai made a strong public commitment in July at the 
Tokyo conference about preventing corruption, implementing key reforms, 
and building Afghanistan's institutions. Implementation of these 
reforms will be critical to Afghanistan's long-term success. The mutual 
accountability framework agreed to in Tokyo, and the focus on 
corruption that is included in the U.S.-Afghanistan Strategic 
Partnership Agreement, gives us tools to see these commitments through. 
We were pleased to see the specific steps President Karzai ordered his 
ministries to take subsequent to the Tokyo conference in this regard.
    As a sign of progress in reducing corruption and in compliance with 
President Karzai's July 26 anticorruption decree, the Ministry of Mines 
published 210 extractive contracts previously awarded by the Government 
of Afghanistan. The Ministry of Mines also published its first and 
second reports required under the Extractives Industry Transparency 
Initiative detailing revenues from the sector for 2009 through 2011.
    The participants at Tokyo Conference last July set predictable 
levels of assistance through what we call the Transformation Decade up 
to 2024. This is contingent upon Afghanistan strengthening governance 
and implementing targeted reforms to set the foundation for sustainable 
economic growth and inclusive development.
    The current budget proposal was designed to assist Afghanistan in 
meeting the challenges of transition. It includes continued programming 
to help stabilize conflict areas and includes a new emphasis on 
development efforts in other parts of the country with high potential 
for economic growth. In addition, the budget will expand programming 
for women to ensure their gains of the last decade are maintained 
through the transition period and that women and girls continue to 
expand their productive roles in society into the future.

    Question. President Obama indicated January 11 that U.S./ISAF will 
accelerate the timeline for turnover of security responsibility to the 
Afghan Government this year.

  <diamond> (a) What is the practical effect of such an accelerated 
        security handover to planned stabilization, development, and 
        capacity-building programming in the country?

    Answer (a). The United States remains committed to our strategic 
partnership with Afghanistan and to the Lisbon timeframe we agreed upon 
with our ISAF and Afghan partners. At the NATO summit in Chicago, ISAF 
and the Afghan Government agreed that by mid-2013, Afghan forces would 
be in the lead for security across the country, with international 
forces training, advising, and assisting. Given the increasing 
capabilities of the Afghan National Security Forces, President Obama 
and President Karzai agreed in early January that we would mark that 
milestone in spring 2013. The Lisbon timeline also calls for U.S. and 
international forces to provide support to Afghan forces until full 
security responsibility is handed over at the end of 2014. At the same 
time, as part of our Strategic Partnership, we anticipate continuing 
financial and programmatic support for stabilization, development, and 
capacity-building in Afghanistan, based on the mutual accountability 
commitments made in Tokyo last year.

  <diamond> (b) What programs will be directly affected and what 
        adjustments to resource and personnel levels are to be expected 
        in 2013?

    Answer (b) We do not believe the spring milestone will have a 
significant impact on our civilian assistance programs in 2013. The 
majority of civilian assistance programs already operate without the 
need for direct security from either Afghan or international forces, 
though they benefit from the generalized security-enhancing presence of 
such forces. Also, the Afghan Public Protection Force took over 
security responsibilities last year for a number of projects that do 
require armed security around project sites.
    As part of our planning for the security transition, the Department 
of State and USAID have been increasing the amount of assistance 
implemented by the Government of Afghanistan consistent with our Tokyo 
commitments and the capacity of Afghan agencies to implement 
effectively, and we are evaluating innovative third-party monitoring 
mechanisms to ensure programs receive the proper level of oversight and 
monitoring.
    The administration is currently reviewing the overall U.S. 
Government presence, including the civilian presence. It will be based 
on mission requirements and the imperative of ensuring that all mission 
personnel can operate safely.
    In Tokyo last July, the United States and our international 
partners committed to sustain economic assistance to ensure the 
development gains of the last decade are maintained, and to support 
sustainable Afghan economic growth. As part of that commitment, the 
Government of Afghanistan explicitly endorsed the concept of mutual 
accountability, through the Tokyo Mutual Accountability Framework, and 
acknowledged that continued international assistance depends on 
strengthening good governance, grounded in human rights, the rule of 
law, and adherence to the Afghan Constitution.

    Question. While the assumption of responsibility for the entire 
country by the Government of Afghanistan remains scheduled for the end 
of 2014, many of the practical details are unclear.

  <diamond> (a) What is the current number and dispersal of U.S. 
        civilian direct hires and contract personnel in Afghanistan, 
        and how is it expected to change by the end of 2014?

    Answer (a). We have about 1,000 civilians working in Afghanistan 
under Chief of Mission authority. In addition, there are 3,229 U.S. 
contractors, 539 non-U.S. contractors and 963 Locally Engaged Staff. 
The size and scope of our post-2014 presence is under review by the 
White House. It would be inappropriate to comment until a decision has 
been made.

  <diamond> (b) When will the waiver of responsibility for training and 
        equipping of police forces in Afghanistan revert to State 
        Department?

    Answer (b). There are currently no plans for the Department to 
again assume responsibility for training and equipping the Afghan 
National Police (ANP). ANP training will continue under the NATO 
Training Mission-Afghanistan.

    Question. In 2012, the Government Accountability Office reported on 
the State Department's failure to plan and competently execute the 
critical services it took over from the Department of Defense in Iraq, 
including a failure to assess whether the Department of Defense's 
contracts in Iraq were cost-effective.

  <diamond> What steps will the State Department take to identify 
        appropriate contract planning and implementation, particularly 
        as it relates to ensuring that such opportunities are not 
        missed during the imminent change in mission for Afghanistan 
        from a military led endeavor to a civilian one?

    Answer. The Department learned much from its transition 
coordination activities moving from primarily a military mission to a 
more normalized diplomatic mission in Iraq. The Department is applying 
those lessons to transition planning for Afghanistan.

  <bullet> At the senior planning level, we are using the Executive 
        Steering Group (ESG) that was in place for Iraq as a model for 
        Afghanistan to provide Department of State and Department of 
        Defense leadership the ability to communicate and coordinate 
        across the agencies.
  <bullet> A more robust interagency planning structure, below the ESG, 
        was established by the Department called the Transition 
        Coordination Group (TCG). The TCG includes participants across 
        the State Department's regional and functional bureaus, 
        transition staff from Embassy Kabul, Department of Defense 
        officials, as well as our interagency partners.
  <bullet> The ESG and the TCG are supported by a Transition Program 
        Office (TPO). Several functional working groups report to, and 
        work with, the TPO to conduct interagency planning and 
        coordination to include an Afghanistan contracting working 
        group, that is cochaired by the State Department and the 
        Department of Defense, and conducts contract planning and 
        implementation via a whole of government approach.

    The Department is confident that our professional acquisition staff 
and the established Department transition structures are sufficient to 
handle the transition to a more traditional mission in Afghanistan.

    Question. How would you characterize the efforts of the Zardari 
government to crack down on extremism? Is it sufficient?

    Answer. The United States and Pakistan continue to have a vital, 
shared strategic interest in the fight against terrorism, and Pakistan 
has been a key ally in this fight. Pakistan has suffered greatly at the 
hands of terrorists and extremists, with more than 6,000 military and 
civilian casualties over just the past year.
    We will continue to work closely with Pakistan to eliminate the 
threats in the border areas and make both of our nations more secure.
    We are pleased that President Zardari has undertaken several 
important initiatives to counter violent extremism. For example, in 
2011, President Zardari created the Ministry of National Harmony to 
promote religious freedom and counter the extremist narrative on a 
federal level in Pakistan, and appointed Paul Bhatti as the Special 
Advisor for Religious Minorities. President Zardari subsequently added 
minority seats in the national and provincial assemblies.
    President Zardari also publically condemned the attack on Malala 
Yousafzai, the young girl shot by the Taliban for campaigning for 
girls' education. He announced that Pakistan would contribute $10 
million for the ``Malala Fund for Girls' Right to Education'' aimed at 
ensuring that all girls go to school by 2015 in line with United 
Nations Millennium goals.
    Nonetheless, we remain concerned about incitement to violence and 
the rise of extremism in Pakistan. If confirmed, I will continue to 
reach out to all sectors of Pakistani society to encourage those values 
and programs that we believe best counter violent extremism. I will 
also encourage Pakistanis to respect the rights of all citizens, 
including religious and ethnic minorities.

    Question. The United States suspended Coalition Support Funds (CSF) 
as well as Pakistan Counter-Insurgency Contingency Funds (PCF/PCCF) 
following the closure of the GLOC. Neither has been reestablished, 
although outstanding claims to CSF were paid up to the date of GLOC 
closure.

  <diamond> Do you expect this situation to change?
  <diamond> What if any requests have been made by Pakistan for CSF or 
        PCF/PCCF funding to resume and what has been the U.S. response?

    Answer. The Department of Defense suspended the Coalition Support 
Fund (CSF) program for Pakistan after Pakistan closed the ground lines 
of communication (GLOCs) with Afghanistan following the November 26, 
2011, cross-border incident that resulted in the death of 24 Pakistan 
soldiers.
    On July 2, 2012, Pakistan reopened the GLOCs and agreed on Terms of 
Reference to move two-way cargo on the transit line. Since then, 4,894 
Afghanistan-bound trucks containing military cargo have transited 
Pakistan's GLOCs. The Government of Pakistan is currently finalizing 
internal agreement on the transit mechanism to allow retrograde cargo 
to start transiting the GLOCs.
    In July, the Department of Defense authorized payment of $1.1 
billion in CSF to Pakistan for expenses incurred during military 
operations conducted July 2010-June 2011. In December, the agency 
authorized payment of another $688 million for expenses between July-
November 2011. While the GLOCs were closed, some activities funded 
through the Pakistan Counterinsurgency Capabilities Fund (PCCF) 
continued, though we calibrated our assistance deliveries in response 
to the level of cooperation on our counterterrorism efforts.
    If confirmed, I will ensure that CSF and PCCF continue to be used 
as effective tools in our shared interest of combating terrorism and 
seeing a secure, stable, and prosperous region.

    Question. The Office of the Special Representative for Afghanistan 
and Pakistan (SRAP) has provided considerable policy and programmatic 
input over the term of its existence, as has its counterpart in USAID 
the Office of Afghanistan and Pakistan Affairs (OAPA).

  <diamond> (a) Given the resignation of Ambassador Marc Grossman as 
        SRAP last month and the accelerated transition in Afghanistan, 
        will the SRAP and OAPA offices remain or be combined with their 
        respective regional offices?

    Answer (a). If confirmed, I will consult with the President and 
members of his administration on the best path forward for the Office 
of the Special Representative to Afghanistan and Pakistan and the 
Office of Afghanistan and Pakistan Affairs.

  <diamond> (b) What lessons have been drawn from the use of multiple 
        Ambassador-level officials in Afghanistan and Pakistan?

    Answer (b). Two ambassador-ranked officers (Richard Olsen, Chief of 
Mission, and Dick Hoagland, Deputy Chief of Mission) serve in Pakistan. 
However, this is coincidence, not Department policy.

    Question. The Enhanced Partnership for Pakistan is legislation in 
which you played a large role in developing and ushering through 
Congress. This law conditions certain military assistance and arms 
transfers to Pakistan on annual certifications by the Secretary of 
State related to Pakistan's performance in combating terrorism and 
strengthening democratic institutions.

  <diamond> Have these certifications been effective?
  <diamond> What more can be done to apply pressure to Pakistan to 
        address the terrorist challenge?

    Answer. One of the administration's top priorities is ensuring 
Pakistan has the capabilities necessary to be a constructive partner in 
our efforts to establish a secure, stable, and prosperous Afghanistan 
in 2014 and beyond.
    The legislation calls for the Secretary to certify Pakistan 
demonstrates continued collaboration on nuclear nonproliferation and 
sustained commitment and efforts on countering terrorism, and that 
Pakistani security forces are not substantially and materially 
intervening in civilian governance. Pakistan continues to work toward 
progress on all of these fronts.
    The certification requirements establish a baseline for measuring 
progress on our core interests with Pakistan. While the cooperation is 
not yet at the level we would like, we have seen progress in each of 
these areas and Pakistan continues military operations against 
terrorist threats.
    With over 30,000 people killed since 2001, no country has suffered 
more from terrorism than Pakistan. It is in Pakistan's clear interest 
to address the threats to its security and ours. If confirmed, I will 
apply the resources available to me to deepen cooperation on our shared 
interests.

    Question. In its 2012 report on the U.S. approach to development in 
Pakistan, the Center for Global Development gave the administration a 
near-failing grade of ``D'' on ``name a leader'' for development 
strategy in the country.

  <diamond> Should there be a single official responsible to you for 
        development strategy and management with respect to Pakistan?
  <diamond> Should you be confirmed as Secretary of State, who will you 
        designate to be the single official responsible for development 
        strategy and management of U.S. development assistance in 
        Pakistan?

    Answer. In a strategically important country such as Pakistan, it 
is critical that the State Department and USAID coordinate fully on 
U.S. assistance and development priorities and needs.
    Civilian assistance to Pakistan has received the highest level of 
attention from the Department and USAID, including by Secretary 
Clinton, Deputy Secretary Nides, and Administrator Shah.
    The Department's Office of the Special Representative for 
Afghanistan and Pakistan (SRAP), USAID's Office of Afghanistan and 
Pakistan Affairs (OAPA), and our in-country U.S. mission have been 
working in full cooperation on its strategy and management.
    If confirmed, I will carefully assess the management of our 
civilian assistance strategy in Pakistan, helping to ensure continued, 
robust interagency coordination.

    Question. Do you believe the Pakistani intelligence services are 
complicit in or turn a blind eye to the operation of extremist 
organizations within their borders, so long as the organization's 
primary targets are external? Do you believe the United States has any 
leverage to change that dynamic and how would you do so?

    Answer. The United States and Pakistan continue to have a vital, 
shared strategic interest in the fight against terrorism. Pakistan has 
suffered greatly at the hands of terrorists and extremists, with more 
than 6,000 military and civilian casualties over just the past year. 
Pakistani leaders--civilian and military alike--understand that 
Pakistan's security and economic interests will be best served by a 
more stable region free from violent extremism.
    Foreign Minister Khar has recently said that Pakistan has made a 
``strategic shift'' in recognition that traditional proxies are a 
source of instability, not of strategic influence.
    Pakistan is a key ally in the shared fight against the terrorists 
that threaten both of our countries. We continue to press Pakistani 
officials to take action against a range of terrorist groups, including 
al-Qaeda, the Haqqani Taliban Network, and Lashkar-e-Taiba. Through our 
mutual efforts with Pakistan, we have been able to substantially weaken 
al-Qaeda's leadership and operational capabilities. As President Obama 
has said, since 2001, more terrorists have been killed in Pakistan than 
in any other country. Pakistan has also publicly called on the Taliban 
to enter into a dialogue with the Afghan Government. Pakistan supported 
the listing of the Haqqani Taliban Network under the UNSCR 1988 
(Taliban sanctions) regime.
    We continue to press Pakistan to take additional steps to dismantle 
terrorist groups, no matter whom they target or where they strike. This 
includes Lashkar-e-Taiba (LeT), which carried out the attacks in Mumbai 
in 2008 that killed a number of U.S. citizens, and which we remain 
deeply concerned about. As Secretary Clinton has said, there needs to 
be a coordinated and concerted effort to combat extremists of all 
kinds, whoever they threaten. We will continue to work with Pakistan to 
eliminate the threats in the border areas and make both of our nations 
more secure.
    If confirmed, I will continue the current policy of engaging with 
Pakistan to expand our cooperation on counterterrorism challenges and 
pursue a stable, peaceful, and prosperous region. In my conversations 
with Pakistani leaders, I will underscore that confronting violent 
extremism of all kinds is in Pakistan's own interests and in the 
interest of regional stability.

    Question. Last fall, the Palestinian Authority unilaterally sought 
and gained nonmember observer state recognition in the United Nations 
General Assembly. This action is in violation of the process for final 
status negotiations established by the Oslo Accords.

  <diamond> What was the Obama administration's response thus far, and 
        will you do more?
  <diamond> Should the parties to the negotiating table, and if so, 
        what positive pressure can the United States place on them 
        toward that end?

    Answer. The administration firmly opposed the Palestinians' 
initiative to gain nonmember observer state recognition in the United 
Nations General Assembly (UNGA). The administration's entire senior 
foreign policy team, working in close coordination with Israeli 
counterparts, engaged with international partners at various levels to 
galvanize support for an alternative path that would have averted a 
vote and brought Palestinians and Israelis back to direct negotiations. 
This effort built on the administration's success since 2011 in 
blocking Palestinian attempts to seek full U.N. membership--a move that 
requires a favorable recommendation from the U.N. Security Council. 
Despite the administration's efforts to dissuade him and encourage him 
to return to direct negotiations, Palestinian Authority (PA) President 
Mahmoud Abbas would not waver from his publicly stated position that he 
would approach the General Assembly.
    Since the November 29 vote, the administration has sought, in 
coordination with Israeli officials, to persuade the Palestinian 
leadership to refrain from further action that could deepen the sense 
of crisis, further damage U.S. interests in the U.N. and other bodies 
as well as our relationship with the Palestinians, and set back 
prospects for direct negotiations. The administration has made it clear 
that we will continue to oppose firmly any and all unilateral actions 
in international bodies or treaties that circumvent or prejudge the 
very outcomes that can only be negotiated, including Palestinian 
statehood. And the administration will continue to stand up to every 
effort that seeks to delegitimize Israel or undermine its security.
    The administration's commitment to resuming direct negotiations and 
achieving a negotiated Israeli-Palestinian peace agreement based on a 
two-state solution remains unchanged. Israel's elections and upcoming 
period of government formation, coupled with ongoing efforts to sustain 
and deepen the cease-fire in Gaza, provide an opportunity for both the 
Israelis and Palestinians to step back and consider how they can create 
a context in the coming months that is conducive to resuming direct 
talks. If confirmed, I intend to continue working intensively with the 
parties to resolve issues between them, lay the ground for future 
direct talks, and, simultaneously, bolster Palestinian Authority 
efforts to maintain and strengthen robust institutions and a viable 
economy--essential to a future Palestinian state that will be a 
responsible neighbor and contribute to regional peace, security, and 
stability.

    Question. News reports indicate that, after several failed attempts 
at reaching a diplomatic solution to ending Iran's production of highly 
enriched uranium, the administration may be considering another round 
of negotiations with Iran in the coming months.

  <diamond> Is the administration prepared to enter into another round 
        of ``P5+1'' negotiations with Iran?
  <diamond> What is the timing of these negotiations?
  <diamond> What would the administration deem to be a successful 
        outcome from these negotiations?

    Answer. The P5+1 is ready to reinitiate talks and is in 
consultations now with Iran on the timing and venue of the next 
meeting. The United States and our P5+1 partners remain united in 
efforts to seek a dual-track diplomatic solution to the Iranian nuclear 
issue.
    Iran knows the kinds of concrete steps the international community 
is looking for to bring it back into full compliance with its 
international obligations. Should Iran finally be ready to engage in 
serious negotiations, the United States is ready. When Iran is prepared 
to take verifiable confidence-building measures, the United States is 
prepared to reciprocate.

    Question. What consequences is the administration prepared to 
implement should the Iranians fail to halt enrichment of uranium to 20 
percent as a first step?

    Answer. The President has stated unequivocally that the United 
States will not allow Iran to obtain a nuclear weapon, and there should 
be no doubt that the United States will use all elements of American 
power to achieve this objective.
    The administration believes it is still possible for diplomatic and 
economic efforts to prevent Iran from achieving its goal. But while the 
diplomatic window is still open, the President has made clear that it 
will not be open indefinitely, and all options remain on the table. If 
confirmed, I will support this position.

    Question. Were you surprised by the Assad regime's bloody crackdown 
on its own people? Do you think the State Department was unprepared?

    Answer. The State Department has documented gross human rights 
violations committed by the Syrian regime for decades and has 
continually sought an end to the regime's oppression. What stands out 
since the beginning of Bashar al-Assad's crackdown on nonviolent 
protests in March 2011 is not just the increasing depravity of the 
regime as it struggles to cling to power, but the courage and 
determination of the Syrian people to stand up to this brutality. The 
Department was helping Syrian dissidents even before the start of the 
uprising and we increased our assistance as the uprising spread. The 
Department has consistently supported the Syrian people's aspirations 
for a Syrian-led transition to a just, inclusive, unified and 
democratic country by isolating the regime diplomatically and 
financially, providing humanitarian assistance, and providing direct 
nonlethal support to the civilian opposition.

    Question. Last August, the President said that his ``redline'' for 
triggering U.S. action in Syria would be ``a whole bunch of chemical 
weapons moving around.'' In December, after news reports indicated that 
the Assad regime began preparing chemical weapons for use, 
administration officials indicated that it is the use of chemical 
weapons that constitutes a ``redline'' for the United States, not the 
preparation for the use of such weapons. In addition, a recent 
statement by National Security Council spokesperson, Tommy Vietor, 
appears to indicate that the administration's ``redline'' is now the 
use of weapons or a ``failure to secure'' them. This apparent 
inconsistency is troubling and confusing.

  <diamond> Please explain the administration's position on the 
        preparation for and use of chemical weapons by Syria. 
        Specifically, please describe the United States ``redlines'' 
        and describe what actions the United States would take if they 
        are crossed.

    Answer. The President has been very clear and consistent regarding 
our redlines on chemical weapons (CW). If the regime were to use CW, or 
fail to meet its obligations to secure them, the U.S. calculus would 
change. There would be consequences and the regime will be held 
accountable. We closely monitor Syria's proliferation-sensitive 
materials and facilities, and we believe that Syria's chemical weapons 
stockpile remains under Syrian Government control.

    Question. As Secretary of State, how would you pursue the American-
Egyptian relationship to better serve U.S. interests in stabilizing the 
country and preventing violent extremist organizations from operating 
within Egyptian borders?

    Answer. The stability of Egypt and the Egyptian authorities' 
efforts to prevent extremists from operating from Egyptian soil has 
been at the top of our engagement with the government. As great as our 
interest is in a stable, secure Egypt that is free from extremism, no 
one has a greater interest in achieving this stability and security 
than Egyptians themselves. These are shared threats, and we are already 
working together to meet them. The constructive Egyptian role in 
securing the Gaza cease-fire, and in making that cease-fire hold since 
November, reflects a realization of this shared threat. Egyptian 
officials also recognize the need to reassert control over areas such 
as the Sinai, and they have been working to address problems of 
stability and extremist violence in Egypt through action against 
terrorist networks, increased weapons interdiction, and plans for 
better border protection. Through our direct engagement of President 
Morsi and others and our ongoing contacts with the security 
establishment, the Obama administration is focused on ways to advance 
and assist with those efforts, including through our military 
assistance. If confirmed, I would deepen and expand this engagement, 
because continued progress on these issues will be essential to our 
relationship with Egypt.

    Question. In what ways could you use U.S. bilateral assistance and 
the U.S. influence in multilateral development organizations and banks 
to encourage Egypt to return to a constructive role in the Middle East 
peace process?

    Answer. As a regional leader, Egypt has long played an important 
role in encouraging peace efforts between Israel and the Palestinians. 
The Morsi government has sought to restore a greater regional role for 
Egypt, whose visibility on such issues had waned during and after the 
revolution. Examples include President Morsi's outspoken stance against 
the Assad regime's brutality in Syria and his work brokering the cease-
fire in Gaza.
    Egypt is now at an important crossroads. Even as it continues to 
address the difficult challenges at home, it has the potential to play 
a constructive leadership role in supporting future peace efforts 
between Israel and the Palestinians. If confirmed, I would encourage 
and seek to nurture a constructive role through serious and ongoing 
engagement and by maintaining political and security ties with Egypt 
that are in Egypt's own interest, as well as America's and Israel's. I 
believe that our sustained security assistance and the three decades of 
relationship-building it has supported together create important 
incentives toward constructive behavior.
    An Egypt consumed by financial turmoil would in no way be the most 
constructive advocate for Middle East peace. Moving forward with U.S. 
economic assistance can contribute to avoiding a further financial 
crisis and can enhance our engagement with the Egyptian leadership on 
issues most important to us, including Egypt's relations with Israel 
and a productive Egyptian effort to promote the peace process. We need 
all available tools to help us navigate crises and engage in difficult 
conversations in a tense region with pressing American interests on the 
line. An economically driven destabilization could allow a greater 
foothold for extremist voices and actors who are certain to attack the 
peace process. If we assist Egypt in achieving a successful democratic 
transition, we have a better chance of bringing the country to the 
table as a constructive partner.

    Question. How should Latin Americans view our ``Asia Pivot''? Is 
there any way they could see anything other than a deemphasis in 
priority toward the region?

    Answer. Turning with our trade partners in the Americas to take 
advantage of the opportunity for economic growth and job creation in 
the broader Pacific region is not a deemphasis, but a strategic 
approach that will serve all our citizens well in the global economy. 
Our Western Hemisphere neighbors, who buy approximately 40 percent of 
our exports globally, will remain critical to American competitiveness. 
Our key regional partners have their own cross-Pacific historic and 
economic ties and share our views on Asia-Pacific engagement. For 
example, the recently formed Alliance of the Pacific (Chile, Colombia, 
Mexico, and Peru) reflects the recognition by those nations of the 
centrality and importance of Latin America's engagement with the 
broader Asia-Pacific region. We find it noteworthy that a number of 
other nations in the hemisphere have sought observer status in this 
high-standard organization. Separately, we also work closely with 
Mexico, Canada, Chile, and Peru in the Asia Pacific Economic 
Cooperation forum on efforts to deepen regional economic integration 
and promote collaboration on issues ranging from green growth to food 
security.
    The Trans-Pacific Partnership (TPP) is the most significant and 
advanced embodiment of this shared approach. This 21st century trade 
agreement will bring together six of the most dynamic Asia-Pacific 
economies with the most open economies in the Western Hemisphere--
Chile, Peru, Mexico, Canada, and the United States--to lower trade 
barriers, raise standards, and address key nontariff barriers, 
including the behavior of state-owned enterprises, labor and the 
environment, and cross-cutting issues such as regulatory transparency. 
Such high standards will reinforce the advantages the Americas have 
built over the past 25 years of free trade and integration, and could 
serve as a benchmark for future agreements.

    Question. On December 28, President Obama signed into law the 
Countering Iran in the Western Hemisphere Act. It requires the 
Secretary of State to conduct an assessment of the threat Iran poses in 
the Americas and to develop a strategy to counter Iranian influence. 
Please provide your preliminary views regarding the nature of the 
Iranian threat in the Americas and the appropriate steps the United 
States should take to reduce the threat.

    Answer. Iran is a State Sponsor of Terrorism. Its engagement in the 
Western Hemisphere is a matter of concern and attention. Through its 
embassies, the Department and our intelligence community colleagues 
closely monitor Iran's relationship with the region and its activities. 
This is an ongoing effort that requires constant vigilance, which I 
will fully support, if confirmed.
    The Department has put in place four specific, ongoing initiatives 
to address Iran's presence in our hemisphere. First, the Department 
conducts diplomatic engagement with hemispheric partners to ensure they 
understand the nature of the Iranian Government and its activities in 
foreign environments, as well as the quality and level of activity of 
Iranians and Iranian-affiliated entities in the region. The goal of 
this outreach is to develop and maintain strong coalitions within the 
hemisphere of nations aware of and concerned about Iranian behavior. In 
part due to these consultations, many countries in the hemisphere have 
worked in multilateral fora to persuade Iran to address the 
international community's concerns about its nuclear program, support 
for terrorism, and human rights abuses.
    Second, the Department works to ensure that partner nations have 
the capacity to detect and address Iranian actions when they occur. 
With the help and support of other U.S. Government agencies, we have 
built extraordinarily strong citizen security partnerships with 
counterparts in Central America, the Caribbean, Colombia, Canada, and 
Mexico. The disruption of the plot to assassinate the Saudi Ambassador 
to the United States is an example of this successful coordination. 
Many elements of the United States Government worked together for 
months to monitor this plot, obtain more information, and bring one of 
the conspirators to justice.
    Third, when appropriate, the Department uses the robust tools 
provided by Congress to sanction or designate persons found to be 
working with or helping Iran. In 2011 the Department announced 
sanctions pursuant to the Comprehensive Iran Sanctions, Accountability, 
and Divestment Act against the Venezuelan state-owned oil company 
(PDVSA) for its $50 million in sales to Iran of a gasoline blending 
component. The Department also renewed sanctions against the Venezuela 
Military Industry Company under the Iran, North Korea, and Syria 
Nonproliferation Act because of credible information that it 
transferred or acquired equipment and technology listed on the 
multilateral export control list from one of these countries.
    Finally, the Department seeks the best and most current information 
on Iranian presence and intentions in the hemisphere from the 
intelligence community. Of central concern are the activities or 
potential activities of Iran's Islamic Revolutionary Guard Corps-Quds 
Force, Ministry of Intelligence and Security, and the Iranian-sponsored 
and U.S. designated foreign terrorist organization Hezbollah.
    I fully support the current strategy and engagement of the 
administration on this issue and, if confirmed, I will continue to 
ensure that these and other tools are used to ensure that we have the 
clearest picture of Iranian activities in the region, and that we have 
developed strong partnerships to confront them both diplomatically and 
using statutory tools.

    Question. On January 10, an ailing President Hugo Chavez missed his 
own swearing-in for a new Presidential term. How might the U.S. policy 
toward Venezuela change in a post-Chavez era?

    Answer. In the event President Chavez were to die or become 
permanently incapacitated, the Venezuelan Constitution and the Inter-
American Democratic Charter should define the way ahead for the 
citizens of Venezuela with respect to governance of their nation.
    Any political transition that takes place will be a product of 
decisions and actions by the Venezuelan people and Venezuelan 
institutions, and any new elections should be democratic, 
constitutional, peaceful, and transparent, and must respect the 
universal human rights of the Venezuelan people. If confirmed, I will 
continue to support the strengthening of democratic institutions, 
respect for freedom of expression, rule of law, and the protection of 
human rights.
    Regardless of President Chavez' fate, the United States retains its 
close and durable ties with Venezuela, which derive from a web of 
cultural, personal, and commercial connections. If confirmed, I will 
retain the United States long-stated interest in developing a 
productive and functional relationship with the Venezuelan Government 
on issues of common interest, including, but not restricted to, 
cooperation on counternarcotics, counterterrorism, commerce, and 
energy.

    Question. GAO reported in 2011 that the U.S. Government was working 
with the Haitian Government, via the Interim Haiti Recovery Commission 
(IHRC), to determine how to use and coordinate donor resources after 
the 2010 earthquake. This commission has now ceased to function. What 
steps would you take to promote coordination of the large influx of 
U.S. and other donor assistance provided to Haiti since 2010?

    Answer. The legislative mandate of the Interim Haiti Recovery 
Commission (IHRC) lapsed in October 2011. In February 2012, a shared 
commitment to Haitian-led planning resulted in an interim solution for 
coordinating foreign assistance to Haiti: A working group on aid 
coordination overseen by the Prime Minister, who also holds the 
Minister of Planning and External Cooperation portfolio. The working 
group included representatives from the G12, who represent Haiti's 12 
largest bilateral and multilateral donors and who were all part of the 
IHRC.
    In September 2012, President Michel Martelly and Prime Minister 
Laurent Lamothe announced a new, permanent mechanism for coordinating 
foreign assistance that supports Haitian development priorities. The 
announcement was well received by the international community. The new 
entity, the Framework for the Coordination of External Development Aid 
of Haiti (Cadre de Coordination de L'Aide Externe Au Development d' 
Haiti, CAED), is implemented by the Ministry of Planning and External 
Cooperation. Under Haitian Government leadership, CAED includes 
representatives from key bilateral and multilateral donors as well as 
civil society and conducts coordination meetings at the international, 
national, and sectoral levels. Primary objectives of CAED include: 
Increasing the institutional capacity of the Government of Haiti to 
manage donor coordination; ensuring coherent, harmonized and 
accountable support from international partners; aligning foreign 
assistance with national development priorities; and promoting greater 
transparency and reporting of foreign assistance uses in Haiti.
    The CAED held its inaugural meeting in Port-au-Prince in November 
2012 and is scheduled to meet again this February. The United States 
has participated in the CAED at the highest levels and continues to be 
deeply engaged with the Government of Haiti, and other international 
donors, in coordinating assistance to Haiti. In addition, the U.S. 
Government plans to provide technical assistance and other support to 
the GOH in general, and CAED in particular, to help strengthen the 
government's capacity to lead donor coordination, ensure program 
coherence, promote transparency, and improve overall aid effectiveness 
in Haiti.

    Question. The United States has long played a leading role in 
pursuing a resolution of the war between the north and south of Sudan, 
culminating in the Comprehensive Peace Agreement in 2005 and the 
successful conclusion of a referendum on the question of independence 
for South Sudan in 2011. In order to achieve this relatively peaceful 
division, the United States offered a series of improvements in its 
relations with Sudan (Khartoum).

  <diamond> What is the current status of the understanding between the 
        United States and Sudan on ``normalization'' of relations?
  <diamond> Has Sudan achieved any of the required steps, and if so, 
        what has the United States provided in return?
  <diamond> What are the specific requirements for Sudan to be removed 
        from the list of State Sponsors of Terrorism and where does 
        this process now stand?

    Answer. The U.S. Government is not proceeding with the process of 
removing Sudan from the list of State Sponsors of Terrorism. In 
November 2010 I helped deliver a message to the Government of Sudan 
laying out the administration's roadmap for normalization of relations 
between our two countries. While Sudan did allow South Sudan to gain 
independence in July 2011--a key provision of the roadmap--Sudan did 
not fulfill all the conditions necessary to begin the process for 
normalization, especially regarding issues of the disputed Abyei 
region, final border arrangements, and the Two Areas of Southern 
Kordofan and Blue Nile States.
    During their November 2011 trip to Khartoum, Deputy National 
Security Advisor Denis McDonough and Special Envoy Princeton Lyman 
expressed the United States deep concern over human rights and the 
humanitarian situation in Southern Kordofan and Blue Nile. During that 
trip, Ambassador Lyman and Mr. McDonough told the Government of Sudan 
that the United States would initiate the process of rescinding Sudan's 
designation as a State Sponsor of Terrorism if Sudan met all the 
criteria of the statute--including, (1) certification that the 
Government of Sudan has not provided any support for international 
terrorism during the preceding 6-month period, and (2) and that the 
Government has provided assurances that it will not support acts of 
international terrorism in the future--and complied with certain other 
conditions, including taking concrete steps to end the crisis in 
Southern Kordofan and Blue Nile. In particular, McDonough and Lyman 
stressed the need to end the continued bombing that is taking a 
devastating toll on civilians, to permit international humanitarian 
access to these Two Areas, and to resume negotiations with the Sudan 
People's Liberation Movement-Northern Sector to find a political 
solution to the conflict. Unfortunately, these issues remain unresolved 
and the conflict and humanitarian crisis in the Two Areas continues. 
The ongoing conflict and the Government of Sudan's refusal to allow 
international humanitarian assistance to vulnerable populations has 
caused some 216,000 refugees to cross into Ethiopia and South Sudan 
since 2011, and nearly 700,000 people to be internally displaced in the 
Two Areas.
    We also note that other issues of normalization, especially 
sanctions, are tied by statute to the conflict in Darfur. While the 
Government of Sudan signed a peace agreement in July 2011 with one of 
the rebel groups in that area, very little has been done to implement 
that agreement. The Department remains deeply concerned by the 
situation in Darfur, particularly as the conflict continues with the 
nonsignatory rebel groups and the civilian population continues to 
experience attacks, extreme suffering, and displacement.

    Question. The United States was the key interlocutor and appears to 
be the primary donor to South Sudan as it attempts to establish itself 
as a viable entity in the international order.

  <diamond> (a) What are the specific commitments that the United 
        States has made to the Republic of South Sudan? What additional 
        commitments have been made by other donors?

    Answer (a). The United States was one of the ``midwives'' of the 
creation of South Sudan in 2011. Through USAID, the State Department, 
and other USG agencies, the United States has provided humanitarian and 
development assistance throughout Sudan for many decades. This 
assistance has provided critical technical and material assistance 
that, in cooperation with southern Sudan and Sudan, made the 
implementation of the Comprehensive Peace Agreement (CPA) possible. 
U.S. support helped establish the institutions comprising the regional 
(autonomous) government of southern Sudan, and to ensure that other key 
CPA benchmarks were achieved, including the 2008 census, the 2009 
national elections, popular consultations in Blue Nile and Southern 
Kordofan, and the 2011 referendum for the self-determination of 
southern Sudan.
    Now, in the post-CPA period, the U.S. Government is committed to 
helping South Sudan become a full-fledged, economically viable 
democracy, at peace both internally and with its neighbor Sudan. In 
support of these goals, and shortly after South Sudan's independence, 
the United States and a host of international partners provided a very 
public show of support to the development of the new independent nation 
of South Sudan at the 2011 International Engagement Conference to 
ensure that the new nation starts its journey on a prosperous path. The 
U.S. Government modified its sanctions regime to facilitate South 
Sudanese oil production, and promised to promote enhanced agricultural 
growth to improve food and nutrition security in South Sudan's 
agriculture sector, to expand the delivery of quality health care 
services, and to encourage greater private sector investment in the 
country. The United States ``Troika'' partners, the United Kingdom, and 
Norway, pledged to work with the Government of the Republic of South 
Sudan (RSS) to improve transparency in governance and in oil sector 
revenue management, respectively. In addition, U.S. Government programs 
continue to build accountability and strengthen systems of management 
and governance. Humanitarian needs remain high, and the United States 
and other donors remain engaged in delivering life-saving support to 
South Sudanese in need.
    Other donors such as the United Kingdom, Norway, and the European 
Union, are similarly committed to these goals. If confirmed, I will 
continue to coordinate closely with these and other donors, as well as 
with the United Nations.
    The current fiscal crisis in South Sudan has placed a greater 
pressure on donor resources to mitigate the impacts of economic crisis 
on the well-being of the average South Sudanese. To this end, the 
administration is planning to convene a donors' meeting in early 
February to discuss creative solutions to South Sudan's economic crisis 
and to find new ways to increase involvement by, and coordination with, 
nontraditional donors.

  <diamond> (b) What resources and what programs has the United States 
        identified for the development of South Sudan and for what 
        period of time?

    Answer (b). With USAID and State assistance totaling more than $1.1 
billion, South Sudan was the largest recipient of U.S. Government 
assistance in sub-Saharan Africa during fiscal year 2012. This 
assistance included a wide range of humanitarian, security sector, food 
security, conflict mitigation, U.N. peacekeeping, democracy and 
governance, health, education, and other development aid, and aims to 
increase stability in South Sudan by targeting the following areas:

  <bullet> Conflict Mitigation and Prevention through the provision of 
        livelihoods activities, support to peace-building activities, 
        and preventing wildlife and natural resource poaching, which 
        also reduces the incidence of intertribal conflict;
  <bullet> Building of South Sudanese management capacity through the 
        provision of direct technical assistance to South Sudanese 
        leaders in key government ministries, such as the Ministry of 
        Finance and Ministry of Petroleum and Mining;
  <bullet> Food Security through the Feed the Future initiative, by 
        doubling agricultural productivity of 7,200 rural farmers 
        through the use of hybrid seeds and fertilizers, and training 
        130 small agricultural businesses in business development;
  <bullet> Economic Growth through the implementation of a 
        comprehensive agriculture strategy that has already more than 
        doubled productivity for 7,200 farmers through the introduction 
        of hybrid seeds and fertilizers; and the construction of 950 km 
        of paved roads (with another 350 km planned) in a country that 
        previously had no paved road;
  <bullet> Health Service Provision includes controlling and preventing 
        malaria, tuberculosis, HIV, polio, and neglected tropical 
        diseases, improving water supplies and hygiene, and basic 
        health services delivery;
  <bullet> Education Service Provision includes training education 
        managers and teachers, improving the safety of school 
        facilities, increasing community engagement, and encouraging 
        women's education;
  <bullet> Returnee Support including the provision of transport and 
        reintegration assistance to South Sudanese citizens returning 
        from Sudan;
  <bullet> Peacekeeping and Security Sector Reform including supporting 
        the U.N. mission in South Sudan, assisting the RSS in 
        developing a national security structure that mandates civilian 
        control and oversight of the military, removing explosive 
        remnants of war, providing training to military advisors and 
        security sector personnel, and reforming the defense and 
        criminal justice sectors;
  <bullet> Humanitarian Assistance including the provision of food aid 
        and health, nutrition, water, sanitation, and hygiene 
        interventions as well as refugee protection and assistance in 
        South Sudan and in neighboring countries; and
  <bullet> Governance and promotion of democracy including enhancing 
        political competition, encouraging free speech and media 
        independence, improving government responsiveness, and 
        encouraging inclusive and participatory development of a 
        national constitution.

    Notably, the United States recently added South Sudan to the 
countries eligible for trade benefits under the African Growth and 
Opportunity Act (AGOA).

  <diamond> (c) Are there any expectations, formal or otherwise, that 
        have been set out for the Government of South Sudan in order to 
        continue to receive U.S. support?

    Answer (c). The administration has articulated its expectations 
that South Sudan eliminate the use and recruitment of child soldiers as 
required by the Child Soldiers Prevention Act. The administration will 
also not provide assistance to South Sudanese who do not meet Leahy 
vetting standards.
    The administration has not formally or informally set conditions 
for continued support on other governance issues, but has very directly 
articulated to the Government of South Sudan the United States grave 
concerns regarding the deteriorating human rights and governance 
situation in South Sudan. If confirmed, I will continue to make this a 
key message in our interactions with South Sudanese leadership and 
explore options to support and incentivize progress. In welcoming South 
Sudan to AGOA this past December the administration highlighted its 
concerns and outlined the improvements necessary if South Sudan hopes 
to maintain its eligibility next year, such as making progress on an 
inclusive constitutional process that addresses the human rights, 
corruption, civil, political, and labor concerns.

    Question. The excerpt that follows is a description from the State 
Department Dashboard on Foreign Assistance: ``TSCTP was authorized in 
March 2005 to prevent al-Qaeda and other violent extremist 
organizations from building and sustaining safe havens in the Sahel and 
the Maghreb. This includes disrupting efforts to recruit and train new 
terrorists, particularly from the young and rural poor, and countering 
efforts to establish safe havens for domestic and outside extremist 
groups. TSCTP partner nations include Algeria, Burkina Faso, Chad, 
Mali, Mauritania, Morocco, Niger, Nigeria, Senegal, and Tunisia. TSCTP 
key priorities in the Maghreb are twofold: to create an environment 
inhospitable to terrorist and trafficking operations, and to address 
youth vulnerability to violent extremism and recruitment by terrorist 
networks.''

  <diamond> (a) What progress has been made in achieving the goals 
        described above?

    Answer (a). Building counterterrorism capacity is an important 
element of the United States broader strategy to support democratic 
development and increased prosperity among the countries of the trans-
Sahara region. The Trans-Sahara Counterterrorism Partnership (TSCTP) is 
the United States primary program to support the long-term capabilities 
of the countries in West and North Africa to address the Al Qaeda in 
the Islamic Maghreb (AQIM) threat. TSCTP, authorized in FY 2005, uses 
multisectoral approach involving the State Department, USAID, and the 
Department of Defense to address the terrorism threat in West Africa. 
Many members of TSCTP are counted among the poorest countries in the 
world and currently lack the capacity to effectively combat this threat 
over the long term. However, they have demonstrated the critical 
political will to fight terrorism and will continue to benefit from 
U.S. assistance.
    The USG counterterrorism approach in West Africa has focused on 
encouraging and enabling local ownership over counterterrorism efforts 
in the region and building sustainable capabilities that will 
ultimately deny terrorists the ability to operate with impunity. From 
the inception of the program, it was recognized that it would take many 
years to significantly improve the abilities of most of the involved 
countries to take full ownership over the defense of their vast 
territories and porous borders areas, but it was essential to continue 
to work with the countries to that ultimate objective. Another aspect 
of this approach is prevention by empowering beneficiaries to resist 
the drivers of extremism at the individual and community levels.
    U.S. counterterrorism assistance has proven valuable in improving 
the capacities of several key countries in the Sahel particularly Niger 
and Mauritania. U.S. training and equipment have assisted Mauritania to 
monitor its border with Mali and sustain professional units during 
operations against AQIM. Similarly, the United States has supported 
Niger's efforts to protect its borders and interdict terrorists 
attempting transit through its territory. Smaller programs in other 
West African countries have addressed specific needs identified by the 
partner countries and U.S. experts. Several TSCTP programs have worked 
to counter the pull of violent extremism on youth, including 
educational and training courses in Algeria and Morocco in the Maghreb, 
and extensive youth employment and outreach programs, community 
development and media activities in Niger, Chad and Mali (currently 
suspended). Internationally, the new-found focus and will on the CT 
issues in the region will be useful in reducing the extremist safe 
haven in northern Mali over the next few years.
    The United States is also working through the Global 
Counterterrorism Forum's (GCTF), including its Sahel and Criminal 
Justice/Rule of Law Working Groups, to strengthen the civilian 
capacities of countries in the region to prevent and respond to 
terrorism within a rule of law framework and to increase international 
partners' participation in capacity-building in this key region. 
Notably, the United States is leading a multilateral, GCTF-affiliated 
initiative to stand up in Tunisia the International Institute on 
Justice and the Rule of Law, which will provide CT training to criminal 
justice officials from across the Sahel and North Africa and assist 
states in transitioning away from repression and toward the rule of law 
as the basis for countering terrorism.

  <diamond> (b) What are the projected costs of the program for 2013 
        and what remains in the pipeline, unobligated from prior years?

    Answer (b). The FY 2013 funding request for TSCTP is $120 million, 
which includes funding from DOD, State, and USAID. Unobligated funds 
remain under $5 million. Of that amount, there is approximately $1M in 
FY 2012 Overseas Contingency Operations (OCO) Peacekeeping Operations 
(PKO) funds notified for TSCTP military capacity-building programs that 
are still being obligated.

    Question. In December 2012 the United Nations Security Council 
passed a resolution authorizing a political and military strategy, 
including the deployment of an African-led International Support 
Mission in Mali (AFISMA). It also provides a framework to address the 
restoration of democratic government, a negotiated solution to existing 
political grievances, restoration of territorial integrity, and 
responding to the humanitarian crisis. The State Department indicates 
that it intends to ensure AFISMA is successful and that any offensive 
operation in northern Mali is maximally effective, but the timeline it 
preferred has been sharply compressed.

    Answer. The United States supports United Nations Security Council 
Resolution 2085 and its authorization of an African-led International 
Support Mission in Mali (AFISMA). We continue to insist that such a 
force be well-led, planned, and resourced in order to be successful. 
Recognizing that the plan will continue to evolve based on the 
situation on the ground, we continue to send planners from AFRICOM to 
participate in AFISMA planning conferences to further refine and 
strengthen the mission.
    The United States believes that AFISMA is an important part of a 
comprehensive strategy to resolve the political, security, and 
humanitarian crises that plague Mali. If confirmed, I will continue to 
insist on a policy that in parallel works toward the restoration of 
democratic government through elections as soon as technically 
feasible, the conclusion of a negotiated political agreement with 
nonterrorist rebel groups, military action to dislodge terrorists from 
northern Mali, and humanitarian aid to those displaced or otherwise 
affected by the crisis.

    Question. What are the current commitments by the United States to 
AFISMA and what changes to those are being made?

    Answer. The United States has committed to provide training, 
equipment, logistics support, transport, and sustainment to the African 
troops who will participate in the AFISMA mission. The United States is 
providing this support on a voluntary bilateral basis to the AFISMA 
troop contributors. U.S. Africa Command has also deployed planners to 
assist AFISMA in strengthening the concept of operations for the 
mission. In light of the French operation, the United States plans to 
accelerate its support to AFISMA to allow the African troops to deploy 
expeditiously.

    Question. What is the United States role in AFISMA, if any?

    Answer. The United States plans to provide training, equipment, 
transport, logistics support, and sustainment to African-troops that 
participate in AFISMA. The State Department has dispatched trainers 
from the Africa Contingency Operations and Training Assistance (ACOTA) 
program to Burkina Faso, Niger, Nigeria, Togo, Benin, Senegal, and 
Ghana, to assist in accelerating predeployment training programs for 
those troop contributors. U.S. Africa Command has also deployed 
planners to assist AFISMA in strengthening the concept of operations 
for the mission.

    Question. Does the administration plan to meet France's request for 
intelligence and logistical support in Mali? Please provide specifics.

    Answer. The United States is sharing intelligence with France and 
is providing logistics support in the form of air transport of troops 
and equipment. The administration continues to review other requests 
for logistics support.

    Question. What are your plans to execute a systematic review of 
diplomatic security around the globe in the wake of Benghazi, and how 
will you reform the processes related to diplomatic security and 
physical security of mission facilities?

    Answer. Diplomacy, by nature, must be practiced in dangerous 
places. The State Department takes significant measures every day to 
protect personnel, their families, and U.S. interests overseas. The 
Accountability Review Board (ARB) convened by Secretary Clinton 
following the events in Benghazi made recommendations to improve the 
Department's ability to protect U.S. personnel and facilities abroad. 
Secretary Clinton accepted all 29 of the Board's recommendations and 
the Department has already begun implementing them. If confirmed, I 
will ensure that the Department's efforts to respond to the 
recommendations of the ARB are vigorous, complete, and timely. I am 
also committed to take actions above and beyond implementation of the 
ARB findings and if confirmed would seek your help in obtaining the 
funding necessary to do so. For example, I will continue to see that 
the Department addresses the recommendations produced by the 
Interagency Security Assessment Teams that Secretary Clinton sent to 
review the security posture at high-threat posts.
    The imperative of our reforms will be to ensure we strike the right 
balance between security and engagement to protect American lives and 
further our national interests.

    Question. How many ``temporary facilities'' are currently in 
operation under the leadership of the Department of State?

    Answer. The Department of State has ``temporary facilities'' in 
Goma, the Democratic Republic of the Congo, and El Fasher, Darfur 
Sudan. Operations at these facilities are suspended at this time 
because of civil unrest in both locations.

    Question. What ``trip wires'' are in place to determine the quick 
closure of diplomatic facilities in expeditionary environments?

    Answer. Tripwires are events that activate, initiate, or set in 
motion post plans to prevent harm to the post, its personnel, the U.S. 
citizen community, or other U.S. national interests. In the course of 
developing a post's Emergency Action Plan (EAP), the post's Emergency 
Action Committee (EAC) must review the capabilities and limitations 
that may impact post's ability to operate, communicate with the private 
U.S. citizen community, and carry out post plans in response to a 
crisis. The EAC also reviews the types of threats faced in the host 
country, then develops tripwires. Given that a number of factors, such 
as the host country's ability or willingness to respond to events, are 
considered in developing tripwires, they vary from post to post.
    Pursuant to the Accountability Review Board's recommendation, 
tripwire guidance is being reviewed. In late December, the Department 
instructed all posts to perform a review of tripwires and report if any 
had been breached in the past year. Posts have informed the Department 
of their results and their plans to update tripwires as necessary. 
After a thorough review, revised guidance responding to posts' 
tripwires will be issued via cable to all posts.

    Question. According to GAO, State's Bureau of Diplomatic Security 
has been understaffed and overtasked in recent years, jeopardizing 
aspects of its mission. GAO reported as early as 2009 that the State 
Department's responsibilities for conducting investigations had 
particularly suffered from staffing shortages as Diplomatic Security 
shifted personnel overseas. What are your plans as Secretary of State 
to ensure the Bureau is adequately staffed to carry out the 
investigations?

    Answer. The Bureau of Diplomatic Security (DS) is the security and 
law enforcement arm of the State Department and has a broad scope of 
global responsibilities, with protection of people, information, and 
property as its top priority. Overseas, DS develops and implements 
effective security programs to safeguard all personnel who work in 
every U.S. diplomatic mission around the world. DS agents in the United 
States protect the U.S. Secretary of State and scores of visiting 
dignitaries each year. DS also investigates counterintelligence 
matters, employee misconduct, and violations of the law involving U.S. 
passports and visas. Over 1,100 special agents serving as Assistant 
Regional Security Officer Investigators and in the DS Domestic 
Operations directorate and support personnel located throughout the 
United States and overseas investigate more than 8,000 passport and 
visa fraud matters and related criminal violations each year.
    I will review possible funding sources that can also be used to 
expand the DS investigative work force. I will ensure that we continue 
to strike the right staffing balance between DS domestic programs and 
overseas programs to protect the national security of the United 
States.
    In addition to ensuring adequate staffing, I am committed to 
pursuing, as I did in the Senate, the authorization of administrative 
subpoena authority for DS. This authority would expedite and improve 
the investigative process. Expedited access to these types of records 
would help DS carry out its statutory responsibilities to provide 
protection to individual protectees, support our counterintelligence 
responsibilities, assist our investigations of unauthorized 
disclosures, strengthen our investigations of visa and passport fraud, 
and other criminal investigations related to our extraterritorial 
authorities at U.S. missions abroad and protection of U.S. personnel, 
facilities, and information.

    Question. The Foreign Assistance Act has not been fully 
reauthorized for almost 30 years, and the State Department authorities 
have not been reauthorized for over 10 years. While the State 
Department has conducted a Quadrennial Diplomacy and Development Review 
(QDDR), the review does not provide a systematic evaluation of foreign 
assistance and State Department diplomatic programs to measure what 
works, eliminate duplication and waste, and reprioritize programs to 
better align with broader U.S. objectives. Do you plan to continue the 
QDDR process? If so, can I have your assurance that this process can be 
coordinated with congressional review and possible reforms, including 
those to foreign assistance?

    Answer. The Quadrennial Diplomacy and Development Review (QDDR) 
undertaken by the State Department and USAID under Secretary Clinton's 
leadership has successfully identified ways the Department of State and 
USAID can be more effective, efficient, and accountable. If confirmed, 
I will continue to strive toward this goal by both implementing the 
findings of the QDDR and regularly reviewing our programs to better 
direct and coordinate our resources.
    The Department and USAID undergo rigorous planning and assessment 
of policy priorities, program goals, and the resources required to 
achieve them when building annual budgets. In addition, both the 
Department and USAID are implementing robust evaluation policies 
developed using U.S. and international best practices. They are 
committed to monitoring and evaluating ongoing programs to identify any 
weaknesses or gaps or room for savings, and then adjusting when 
necessary to ensure programs are meeting their objectives as 
efficiently and effectively as possible. Building on the QDDR, the 
Department and USAID also have undertaken a series of reforms to 
improve development results and sustainability of U.S. foreign 
assistance.
    I place great value on congressional oversight of State and USAID 
assistance programs, which helps ensure U.S. taxpayers' money is going 
toward programs that meet our national security, foreign policy, and 
development objectives.

    Question. As a part of his Global Health Initiative, President 
Obama has sought to increase country ownership and responsibility in 
program implementation. Additionally, the President's budget has 
increasingly focused global HIV/AIDS funding toward multilateral 
implementation, particularly the Global Fund to Fight AIDS, 
Tuberculosis and Malaria (Global Fund). Ultimately, full country 
ownership of programs is the goal of any development program, and 
``multilateralization'' of the burden of AIDS treatment is a necessary 
step to ensure sustainability. These shifts, however, do present new 
challenges in terms of outcomes and accountability for programs that 
have specific, ambitious targets to achieve. While no outcome is ever 
assured, USAID's and State Department's U.S.-based implementers and 
grantees have established track records that can provide some 
understanding of what we can expect to achieve toward those program 
targets and assessing a reasonable understanding of risk to the 
taxpayer. That is, although not always ideal, we by and large have a 
good sense of what we're getting for the money. Additionally, 
competitive tendering processes produce incentives for implementers to 
provide the greatest value for the taxpayer. Some development experts 
are concerned, however, that untested or less-developed institutions 
in-country (non-U.S. implementers) cannot provide the same level of 
understanding of risk and value, and that increased reliance on host-
country ministries reduces competition. Additionally, while the recent 
institutional reforms and leadership changes at the Global Fund are 
very encouraging, its programs vary greatly in terms of outcomes, 
value-for-money, and accountability.

  <diamond> (a) What are the risks to our programs in this shift?

    Answer. To meet the goal of sustainability and a successful 
development agenda, the United States is emphasizing initiatives to 
promote greater country ownership and shared responsibility with 
partner governments, while lessening the risks to our programs. Twenty-
three of our high-investment PEPFAR countries will continue to need 
strong donor investment and technical assistance to help them reach and 
maintain the technical and financial capacity required to ensure HIV 
epidemics are controlled.
    If a dramatic and rapid shift to greater country ownership 
progresses, and governments and civil society programs are no longer 
overseen by U.S.-based implementers, without adequate technical and 
program management preparation, the standard of prevention and 
treatment may be at risk. In short, standards of quality of treatment 
and prevention must be monitored and maintained even as we shift to 
greater country ownership.
    Additionally, with a shift to local partners and government 
partners as direct program implementers, there may be a risk of delayed 
program and audit reports unless capacity is developed and expectations 
are clearly established. The Global Fund has had significant experience 
with risk mitigation, particularly with managing financial 
contributions made directly to foreign governments. Since 2010, the 
Global Fund has undergone significant reform aimed at improving 
fiduciary oversight and grant management.
    The Global Fund complements our bilateral assistance programs for 
HIV, TB, and malaria. The U.S. Government has provided leadership for 
Global Fund reform efforts and is working closely with the Global Fund 
to ensure that the transition to the new funding model is smooth and 
gaps in program support and life-saving commodities are prevented.
    Importantly, USAID is committed to increasing support for local 
partners and/or direct funding of governments where these mechanisms 
can enable us to accelerate achievement of our targets and impact. 
USAID has processes in place to determine whether financial and 
programmatic capacity requirements have been met to allow for 
investment through these local mechanisms.
    In addition, USAID mandates annual audits for all local national 
organizations and host country governments which expend $300,000 or 
more each fiscal year. The audit requirements are conducted in 
accordance with the criteria established by the Office of the Inspector 
General.

  <diamond> (b) What processes or mechanisms has the administration 
        created to assess the risk to taxpayers and to programmatic 
        objectives associated with these shifts?

    Answer (b). PEPFAR and the Global Fund are both applying several 
risk-mitigation principles including program and financial audits, 
sharing of audit results, consistent and detailed grant application 
processes requiring clear reporting on program outputs and outcomes, 
and procurement and supply-chain management capacity development to 
ensure the integrality of commodities procured with donor funds.
    To minimize the risk, S/GAC has coordinated the development of a 
``common language protocol'' based on the U.S. Government PEPFAR-
implementing agencies' terms and conditions and banking procedures 
which will ensure a robust and consistent approach to audits and 
reviews of procurement practices by government ministries. To ensure 
our programmatic objectives are achieved, PEPFAR agencies conduct joint 
supervision and monitoring exercises with government and civil society 
implementers, to ensure the integrity of program outcomes continue to 
be achieved. The information taken from these reviews allows us to 
continue to provide quality reporting on the overall impact of the 
PEPFAR program. The Global Fund, for its part, has a strong and 
independent Office of the Inspector General as well as a robust network 
of in-country auditors in the form of Local Fund Agents.
    USAID's TB and malaria programs have systems in place to routinely 
monitor programmatic implementation and assess activity financial 
status. The President's Malaria Initiative (PMI) mitigates program risk 
through our annual malaria operational planning process. In 
collaboration with the national malaria control programs in the 
countries where we work and with involvement from local and global 
malaria stakeholders, PMI interagency teams develop malaria operational 
plans that are technically and financially reviewed by the interagency 
technical working group and endorsed by the PMI Interagency Advisory 
Group.

    Question. Ambassador Eric Goosby was recently appointed to be the 
United States first diplomat specifically focusing on global health, 
leading the Department of State's Office of Global Health Diplomacy in 
addition to his established position as Global AIDS Coordinator.

  <diamond> (a) What is his specific role in terms of governance and 
        accountability of multiagency global health initiatives beyond 
        PEPFAR?

    Answer (a). As the leader of the Office of Global Health Diplomacy 
(S/GHD), Ambassador Goosby will guide diplomatic efforts to advance the 
United States global health mission to improve and save lives and 
foster sustainability--including providing diplomatic support in 
implementing the Global Health Initiative's principles and goals. 
Ambassador Leslie Rowe, a career diplomat, is responsible for the day-
to-day operations of S/GHD.
    Governance and accountability of other multiagency global health 
initiatives, such as the President's Malaria Initiative (PMI), will not 
change. Ambassadors Goosby and Rowe will be part of the leadership team 
that help guide the Global Health Initiative along with other senior 
leaders in CDC and USAID.

  <diamond> (b) Will he be responsible and accountable for governance 
        and outcomes of global health programs at USAID and at the 
        Centers for Disease Control and Prevention?

    Answer (b). No, USAID Administrator Rajiv Shaj and CDC Director Tom 
Freiden will continue to be accountable for governance and outcomes of 
global health programs at their Agencies.

  <diamond> (c) Has Ambassador Goosby been given any additional or new 
        authorities beyond those he has as Global AIDS Coordinator?

    Answer (c). As head of the GHD office, Ambassador Goosby will work 
with his colleagues to elevate progress towards achieving our global 
health goals by carrying out three major functions.
    First, the office will support ambassadors as they elevate global 
health within the diplomatic arena. S/GHD will provide ambassadors with 
guidance, technical advice, and tools to help them effectively work 
with partner country officials on global health issues affecting their 
people. S/GHD will work closely with other State Department elements, 
notably the Regional Bureaus, the Bureau for International Organization 
Affairs and the Bureau of Oceans and International Environmental and 
Scientific Affairs.
    Second, S/GHD will work to strengthen the sustainability of health 
systems by supporting partner countries as they move to country 
ownership. S/GHD will work with Ambassadors to build political will in 
countries to promote sustainable health systems without barriers to 
care.
    Third, S/GHD will promote shared responsibility. S/GHD will work to 
support countries as they serve as conveners of donors and local 
partners in-country. Stronger coordination and alignment will 
strengthen overall investments in global health, bring more donors to 
the table, and better leverage U.S. investments. On the global level, 
S/GHD will convene various U.S. Government representatives to 
international health organizations, such as the World Health 
Organization, the Global Alliance for Vaccines and Immunizations, and 
the Global Fund to Fight AIDS, Tuberculosis, and Malaria, to ensure 
U.S. investments in multilateral organizations are aligned in support 
of our overarching global health goals.

    Question. What will happen to U.S. global health programs, 
especially PEPFAR and PMI, should the sequestration reductions go into 
effect? Does the State Department and USAID have any plans to ensure 
that life-saving daily treatment programs are not interrupted?

    Answer. The sequester indiscriminately cuts all foreign assistance 
accounts across-the-board, including global health. While we would 
prioritize funds to the extent possible to continue critical, life-
saving interventions against infectious diseases and in other health 
areas, sequestration could indeed impact our ability to meet our key 
global health objectives in support of creating an AIDS-free generation 
and ending preventable mother and child deaths.

    Question. On September 30 of this year, the Tom Lantos and Henry J. 
Hyde United States Global Leadership Against HIV/AIDS, Tuberculosis, 
and Malaria Reauthorization Act of 2008 is set to expire. Should this 
law be reauthorized?

    Answer. The State Department and USAI D will continue the dialogue 
within the administration and the Congress regarding the 
reauthorization of the Tom Lantos and Henry J. Hyde United States 
Global Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act.

    Question. Should Congress choose to pursue the reauthorization, 
what level of funding would you recommend that the House Foreign 
Affairs Committee and the Senate Foreign Relations Committee establish 
for the AIDS, malaria, and tuberculosis programs?

    Answer. If Congress chooses to pursue reauthorization of the Tom 
Lantos and Henry J. Hyde United States Global Leadership Against HIV/
AIDS, Tuberculosis, and Malaria Reauthorization Act of 2008, the 
administration would have in-depth discussions with Congress as to 
whether and what amount funding levels would be appropriate for its 
reauthorization.
                                 ______
                                 

      Responses of Secretary-Designate John F. Kerry to Questions 
                  Submitted by Senator Robert Menendez

    Question. The U.S. Government, including the State Department, has 
spent millions of dollars equipping and training Mali's forces over the 
course of the last decade. Despite these efforts, the leader of the 
March 2012 coup was someone who, in fact, received training from the 
United States. The expansion of AQIM into Mali and the Islamist 
insurrection there demonstrates the need to build capacity in the 
region to counter terrorism.

  <diamond> How do we continue to build capacity and enhance 
        counterterrorism efforts in countries with weak governments and 
        where internal conflicts are working against our efforts?
  <diamond> How important are the issues of democratization and 
        development in the context of a comprehensive strategy to 
        combat terrorism in this region?

    Answer. The U.S. counterterrorism approach in west and north Africa 
has focused on encouraging and enabling local ownership over 
counterterrorism efforts in the region and building sustainable 
capabilities that will ultimately deny terrorists the ability to 
operate with impunity. A core part of our approach is a comprehensive 
strategy that focuses not only on strengthening the military, 
intelligence, and civilian capabilities of our partners, but supporting 
their efforts to address the political, economic, and social drivers of 
violent extremism.
    The Trans-Sahara Counterterrorism Partnership (TSCTP) was developed 
with this comprehensive approach in mind. It is aimed at increasing the 
capabilities of the countries in west and north Africa over the long 
term so they can address the evolving threat of Al Qaeda in the Islamic 
Maghreb (AQIM) and related extremist groups. The TSCTP uses a 
multisectoral approach involving the State Department, USAID, and the 
Department of Defense to address the threat of terrorism in west and 
north Africa. Many of the partner countries in TSCTP are among the 
poorest countries in the world and currently lack the capacity to 
effectively combat this threat over the long term. However, north and 
west African nations have demonstrated critical political will to fight 
terrorism and continue to benefit from U.S. assistance. At this time, 
we are not providing any security-related foreign assistance to the 
Malian Government or military, through TSCTP or otherwise, as a result 
of the March 2012 coup d'etat.
    U.S. counterterrorism assistance has proven valuable in improving 
the capacities of several key countries in the Sahel. For example, U.S. 
training and equipment helped Mauritania monitor its border with Mali 
and sustain professional units during the operations that successfully 
repelled attempted incursions by AQIM. Similarly, training and 
equipment have supported Niger's efforts to protect its borders and 
interdict terrorists attempting transiting its territory. Furthermore, 
several TSCTP programs have worked to counter the pull of violent 
extremism on youth, including educational and training courses in 
Algeria and Morocco, extensive youth employment and outreach programs, 
community development and media activities in Niger and Chad. 
Activities in Mali are currently suspended.
    The United States is also working multilaterally to advance a more 
strategic, long-term approach to address the terrorist threats in the 
region through the Global Counterterrorism Forum (GCTF), the Obama 
administration's signature initiative aimed at strengthening 
international cooperation and capacity-building efforts. The Forum's 
Sahel and Criminal Justice/Rule of Law Working Groups are working to 
strengthen the civilian capacities of countries in the region in order 
to prevent and respond to terrorism within a rule of law framework and 
are bringing together practitioners and policymakers to identify 
priorities, devise solutions, and mobilize additional resources from 
the donor community to help the region confront the terrorist threat it 
is facing. In addition, and as a demonstration of its steadfast 
commitment to promoting the rule of law as the most effective framework 
for advancing counterterrorism objectives over the long term, the 
United States is working with partners, including Tunisia, to support 
the efforts of the International Institute on Justice and the Rule of 
Law in Tunis, which will provide human rights-based CT training to 
criminal justice officials from across the Sahel and north Africa and 
assist states in transitioning away from repression and toward the rule 
of law as the basis for countering terrorism. We hope to see this 
Institute become operational by the end of 2013.

    Question. Emphasizing Counter Terrorism Diplomacy: Following the 
Obama administration's great success in removing al-Qaeda leaders from 
the battlefield and degrading networks globally, the organization has 
splintered, with small affiliated groups continuing operations around 
the world. Recent events in Mali and Algeria are demonstrative of the 
proliferation of extremist terrorist groups to Yemen, Libya, Mali, the 
Horn of Africa, and elsewhere. While support from states such as Iran, 
and affiliated groups such as Hezbollah, is important, these new groups 
are relatively self-sustaining through kidnapping and other criminal 
behavior. Many of the governments in these countries lack the 
capabilities, resources, and expertise to handle this difficult 
challenge. Going forward, it would appear that--more than ever--success 
will result from global counterterrorism cooperation and coordination.

  <diamond> How do you as Secretary of State intend to heighten the 
        pressure on these terrorist groups through bilateral and 
        multilateral means, and is the funding available to the 
        Department of State and other agencies for nonlethal 
        counterterrorism activities--i.e., training, equipping, 
        advising--in other countries sufficient?

    Answer. Al-Qaeda (AQ), its worldwide affiliates and adherents, and 
other terrorist organizations, including Hezbollah, continue to 
threaten the United States and our allies. While we have reduced the 
size of AQ's principal safe haven in the Afghanistan-Pakistan border 
area, the global network of affiliates, groups, and individuals 
inspired by the AQ ideology has expanded operations and now threatens 
other regions such as in the Maghreb, Sahel, East Africa, and Arabian 
Peninsula. Consistent with our National Counterterrorism Strategy, our 
approach to address this challenge in the coming years will focus on 
counterterrorism diplomacy--building the capacity of, and stronger 
relationships with, foreign partners both bilaterally and 
multilaterally.
    Civilian-led counterterrorism engagement, which emphasizes our 
commitment to addressing terrorism within a framework of democratic 
governance and the rule of law, offers a cooperative approach to 
working with partners--one that military action, while sometimes 
necessary, can never fully achieve. And while the military and 
intelligence communities have performed admirably over the past decade, 
civilian agencies in the United States and in partner governments 
around the world are not yet sufficiently enabled.
    To this end, we have made progress over the past 4 years in 
strengthening the civilian-side of our counterterrorism efforts. We 
have placed the highest priority on two key strategic areas: (1) 
capacity-building, which will allow countries around the world to do a 
better job countering threats within their borders and geographic 
regions, and (2) strengthening our work on countering violent 
extremism--or CVE--to blunt the attraction of violence, reduce the 
number of recruits to our enemies' cause, and ultimately address the 
``upstream factors'' of radicalization. We have also reenergized our 
diplomacy to strengthen the foreign partnerships vital to our success 
in countering terrorism and have strengthened the international 
counterterrorism architecture to ensure that we have a platform to 
advance these priorities.
    To continue building on gains made thus far, we must dramatically 
bolster the role that civilian agencies and activities play in our 
counterterrorism efforts. In many cases, our partners may have the 
political will to handle this challenge, but lack the resources and 
expertise to do so. We must provide a wide variety of civilian advice 
and assistance, particularly focusing on countries transitioning from 
emergency counterterrorism laws to a rule of law framework. We must 
place a premium on the rule of law and civilian-led efforts that enable 
foreign partners to combat terrorists themselves within the context of 
democratic governance.
    This effort includes strengthening the law enforcement and justice 
sector capabilities agencies in partner nations, providing partners 
with capabilities to protect their borders and identify and interdict 
suspected terrorists attempting to transit ports of entry, and 
delivering technical assistance to improve the ability of host 
governments to investigate and interdict the flow of money to terrorist 
groups. To this end, the Department provides assistance to judges, 
investigators, and prosecutors with an emphasis on building a 
comprehensive rule of law framework, to include training and advising. 
We also help partners stem terrorist recruitment, provide positive 
alternatives to at-risk youth, and counter the AQ narrative.
    There is a critical role for diplomacy in the broader 
counterterrorism effort. The United States needs a broad coalition of 
foreign partners to remain effective in its counterterrorism efforts, 
and the Department is leading that effort. In 2011, we established the 
Global Counterterrorism Forum (GCTF), thereby advancing the 
administration goal of building an international architecture for 
dealing with 21st century threats. The GCTF--comprised of 29 Member-
States and the European Union--brings together traditional Western 
donors, Muslim-majority nations, and major powers from around the 
globe. It offers counterterrorism policymakers and experts something 
unique: a dedicated platform to identify urgent needs and strengthen 
counterterrorism programming around the world. The GCTF has already 
developed good practices in the areas of rule of law, combating 
kidnapping for ransom, and prison deradicalization and disengagement 
and mobilized more than $175 million from our partners for capacity-
building projects to advance the implementation of these and the two 
broader GCTF strategic objectives: strengthening rule of law 
institutions and countering violent extremism.
    The Department also will continue to work through other 
multilateral organizations to build the counterterrorism capacity and 
cooperation with our foreign partners.
    The United States will, of course, continue to use all the tools at 
its disposal to protect itself and its allies from terrorism. And, as 
we go forward, the Department will make every effort to continue 
improving the essential elements of our counterterrorism diplomacy.

    Question. The U.S. State Department chronicled the effort to 
exterminate Armenians in the early 1900s--The Honorable Henry 
Morgenthau, U.S. Ambassador to Turkey from 1913-16 wrote in July 16, 
1915, telegram to the Secretary of State, ``Deportation of and excesses 
against peaceful Armenians is increasing and from harrowing reports of 
eye witnesses it appears that a campaign of race extermination is in 
progress under a pretext of reprisal against rebellion.'' The U.S. 
Consul in Aleppo, Jesse Jackson, reported to Ambassador Morgenthau on 
June 5, 1915, ``It is without doubt a carefully planned scheme to 
thoroughly extinguish the Armenian race.'' The U.S. Consul in Harput, 
Leslie Davis, reported to Ambassador Morgenthau on July 24, 1915, ``It 
has been no secret that the plan was to destroy the Armenian race as a 
race, but the methods used have been more cold-blooded and barbarous, 
if not more effective, than I had at first supposed.'' Ambassador 
Morgenthau was succeeded by the Hon. Abram I. Elkus, who served as 
Ambassador from 1916-17. On October 17, 1916, Elkus telegrammed the 
Secretary of State about the extreme measures sanctioned by the Turks, 
stating ``In order to avoid opprobrium of the civilized world, which 
the continuation of massacres [of the Armenians] would arouse, Turkish 
officials have now adopted and are executing the unchecked policy of 
extermination through starvation, exhaustion, and brutality of 
treatment hardly surpassed even in Turkish history.''

  <diamond> How does the Department refer to the events that occurred 
        during this time period?

    Answer. The U.S. Government clearly acknowledges and mourns as 
historical fact that 1.5 million Armenians were massacred or marched to 
their deaths in the final days of the Ottoman Empire. These events 
resulted in one of the worst atrocities of the 20th century, and the 
United States recognizes that they remain a great source of pain for 
the people of Armenia and of Armenian descent as they do for all of us 
who share basic universal values. The President honors the victims 
every April 24th on Remembrance Day, so that we never forget this dark 
chapter in history.

    Question. The State Department has concluded, wrongly I think, to 
not recognize the Armenian genocide despite a replete historical 
record. I think it is a grave mistake to not recognize atrocities, 
historical facts for political reasons however compelling--I think it 
sends the wrong message to perpetrators and obfuscates the ``never 
again'' policy. As a Member of the Senate you supported legislation 
recognizing the Armenian genocide and the deaths of 1.5 million 
Armenians who were brutally massacred or marched to their deaths in the 
waning days of the Ottoman Empire.

  <diamond> Will you share your views and record on this matter with 
        members of the Department and the administration?

    Answer. If confirmed as Secretary of State, my duty would be to 
represent the policies of the President and administration faithfully. 
As the President has emphasized in his April 24 Remembrance Day 
statements, the achievement of a full, frank, and just acknowledgement 
of the facts of what occurred in 1915 is in all our interests. He also 
has said that the best way to advance that goal is for the Armenian and 
Turkish people to address the facts of the past as a part of their 
efforts to move forward. The United States is encouraging Turkey at the 
highest levels to engage productively with Armenia on the normalization 
protocols, to open the border, to reinstitute transportation, 
communication, and utility links between the two countries, and to 
reestablish diplomatic relations. If confirmed, I will continue to 
strongly support all efforts to normalize bilateral relations between 
Armenia and Turkey so that together, they can forge a relationship that 
is peaceful, productive, and prosperous.

    Question. As a matter of policy, the United States has been a 
strong proponent for the normalization of relations between Armenia and 
Turkey, and as such actively supported the Protocols between Armenia 
and Turkey, which were signed in October 2009. The Protocols between 
Armenia and Turkey provided a roadmap to normalization of relations. 
However, despite its public commitments, Turkey not only failed to 
ratify them, but also sought to add conditions not in the Protocols, 
such as resolving the Nagorno-Karabakh issue. This coupled with 
Azerbaijan's counterproductive actions effectively derailed the 
process. Instead of lifting its blockade, Turkey, in coordination with 
Azerbaijan, continues to maintain its nearly 20-year long blockade 
against Armenia. Secretary Clinton has praised Armenia for its approach 
vis-a-vis normalization and has repeatedly stated that the ball is now 
in Turkey's court. Lifting of the blockade is not only the right thing 
to do; it is also long overdue.

  <diamond> Please outline the steps you will take to end Turkey's 
        blockade of Armenia and ensure that Turkey lives up to its 
        international commitments with respect to the Armenia-Turkey 
        Protocols.

    Answer. The United States believes that full normalization of 
relations between Turkey and Armenia is important not only for the 
future of both countries, but for long-term stability and security in 
the Caucasus. Normalization between Turkey and Armenia remains a 
prominent feature of our dialogue with both countries. Secretary 
Clinton and other senior officials consistently raise the protocols 
with Turkish leaders at the highest levels, and if confirmed as 
Secretary, I will ensure that the State Department continues to do so. 
While ratification of the protocols is pending, the United States has 
strongly encouraged the Government of Turkey to take other steps, such 
as reestablishing diplomatic relations with Armenia, and opening the 
border.

    Question. In late November 2012, President Obama visited Burma and 
made a historic speech at Rangoon University lauding Burma's nascent 
reform but detailing remaining steps the government needs to take to 
emerge from military autocratic rule. The day before the visit, Thein 
Sein, the President of Burma, announced pledges on specific rights 
issues. Two months after the President's trip, however, none of the 
pledges made by Burma's Government have been meaningfully implemented. 
The government of Burma pledged to release remaining political 
prisoners and create, by the end of December, a political prisoners 
review mechanism to review remaining cases in which persons claim to be 
political prisoners, but they have not done so, and have passed their 
own deadline.
    The government pledged to facilitate humanitarian access to 
conflict areas, but have largely failed to do so. The government said 
they would work to allow the U.N. High Commissioner for Human Rights to 
set up offices in Burma, but talks between the U.N. and the government 
have dragged out inconclusively, with Burmese officials now saying that 
opening an OHCHR office is just a ``proposal.'' Last and most notably, 
the Government of Burma pledged to promote peace settlements with 
ethnic groups, but this month launched a military advance on Laiza, the 
capital of Kachin State, in which they launched mortar attacks into the 
city itself, in which several civilians were killed and injured.

  <diamond> As Secretary of State, will you continue the U.S. 
        Government's action for action policy for Burma?
  <diamond> Do you interpret ``action for action'' to include punitive 
        or negative actions by the U.S. Government in response to 
        problematic actions by the Government of Burma?
  <diamond> Can you describe in specific terms what new actions you 
        would advise as Secretary of State to respond to the Government 
        of Burma not implementing its pledges from November 2012?
  <diamond> Can you describe in specific terms the circumstances under 
        which, as Secretary of State, you would advise that sanctions 
        be reimposed?
  <diamond> Can you provide two or three examples of the type of 
        circumstances in which you would advise that sanctions be 
        reimposed?

    Answer. Since President Thein Sein took office in April 2011, the 
Government of Burma has made important political and economic reforms, 
including outlawing forced labor, enacting laws promoting labor rights, 
removing restrictions on free assembly, passing a new foreign 
investment law, and allowing greater press freedom. The Burmese 
Government has also achieved progress on core concerns of the 
international community, including the release of over 500 political 
prisoners, and has entered into preliminary cease-fire agreements with 
10 out of 11 major armed ethnic groups. The National League for 
Democracy was allowed to contest seats in parliamentary by-elections 
last April, and party leader Aung San Suu Kyi, a former political 
prisoner, is now a member of Parliament. The Government of Burma has 
continued these reforms since President Obama's visit, including repeal 
of a law that had curbed free speech and formation of an anticorruption 
team headed by one of the country's two Vice Presidents.
    As part of the United States engagement with Burma, the 
administration has taken steps to match action with action, recognizing 
the reforms taken to date and encouraging further reform. The guiding 
principles of the action-for-action policy have been to support Burma's 
reforms; promote national reconciliation, including a process that 
reflects equity and fairness for Burma's ethnic minorities; build 
government and civil society capacity; empower local communities and 
civil society; and promote value-based standards for international 
engagement. If confirmed, I will continue to promote these policies and 
principles as the fundamentals of Burma's reform.
    In response to the positive reforms made by Burma, as well as calls 
by both reformist President Thein Sein and opposition leader Aung San 
Suu Kyi, the United States eased sanctions on the export of financial 
services and new investment by U.S. persons as well as the ban on the 
import of most Burmese products. However, all sanctions authorities 
were retained as an ``insurance policy'' to allow a resumption of 
restrictions if there is significant backsliding on Burma's commitment 
to reform.
    The United States also maintains a Specially Designated Nationals 
list, which includes individual and company designations of bad actors, 
including those that engage in practices that violate human rights or 
who seek to slow or hinder reform progress. This list is regularly 
reviewed and updated and is another tool to ensure that those who 
obstruct Burma's reform efforts do not benefit from Burma's renewed 
economic engagement with the United States.
    I am deeply concerned by the conflict in Kachin State, including 
the conflict's humanitarian impact and its negative implications for 
the broader process of national reconciliation. The United States has 
called on all parties to end hostilities and begin a genuine dialogue 
to achieve sustainable peace. Senior Department officials, including 
Ambassador Derek Mitchell, have raised our concerns at the highest 
levels of the Burmese Government.
    President Obama's trip to Burma in November 2012 demonstrated the 
United States support for Burma's political and economic reform 
efforts. On the eve of President Obama's visit, Burmese President Thein 
Sein announced his government's pledge to strengthen democratic 
governance. In a November 18 statement, the Burmese Government 
articulated its commitment to 11 specific issues, covering human 
rights, political prisoners, ethnic reconciliation, nonproliferation, 
good governance, and human trafficking. I am also encouraged that in 
October 2012, Burma hosted the first-ever bilateral human rights 
dialogue with the United States. Key agenda items included political 
prisoners, legal reform, military reform, and conflict in ethnic areas 
including Kachin and Rakhine states, and the ongoing use of landmines. 
The United States Embassy in Rangoon has offered assistance to the 
Burmese Government in fulfilling the government's pledges. If confirmed 
as Secretary of State, I will continue to prioritize foreign assistance 
that strengthens and deepens political and economic reforms.

    Question. The United States has a longstanding mutual defense 
treaty with the Philippines which recognizes that an armed attack in 
the Pacific area would require both signatories to act to meet the 
common danger. The United States has repeatedly reaffirmed its 
commitment to the treaty, including on September 20, 2012, by Assistant 
Secretary of State Kurt Campbell. However, there has been escalation in 
the dispute between China and the Philippines over the Scarborough 
Shoal this year, which has required Washington to clarify how the 
United States obligations under the treaty relate to maritime 
territorial disputes in the South China Sea.

  <diamond> What is your interpretation of our mutual understandings, 
        particularly in the event of a territorial conflict or crisis 
        between China and the Philippines in the South China Sea?
  <diamond> What would you communicate to China regarding potential 
        U.S. actions under the treaty in connection with Beijing's 
        dispute with Manila over the Scarborough Shoal and the Spratly 
        Islands?

    Answer. The treaty of mutual defense between the United States and 
the Philippines is the cornerstone of our relationship and remains as 
relevant today as it was when signed more than 60 years ago. However, I 
believe it is important to continue the U.S. Government's longstanding 
policy not to discuss hypothetical scenarios regarding the treaty's 
application. If confirmed, I will affirm the abiding commitment of the 
United States to the defense of the Philippines, as called for in the 
mutual defense treaty. I will also continue to underscore that while 
the United States does not take a position on competing sovereignty 
claims over land features in the South China Sea, we oppose the threat 
of force or coercion by any claimant to advance its claim.

    Question. Curbing China's Aggressive Behavior in the SCS: On 
January 1, China enacted a new border policy that authorizes Chinese 
maritime border patrols to board, search, and expel foreign ships that 
would enter what China considers its territorial waters. The 
administration is currently seeking clarification on these new Chinese 
border rules, and has characterized them as ``unclear as [to] their 
extent and purpose.'' However, these new border rules appear to me to 
be yet another manifestation of a deliberate and systematic effort by 
China to assert its sovereignty in the South China Sea and to set a new 
status quo at the expense of our allies in Southeast Asia.

  <diamond> In your opinion, how can the United States find the right 
        balance between maintaining our principled approach of 
        neutrality to the South China Sea territorial disputes while 
        also emphasizing the shared interests of the United States and 
        our Southeast Asian allies in adherence to international norms 
        that are threatened by China's increasingly aggressive 
        policies?
  <diamond> How will you orient our strategic priorities in these 
        respects?
  <diamond> Would you press China to diplomatically resolve its 
        disputes with other claimants through multilateral 
        negotiations?

    Answer. I believe the United States has a national interest in the 
maintenance of peace and stability, respect for international law, 
lawful unimpeded commerce, and freedom of navigation in the South China 
Sea.
    The United States has not taken a position on competing sovereignty 
claims over land features in the South China Sea. Nations of the region 
should work collaboratively and diplomatically to resolve the various 
disputes without coercion, intimidation, threats, or the use of force. 
In its discussions in the region, the administration has supported 
efforts to decrease tensions and bring the concerned countries together 
to resolve disagreements in accordance with international standards.
    The United States should continue to urge all parties to clarify 
and pursue their territorial and maritime claims in accordance with 
international law, including the Law of the Sea Convention. The United 
States should encourage all parties to use diplomatic and other 
peaceful avenues for resolving their disagreements, including the use 
of arbitration or other international legal mechanisms.
    The United States should continue to strongly support efforts by 
ASEAN and China to make meaningful progress toward finalizing a 
comprehensive Code of Conduct to establish a framework and clear 
procedures for addressing disagreements concerning behavior in the 
South China Sea. The United States should continue to call on the 
parties involved to accelerate progress toward concluding a Code of 
Conduct.
    U.S. treaty alliances, including those with the Philippines and 
Thailand, are the cornerstone of our strategic position in the Asia-
Pacific and continue to both ensure regional stability and enhance our 
regional leadership. In response to the developing security environment 
in Asia, I would advocate continuing to modernize U.S. alliances to 
provide the United States the flexibility to respond to a range of 
traditional and nontraditional security challenges, if confirmed. The 
United States should continue to engage and invest in the region's 
developing multilateral architecture, such as the East Asia summit and 
ASEAN Regional Forum, which can play a vital role in developing and 
reinforcing rules and norms that provide stability and build trust in 
the region as well as mobilize common action to confront shared 
challenges.
    If confirmed, I will build on the foundation laid thus far to work 
closely with our allies, partners, and friends in the region, including 
with ASEAN and with China, to encourage all sides to ease tensions 
through effective negotiations leading to a lasting resolution of 
territorial and maritime disputes.

    Question. The 1979 Taiwan Relations Act and the Six Assurances of 
1982 have contributed to the peace and stability of the Asia-Pacific 
region for the past three decades.

  <diamond> With the military balance--including air superiority--
        gradually shifting in China's favor, what are your plans to 
        implement the security commitment the United States has for 
        Taiwan under this framework?
  <diamond> As Taiwan is likely to retire some of its older fighter 
        aircraft in the next 5 to 10 years, do you support the sale of 
        more advanced aircraft to Taiwan as a part of this security 
        commitment?

    Answer. Consistent with the Taiwan Relations Act and the United 
States one China policy, the United States continues to make available 
to Taiwan the defense articles and services necessary to enable Taiwan 
to maintain a sufficient self-defense capability. This longstanding 
policy contributes to the maintenance of peace and stability across the 
Taiwan Strait.
    The volume of these sales is substantial. The United States signed 
defense-related contracts with Taiwan valued at $4.7 billion in 2012 
alone and notified Congress of over $12 billion in total sales during 
President Obama's first term.
    Signed contracts include an extensive retrofit and modernization of 
Taiwan's 
F-16 fleet and the sale of Apache attack and Blackhawk transport 
helicopters, Patriot PAC-3 Air and Missile Defense Batteries, P-3C long 
range ocean surveillance and antisubmarine aircraft, Osprey-class 
coastal mine hunters, as well as a variety of other systems, training, 
upgrades and advanced weapons and equipment.
    With respect to possible future sales of fighter aircraft to 
Taiwan, or other defense equipment, if confirmed I will continue to 
support U.S. policy to meet our commitments to Taiwan and assist Taiwan 
to maintain a sufficient self-defense capability. Doing so increases 
stability both across the Taiwan Strait and within the region.

    Question. In March 2010, then-Deputy Assistant Secretary of State 
for East Asian and Pacific Affairs David Shear said that ``the United 
States is a strong, consistent supporter of Taiwan's meaningful 
participation in international organizations.'' He also said that 
``Taiwan should be able to participate in organizations where it cannot 
be a member, such as the World Health Organization, the International 
Civil Aviation Organization, and other important international bodies 
whose activities have a direct impact on the people of Taiwan.''

  <diamond> What specific steps do you intend to take to secure such 
        meaningful participation for Taiwan in such organizations as 
        the International Civil Aviation Organization (ICAO)?

    Answer. If confirmed, I will continue U.S. policy to support Taiwan 
membership in international organizations where statehood is not a 
requirement and encourage Taiwan's meaningful participation, as 
appropriate, in organizations where its membership is not possible.
    U.S. goals for supporting Taiwan's participation include: enabling 
the people on Taiwan to comply with international regulations and 
safety guidelines, addressing trans-border health issues, facilitating 
international travel, giving and receiving appropriate international 
assistance and advice, and assisting in regional capacity-building.
    Taiwan participates in, observes, or cooperates with over 50 
international organizations. Taiwan is a member of both the Asia-
Pacific Economic Cooperation (APEC) forum and the World Trade 
Organization (WTO). It is an observer to the World Health Assembly. 
Through a Taiwan nongovernmental organization, Taiwan also observes and 
participates in the United Nations (UN) Framework Convention on Climate 
Change.
    I support Taiwan's goal to cooperate with the International Civil 
Aviation Organization (ICAO). If confirmed, I will instruct the State 
Department to continue to work with the international community to 
promote Taiwan's meaningful participation in ICAO.
    The State Department will also continue to instruct U.S. missions 
to encourage the U.N., its agencies, and other international 
organizations to increase Taiwan participation in technical or expert 
meetings.

    Question. The first Obama administration committed itself to a 
``whole of government'' approach to human rights promotion in other 
countries, leveraging interactions of all relevant agencies and 
departments involved in bilateral discussions--but there is little 
evidence that such a strategy has been developed or effected in our 
broad relationship with China.

  <diamond> What steps would you take to achieve the whole-of-
        government approach with respect to promoting human rights in 
        China?

    Answer. The promotion of human rights remains at the forefront of 
American diplomacy worldwide and the U.S. Government should speak with 
one voice on our human rights concerns. The United States is committed 
to promoting universal values, such as transparency, rule of law, human 
rights, and good governance not only because it is the right thing to 
do, but also because, human rights failings in countries around the 
world, including China, have consequences for U.S. interests. All 
branches of the U.S. Government should be involved in making the case 
to China that the respect for rule of law, freedom of expression, a 
robust civil society, recognition of internationally recognized core 
labor standards, and respect for religious and cultural differences are 
in its own best interest.
    The Assistant Secretary for Democracy, Human Rights, and Labor 
participates in the U.S.-China Strategic and Economic Dialogue (S&ED). 
The integration of human rights into the S&ED over the past 2 years has 
been an important step in the right direction, but more can be done. If 
confirmed, I will work to ensure that all U.S. agencies discuss human 
rights with China and identify ways to deliver a coordinated message to 
China that respect for universal human rights will help, not hinder, 
its efforts to maintain economic growth and stability.

    Question. Other than maintaining the bilateral human rights 
dialogue, in what other ways do you think the United States can more 
vigorously promote human rights in China? What actions can the United 
States take besides those taken in the context of the human rights 
dialogue?

    Answer. The Human Rights Dialogue is an important opportunity to 
discuss key human rights issues with Chinese officials and to raise 
cases of specific political prisoners. In addition, we consistently and 
directly raise with Chinese officials at all levels the issues that 
they consider to be most ``sensitive,'' such as the case of Nobel 
laureate Liu Xiaobo, religious freedom, or the deteriorating situation 
in Tibet. We continually emphasize to them that improving human rights 
will enable them to address the issues that they themselves have 
identified as priorities for reform, including popular discontent due 
to increasing air pollution and failure to implement food safety 
protections.
    For these reasons, the human rights dialogue is not, and should 
not, be thought of as the sole, stand-alone vehicle for our human 
rights policy and should instead be seen as one useful forum in a 
broader context of engagement.
    For instance, our Assistant Secretary for Democracy, Human Rights, 
and Labor participates in our Strategic and Economic Dialogue with 
China because human rights underlie some of our most important long-
term strategic and economic opportunities and challenges in China. 
Other senior officials from a number of Federal agencies travel to 
China or receive Chinese counterparts here. Even if these officials are 
discussing issue areas such as investment or the environment, they 
unavoidably intersect with challenges related to rule of law and human 
rights protection in China.
    If confirmed, I will explore to what extent it is possible and 
useful to increase programming in the areas of rule of law, civil 
society, and public participation as well as broaden and 
institutionalize dialogues that have a practical focus, such as the 
Legal Experts Dialogue. I will also support increasing efforts to 
advocate for human rights multilaterally, including through coordinated 
action in the United Nations and with like-minded governments in 
multilateral forums. Finally, engaging directly with the Chinese people 
on issues of importance to them is critical, and we intend to continue 
to step up our efforts through a variety of means, including social 
media. We can do this by providing to the Chinese public otherwise 
unavailable information and media reporting on issues of concern. We 
must not forget that many Chinese citizens from all walks of life are 
engaged in a dynamic discussion about the kind of society they want to 
build together. We must pay attention to this important conversation; 
we should learn from it and facilitate it.

    Question. One of the key issues facing America's competitive 
position is the theft of intellectual property, particularly in places 
like China. This is a strategic economic issue that your predecessor at 
the Department kept at the top of the economic agenda. The job losses 
from IP theft are well documented, as is the integral role that IP 
intensive industries play in the U.S. economy.

  <diamond> As Secretary of State, will you continue to ensure that IP 
        protection stays at the top of the economic agenda with China?

    Answer. If confirmed, I will ensure that the protection of 
intellectual property rights through robust laws and enforcement 
remains a top priority of the State Department's engagement with China. 
Copyrights, trademarks, patents, and trade secrets must have adequate 
safeguards in China to protect the ideas of American entrepreneurs and 
the jobs of American workers. As the Commerce Department has reported, 
IP-intensive industries support at least 40 million U.S. jobs and 
contribute more than $5 trillion to the U.S. gross domestic product. If 
confirmed, stronger intellectual property protections will continue to 
be a key component of the State Department's broader goal to require 
that China establish a level playing field for U.S. and other foreign 
businesses.
    China has taken positive actions in recent years with respect to 
the protection and enforcement of IPR. China now receives more patent 
applications than any country globally and, in the majority of IP cases 
in China, both the plaintiffs and defendants are Chinese. However, 
stronger enforcement mechanisms and efforts are still needed. Piracy 
and counterfeiting levels in China remain unacceptably high, harming 
U.S. and Chinese consumers and enterprises.
    Protection of intellectual property matters greatly to American 
businesses and consumers. If confirmed, I will ensure that the 
Department continues to engage China at all levels, including through 
the annual U.S.-China Joint Commission on Commerce and Trade (JCCT) and 
the Strategic and Economic Dialogue (S&ED), to improve the Chinese 
intellectual property rights protection environment.

    Question. Over the course of the last year, the Cuban regime has 
been engaged in an increasingly brutal crackdown on peaceful democracy 
activists on the island--more than 6,000 documented detentions and 
arrests--in addition to hold an American citizen as a hostage for 
trying to help the island's small Jewish community connect to the 
Internet. Much has been made of purported reforms in Cuba, yet the 
regime continues to detain and brutalize its own people.
    This past Sunday, the Ladies in White, a pro-democracy organization 
composed of the female relatives of current and former political 
prisoners, attempted to attend Mass as a group. More than 35 of the 
Ladies in White were intercepted, beaten with belts, threatened to 
death by agents aiming guns at them and temporarily arrested.
    Yordanis Alvares Puig, an activist of the Independent and 
Democratic Cuba opposition group, has been taken into custody to begin 
serving a 1-year prison sentence. His ``crime'' was hanging a banner in 
his home that read: ``In Cuba, there is no justice.'' This was 
prosecuted as an ``offense'' to the Castro brothers. Literally, that's 
the ``law'' that was applied.
    Also imprisoned are Sonia Garro, a Lady in White imprisoned since 
the Pope's visit in March; Calixto Martinez Arias, an independent 
journalist imprisoned since October for breaking the story on the 
cholera epidemic in Cuba; and 34 activists from the Patriotic Union of 
Cuba--the group that organized the acclaimed Varela Project--a campaign 
to put political and economic constitutional reforms to a vote through 
the initiative process. Their leader, Jose Daniel Ferrer, testified by 
telephone before this committee last year.

  <diamond> As Secretary of State, will you support peaceful activists 
        in Cuba through public statements and full funding for U.S. 
        democracy programs?

    Answer. The United States strongly supports the human rights of 
Cuban citizens, including the rights to assemble peacefully and express 
themselves freely without fear of harassment, detention, imprisonment, 
or exile. If confirmed, I will continue this administration's practice 
of speaking out against the Cuban Government's harassment and 
imprisonment of peaceful critics, such as the Ladies in White, and 
continue to support the Cuban people's desire to freely determine their 
future. I will continue our diplomats' engagement with the 
international community and all sectors of independent Cuban civil 
society, and encourage efforts to focus attention on Cuba's poor human 
rights record.
    Purposeful travel by U.S. citizens to Cuba provides opportunities 
for us to share our values and principles with the Cuban people. The 
goal of this travel is to support civil society and the free flow of 
information, fuel the emergence of a market economy, and promote the 
Cuban people's independence from the Cuban Government in support of 
their desire to freely determine their country's future. If confirmed, 
I will continue to support U.S. policies and programs that advance 
democratic values in Cuba, freedom of speech and freedom of the press, 
a strong and independent civil society, and the promotion of human 
rights.

    Question. If confirmed, will you support a reunified Cyprus with a 
single sovereignty, single international personality and single 
citizenship; and with its independence and territorial integrity 
safeguarded as described in the relevant U.N. Security Council 
resolutions?

    Answer. If confirmed, I will continue to support the reunification 
of Cyprus under a bizonal, bicommunal federation, which has been the 
longstanding policy of the United States, consistent with United 
Nations Security Council Resolutions.

    Question. If confirmed, will you support the Republic of Cyprus's 
sovereign right to explore for hydrocarbon reserves and other natural 
resources in its Exclusive Economic Zone (EEZ)? What message will you 
convey to Turkey's about Cyprus' right to declare its Exclusive 
Economic Zone and to explore for hydrocarbon resources?

    Answer. The United States recognizes Cyprus' right to an Exclusive 
Economic Zone. If confirmed, I will continue to engage Turkey on this 
matter. That said, this issue must ultimately be resolved through the 
negotiation process, under U.N. auspices, to reunify the island as a 
bizonal, bicommunal federation. Such a settlement will help to 
strengthen regional stability as it would facilitate the normalization 
of relations between Cyprus and Turkey. I do not believe that 
developing offshore energy resources need hinder the reunification 
talks. I continue to believe that, in the context of an overall 
settlement, the island's resources should be equitably shared between 
both communities.

    Question. If confirmed, will you support efforts to reopen the 
Halki Seminary so it may train future generations of Orthodox clergy?

    Answer. The United States fully supports efforts to reopen Halki 
Seminary, a vital institution of spiritual learning for Orthodox 
Christians around the world. If confirmed, I will urge the Government 
of Turkey at the highest levels to reopen the seminary as a symbol of 
the government's commitment to fully ensure religious freedom for all 
Turkey's citizens. The United States recognizes the ecumenical status 
of the Patriarchate, which is a part of the rich tradition of religious 
diversity in Turkey. The Turkish Government's return of property 
surrounding the Seminary to the Church this month is a very positive 
step, and if confirmed, I will continue to encourage all involved 
parties to work cooperatively through legislative or political 
roadblocks that are hindering the reopening of this important religious 
institution on terms acceptable to all parties.

    Question. Yesterday, Secretary Clinton testified before this 
committee on the Benghazi ARB and embassy security. This will continue 
to be a major focus of the Department under your leadership and 
ultimately the majority of the 29 ARB recommendations will be 
implemented under your leadership. One of the findings of the ARB was 
that there were failures on both ends--at the U.S. Embassy in Tripoli, 
as well as with the Department here in Washington. The ARB found that 
the Embassy ``did not demonstrate strong and sustained advocacy with 
Washington for increased security for Special Mission Benghazi'' and 
that in D.C. that ``there appeared to be very real confusion over who, 
ultimately, was responsible and empowered to make decisions based on 
both policy and security considerations.''

  <diamond> What institutional, longlasting changes will you undertake 
        to improve communication at the Department to ensure that the 
        security of our embassies and the protection of our personnel 
        are given adequate consideration?
  <diamond> Will you personally oversee the implementation of the ARB 
        recommendations and task your senior leadership with making 
        this issue a continuing priority?

    Answer. Secretary Clinton accepted all 29 recommendations from the 
Benghazi Accountability Review Board (ARB). I understand the Department 
has been working diligently on addressing these recommendations, with 
some recommendations already completed and the others either well on 
their way toward completion or with plans for implementation being 
actively formulated.
    As I noted during my confirmation hearing on January 24, if 
confirmed I will personally oversee the implementation of the ARB 
recommendations and will ensure that my senior leadership makes it a 
top priority. I am also committed to take actions above and beyond 
implementation of the ARB findings.
    If confirmed, during my tenure as Secretary I will work to make 
sure that the security of our embassies and the protection of our 
personnel are given full consideration. With the ARB findings as a 
guide, I will improve communication on security issues within the 
Department.

    Question. The World Bank has stated it wants to be a leader on 
climate change. As one of the Nation's foremost leaders on climate how 
can we best make that aspiration a reality?
    One of your new responsibilities as Secretary of State will be to 
take charge of the resubmitted permit request by TransCanada to 
construct the Keystone XL tar sands pipeline across the U.S. border 
from Canada.

  <diamond> Will that decision take into account the potential climate 
        related impacts from permitting the pipeline?

    Answer. The World Bank plays an important role on climate issues by 
offering technical advice on sound environmental practices, financing 
commercially viable investments on clean and renewable energy and 
energy conservation, and helping countries adapt to the impacts of 
climate change. If confirmed, I will work with the World Bank to 
continue its ongoing efforts in these areas.
    Regarding the application for a Presidential permit for the 
Keystone XL pipeline, there is a statutory process in place to review 
the application that falls to the State Department and other Federal 
agencies. Currently, the Department is developing a Supplemental 
Environmental Impact Statement consistent with the National 
Environmental Policy Act, and expects to release it in the near future. 
The Department continues to conduct its required review of the 
Presidential Permit application in a rigorous, transparent, and 
efficient manner.

    Question. You have long supported the notion that democracy 
assistance is an investment, not a gift, and that, if made now, will 
promote our own national security and global stability in the future.

  <diamond> As states across the Middle East work through difficult 
        transitions from authoritarianism to democracy, what 
        investments should the United States make to assist states 
        transitioning to full democracies?
  <diamond> And once the United States has committed to investing in 
        democracy promotion, often implemented through civil society 
        organizations, how do you intend to achieve this goal in 
        countries such as Egypt, the UAE, and Russia, which have 
        actively closed the offices of those very democracy promoting 
        civil society organizations funded by the U.S. taxpayer?

    Answer. The United States holds a long tradition of engagement and 
assistance in support of democracy, human rights, and good governance 
overseas. We do so because it is consistent with our values and because 
democracies partner with the United States to advance shared interests 
around the world. Our efforts include engaging on the diplomatic front 
as well as providing assistance to governments and to nongovernmental 
partners, including civil society.
    There is no one-size-fits-all approach. In supporting democratic 
transitions across the Middle East and beyond, the United States must 
employ a sophisticated and tailored strategy, taking into consideration 
the specific context, needs, opportunities, and challenges posed in 
each country. We should also take into consideration the tools at our 
disposal, the areas in which we have a comparative advantage and 
potential partners for our work. But at a time of transition and 
turmoil across the Middle East and elsewhere, steadfast U.S. support 
for democratic principles and practices has never been more important.
    As you mention, several governments have sought to constrain civil 
society, creating additional obstacles for U.S. democracy assistance. 
In environments such as these, we must be creative in our approaches, 
forthright in our support for civil society and universal rights, and 
tailor our response to the specific country situation. If confirmed, I 
would be happy to have State Department officials brief you further on 
our approach to working in such environments.

    Question. The United States has a longstanding and unwavering 
relationship with Israel based on shared values and mutual interests. 
The preservation of Israel's security and protecting Israel's absolute 
and inherent right to defend itself has been an unshakable and 
fundamental pillar of U.S. Middle East policy for decades, and this 
commitment has been consistently upheld by this administration. The 
events of this past November--in which over 1,456 rockets were 
indiscriminately fired by terrorists from Hamas-controlled Gaza with 
the purpose of terrorizing Israel's civilian population and in which a 
Tel Aviv bus was bombed, wounding an additional 28 of Israel's 
citizens--underscores the dangerous and persistent threats that Israel 
continues to face and which no other democracy in the world endures.

  <diamond> As Secretary of State, what steps would you take to 
        reaffirm America's commitment to the preservation of the 
        security of the Jewish State, and to further build on the 
        existing foundation of this special relationship to ensure that 
        there is no daylight between the United States and Israel when 
        it comes to preserving Israel's security?
  <diamond> How would you work with the Egyptians to make sure that 
        Hamas complies with the cease-fire it agreed to with Israel in 
        November, which was brokered in part by Secretary Hillary 
        Clinton?
  <diamond> And how would you defend Israel in international forums--
        including at the United Nations--when Israel is unfairly 
        targeted and condemned for taking the appropriate and necessary 
        steps to protect its citizens and security?

    Answer. As President Obama has stated many times, and as the White 
House confirmed as recently as January 23 of this year, the bond 
between the United States and Israel is unshakeable. On July 27, 2012, 
the President signed the United States-Israel Enhanced Security 
Cooperation Act of 2012, which strengthens Israel's qualitative 
military edge. The President secured $205 million in FY 2011 to help 
produce Israel's Iron Dome system, which proved so effective against 
Hamas rockets and in July 2012, President Obama provided an additional 
$70 million. Over the next 3 years, the administration intends to 
request additional Iron Dome funding. Israel is scheduled to receive 
$3.1 billion in Foreign Military Financing funding for FY 2013. The 
United States and Israel are also in consultation every day, at every 
level, on the full range of security issues that affect our two 
countries.
    The Gaza cease-fire, which Egypt helped broker in November 2012, 
garnered public praise from Israeli leadership and continues to hold. 
However, issues remain to be worked out between the two sides. The flow 
of weapons into Gaza remains a serious concern, and Egypt has a 
critical role in helping to stem this flow. If confirmed, I will build 
on the work of this administration and continue to press the Egyptian 
leadership to take action against weapons smuggling while offering the 
fullest possible U.S. assistance in enhancing their capacity for 
interdiction, such as through border security equipment and training. 
Egyptian officials have shown that they understand the serious nature 
of this threat, not only to Israel and others in the region, but also 
to their own country's interests.
    The United States devotes great attention to the treatment of 
Israel in multilateral forums, including in the United Nations. If 
confirmed, I will uphold this administration's policy of working to 
normalize Israel's status, including vigorously opposing one-sided, 
biased resolutions that risk hardening the positions of both parties. I 
will also continue to ensure that Israel's legitimacy is beyond dispute 
and its security is never in doubt, including at the monthly Security 
Council sessions on the Middle East, as well as in ad-hoc gatherings, 
such as during the 2012 Gaza conflict, when the United States strongly 
condemned the rocket fire from Gaza, supported Israel's right to self-
defense in response to these rocket attacks on Israeli civilians, and 
helped secure recognition of the risk the conflict posed to both sides 
in the Council's press statement.

    Question. Preserving the 1979 Camp David Accords: The 1979 Camp 
David Accords signed between Israel and Egypt and brokered by the 
United States has been one of the signature accomplishments of U.S. 
Middle East policy to date. The agreement has ensured peace and 
stability on the Israel-Egypt border since its signing, and it has 
advanced the mutual interests of all signatories. However, President 
Mohammed Morsi of Egypt and his affiliates have alluded to amending the 
treaty in order to allow Egypt to reassert full military control of the 
Sinai.

  <diamond> As Secretary of State, will you convey to President Morsi 
        and his government in very clear terms that any action to amend 
        or abrogate the treaty, including putting it to a national 
        referendum, would require a response from the United States?
  <diamond> What actions would you be prepared to take if the Egyptian 
        Government were to move unilaterally to alter the treaty?
  <diamond> And as a followup, what further actions would you take to 
        ensure that, as the peace treaty holds, the demilitarized Sinai 
        region does not remain a hotbed for terrorists to launch 
        attacks against Israel?

    Answer. Egyptian leaders, including President Morsi and the 
country's military leadership, have repeatedly assured the United 
States of Egypt's commitment to the Treaty of Peace with Israel. If 
confirmed, I will take every opportunity to underscore with President 
Morsi and other Egyptian officials that preserving that peace is vital 
to Egypt, Israel, and the United States. This administration has made 
it unmistakably clear, both in public and in private, that Egypt's 
relationship with the United States depends on its keeping the peace 
with Israel. This is a message I will continue to deliver. And while I 
view it as a blunt instrument and last resort, with serious 
consequences to our bilateral relationship and to the region, if the 
United States sees major reversals in Egypt's democratic transition, or 
changes in their foreign and military policy that threaten the 
interests of the United States or its allies, the United States 
maintains the ability to halt its assistance to Egypt.
    Conditions in Sinai remain a serious concern and present an 
internal terrorist threat to both the Egyptian Government and Egypt's 
neighbors, as made clear in the August 5, 2012, attack that killed 16 
Egyptian soldiers. If confirmed I will continue the work of this 
administration to press for more attention to the terrorist threats in 
that region--something to which I understand the Egyptian Government 
has been responsive. I will also continue to press the Egyptian 
leadership to take action against weapons smuggling while offering the 
fullest possible U.S. assistance in enhancing their capacity for 
interdiction, such as through border security equipment and training. 
Egyptian officials have shown that they understand the serious nature 
of this threat, not only to Israel and others in the region, but also 
to their own country's interests.

    Question. A negotiated resolution to the Israeli-Palestinian 
conflict that ensures Israel's security and existence as a Jewish and 
democratic state, and that honors and respects the national aspirations 
and state sovereignty of the Palestinian people, continues to be a key 
American interest in the region. The previous two administrations 
invested heavily in resolving the conflict through tripartite 
negotiations during their last years in office, but both came up short 
of a final agreement. However, negotiations have not made any 
significant progress in the past 4 years and it is said that the 
Israelis and Palestinians have never been further apart since the 
signing of the Oslo Accords in 1993 than they are today.

  <diamond> Do you believe that there could be an opening, either now 
        or in the next 4 years, to restart meaningful negotiations 
        between the Israelis and Palestinians?
    What preconditions, if any, do you believe must be met to restart 
negotiations, and what resources, if any, would you be willing to 
expend as Secretary of State in order to bring the parties back to the 
table?

    Answer. The administration's commitment to resuming direct 
negotiations and achieving a negotiated Israeli-Palestinian peace 
agreement based on a two-state solution remains unchanged. As I stated 
during my confirmation hearing, I strongly believe that we must try to 
find a way forward on resuming negotiations, without which the 
possibility of a two-state solution could recede, which would be a 
disastrous outcome for all involved. Israel's elections and upcoming 
period of government formation, coupled with ongoing efforts to sustain 
and deepen the cease-fire in Gaza, provide an opportunity for both the 
Israelis and Palestinians to step back and consider how they and others 
can create a context in the coming months that is conducive to resuming 
direct talks. If confirmed as Secretary, I intend to work intensively 
with both parties to resolve issues between them, lay the ground for 
future direct talks, and bolster Palestinian Authority efforts to 
maintain and strengthen robust institutions and a viable economy--which 
will be essential to a future Palestinian state that is a responsible 
neighbor that contributes to regional peace, security, and stability. 
U.S. assistance to the Palestinian people is an essential part of this 
effort and is aimed at ensuring that a capable Palestinian partner and 
government, committed to peace and a two-state solution, is prepared to 
assume the full functions of statehood as a consequence of a peace 
agreement.

    Question. Within the past 16 months, President of the Palestinian 
Authority Mahmoud Abbas has twice bypassed the peace process and gone 
to the United Nations to seek a bid for statehood. In November, 
President Abbas addressed the U.N. General Assembly and won a vote to 
gain ``non-member observer state'' status over the objections of both 
Israel and the United States. The Palestinians now have the capacity to 
apply for membership to United Nations agencies such as the World 
Health Organization and, more significantly, the International Criminal 
Court. Last month, Palestinian Authority Foreign Minister Riad Malki 
threatened that the Palestinians will request membership to the 
International Criminal Court in order to file charges against Israel.

  <diamond> As Secretary of State, what would you do to prevent further 
        provocative unilateral moves by the Palestinians in 
        international forums?
  <diamond> What steps would you be willing to take against the 
        Palestinians if the ICC were to adjudicate any matter proposed 
        or supported by the Palestinian Authority?

    Answer. I am concerned that the Palestinian pursuit of membership 
as a state in the U.N. and other bodies will drive the parties further 
apart and risk hard-won progress in building Palestinian institutions. 
There is simply no substitute for direct negotiations. If confirmed as 
Secretary, I would continue to urge all parties to avoid any further 
provocative actions that circumvent or prejudge outcomes that can only 
be negotiated, including Palestinian statehood.
    Since the November 29 vote, the administration has sought, in 
coordination with Israeli officials, to persuade the Palestinian 
leadership to refrain from further action that could deepen the sense 
of crisis, further damage U.S. interests in the U.N. and other bodies 
as well as our relationship with the Palestinians, and set back 
prospects for direct negotiations. As Secretary of State, I will 
continue the administration's policy of opposing firmly any and all 
unilateral actions in international bodies or treaties that circumvent 
or prejudge the very outcomes that can only be negotiated, including 
Palestinian statehood. In addition, the United States will continue to 
stand up to every effort that seeks to delegitimize Israel or undermine 
its security.

    Question. The United States has a longstanding treaty on mutual 
cooperation and security with Japan which recognizes that an attack 
against either party in territory under Japan's administration would 
require both countries to act against the common danger. The United 
States has repeatedly reaffirmed that the scope of this treaty includes 
the Senkaku Islands, which have been administered by Japan since 1972. 
However, tensions are currently escalating between Japan and China in 
the East China Sea, and in December Japan sent eight F-15 fighter jets 
after a small Chinese propeller plane that flew over the Senkaku 
Islands.

  <diamond> What steps would you take to help reduce the risk of these 
        disputes from escalating into conflicts?
  <diamond> What will you communicate to both China and Japan regarding 
        potential U.S. actions under the treaty in connection with 
        their maritime territorial disputes in the East China Sea?

    Answer. Northeast Asia is a key engine of the global economy. As 
such, the United States, the region, and the world have an abiding 
interest in peaceful relations between China and Japan. The escalation 
of tensions is not in any party's interests.
    The United States does not take a position on the question of 
ultimate sovereignty over the islands, but calls on all sides to take 
steps to prevent incidents and manage such disputes through peaceful 
means. Diplomatic discussions to reduce tensions and manage this issue 
should be continued. If confirmed, I would urge all parties to show 
restraint and engage in meaningful dialogue in order to avoid 
misunderstanding or miscalculation. The United States has been clear on 
its longstanding policy on the Senkaku Islands, which have been under 
the administration of Japan since the reversion of Okinawa in 1972.

    Question. There is a great deal of reason to be concerned about the 
state of press freedom in many areas of the world, and Latin America in 
particular. Journalists and media owners in many countries in this 
hemisphere face serious legal, administrative, and even physical 
threats, generally in countries with democratically elected 
governments. This has dire implications for the media's ability to 
confidently and safely cover political developments in the region. In 
recent years, many Latin American Governments have exploited ``soft'' 
or indirect censorship to chip away at freedom of expression. Using 
legal, administrative, and financial pressures to influence media 
coverage, governments in the region issue decrees criminalizing libels 
laws or write new tax code to penalize critical media outlets.

  <diamond> The United States is already engaged in supporting and open 
        and independent media in this hemisphere and throughout the 
        world. As Secretary of State, what are some actions you are 
        considering to further stem the suppression of the press by 
        governments in Latin America and assist journalists whose 
        reporting place them at risk?
  <diamond> Are there interlocutors, such as the Organization of 
        American States (OAS), the Committee for the Protection of 
        Journalists, (CPJ), and national media groups in the region, 
        that we can bolster--and in some cases help reform--in order to 
        improve press freedom throughout this region and highlight the 
        critical role of the press in all democracies?

    Answer. If confirmed, I will continue to advocate publicly for 
freedom of expression and the importance of free and independent media.
    Press freedom is critical to vibrant democracies and ensuring 
freedom of expression in the Western Hemisphere requires concerted 
diplomatic and programmatic efforts. This includes working with 
multilateral institutions such the Organization of American States 
(OAS), nongovernmental organizations such as the Committee for the 
Protection of Journalists (CPJ), associations such as the Inter 
American Press Association (IAPA), and national and international media 
groups.
    If confirmed, I will maintain the wide range of activities and 
programs that support media freedom both online and offline, public 
access to information, journalistic professionalization, protection of 
journalist's legal rights, and training to enhance journalist safety.
    Under my leadership, the Department leverage multilateral 
gatherings such as the annual OAS General Assembly and the U.N. General 
Assembly, bilateral engagement opportunities, and the U.N.'s Universal 
Periodic Review process to raise attention to media freedom and call 
upon nations to adopt international standards on freedom of expression. 
This will include advocating for legal reform to establish defamation 
as a civil rather than a criminal offense.
    The United States also consistently and publicly supports the 
efforts of the OAS Special Rapporteur on Freedom of Expression, who 
plays an important role in investigating and publicizing abuses in the 
hemisphere. If confirmed, I will continue to bolster that office to 
maintain its independence and integrity.

    Question. This administration has advanced the issue of LGBT rights 
in many significant and meaningful ways. Secretary Clinton's repeated 
declarations that ``gay rights are human rights and human rights are 
gay rights'' set the framework for fundamental progress in achieving 
equality for LGBT people. And then the December 6, 2011, Presidential 
Memorandum on International Initiatives to Advance the Human Rights of 
Lesbian, Gay, Bisexual, and Transgender Persons set out to incorporate 
advocacy and programming for LGBT people in U.S. human rights policy.
    One of the first orders of business on that strategy is to address 
the wave of legislation throughout Africa, the Caribbean, and Latin 
America that criminalizes LGBT persons, and we are all familiar with 
the events in Uganda in recent years, though that we see such 
legislation on track in Malawi and Nigeria and other countries as well.
    Last month 46 faith leaders made a bold statement that disapproval 
of LGBT lifestyles should not lead to violence against LGBT people, and 
that such attacks should not be tolerated. This is an important issue 
and faith leaders are an important voice to engage in this goal.

  <diamond> LGBT rights have clearly been a priority for the President 
        and Secretary for the last 4 years. How do you see yourself 
        furthering these initiatives?
  <diamond> What influence do you think the United States can have in 
        combating criminalization of LGBT persons internationally and 
        how can the United States lead by example?

    Answer. Over the past 4 years, the United States has made important 
strides toward ensuring the equality of lesbian, gay, bisexual, and 
transgender (LGBT) people both domestically and abroad. But there is 
much work that remains.
    American leadership on human rights makes America stronger. If 
confirmed, I will be committed to advancing our leadership on human 
rights, including on the human rights of LGBT persons. This includes 
efforts to revise internal policies and procedures to further ensure 
that the State Department and USAID treat LGBT employees and their 
families with equity. I will also work closely with U.S. ambassadors 
worldwide so that advancing the human rights of LGBT individuals 
remains a central part of our human rights engagement. It is a notable 
achievement that the advancement of the human rights of LGBT people has 
become a standard part of our posts' engagement around the world. The 
State Department, together with USAID, will continue to look for new 
opportunities to collaborate with other Federal agencies operating 
abroad in order to strengthen our implementation of President Obama's 
2011 Memorandum on International Initiatives to Advance the Human 
Rights of Lesbian, Gay, Bisexual, and Transgender Persons.
    The United States opposes discrimination against LGBT persons and 
the State Department has worked closely with the White House and other 
Federal agencies to leverage the tools of the United States to oppose 
attempts to limit the human rights and fundamental freedoms of LGBT 
individuals. I am conscious that we must calibrate our engagement 
according to its context, but we have been, and will continue to be, 
committed to bringing to bear our most effective tools to oppose 
criminalization and discrimination against LGBT people around the 
world. Local and national civil society groups at home and abroad are 
critical allies in this effort and the State Department, through the 
Global Equality Fund and other initiatives, including activities 
managed by USAID, will continue to support their work, including 
through training, funding and public engagement.
    Leading by example at home is critical to exerting credible 
leadership abroad. President Obama referred to seminal moments in our 
journey ``toward a more perfect union'' in his second inaugural 
address. Our own progress sets a powerful example for the world. The 
significant steps the Obama administration has taken to ensure that the 
human rights of LGBT people are a reality in the United States have 
been and will continue to be among our most effective tools in 
empowering our engagement to advance the human rights of LGBT people 
abroad. President Obama and Secretary Clinton are rightly seen as 
leaders committed to the promises of our own Declaration of 
Independence and the Universal Declaration of Human Rights--including 
that all a created free and equal in dignity and rights--and, if 
confirmed, I will be honored to work tirelessly to continue to advance 
U.S. leadership.

    Question. With respect to the former Yugoslav Republic of 
Macedonia, on October 18, 2010, Assistant Secretary of State Philip 
Gordon stated, ``Macedonia will join [NATO] once the dispute over its 
name is resolved'' in a speech at the Center for Transatlantic 
Relations, Nitze School Advanced International Studies, Johns Hopkins 
University.

  <diamond> If confirmed will you support the position as articulated 
        by Assistant Secretary Gordon?

    Answer. If confirmed, I will fully support the decision taken at 
the 2008 NATO summit in Bucharest to invite Macedonia into NATO once 
the dispute with Greece over Macedonia's name has been resolved. The 
United States will continue to support the U.N. mediation process, and 
we hope that the leaders of Macedonia and Greece will find a mutually 
agreeable solution to the name dispute as soon as possible in the 
interest of Euro-Atlantic integration, economic prosperity, peace, and 
security in the region.

    Question. Morocco is a close and important ally, especially in the 
fight against terrorism, and your predecessor initiated a strategic 
dialogue to continue senior-level dialogue on the broad range of issues 
of vital mutual interest. The long-running dispute over the status of 
Western Sahara is one of the most prominent of these issues, and after 
decades of U.N.-sponsored negotiations, a definitive settlement has not 
been reached. Morocco has proposed an autonomy framework under which 
the affairs of the region would be managed by local authorities under 
Moroccan sovereignty. This framework has been endorsed by your three 
predecessors and strong bipartisan majorities in both Houses of the 
U.S. Congress.

  <diamond> As Secretary of State, do you plan to continue the 
        strategic dialogue framework, and what are your plans for 
        ensuring that this process generates practical results for both 
        parties?
  <diamond> With regards to the Western Sahara dispute, do you intend 
        to develop a comprehensive plan--working with our allies and 
        the U.S. Congress--to pursue and advocate the urgent resolution 
        of this issue?

    Answer. I remain committed to our strong bilateral relationship 
with Morocco, and to working with Morocco on issues of mutual concern. 
The State Department is committed to continuing the strategic dialogue 
discussion that we began with Morocco in 2012. On the Western Sahara, I 
support ongoing negotiations in the United Nations, which are led by 
Ambassador Christopher Ross, the Secretary General's Personal Envoy. As 
my predecessors have done, if confirmed I will urge the parties to the 
Western Sahara dispute to work toward a just, lasting, and mutually 
acceptable political solution, which will provide for the self-
determination of the people of Western Sahara in the context of 
arrangements consistent with the principles and purposes of the Charter 
of the United Nations.

    Question. While world powers were largely aligned in condemning 
North Korea's provocative and irresponsible launch in December of a 
two-stage ballistic rocket, that does not change the fact that it was a 
further step by North Korea toward achieving the capability to deliver 
nuclear warheads on ballistic missiles. Although the launch appears to 
be a clear setback for resumption of the six-party nuclear arms control 
talks, it appeared the outlook for such talks resuming was dismal to 
begin with.

  <diamond> The United States faces fundamental decisions on how to 
        approach North Korea. As Secretary of State, to what degree do 
        you believe the administration and our six-party talks partners 
        should try to further isolate the regime diplomatically and 
        financially?
  <diamond> Should those efforts be balanced with engagement 
        initiatives that continue to push for steps toward 
        denuclearization, or for better human rights behavior?
  <diamond> Is China a reliable partner in efforts to pressure 
        Pyongyang given its own interest in the territory?

    Answer. The United States and the Five-Party countries should 
continue to urge the leadership in Pyongyang to choose the path toward 
peace and prosperity; staying on its current path will only lead the 
North Korea deeper into isolation. The United States should continue to 
pursue its dual-track policy of pressure and engagement to sharpen the 
DPRK's choices.
    Additionally, the United States should continue to urge Pyongyang 
to address its deplorable human rights conditions and improve the 
plight of its people.
    China has played an important role as chair of the six-party talks, 
and the United States should continue to encourage China to more 
effectively leverage its unique relationship with the DPRK to achieve 
our common goal of denuclearization.

    Question. The OAS is the preeminent hemispheric organization on 
issues of promotion of democracy and human rights, the rule of law, 
economic development, and its increasingly important contribution to 
hemispheric security efforts. The United States provides over 50 
percent support of the OAS' regular budget, and the U.S. Congress 
appropriated an additional $8 million in FY 2012 in voluntary 
contributions to support key OAS programs and initiatives, including $2 
million to support the Inter-American Commission on Human Rights. 
However, the OAS is facing serious financial and administrative 
challenges that threaten its ability to carry out its core mandates. It 
is critical that we preserve the integrity of this institution, to 
allow it to continue its broad mandate of helping citizens of Latin 
American and Caribbean countries lift themselves and their societies 
out of poverty, away from extremism, and toward sustainable 
development.
    As we both stated in our joint letter last November to the Chairman 
of the OAS Permanent Council, as champions of the OAS we want it to 
remain an influential, positive force in the hemisphere, and we called 
on the OAS Permanent Council and the OAS executive leadership to take 
the actions necessary to revitalize the Organization.

  <diamond> As Secretary, how will you marshal support among the other 
        OAS member nations to ensure the necessary financial and 
        management reforms are enacted that put the Organization on a 
        more stable trajectory?

    Answer. If confirmed as Secretary, I would lead the Department of 
State's advocacy for financial and managerial reforms at all levels of 
the organization. The U.S. Permanent Mission to the OAS (USOAS) plays a 
leadership role in developing consensus among Member States to impose 
greater transparency in OAS budgetary processes, restrict the number 
people serving in ``positions of trust'' at the Secretary General's 
discretion, and require performance-based metrics in the management of 
OAS programs. USOAS is heavily involved in an ongoing exercise to 
prioritize the many OAS mandates. Secretary General Insulza recently 
published a new strategic vision, partly in response to our joint 
letter of November 2012. The document contains some helpful elements 
that USOAS is using to keep the question of OAS reform firmly on the 
agenda. Ambassador Lomellin has already announced that USOAS will place 
OAS reform on the agenda of the Permanent Council. If confirmed, I will 
engage my counterparts directly, in public and in private, to 
accelerate the significant reform efforts already underway.

    Question. The Inter-American Commission on Human Rights has played 
a critical role over the last decades in supporting greater 
democratization, respect for human rights, and spread of transparent 
and effective governance throughout the hemisphere. The United States 
longstanding financial support for the Inter-American human rights 
system (IAHRS) is evidence of the importance we place on this system 
and its collective work to promote and protect human rights and examine 
allegations of human rights violations in the hemisphere. There are 
some concerns that the ongoing initiative to ``reform'' and 
``strengthen'' the IAHRS could actually have the opposite result of 
limiting weakening the OAS human rights mandate and limiting the 
jurisdiction of the commission and human rights court.

  <diamond> If confirmed, what actions would you take as Secretary of 
        State to ensure that the Inter-American human rights system is 
        preserved, truly strengthened, and funded adequately to fulfill 
        its ambitious and exceptionally important hemispheric mandate?

    Answer. The defense and promotion of human rights is the foundation 
of the Organization of American States (OAS). The Inter-American Human 
Rights System (IAHRS), including the court and the commission, is an 
important mechanism for promoting human rights in all countries of the 
hemisphere, including the United States. If confirmed, I will ensure 
the United States remains steadfast in our support for the IAHRS and 
continues our efforts to engage more actively with the commission on 
human rights issues in our own country. We will continue to push for 
reforms that will maintain the integrity and independence of the Inter-
American Human Rights Commission and its Special Rapporteurs, and 
resist any efforts to undermine the commission or the work of its 
rapporteurs. We are in the process of selecting the strongest possible 
U.S. candidate to serve on the commission. The OAS is facing a critical 
budget crisis. I am committed to working with member states and 
permanent observers to ensure the human rights organs of the OAS are 
adequately funded.

    Question. Pakistan has become the real key to addressing American 
counterterrorism concerns in the region and we have provided billions 
of dollars in assistance to the government in exchange for what seems 
to be limited or sporadic cooperation. It is difficult to measure 
exactly what we are accomplishing with the substantial U.S. security 
and civilian programs. It is also unclear whether the administration is 
able to spend effectively the resources allocated to Pakistan.

  <diamond> Given your experience working with Pakistan, how will you 
        as Secretary of State ensure we achieve better and more 
        measurable outcomes for American support via the Enhanced 
        Partnership with Pakistan Act and DOD Coalition Support Funds, 
        in terms of countering terrorism and violent extremism, 
        preventing nuclear proliferation, and supporting stability in 
        Afghanistan?

    Answer. Our relationship with Pakistan is complex, and at times, 
difficult. Despite the challenges, both the United States and Pakistan 
recognize that it is in our strategic interests to continue a 
meaningful and productive relationship.
    Undoubtedly, Pakistan has an important role to play in the Afghan 
peace process and regional stability. Pakistan is a key ally in the 
shared fight against the terrorists that threaten both of our countries 
and we continue to press Pakistani officials to take action against any 
and all terrorist groups operating in Pakistan, including al-Qaeda, the 
Haqqani Network, Lashkar-e-Taiba, and other groups that threaten U.S., 
Pakistani, and Afghan citizens alike and collectively pose a threat to 
regional stability.
    Through our mutual efforts with Pakistan, we have been able to 
substantially weaken al-Qaeda's leadership and operational 
capabilities. Pakistan has also supported the listing of the Haqqani 
Network under the UNSCR 1988 (Taliban sanctions) regime. Of course, we 
continue to press Pakistan to take additional steps to dismantle 
terrorist groups, no matter whom they target or where they strike. We 
will continue to work with Pakistan to eliminate the threats in the 
border areas, to take steps to counter the proliferation of improvised 
explosive devices, and to make both of our nations and the region more 
secure. In this vein, Pakistan participated in a bilateral dialogue 
aimed at improving law enforcement cooperation and countering IEDs.
    On nonproliferation and nuclear issues, Pakistan has shown it can 
be constructive by continuing its participation in the Global 
Initiative to Combat Nuclear Terrorism and the Nuclear Security summit 
and we continue to engage Pakistan bilaterally on these issues. Most 
recently, we held a Strategic, Stability and Non-Proliferation dialogue 
in Islamabad on December 10, 2012.
    Continued civilian and security assistance are important parts of 
our policy of engagement. Sustained assistance in these areas is a 
long-term investment in a more stable, prosperous, tolerant, and 
democratic Pakistan.
    There is clearly room for improvement, but we are making measurable 
progress in sectors most important to Pakistan's stability: energy, 
economic growth, education, health and stabilization of the border 
areas. For example, on energy, since October 2009 U.S. assistance has 
added 400 MW to Pakistan's electricity grid, benefiting over 6.8 
million people. U.S. funded-projects will add a total of 900 MW, or 
almost half the installed capacity of the Hoover Dam, by end of 2013. 
Our stabilization initiatives aim to make communities in conflict and 
post-conflict regions inhospitable to insurgents and more supportive of 
government authorities, supporting our goal of national and regional 
security. USAID and INL have funded the construction of over 750 km of 
roads in FATA and Khyber-Pakhtunkhwa (KP), increasing commercial 
activity and stability.
    In this same vein, our security assistance programs focus on 
strengthening Pakistan's capabilities in counterterrorism and 
counterinsurgency, and on promoting closer security ties with the 
United States. Over the past few years, we have taken a closer look at 
our programs to ensure the level and type of assistance is commensurate 
with Pakistan's cooperation on our mutual interests. After a difficult 
few years, our mil-to-mil relationship is now on stronger footing and 
we are moving forward with a more realistic and narrowly focused 
program to promote joint action on areas of mutual interest.
    If confirmed, I will look to expand our cooperation with Pakistan 
on our mutual goals to pursue a stable, peaceful, and prosperous 
region. In my conversations with Pakistani leaders, I will stress the 
need for measurable progress on our shared interests.

    Question. The general lack of respect for the rights of religious 
minorities and women in Pakistan is of grave concern, and there are 
numerous examples in just the last few months of the extent of the 
problem. As an ally of Pakistan making a significant investment in its 
democratic and economic development, it must be a priority for the 
United States to support efforts to improve protection for minority 
rights in Pakistan and counter the voices and actions of often violent 
extremists.

  <diamond> While this is a long-term process, how do you as Secretary 
        of State intend to leverage our relationship to address the 
        issue of human rights and treatment of religious minorities?

    Answer. The human rights situation in Pakistan, in particular the 
treatment of religious minorities and women, as well as abuses 
committed by militants, terrorists, and extremist groups, continues to 
be a cause for concern. In recent years we have witnessed troubling 
events, such as the killings of religious freedom advocates such as 
Federal Minister Shahbaz Bhatti and Governor Salmaan Taseer, and the 
attack on Malala Yousafzai, the young girl shot by the Taliban for 
campaigning for girls' education.
    Human rights issues are, and must remain, a core aspect of our 
bilateral engagement with Pakistan, and we take all allegations of 
human rights abuses very seriously. U.S. officials have discussed 
allegations of human rights abuses with Pakistani officials and 
continue to monitor Pakistan's human rights record closely. The annual 
Human Rights and Religious Freedom Reports address this record every 
year in a forthright and objective manner.
    Under Secretary Clinton's leadership, the State Department has 
pressed the Pakistani Government to promptly investigate and hold 
accountable those who are responsible for violations of human rights. 
If confirmed, I plan to continue those efforts. We must continue to 
urge Pakistan to uphold the Pakistani Constitution and comply with its 
international obligations.
    Later this year, we look forward to timely, free, fair, and 
transparent elections that we hope will result in the first civilian 
democratic transition in Pakistan's history. If confirmed, I will 
continue the administration's efforts to provide support to Pakistan to 
strengthen the rule of law, to better enable its institutions, to hold 
perpetrators of such inhumane acts accountable, and to provide justice 
to victims of human rights violations and abuses. We must also continue 
to foster peace and interfaith dialogue in an effort to engage both the 
government and civil society to promote religious tolerance and end 
sectarian violence.
    If confirmed, I will work with PakistaniGgovernment officials and 
civil society organizations to bolster and strengthen the country's 
democratic processes and institutions, and to continue my predecessor's 
commitment to advocating on behalf of the human rights and religious 
freedom of all persons in Pakistan. I will also continue to enhance our 
engagement with all sectors of society to counter extremism and 
encourage increased collaboration to promote tolerance and respect for 
the rights of all citizens including women, and religious, and ethnic 
minorities.

    Question. Poland is the only European Union Schengen Zone country--
which allows Visa free travel within the EU--that is not a member of 
the United States Visa Waiver Program. During the last Congress, 
President Obama supported the bipartisan and bicameral legislation 
calling for the expansion of the Visa Waiver Program to include Poland. 
President Obama also reportedly assured Polish President Bronislaw 
Komorowski that the administration would resolve this issue during his 
Presidency.

  <diamond> If confirmed, will you put your support behind expanding 
        the Visa Waiver Program to include Poland, working with the 
        Congress and other agencies, as well as the White House, to set 
        the path for Poland to join the program and fulfill President 
        Obama's commitment?

    Answer. If confirmed, I will support the administration's position 
that Poland be included in the Visa Waiver Program (VWP).
    In December 2010, the President committed to working toward 
Poland's inclusion in the VWP and in May 2011 publicly supported 
proposed legislation introduced in the House and in the Senate to 
expand the criteria for VWP designation. At the request of Congress, 
the administration submitted letters on May 18, 2012, confirming that 
it fully endorses proposed VWP expansion legislation. If confirmed, I 
likewise commit to putting my support behind VWP expansion to include 
Poland. I will work with Congress to advocate passage of VWP expansion 
legislation, and with the White House and interagency to advance the 
path for fulfillment of President Obama's commitment to bring Poland 
into the program.

    Question. Over the past 2 years, we have witnessed an unprecedented 
number of humanitarian crises and complex emergencies in different 
parts of the world, including in Syria, the Horn of Africa, the 
Democratic Republic of Congo and Mali, and many other countries 
resulting in large flows of refugees into neighboring countries. The 
United States has long been a leader on refugee protection through the 
aid we provide in times of conflict, the funding support we provide to 
the U.N. Refugee Agency and other humanitarian agencies, as well as 
through our resettlement program. However, this places tremendous 
pressure on the International Affairs Budget during a time of declining 
resources.

  <diamond> As Secretary of State, what steps would you take to further 
        strengthen our leadership in helping provide protection to 
        people fleeing humanitarian crises, including rapid 
        resettlement of those still at risk despite having left their 
        country of origin?
  <diamond> How will the United States respond to the needs of people 
        affected by conflicts and natural disasters, fulfilling its 
        traditional leadership role in these types of operations around 
        the globe, as resources become increasingly constrained?

    Answer. If confirmed, I would further strengthen U.S. leadership in 
providing protection and assistance to the world's most vulnerable 
populations by marshalling the Department's diplomatic resources to: 
broker solutions that allow refugees and internally displaced persons 
(IDPs) to return voluntarily safely and with dignity; enlist support 
from other governments to contribute to solutions as political 
stakeholders, humanitarian donors, or resettlement countries; and 
ensure that the international architecture to respond to humanitarian 
emergencies is nimble, efficient and accountable.
    More than 6.8 million refugees and IDPs returned home during 2010-
2011 thanks in part to the Department's diplomatic efforts to end 
conflicts and achieve durable solutions for those who had fled. For 
example, the Department's ongoing diplomatic efforts are helping to 
achieve solutions for nearly 74,000 refugees and IDPs in the Balkans by 
committing international donors and host countries to a regional 
housing program.
    Similarly, U.S. diplomats working with the U.N. High Commissioner 
for Refugees and other countries have established Emergency Transit 
Centers in Romania, Slovakia, and the Philippines in order to provide 
more immediate protection to refugees by moving them from insecure or 
otherwise challenging circumstances while being processed for third-
country resettlement. At these centers refugees can be screened and 
interviewed for resettlement in a protected environment. In both of 
these examples, robust and innovative diplomacy has demonstrated U.S. 
humanitarian leadership with modest financial costs. If confirmed, I 
would endeavor to expand this type of leadership to address the myriad 
humanitarian challenges we face today and in the future.

    Question. The Russian Government has approved a series of laws that 
have suppressed civil society and basic liberties in Russia since March 
of this year when President Vladimir Putin was reelected to his third 
term. These laws include an increase in the fines for unapproved 
demonstrations, a requirement that NGOs that receive assistance from 
foreign governments must register as ``foreign agents'' and the 
expansion of the definition of treason to include ``providing 
consulting or other work to a foreign state or international 
organization'' that is deemed at a later date to be working against 
Russian security interests. The Russian Government also expelled USAID 
from the country in September.

  <diamond> As Secretary of State, would you find creative ways to 
        support Russian NGOs, democratization and human rights groups, 
        and signal to President Putin that these authoritarian measures 
        are counterproductive to advancing our mutual interests with 
        Russia?
  <diamond> How would you leverage the diplomatic tools that would be 
        made available to you, such as public diplomacy and the Working 
        Group on Civil Society of the U.S.-Russian Bilateral 
        Presidential Commission, to support these ends?

    Answer. The United States continues to have differences with 
Russia's leadership about human rights and growing restrictions on 
civil society. If confirmed, I will regularly and directly raise these 
concerns with Russian Government counterparts. I am committed to having 
an honest and open dialogue on civil society and human rights issues 
with the Government of Russia and with Russian civil society. In 
government-to-government discussions, I will voice concerns both 
publicly and privately about the new laws that restrict the work of 
civil society.
    The United States decided to withdraw from the Civil Society 
Working Group (CSWG) of the U.S.-Russia Bilateral Presidential 
Commission in light of recent steps taken by the Russian Government to 
impose restrictions on civil society. My commitment to engage Russian 
civil society, including by continuing to foster links between Russian 
and American civil society, remains unwavering. If confirmed, I will 
keep Congress informed of efforts to enhance these links, and I look 
forward to consulting closely with Congress as we develop ideas on how 
we can be most effective in supporting Russia's civil society 
organizations.

    Question. On December 28, President Putin signed into law a bill 
barring U.S. adoptions of Russian children which was overwhelmingly 
passed by the Duma and the Federation Council. The State Department 
estimates that as many as 1,000 pending adoptions will be impacted by 
this piece of Russian legislation, which needlessly affects thousands 
of Russian children who will tragically be without loving homes. 
However, the administration also needs to cooperate with Russia on a 
complex portfolio of international issues, including on Afghanistan, 
Syria, and the curbing of the proliferation of weapons of mass 
destruction.

  <diamond> Given the complexity of our relationship with Russia, what 
        do you believe is an appropriate American reaction to this 
        provocation?
  <diamond> As Secretary of State, how would you work to convince the 
        Russians to allow the hundreds of pending U.S. adoptions that 
        did not receive a court approval before the enactment of the 
        ban on January 1?
  <diamond> Would you be persistent in consistently communicating to 
        President Putin, Russia's Presidential Ombudsman for Children's 
        Rights Pavel Astakhov, and leaders in the Duma and the 
        Federation Council of the need to narrowly enforce this 
        adoption ban and would you work for its ultimate repeal?

    Answer. I deeply regret Russia's passage of Federal law No. 272-FZ 
which bans the adoption of Russian children by U.S. citizens, restricts 
Russian civil society organizations working with U.S. partners, and 
requires termination of the U.S.-Russia Adoption Agreement. U.S. 
families have welcomed more than 60,000 Russian children into their 
homes, families, and communities over the past 20 years. The vast 
majority of these children are now thriving, thanks to their parents' 
loving support.
    While Russia has the sovereign right to ban the adoption of its 
citizens, if confirmed, I will continue to underscore that this 
approach hurts the most vulnerable members of Russian society. The 
U.S.-Russia adoptions agreement was negotiated under a shared 
understanding that while all efforts should be made to place children 
with families in their country of birth, when this is not possible, 
properly safeguarded intercountry adoption should be another valid path 
to finding children permanent, loving homes. If confirmed, I will 
endeavor to remind Russian officials at the highest levels of this 
principle and urge them to reconsider this law.
    Concurrently, I will urge the Russian Government, on humanitarian 
grounds and in the spirit of our bilateral agreement, which remains in 
force through January 1, 2014, to permit all adoptions initiated prior 
to the law's enactment to move forward.

    Question. With your help and support, the United States Congress 
passed the Magnitsky Act in December, which imposes sanctions on 
Russians who are implicated in the murder of the Russian anticorruption 
lawyer Sergei Magnitsky. However, the act also sanctions Russians who 
are deemed guilty of ``extrajudicial killings, torture, or other gross 
violations'' of human rights committed against those ``seeking to 
expose illegal activity carried out by officials of the Government of 
the Russian Federation.''

  <diamond> As Secretary of State, how broadly or narrowly would you 
        advise the administration to interpret and apply the Magnitsky 
        Act?
  <diamond> What are the factors and interests that you would weigh the 
        most when considering the implementation of the act beyond the 
        Magnitsky case?
  <diamond> Would you support broadening the Magnitsky Act to apply its 
        sanctions to human rights violators from other nations?

    Answer. The State Department is currently engaged in an interagency 
process to implement the Sergei Magnitsky Rule of Law Accountability 
Act. I look forward, if confirmed, to ensuring the act is executed in 
accordance with the intent of the Congress. I intend to ensure that the 
same high standards of evidence, process, and credibility that will 
guide the Department's work on the Magnitsky case itself will apply to 
all other cases that will be considered when putting the act into 
practice.

    Question. A wide body of evidence from the U.N. Group of Experts on 
Congo and other human rights groups has documented significant support 
from senior Rwandan military officials to the M23 rebellion in eastern 
Congo, including the provision of arms and ammunition, the planning and 
operational command of military operations, the deployment of hundreds 
of Rwandan army troops across the border into Congo to fight alongside 
the M23.
    On December 18, President Obama called Rwandan President Paul 
Kagame and stressed the importance of permanently ending all support to 
armed groups in the DRC. In a statement to the U.N. Security Council on 
December 31, U.S. Ambassador Susan Rice welcomed new U.N. sanctions on 
the M23 and FDLR and said that the United States would continue to 
``use every tool at our disposal to maintain the pressure on those 
responsible for the violence in the eastern DRC and to advance ongoing 
efforts toward a political settlement to the crisis, including 
additional action by the Security Council, if necessary, against those 
who persist in providing additional support to M23 or act in violation 
of the sanctions regime and arms embargo.''

  <diamond> Under what circumstances would the United States support 
        sanctions against senior Rwandan officials who have backed the 
        abusive M23 rebels?
  <diamond> What specific steps have or will we ask Rwanda to take to 
        halt violation of the U.N. arms embargo for the DRC?
  <diamond> What further actions do you anticipate being taken by the 
        U.N. Security Council?

    Answer. I am closely following developments in the eastern DRC as 
well as the talks between the DRC Government and the M23 rebel group 
and the broader regional discussions among Great Lakes governments. Any 
future U.S. actions regarding bilateral or Security Council sanctions 
against DRC-related targets, including Rwandan officials, will depend 
on developments on the ground, the behavior of armed groups such as the 
M23 and those who have provided assistance to them, and our assessment 
of what measures would effectively promote peace and security in the 
region.

    Question. The Special Immigrant Visa program for Iraqis who faced 
persecution due to their work with the U.S. Government will sunset at 
the end of FY 2013. There are approximately 21,319 visas approved by 
Congress that have not been used. In addition, the SIV program for 
Afghans who worked alongside the U.S. Government continues to face 
challenges in its implementation due to limited staffing and resources. 
Out of the 7,500 SIVs Congress approved for Afghans, only 595 visas 
have been granted.

  <diamond> If confirmed as Secretary of State, would you support the 
        extension of the Iraqi Special Immigrant Visa program?
  <diamond> In addition, what steps would you take to ensure the 
        effective implementation of the program in Afghanistan and 
        reduce any unnecessary backlog?

    Answer. The administration strongly supports extending the Iraqi 
SIV program so that the number of visas authorized can be fully 
utilized and, if confirmed, I will work with Congress to find an 
appropriate vehicle to accomplish this goal before the end of FY 2013 
when the FY 2008 SIV provision of the National Defense Authorization 
Act expires. A timely program extension would permit continued normal 
processing of Iraqi SIV cases to completion.
    Embassy Kabul has redirected and increased resources to improve 
efficiency at all stages of the SIV process and reduce processing 
backlogs. There is a dedicated unit working on Chief of Mission 
approvals, which is the first of three steps in the SIV process. 
Embassy Kabul's consular section has increased staffing to meet the 
increased demand for visa appointments from applicants who have all 
necessary approvals.

    Question. Last year, you said, ``The history of Sudan is littered 
with the paper of previous agreements that were never put into action, 
but as we saw with the 2011 referendum on the South's peaceful 
separation, real progress is possible when both sides are committed to 
peace and necessary compromise.'' You outlined that to reach a peace, 
the status of Abyei needs to be addressed, a political solution for the 
conflicts raging within Sudan needs to be found, and humanitarian 
access in South Kordofan and Blue Nile must be provided, and that the 
United States must continue to work to help secure true peace in the 
Sudans. However, in a January 22, 2013, press statement, the Department 
of State expressed its disappointment with both the Sudan and South 
Sudan Governments over their combined failure to make progress on 
implementing the September 27, 2012, agreements, despite commitments by 
Sudan President Omar al-Bashir and South Sudan President Salva Kiir. 
Clearly much work remains to advance the peace process.
    Despite international and U.S. arms embargoes on Sudan and ICC 
arrest warrants for several Sudanese officials including President Omar 
al-Bashir, the Sudanese regime's campaign of violence against civilians 
in South Kordofan, Blue Nile and Darfur regions continue and weapons 
still flow freely into Sudan from Russia, China, and Iran, among 
others.

  <diamond> If you are confirmed, how will you shape U.S. policy on 
        Sudan, and what steps will you take, bilaterally and 
        multilaterally, to ensure the two sides continue to implement 
        the September 2012 agreements?

    Answer. The September 27, 2012, agreements between Sudan and South 
Sudan indeed are critical. If the two countries implement those 
agreements, they will not only deescalate the tensions along their 
border but will also deliver critical economic development to their 
people--not only through the oil provisions, but also through the 
provisions for cross-border trade. Both countries face dire economic 
circumstances. Neither can afford to embrace a negotiations strategy 
grounded in the hope that the other will collapse first. Both must work 
urgently to fully implement the September agreements, and those 
agreements must proceed in tandem.
    Both parties have said they would implement the agreements 
``immediately and without conditions'' and both must be held to that. 
Issues like renewal of oil sales should not be held hostage to any 
other concern, like ill-defined security ``guarantees'' along Sudan's 
southern border. Border security will only come through a decision by 
Sudan to both deepen cooperation with South Sudan and to address the 
Two Areas conflict through unconditional dialogue with the SPLM-N.
    If confirmed, I will work to ensure that we maintain strong African 
Union and international support for implementation of the September 27 
agreements. Unity among AU members and a determination to avoid another 
war in the region enabled the organization to bring the parties to the 
table and to an agreement. That same unity and forcefulness will be 
required to ensure implementation of the agreement.
    If confirmed, I will continue to press for a negotiated end to the 
conflict in Sudan's Southern Kordofan and Blue Nile states. This 
conflict has led to a grave human rights and humanitarian crisis; it 
has undermined the security of both Sudan and South Sudan, and has 
hindered progress on all other issues. It has also gravely undermined 
Sudan's standing in the eyes of the international community. Neither 
Sudan nor the rebel movement SPLM-N can win this conflict militarily, 
both must return to negotiations.

    Question. The conflict in Syria appears to be worsening. President 
Bashar al-Assad's Alawite-dominated security forces may be weakening, 
but continue to use brutal and indiscriminate tactics against the 
opposition. Although the United States and other ``Friends of Syria'' 
have recognized the ``National Coalition of Revolution and Opposition 
Forces'' as the legitimate representative of the Syrian people, a 
negotiated solution seems unattainable at the moment. The conflict is 
increasingly sectarian, opening opportunities for extremists and al-
Qaeda. There are rising concerns about the security of Syria's chemical 
weapons. There are also increasing fears of the regionalization of the 
conflict, possibly destabilizing Turkey, Lebanon, Jordan, Iraq, and 
Israel.
    UNHCR reports 100,000 Syrians are fleeing the country each month 
now, and predicts the total will exceed 1 million refugees in 
neighboring states by mid-year, along with millions more internally 
displaced persons.

  <diamond> What is the extent of the Department of State's support to 
        humanitarian relief in the region, and will you as Secretary of 
        State seek to enhance U.S. humanitarian efforts and obtain 
        increased funding to alleviate the suffering of the millions of 
        Syrian civilians affected by the fighting?
  <diamond> Given President Assad's refusal to compromise in any way, 
        it appears unlikely he will voluntarily step aside or agree to 
        a peaceful resolution to the conflict. What approaches will 
        you, as Secretary of State, pursue to prevent this potential 
        powder keg from exploding?
  <diamond> Are there additional nonlethal actions that the United 
        States and its allies should be considering to limit the Assad 
        regimes bloody repression of his people?

    Answer. The U.S. Government is very concerned about the safety of 
the Syrian people. To this end, the United States has contributed more 
than $210 million in humanitarian assistance to assist people inside 
Syria, as well as the hundreds of thousands who have fled to other 
countries. Life-saving food, medical treatment, blankets, and essential 
winter supplies reached millions of vulnerable people in all 14 
governorates inside Syria, as well as refugees outside the country. The 
U.S. Government's humanitarian response goes to those who are most in 
need through organizations with the expertise to respond, such as the 
World Food Programme, the U.N. Refugee Agency (UNHCR) and UNICEF. State 
and USAID are funding these groups, as well as others who are funneling 
aid into areas where access remains a challenge.
    The United States is also actively engaged with international 
partners, nongovernmental implementers, the Syrian Opposition 
Coalition's (SOC) Assistance Coordination Unit, and Syrian-based local 
groups to coordinate humanitarian assistance to the victims of this 
ongoing conflict. If confirmed, I would work with the SOC, host 
governments, and humanitarian organizations to further expand the reach 
of our critical humanitarian assistance--both inside Syria and in 
neighboring countries.
    The United States is focused on facilitating a durable political 
solution to the Syrian crisis, which we believe is the best chance for 
a prosperous Syrian future and for the stability of the region. To that 
end, we are supporting the Syrian Opposition Coalition as it builds 
capacity and encouraging it to plan for a democratic political 
transition that protects the rights, dignity, and aspirations of all 
Syrians.
    We are providing approximately $50 million in nonlethal support to 
the unarmed Syrian opposition and civil society groups, including local 
councils and grassroots organizations. This assistance provides 
training and equipment to the Syrian nonviolent opposition to build up 
a nationwide network of ethnically and religiously diverse civilian 
activists, which will help promote unity among the Syrian people and 
accelerate the country's democratic transition. If confirmed, I would 
work to broaden and accelerate this assistance to bring this conflict 
to as rapid an end as possible, consulting with the Congress on 
associated resource requirements. I would not foreclose any legally 
available options.

    Question. Venezuela's democracy is currently in a state of crisis. 
Under President Hugo Chavez, there has been a dramatic concentration of 
power in the President's office, which effectively controls the Supreme 
Court and engages in open censorship of the media and intimidation and 
harassment of civil society. With Chavez now too ill even to attend his 
own inauguration ceremony earlier this month, it is unclear who exactly 
is wielding this unchecked power. There are serious questions about 
the legality of the government's decision to indefinitely postpone the 
inauguration (rather than calling for new elections). Yet there is no 
independent institution in Venezuela that can credibly resolve them.

  <diamond> At what point will you consider the situation in Venezuela 
        to be an interruption of the democratic order?
  <diamond> If the situation continues without legal resolution would 
        you support action being taken by the OAS under the Inter-
        American Democratic Charter?

    Answer. The Venezuelan Constitution defines how and under what 
circumstances the President's inability to serve must be handled, 
including procedures that define a democratic succession. President 
Chavez's continuing absence from the scene is heightening focus on that 
eventuality. If confirmed, I will join other voices in the region 
urging all parties to adhere to the Venezuelan Constitution and respect 
the principles established under the Inter-American Democratic Charter.
    Any transition that takes place will be a product of decisions and 
actions by the Venezuelan people. Across the globe, the U.S. message is 
political transitions should be democratic, constitutional, inclusive, 
peaceful, and transparent. If confirmed, I will reinforce that message.
    Should a new election become constitutionally necessary, the 
expectation in the hemisphere is that it be peaceful, free, and 
conducted on a level playing field, providing an opportunity for 
Venezuela to demonstrate its commitment to representative democracy.

    Question. President Obama, in his second inaugural address, 
declared that ``We will support democracy from Asia to Africa; from the 
Americas to the Middle East, because our interests and our conscience 
compel us to act on behalf of those who long for freedom.''

  <diamond> If confirmed, how do you intend to carry out the mandate of 
        President Obama to support democracy worldwide?

    Answer. I am firmly committed to the policy of the U.S. Government 
to advocate for democratic reforms and expanded space for civil society 
to work for positive change from within societies around the world. If 
confirmed, I will advance this policy through the Department's 
bilateral and multilateral diplomacy, including through its bilateral 
human rights dialogues and action at the U.N. Human Rights Council.
    I will work closely with the committee to support funding for 
programs that strengthen transparent and accountable governance; 
protect and promote rule of law and human rights, including freedom of 
expression, association, assembly, religious freedom, labor rights, and 
disability rights; support open and competitive political systems and 
processes and support civil society and access to the free flow of 
information. These programs, administered by the Department of State 
and the U.S. Agency for International Development, assist democracy 
advocates around the world to establish vibrant democracies on their 
own. As President Obama said, we will ``act of behalf of those who long 
for freedom.''

    Question. While strengthening security along our border is of great 
concern to all Americans, the success of U.S.-Mexican security 
cooperation will depend in large part on our joint ability to tackle 
impunity, strengthen rule of law, and bolster protections for 
vulnerable populations in Mexico.

  <diamond> How do you think the Merida Initiative and other efforts 
        have fared?
  <diamond> What else can be done to bolster the rule of law and 
        respect for human rights in Mexico?

    Answer. Through the Merida Initiative, a transformational and 
historic undertaking, we partner with the Mexican Government to support 
its efforts to strengthen the rule of law, democratic institutions, and 
community efforts against crime and violence. It has changed for the 
better the way Mexican and U.S. institutions work together to promote 
law enforcement and public security cooperation. Cooperation has become 
second nature; we share intelligence and information more effectively; 
and we share responsibility for common challenges in a manner 
unthinkable just a few years ago. Since Merida's inception, the Mexican 
Government, with U.S. support, has disrupted transnational criminal 
organizations, jailed crime kingpins, and seized major amounts of 
illicit drugs otherwise headed for the United States.
    Through technical assistance and training, as well as provision of 
equipment, the U.S. Government has provided crucial support to Mexican 
authorities as they have used their own public resources to make 
substantial investments and build the capacity of their public security 
and judicial institutions and advanced justice sector reforms, while 
enhancing the bilateral relationship and cooperation between our 
governments.
    Mexico's new President, Enrique Pena Nieto, has already met with 
the President and Vice President and he has committed his 
administration to accelerating the pace of judicial reform at the 
federal level, and to police and public security reform in Mexico's 
states.
    Our countries share a strong commitment to respect human rights. If 
confirmed, I will work with Mexican counterparts to support their 
efforts to strengthen democratic institutions, especially law 
enforcement forces and justice systems, and work with civil society 
organizations; promote the rule of law; build strong and resilient 
communities; and protect vulnerable populations.

    Question. Your predecessor, Secretary Clinton, integrated the 
advancement of women and girls into all areas of policy and planning at 
the Department of State. She also expanded and strengthened U.S. policy 
to promote the rights and empowerment of women around the world.

  <diamond> Recognizing the critical role that gender equality plays in 
        improving health, agriculture, economies, security and a range 
        of other outcomes, how do you plan to sustain and expand on 
        this important work?

    Answer. Global stability, peace, and prosperity depend on 
protecting and advancing the rights of women and girls around the 
world. When women and men are equally empowered as political and social 
actors, governments are more representative and often more efficient. 
That is why strengthening women and girls around the world is not 
simply the right thing to do--it is the smart thing to do.
    In order to facilitate the integration of gender equality beyond 
what Secretary Clinton has already accomplished, if confirmed, I will 
continue to develop bureau and embassy specific strategies on gender; 
further refine and strengthen program design, reporting, and evaluation 
mechanisms; and expand training opportunities for staff on gender and 
related policy priorities. Further, recognizing that investments in 
women and girls can lead to improved development outcomes, I will seek 
to continue the integration of gender into key development initiatives, 
including the Global Health Initiative and Feed the Future, and in 
initiatives to address climate change.

    Question. The OECD Guidelines for Multinational Enterprises are a 
leading international instrument for responsible business conduct--for 
protecting workers' rights worldwide, improving living and working 
conditions and contributing to sustainable development.

  <diamond> How do you propose contributing to the effectiveness of the 
        OECD's work in this area?
  <diamond> What steps do you plan to take to ensure that the U.S. 
        National Contact Point is effective--with a location that 
        ensures impartiality and equipped with the necessary human and 
        financial resources?

    Answer. The OECD Guidelines for Multinational Enterprises have been 
an important instrument for the United States in its work with 
business, labor, civil society, and others to promote our national 
values, advance our economic interests, and foster sustainable and 
inclusive development. The U.S. National Contact Point (NCP) is the 
administration lead in promoting the Guidelines' voluntary 
recommendations on responsible business conduct by U.S. corporations 
wherever they operate.
    If confirmed, I intend to continue the extraordinary involvement 
and attention that Secretary Clinton has brought to the OECD Guidelines 
and the U.S. NCP, exemplified by her personal leadership in the OECD's 
approval of the important substantive updates to the Guidelines at the 
May 2011 OECD Ministerial. If confirmed, I would also direct the 
Department to build on the important progress it has achieved in 
strengthening the performance of the U.S. NCP. The record so far is a 
good story:

  <bullet> Transparent procedures: One of the NCP's core functions is 
        to review specific instances (i.e., concerns raised typically 
        by a union or NGO regarding a U.S. firm's practices as they 
        pertain to the Guidelines) and to offer mediation where 
        appropriate to help the parties address those concerns. 
        Business and civil society have welcomed the NCP's updated 
        procedures, which are more transparent to the involved parties, 
        adhere to clear timelines and result in a public report at the 
        end of the process.
  <bullet> Dedicated officer: The NCP is now a senior State Department 
        officer whose sole responsibility is implementation of the 
        Guidelines.
  <bullet> Stakeholder Advisory Board (SAB): In January 2012, Assistant 
        Secretary for Economic and Business Affairs Jose Fernandez 
        launched a multistakeholder advisory board, comprised of senior 
        leaders from business, labor, civil society, and academia to 
        advise the State Department on the NCP's operations. The SAB 
        expects to provide its first advisory report later this year. 
        We expect the SAB's diversity of perspectives will contribute 
        to the NCP's efforts to operate in a balanced and impartial 
        manner. The SAB operates in compliance with the Federal 
        Advisory Committee Act.
  <bullet> Interagency Working Group (IWG): The NCP receives 
        substantive input on specific instances and other Guidelines- 
        and NCP-related matters from other federal agencies, including 
        officials from the Departments of Commerce, Labor, and the 
        Treasury, the Environmental Protection Agency, the U.S. Trade 
        Representative, and the Federal Mediation and Conciliation 
        Service. State Department participants include officials from 
        the Bureaus of Democracy, Human Rights and Labor; Oceans, 
        International Environmental and Scientific Affairs; and the 
        Office of the Legal Adviser. The IWG members bring different 
        policy perspectives to the review of specific instances, 
        ensuring balance and fairness in the NCP's work.
  <bullet> Professional mediation: The State Department and the Federal 
        Mediation and Conciliation Service (FMCS) recently concluded a 
        cooperative agreement in which FMCS will provide mediation 
        services where appropriate for specific instances submitted to 
        the NCP. The NCP's operations will benefit tremendously from 
        FMCS' expert support, and the credibility that FMCS enjoys with 
        business and civil society, both of which respect its expertise 
        and impartiality.
  <bullet> Promotion activities: The NCP has worked actively in 
        Washington, around the country and overseas in raising 
        awareness of the Guidelines and encouraging the integration of 
        its recommendations in U.S. corporate policies and operations. 
        The NCP speaks regularly at conferences and public and private 
        meetings before businesses, trade organizations, NGOs, 
        sustainability practitioners and the general public, partnering 
        with these groups to amplify the message through their own 
        networks. The NCP has also expanded use of alternative media, 
        including a revamp of the NCP Web site and active use of 
        Twitter and blogs.
  <bullet> Proactive Agenda: The Guidelines call on the OECD, adhering 
        governments and stakeholders to work together to ``look over 
        the horizon'' at potential challenges and collaborate on 
        devising solutions, consistent with the Guidelines, to support 
        enterprises' efforts to address challenges early in their 
        development. The U.S. NCP is launching a multi-stakeholder 
        initiative in the United States to explore these issues, and 
        the Department will participate actively in this work at the 
        OECD.

    Question. Time and again we have seen stories in the press about 
horrendous working conditions in factories producing for America brands 
whether it is a fire In Bangladesh that killed over 100 workers in a 
garment factory or forced overtime and suicides in a facility that made 
I-phones for Apple. While it is important for brands to take 
responsibility for the conditions under which their products are made, 
foreign governments are ultimately responsible for protecting their 
workers under International labor conventions and U.S. benefit programs 
that condition trade on the basis of compliance with core International 
Labor Organization conventions.

  <diamond> What steps will you take to ensure that governments meet 
        these obligations and how will you use foreign assistance to 
        encourage improved working conditions and respect for worker 
        and trade union rights especially in factories that produce 
        goods for the U.S. market?
  <diamond> Beyond that limited assistance that is now available, are 
        you willing for example to support the creation of a specific 
        fund that will address these persistent labor rights problems?

    Answer. Our globalized economy requires us to actively promote 
internationally recognized labor standards around the world. The tragic 
garment factory fire in Bangladesh in November underscored the 
importance of this effort. The Department works to advance workers' 
rights through engagement with governments, companies and workers' 
organizations, and through technical assistance to build the capacity 
of unions and other civil society actors.
    The Department is in close consultation with the Department of 
Labor (DOL) and the United States Trade Representative (USTR) regarding 
potential assistance programs to promote fire and building code safety 
in Bangladesh and other countries where fire safety poses a significant 
risk. In addition, the Department is consulting with leading U.S. and 
multinational apparel brands that source from Bangladesh.
    The State Department and the U.S. Agency for International 
Development (USAID) each administer about $7 million annually in 
technical assistance programs to advance labor rights. These programs 
focus on the core International Labor Organization (ILO) standards 
concerning freedom of association and the right to collective 
bargaining. If confirmed, I look forward to working with the committee 
to continue to support funding that strengthens workers' rights.

    Question. The social unrest in North Africa illustrates the need 
for security assistance as well as long-term social development of 
countries in the region. Morocco has a trade agreement with the United 
States and receives strategic support under the Millennium Challenge 
Account and is continuing to prove its economic development and job 
growth.

  <diamond> Will you work with the committee and our allies to develop 
        plans for the economic integration among countries of North 
        Africa, using the Moroccan trade agreement as a model and as a 
        hub for development?

    Answer. The United States and Morocco enjoy a strong and fruitful 
bilateral relationship, as illustrated by our 2006 Free Trade Agreement 
(FTA). The FTA is a comprehensive agreement that supports the 
significant economic and political reforms that are underway in Morocco 
and provides improved commercial opportunities for U.S. exports to 
Morocco by reducing and eliminating trade barriers. Since the entry 
into force of the FTA, bilateral trade has risen to $3.3 billion in 
2012, up from $927 million in 2005 (the year prior to entry into 
force). We have seen marked improvement in Morocco's business and 
investment climate and continue to work with the government in its 
efforts to attract more foreign investment. Morocco is also a valued 
partner in our ongoing efforts to promote enhanced economic integration 
in North Africa, and we will continue to work with the Senate Foreign 
Relations Committee and our allies in furtherance of this objective. In 
December, Morocco became the first country in the region to reach 
agreement with the United States on Joint Declarations of Principles 
for International Investment and Trade Principles for Information and 
Communication Technology (ICT) Services, and a Protocol on Trade 
Facilitation. We are attempting to make this agreement multilateral by 
bringing other regional trading partners on board.

    Question. Your predecessor has initiated a strategic dialogue with 
Morocco. Will you commit to continuing this senior-level dialogue on 
issues of vital mutual interest? What are your plans for ensuring that 
this process generates practical results for both countries?

    Answer. If confirmed, I will remain committed to our strong 
bilateral relationship with Morocco, and to working with Morocco on 
issues of mutual concern. The State Department aims to advance the 
strategic dialogue discussion that the United States began with Morocco 
in 2012. Our governments continue to work closely on political, 
economic, security and cultural issues that were raised in the U.S.-
Morocco Strategic Dialogue last fall. The United States and Morocco 
enjoy a strong and fruitful bilateral relationship, as illustrated by 
our 2006 Free Trade Agreement (FTA). The FTA is a comprehensive 
agreement that supports the significant economic and political reforms 
that are underway in Morocco and provides improved commercial 
opportunities for U.S. exports to Morocco by reducing and eliminating 
trade barriers. Since the entry into force of the FTA, bilateral trade 
has risen to $3.3 billion in 2012, up from $927 million in 2005. 
Morocco is also a valued partner in our efforts to promote enhanced 
economic integration in North Africa, and we will work with the 
committee and our allies in furtherance of this objective. In December, 
Morocco became the first country in the region to reach agreement with 
the United States on Joint Declarations of Principles for International 
Investment and Trade Principles for Information and Communication 
Technology (ICT) Services, and a Protocol on Trade Facilitation. If 
confirmed, I will continue the Department's efforts to reach similar 
agreements with other regional trading partners.
                                 ______
                                 

      Responses of Secretary-Designate John F. Kerry to Questions 
                    Submitted by Senator Bob Corker

    Question. As chairman, I know you have shared my frustration when 
the State Department and USAID witnesses have not provided testimonies 
for hearings 24 hours prior to the hearing--sometimes as late as the 
morning of the hearing.

  <diamond> Will you commit to ensuring that you and other officials at 
        the Department and USAID will submit prepared testimonies for 
        hearing no later than a full 24 hours prior to the start of a 
        hearing?

    Answer. Allowing members adequate time to review witness testimony 
is an important part of ensuring the committee is able to conduct 
proper oversight of the programs and functions of the Department of 
State and USAID. If confirmed, I will work to ensure that Department of 
State and USAID witnesses submit prepared testimonies well in advance 
to committee.

    Question. Will you take the opportunity of your new leadership to 
make changes in the management posts that have oversight of diplomatic 
and facility security?

    Answer. As I noted during my confirmation hearing on January 24, I 
assure the committee that, if confirmed, I will personally oversee the 
implementation of the ARB, and I will ensure that it is a top priority. 
I am also committed to taking actions above and beyond implementation 
of the ARB findings. I will review the organization of the Department, 
including the bureaus that have responsibility for diplomatic and 
facility security. With the ARB findings as a guide, I will improve 
communication on security issues within the Department. Filling the 
position of Assistant Secretary for Diplomatic Security will be a 
priority.
    Furthermore, it is imperative to balance our values and our 
interests with the risks inherent in 21st-century diplomacy by ensuring 
we strike the right balance between security and engagement to protect 
America and further our national interests.

    Question. Can you assure us that you will abide by all legal 
requirements, and that any agreement, formal or informal, with Russia 
or any other country in the field of arms control, based on 
``reciprocal unilateral measures'' or multilateral nontreaty agreements 
will be submitted to the Senate?

    Answer. Having served proudly in the U.S. Senate since 1985, I have 
the utmost respect for the Senate's role in the treaty process.
    I am mindful of the language in the Arms Control and Disarmament 
Act, and similar language in other legislation. As always, the 
administration will follow the Constitution and laws of the United 
States.
    If confirmed, I will ensure that the Department of State will 
continue its consultations with the Congress on arms control-related 
issues.

    Question. Can you assure us that the Obama administration will not 
take unilateral action to reduce the strategic arms or missile defenses 
of the United States without consultation and approval from Congress?

    Answer. Having served proudly in the U.S. Senate since 1985, I have 
the utmost respect for the role of Congress in the conduct of U.S. 
foreign policy.
    I am mindful of the language in the Arms Control Disarmament Act, 
and similar language in other legislation. As always, the 
administration will follow the Constitution and the laws of the United 
States.
    If confirmed, I will ensure that the Department of State will 
continue its consultations with the Congress on arms control and other 
issues.

    Question. In 2004 you stated that when the United States undertakes 
military 
action ``you've got to do it in a way that passes the test, that passes 
the global test where your countrymen, your people, understand fully 
why you're doing what you're doing, and you can prove to the world that 
you did it for legitimate reasons.''

  <diamond> What is the definition of a global test?

    Answer. As a sovereign nation, the United States decides for itself 
when to use military force. While the United States does not look to 
any other government for permission to take military action, the use of 
military force does not occur in a vacuum. We are often stronger and 
more effective when we are able to explain the use of military force in 
a manner that our allies understand and support.

    Question. (Followup Question): In your earlier response for the 
record, you stated that ``When Iran is prepared to take verifiable 
confidence-building measures, the United States is prepared to 
reciprocate.''

  <diamond> What might such reciprocation require from Congress in 
        general terms?
  <diamond> Should Congress expect to be asked to consider requests 
        from the administration to amend or remove enacted sanctions 
        legislation?

    Answer. This administration is fully committed to seeking a 
diplomatic resolution of concerns over Iran's nuclear program through 
the dual-track approach of pressure and engagement. To date, Iran has 
not demonstrated that it is prepared to take verifiable, confidence-
building measures toward addressing those concerns; it would therefore 
be premature to speculate on the nature and timing of specific steps 
the United States might take in response.

    Question. If Iran succeeds in obtaining a nuclear weapon 
capability, should the United States consider extension of the nuclear 
umbrella to our friends and partners in the Middle East to prevent a 
proliferation cascade?

    Answer. The administration will not allow a nuclear armed Iran. As 
the President has stated on numerous occasions, and as I stated in my 
testimony, ``Our policy is not containment. It is prevention, and the 
clock is ticking on our efforts to secure responsible compliance.'' We 
are in close and frequent contact with our friends and allies in the 
region on this, and continue to monitor the situation closely.

    Question. The U.S. representative to the IAEA stated that, by March 
2013, Iran needs to respond to standing IAEA requests for further 
information and access with regard to its nuclear program, saying, 
``Iran must act now, in substance'' and more recently the State 
Department spokesperson expressed disappointment that Iran hasn't 
acted. The administration also continues to talk to the Iranians about 
a date and a venue for the next round of P5+1 discussions.

  <diamond> May we have your commitment to keep this committee fully 
        and promptly informed of progress or setbacks on these two 
        tracks?
  <diamond> Can you speak to the types of steps, if any, the 
        administration and Congress may need to consider with regard to 
        enacted sanctions or other actions that may become necessary?

    Answer. The administration will continue to keep the committee 
informed of developments in these two tracks.
    The United States has comprehensive and effective sanctions in 
place to apply ever-increasing pressure on Iran, and the administration 
is fully implementing all sections of U.S. law. We will continue to 
pursue the pressure track against Iran until Iranian leaders adequately 
address the legitimate concerns of the international community 
regarding its nuclear program.

    Question. NATO continues to be the backbone of coordinated security 
for the United States, Canada, and Europe, yet the vast majority of 
NATO countries do not meet the investment target of 2 percent of GDP 
for military expenditures.

  <diamond> Will you press all NATO members to increase their defense 
        expenditures and build a trajectory toward investing 2 percent 
        of GDP annually for defense budgets?

    Answer. If confirmed, I will continue to urge allied commitments to 
sustain and build critical capabilities, as part of an effort to invest 
in a NATO Force for 2020 that is fully trained and equipped to respond 
to any threat and defend our common interests. Adequate levels of 
spending are crucial to that goal. Ensuring that allies invest in the 
modern capabilities that NATO needs was the focus of U.S. diplomatic 
efforts in the runup to last spring's NATO summit in Chicago, as well 
as at the most recent NATO Defense Ministerial in October. Among our 
ongoing top priorities is ensuring the alliance has the assets and 
capabilities it needs to carry out current and future operations.

    Question. The President formally recognized the new government in 
Somalia this week. This significant change in our bilateral 
relationship has occurred without consultation with Congress.

  <diamond> Why wasn't Congress notified and consulted before the fact 
        of formal resumption of diplomatic ties/recognition?
  <diamond> What if any statutory or other parameters were necessary to 
        arrive at this decision point for normalization?
  <diamond> What specific or general commitments and actions by the 
        U.S. Government and by Somalia will follow from this renewal of 
        formal relations?

    Answer. On January 11, the State Department notified committee 
staff and other congressional staff that Somalia President Hassan 
Sheikh Mohamud would be in Washington the week of January 17 to meet 
with the Secretary of State to complete arrangements for U.S. 
recognition of the Government of Somalia. Department officials also 
notified congressional staff that the Secretary and President Hassan 
Sheikh would announce recognition in a brief press event at the State 
Department following their meeting.
    Although the United States has not recognized a government in 
Somalia since the collapse of the Siad Barre regime in 1991, the United 
States never broke or severed diplomatic relations with the country of 
Somalia. Since 1991, the United States has managed our interests in 
Somalia from the U.S. Embassy in Nairobi, Kenya. I understand that over 
the past year, State Department and other U.S. Government officials 
have traveled for longer periods and with greater frequency to Somalia, 
especially to Mogadishu, than previously, but the United States has no 
immediate plans to reopen a U.S. Embassy in Mogadishu at this time.
    The State Department expects to enhance its dialogue with the new 
government on a range of issues, including human rights, 
counterterrorism, bilateral treaties and claims.

    Question. In a June 2011 opinion piece in the Los Angeles Times, 
you characterized the Obama administration's North Korea policy as 
``inadequate,'' and advocated that the administration ``engage North 
Korea directly.''

  <diamond> In light of administration's failed attempt at direct 
        engagement with the February 2012 ``Leap Day Agreement,'' do 
        you still believe direct engagement is the right approach to 
        North Korea?

    Answer. The United States remain committed to authentic and 
credible negotiations to implement the September 19, 2005, joint 
statement and bring North Korea into compliance with applicable 
Security Council resolutions through irreversible steps leading to 
denuclearization. However, North Korea must live up to its commitments, 
adhere to its international obligations, deal peacefully with its 
neighbors and refrain from provocations. As President Obama stated in 
his speech last November in Rangoon, the United States is willing to 
extend its hand should the leadership in Pyongyang choose the path of 
peace and progress and let go of its nuclear weapons.

    Question. U.N. Security Council Resolution 2087 called for 
``significant action'' in response to further North Korean 
provocations.

  <diamond> How should the United States respond if North Korea 
        conducts a third nuclear test--as Pyongyang has threatened to 
        do in recent days?

    Answer. If confirmed, I would support strong U.S. and international 
condemnation of a third nuclear test by North Korea. A nuclear test by 
North Korea would be a mistake, a miscalculation, and would set back 
the cause of resolving issues that relate to the Korean Peninsula 
diplomatically, most importantly the issue of denuclearization. This 
provocative act would directly violate North Korea's international 
obligations under United Nations Security Council resolutions, and if 
confirmed I would support a strong international response. The United 
States should continue to make clear that it will take steps necessary 
to defend the United States and our allies.

    Question. Please specify concrete actions that North Korea would 
need to undertake to demonstrate a genuine commitment to 
denuclearization, and by what measures would you judge success or 
failure of this effort?

    Answer. North Korea must fulfill its obligations under relevant 
U.N. Security Council resolutions, adhere to its commitments under the 
September 19, 2005, Joint Statement of the Six-Party Talks, and refrain 
from provocations that undermine regional stability. North Korea's 
progress on fulfilling its international obligations 
and commitments will demonstrate whether it has a genuine commitment to 
denuclearization.

    Question. South Korean President-elect Park Geun-hye recently 
stated that she would like to upgrade the U.S.-ROK alliance to a 
``comprehensive strategic alliance of the 21st century.''

  <diamond> Do you share this goal? If yes, what is your vision for a 
        strengthened U.S.-ROK partnership?

    Answer. I welcome President-elect Park's vision for enhancing our 
partnership. Relations between the United States and the Republic of 
Korea relations are at their strongest point in recent memory, 
undergirded by a solid foundation of common values, shared interests, 
mutually beneficial economic relations, and close people-to-people 
ties. The United States and the ROK are addressing together the 
challenges on the Korean Peninsula, and increasingly, a range of issues 
across the region and around the globe. As we mark the 60th anniversary 
of the U.S.-ROK alliance, the United States looks forward to building 
on this extraordinary partnership of shared values and mutual 
prosperity. If confirmed, I will work to build an even stronger 
alliance between the United States and the Republic of Korea.

    Question. (Followup Question) In your earlier answer for the record 
regarding Chinese currency and the legislation to label China a 
currency manipulator, you point out that the Chinese had come a long 
way prior to your vote in the Senate, and also that there is a long way 
still for them to go.

  <diamond> But are the aims of the legislation still a reasonable and 
        productive means to achieve the objective of further financial 
        system modernization in China, or is there a better way for the 
        United States to approach the challenge?

    Answer. Since the Treasury Department is the lead agency on 
questions concerning currency, I defer to Treasury on this matter. If 
confirmed, however, I would discuss with Treasury how the 
administration could most effectively make progress on this issue.
    In my view, leveling the playing field for U.S. businesses and 
workers should continue to be a central aim of our economic engagement 
with China. Given our substantial and complex economic relationship, it 
is increasingly important to engage China both bilaterally and 
multilaterally to build upon the progress made in recent years and to 
address remaining challenges. If confirmed, I would ensure that 
remedying unfair and distorting policies in China remains a top 
priority on our economic agenda.

    Question. (Followup Question) Second, you mention the Strategic and 
Economic Dialogue (S&ED) and the ``Asia pivot.'' Both have come under 
some criticism for losing sight of their economic objectives. The S&ED, 
for example, was originally just the Strategic Economic Dialogue (SED), 
focused on leveraging and advancing our mutual trade interests. 
Likewise, the Woodrow Wilson Center recently criticized the ``pivot'' 
for having its economics components ``bogged down.'' How do we fix 
this?

    Answer. The Strategic and Economic Dialogue (S&ED) and the 
rebalancing to Asia are both multifaceted approaches that seek to 
promote and advance U.S. strategic, economic, and other interests 
throughout the Asia-Pacific region in a coordinated and comprehensive 
fashion. Our priorities, interests and values on all fronts must be 
pursued and promoted together because they are mutually reinforcing. 
For instance, U.S. security engagement in the Asia-Pacific region has 
facilitated the region's dramatic economic development, which has in 
turn benefited our economy. The combined and cross-cutting approach of 
the S&ED allows us to address a range of issues from a broad-based 
perspective and usefully brings multiple players from each side 
together to exchanges views.
    Likewise, the rebalancing of U.S. foreign policy toward the Asia-
Pacific is multidimensional and is very much focused on the region's 
economic dynamism. Opening markets further in Asia will provide the 
United States unprecedented opportunities for investment and trade. 
U.S. exports to the Asia-Pacific grew by 13 percent from 2010 to 2011, 
and exports to all APEC member economies grew by 15 percent over the 
same period. Continued growth in exports and the ability of American 
firms to tap into the vast and growing consumer base in Asia are 
important for our economic recovery at home, one of the fundamental 
bases for our Nation's comprehensive strength.
    The United States has set a strong, comprehensive economic agenda 
for the region that combines expansion of trade and investment with 
robust efforts to address the challenges of globalization. The United 
States has established economic leadership in the Asia-Pacific region 
by accomplishing ambitious, trade-oriented goals: ratification of the 
U.S.-Korea Free Trade Agreement, launching and establishing strong 
momentum behind the Trans-Pacific Partnership (TPP) negotiations, 
hosting a highly substantive APEC year in 2011, and building on that 
success in 2012 with negotiation within APEC of a list of environmental 
goods subject to tariff reductions. If confirmed, I will continue to 
support a strong partnership between the United States and regional 
economies that helps produce sustainable, robust, and balanced growth 
in the Asia-Pacific and expands U.S. export markets.
    The United States has also successfully prioritized economic-
commercial relations with ASEAN countries by launching the Enhanced 
Economic Engagement (E3) initiative, a new framework for economic 
cooperation designed to expand trade and investment ties between the 
United States and ASEAN countries. Last July, Secretary Clinton 
launched the first-ever U.S.-ASEAN Business Forum, bringing together 
U.S. and ASEAN government officials and business leaders to identify 
shared opportunities.
    Another key element of the administration's rebalance policy is 
pursuing a cooperative partnership with China, including through high-
level meetings such as the U.S.-China Strategic and Economic Dialogue 
(S&ED). The S&ED, by bringing together top foreign affairs, economic, 
and security officials from across our two governments, allows the 
United States to make clear to China's leaders the top priorities in 
our complex bilateral relationship, including our economic agenda. Over 
four rounds of the S&ED under this administration, managing the global 
economic recovery and leveling the playing field for U.S. businesses 
have been at the top of the agenda, alongside our regional and security 
objectives. If confirmed, I would continue to emphasize that progress 
on our bilateral economic priorities is an essential component of our 
overall effort to build a cooperative partnership with China.
    At the May 2012 S&ED, China took several steps to improve the 
protection of intellectual property rights and trade secrets, to work 
with us to negotiate new rules to limit export subsidies, to expand 
opportunities for foreign securities firms and auto finance companies, 
to undertake reforms of tariffs and taxes on imported goods, to 
consider reforms to reduce privileges currently enjoyed by its state-
owned enterprises; and to move toward a more flexible exchange rate 
system in which the market plays a greater role.
    These important developments do not resolve all of our concerns, 
but they do represent progress that translates into greater 
opportunities for U.S. workers and companies.

    Question. Will you ensure that the protection of intellectual 
property rights remains a priority agenda item for the State 
Department, particularly with China?

    Answer. If confirmed, I will ensure that the protection of 
intellectual property rights through robust laws and enforcement 
remains a top priority for the State Department's engagement with 
China. Copyrights, trademarks, patents, and trade secrets must have 
adequate safeguards in China to protect the ideas of American 
entrepreneurs and the jobs of American workers. As the Commerce 
Department has reported, IP-intensive industries support at least 40 
million U.S. jobs and contribute more than $5 trillion to U.S. gross 
domestic product. If confirmed, stronger intellectual property 
protections will continue to be a key component of the State 
Department's broader goal to require that China establish a level 
playing field for U.S. and other foreign businesses.
    China has taken positive actions in recent years with respect to 
the protection and enforcement of IPR. China now receives more patent 
applications than any country globally. And, in the majority of IP 
cases in China, both the plaintiffs and defendants are Chinese, so the 
importance of IPR is not alien to China. However, stronger enforcement 
mechanisms and efforts are still needed. Piracy and counterfeiting 
levels in China remain unacceptably high, harming U.S. and Chinese 
consumers and enterprises.
    Protection of intellectual property matters greatly to American 
businesses and consumers. If I am confirmed, the State Department will 
continue to engage China at all levels, including through the annual 
U.S.-China Joint Commission on Commerce and Trade (JCCT) and the 
Strategic and Economic Dialogue (S&ED), to improve the Chinese 
intellectual property rights protection environment.

    Question. At the time of President Obama's historic visit to Burma, 
President Thein Sein undertook a series of political commitments, 
including to release the remaining political prisoners and to promote 
peace settlements with ethnic groups. But many of these reforms have 
not been implemented and violent clashes between the military and 
ethnic minorities have escalated in recent weeks.

  <diamond> What should the State Department do to encourage the 
        Burmese Government to follow through on their commitments to 
        implement political reforms?

    Answer. Since President Thein Sein took office in April 2011, the 
Government of Burma has made important political and economic reforms, 
including outlawing forced labor, enacting laws promoting labor rights, 
removing restrictions on free assembly, passing a new foreign 
investment law, and allowing greater press freedom. The Burmese 
Bovernment has also achieved progress on core concerns of the 
international community, including the release of over 500 political 
prisoners, and has entered into preliminary cease-fire agreements with 
10 out of 11 major armed ethnic groups. The National League for 
Democracy was allowed to contest seats in parliamentary by-elections 
last April, and party leader Aung San Suu Kyi, a former political 
prisoner, is now a Member of Parliament. The Government of Burma has 
continued these reforms since President Obama's visit, including repeal 
of a law that had curbed free speech and formation of an anticorruption 
team headed by one of the country's two Vice Presidents.
    Much work remains to strengthen reforms and to ensure that Burma's 
democratic transition continues to move forward. The government must 
release remaining political prisoners unconditionally, undertake 
comprehensive legal reform to open more space for civil society to 
operate freely, and facilitate access to conflict areas for 
international humanitarian organizations.
    I am deeply concerned about the armed conflict in Kachin State, 
including the conflict's humanitarian impact and its negative 
implications for the broader process of national reconciliation. 
Despite the Burmese Government's announcement that a cease-fire was to 
take effect on January 19, media and NGO reports indicate that the 
Burmese Army continues its military offensive. The ongoing fighting has 
resulted in civilian casualties and undermined efforts to advance 
national reconciliation.
    The United States has called on all parties to end the hostilities 
and begin genuine dialogue to achieve sustainable peace. At the same 
time, we remain committed to seeking accountability for the human 
rights violations that have occurred in Kachin State. Senior Department 
officials and Ambassador Derek Mitchell have raised U.S. concerns at 
the highest levels of the Burmese Government.
    The President's trip to Burma in November 2012 demonstrated the 
United States resolve to supporting Burma on its political and economic 
reform efforts. On the eve of the President's visit, Burmese President 
Thein Sein announced his government's commitment to strengthen 
democratic governance, meet its international obligations, and adhere 
to international standards. In a November 18 statement, the Burmese 
Government articulated its commitments to 11 specific issues covering 
human rights, political prisoners, ethnic reconciliation, 
nonproliferation, good governance, and human trafficking.
    Since November the Burmese Government has moved forward on its 
commitment to restore ICRC access to prisons and prisoners, and is in 
the process of consulting with Burmese civil society and the 
international community, including the United States, to build a fair 
and credible process to release all remaining political prisoners. The 
United States Embassy in Rangoon works with the Burmese Government to 
address these commitments, and has offered assistance in fulfilling 
them. Our Embassy and the State Department are also frequently engaged 
with Daw Aung San Suu Kyi and her colleagues in the Burmese Parliament, 
as well as representatives of Burma's emerging civil society, ethnic 
minority leaders, and international partners to ensure that the Burmese 
Government follows through on these commitments. If confirmed as 
Secretary of State, I will continue to prioritize foreign assistance 
that encourages and deepens political and economic reforms.

    Question. Please state your views on Prime Minister Abe's desire to 
expand U.S.-Japan security ties. What areas do you believe are best for 
enhanced cooperation?

    Answer. The U.S.-Japan Security Alliance is the cornerstone of 
peace, stability, and economic prosperity in the Asia-Pacific region. I 
welcome Prime Minister Abe's desire to ensure that our alliance remains 
alert, flexible, and responsive to the full range of emerging 21st-
century threats and persistent regional and global challenges. Our two 
countries will continue to cooperate on a wide range of bilateral, 
regional, and global issues. If confirmed, I will work closely with the 
President, the Secretary of Defense, and others in the administration, 
as well as with Prime Minister Abe and officials of the Japanese 
Government to enhance our security ties.
    The United States and Japan are currently working closely together 
and cooperating with our partners through international fora, including 
the United Nations, to address the threat from North Korea's nuclear 
and missile programs, as well as to address humanitarian issues in the 
DPRK, and to enhance regional cooperation in the Asia-Pacific Region. 
The United States has worked with Japan to realize a U.S. Force posture 
in the Asia-Pacific region that is more geographically distributed, 
operationally resilient, and politically sustainable, and we should 
look for ways to effectively cooperate to meet emerging threats.

    Question. In April 2010, you introduced S. 3210, The Embassy Design 
and Security Act of 2010. The bill states that embassies ``should 
maintain security as a top priority.'' The bill, however, declines to 
declare security the top priority in the construction of embassies, 
particularly in less stable countries, and it creates new structures 
devoted to elevating aesthetic factors in the consideration of embassy 
design and placement.

  <diamond> Will embassy security be your top priority for the 
        construction of embassies?

    Answer. Ensuring U.S. Government personnel overseas have safe and 
secure facilities is the highest priority of the Department and its 
Bureau of Overseas Buildings Operations (OBO).
    Since the 1999 enactment of the Secure Embassy Construction and 
Counterterrorism Act, the Department has completed 95 new, enhanced 
diplomatic facilities. These facilities provide a safe and secure work 
environment for over 27,000 U.S. Government employees.
    In 2010 the Department established a Design Excellence initiative 
for U.S. diplomatic facilities and along with it a set of Guiding 
Principles to leverage the best in American architecture, design, 
engineering, technology, sustainability, art, culture, and construction 
execution without compromising security.
    These principles state that the safety and security of our staff 
and visitors are paramount. Designs and construction will meet or 
exceed all security safety standards and specifications.

    Question. In 2012, the Senate Foreign Relations Committee passed by 
voice vote, S. 3310, the Foreign Aid Transparency and Accountability 
Act of 2012. The House companion bill passed 390-0, but ultimately the 
bill was not passed in the 112th Congress.

  <diamond> Do you support the provisions of the legislation? Would you 
        propose modifications?

    Answer. If confirmed, I will continue the Department's strong 
support for the principles of aid transparency and accountability, and 
will continue to prioritize ongoing efforts to make assistance 
reporting more readily available to the public. The Department and 
USAID also remain committed to implementing evaluation methods based on 
U.S. and international best practices, and making evaluation reports 
transparent and widely available. However, it is my understanding that 
the Department still remains concerned that the House companion bill to 
S. 3310 will create a significant financial burden on the U.S. 
Government by offsetting the cost of the bill with funds necessary to 
implement U.S. assistance. The reporting requirements go above and 
beyond currently planned efforts for the Foreign Assistance Dashboard 
as required by OMB Bulletin 12-01 and would require significant more 
resources to implement. Funding these efforts with program funds may 
undermine the ability to implement programs that protect and advance 
U.S. national security and prosperity and address global humanitarian 
needs.

    Question. Are promotion eligibility requirements at USAID and the 
State Department linked to program performance? If so, how? If not, can 
they be linked?

    Answer. Promotion eligibility and program performance are linked at 
the State Department. Because the Civil Service and Foreign Service 
personnel systems do not operate in the same manner, they approach 
promotion eligibility in distinctly different ways. For Civil Service, 
the Merit Promotion Plan eligibility requirements and the Civil Service 
Performance Management system provide the link. For Foreign Service, 
the type of performance is linked to the individual's particular job or 
assignment, whether programmatic, policy, or support.
    A Civil Service eligibility requirement mandates that the employee 
or applicant must have at least a ``Fully Successful'' or equivalent 
rating level documented as the most recent rating of performance record 
(3 FAM 2314.1). Performance plans are required upon application for a 
promotion (3 FAM 2315.1) and performance plans are given due weight by 
hiring officials during the selection process (5 CFR 335.103(b)(3)). In 
order to strengthen the relationship to organizational performance 
during the hiring process, the Department recently issued guidance to 
hiring managers which encouraged the review of applicants' submitted 
performance appraisals to provide future behavior insight and 
documented organizational contributions. Additionally, employees are 
only eligible for career ladder promotions if their current rating of 
record is ``Fully Successful'' or higher. However, career ladder 
promotions are not automatic and may be withheld with advanced written 
justification and discussion if an employee has not demonstrated at 
least ``Fully Successful'' performance of a critical element deemed as 
essential to performance at the next higher grade level (5 CFR 
335.104).
    In adherence with 5 CFR 430.102, the Department of State's Civil 
Service Performance Management system is based upon the collective 
appraisal of individual employee performance plans which are developed 
to achieve effective organizational performance and accomplishment of 
agency mission and goals. Moreover, individual employee performance 
plans are required to identify individual, and, where applicable, team 
accountability for accomplishing organizational goals which are called 
``elements'' on the performance plan. Organizational goals are directly 
related to overall program performance. Supervisors appraise 
individuals based on the performance plans that are strategically 
linked to overall program performance and are used to derive the 
individual performance rating of record (3 FAM 2823.3-2).
    In the Foreign Service, promotion is based on peer review boards 
with a public member. Section 603 of the Foreign Service Act of 1980 
(Public Law 96-465) establishes the basis for promotion as the 
``records of the character, ability, conduct, quality of work, 
industry, experience, dependability, usefulness, and general 
performance of members of the Service. . . . [including] performance 
evaluation reports of supervisors, records of commendations, reports of 
language test scores from the Foreign Service Institute, awards, 
reprimands, and other disciplinary actions . . . ''
    Evaluation reports describe performance over the rating period 
(normally 1 year) and require a discussion of the employee's potential 
to take on further responsibilities. Performance goals are established 
based on post or bureau strategic priorities. Each evaluation requires 
the discussion of at least three accomplishments during the rating 
period, based on those linked priorities. For senior Foreign Service: 
``Beginning in the 2005-2006 rating cycle, and as appropriate, work 
requirements should also link directly to specific performance goals, 
initiatives/program, indicators and/or targets of the relevant Mission, 
Bureau or Department Performance Plan or to a PART (Program Assessment 
Rating Tool). . . . ''

    Question. Do you believe the current reforms adopted by the Global 
Fund Board go far enough?

    Answer. Over the past year, the Global Fund to Fight AIDS, 
Tuberculosis and Malaria has undergone a radical transformation. As the 
Global Fund's largest donor, the United States has been instrumental in 
leading and driving the Fund's reform agenda to maximize the impact of 
Global Fund resources. The Fund has made significant accomplishments in 
restructuring its operations, introducing more rigorous financial 
controls systems, implementing a new strategic funding model, and 
collaborating more intensively with U.S. bilateral health assistance 
programs in implementing countries. The Global Fund Board also 
implemented its own governance reform plan and endorsed Terms of 
Reference (TORs) for three new committees overseeing strategy, finance, 
and audits.

    Question. What is the optimal distribution of global HIV/AIDS, 
tuberculosis, and malaria funding between bilateral and multilateral 
programs, including the Global Fund?

    Answer. The U.S. Government's bilateral and multilateral 
investments are mutually supportive, increasingly integrated, and 
programmatically interdependent. Together, these investments save lives 
and build country ownership and capacity to lead and manage national 
responses over the long term. The U.S. contribution to multilateral 
programs, including the Global Fund, help us achieve our bilateral 
program results, reaching more people with quality services, leveraging 
contributions from other donors, expanding the geographic reach of 
bilateral U.S. investments, and leading the way to promote a shared 
responsibility among donors and implementers. The distribution of 
health funding between bilateral and multilateral programs is reviewed 
annually. Decisions are made across the President's Malaria Initiative, 
the U.S. President's Emergency Plan for AIDS Relief, and Tuberculosis 
programs based on country diseases strategies (malaria, HIV/AIDS, TB) 
and government and other donor contributions, in order to maximize 
results.

    Question. Will you commit to comply with requests for access to 
State Department officials for briefings and copies of documents 
related to oversight of the State Department and foreign assistance, 
including ongoing inquiries into the September 11 attacks on the State 
Department facilities in Benghazi?

    Answer. Following the tragic attacks on the U.S. mission in 
Benghazi on September 11, 2012, Secretary Clinton pledged and has 
provided the full cooperation of the Department of State in the 
congressional inquiries into the attacks, including the production of 
documents and comprehensive briefings by Department officials. If 
confirmed, I will work to uphold the high standard set by Secretary 
Clinton and continue to accommodate Congress on these important 
inquiries.

    Question. Will you commit to providing the committee with a list of 
all unexpended funds in accounts at the State Department, USAID, the 
Millennium Challenge Corporation (MCC), and others associated with the 
150 Account?

    Answer. If confirmed as Secretary of State, I will have mandate 
over only the budgets for State Department and USAID, not the other 
agencies and departments associated with the 150 Account. Pursuant to 
section 7002 of the annual State and Foreign Operations Appropriations 
Act, the State Department and USAID are required to provide Congress 
quarterly reports on our unobligated and unexpended balances. If 
confirmed, I will ensure you continue to receive these reports.

    Question. Will you commit to consult the committee, including the 
ranking member, on treaty contents throughout the negotiation process 
and to discuss with the committee substance and timing issues related 
to the treaty prior to submitting it to the committee?

    Answer. If confirmed, I look forward to discussing the 
administration's treaty priorities. Having served in the Senate for 29 
years, I can assure you I respect the Senate's constitutional role in 
the treatymaking process. I agree that consultation and coordination 
with members of the committee have played, and will continue to play, a 
critical role in successful treaty ratification processes.

    Question. Will you commit to reforming the processes related to 
diplomatic security, physical security of mission facilities, and 
establishing clear missions for facilities being opened or operated--
including the streamlining lines of responsibility to cut out current 
layers of bureaucracy and to ensure collaboration between regional 
bureaus and the Under Secretary of Management?

    Answer. Secretary Clinton accepted all 29 recommendations from the 
Benghazi Accountability Review Board (ARB). I understand the Department 
has been working diligently on addressing these recommendations, with 
some recommendations already completed and the others either well on 
their way toward completion or with plans for implementation being 
actively formulated.
    As I noted during my confirmation hearing January 24, I reiterate 
my commitment to oversee, personally, implementation of the ARB 
recommendations, and I will ensure that my senior leadership makes it a 
top priority. Recommendation Nos. 1, 3, and 6 of the ARB in particular 
address clearly defining the U.S. Government mission at a post; 
improved communication on security issues within the Department; and 
providing support/communication for newly opened posts. As I said 
publicly on December 20, upon reading the ARB report, ``. . . It's 
important for all of us to think in terms of going forward, that we 
need to do a better job of ensuring a free and open dialogue among 
ambassadors, their embassy security personnel, and officials in 
Washington where decisions on security, staffing levels, and funding 
are made.''

    Question. A common theme in Inspectors General audits and 
Government 
Accountability Office reports is that the State Department and USAID do 
not often enough set targets and collect performance data for foreign 
assistance programs. Will you commit to holding agencies accountable 
for setting strategic targets for our assistance, collecting 
performance data, and reporting the results back to the committee in a 
timely fashion?

    Answer. If confirmed, I will work to ensure that the Department and 
USAID continue to set targets for foreign assistance programs, collect 
performance data to assess how our programs are performing across the 
entire spectrum of our activities, and report back to the committee in 
a timely fashion whenever requested.
    Bureau and mission level strategic goals for foreign assistance are 
set through a collaborative interagency strategic planning process, 
which the Department revamped and strengthened this past year as part 
of its efforts to respond to the QDDR's call to improve our ability to 
manage for results. To strengthen target setting and monitoring at the 
mission level, USAID has Country Development Cooperation Strategies 
(CDCSs). CDCSs are results-oriented, 5-year country strategies that set 
ambitious but achievable goals and objectives for U.S. development 
assistance and require USAID missions to develop indicators to measure 
their performance in achieving these goals and objectives. Currently, 
20 CDCSs are completed and an additional 53 missions are scheduled to 
complete a CDCS by the end of 2013. In addition USAID recently revised 
policy guidance for monitoring project performance during 
implementation.
    USAID has also reinvigorated the process of developing and 
maintaining performance management plans. These document the 
indicators, targets, performance results, and evaluations that USAID 
missions use for measuring project results and mission development 
objectives. These indicators are used in mission portfolio reviews and 
Presidential directive and initiative reporting. They are included in 
USAID's annual Performance Plan and Reports, the source USAID uses for 
reporting to external stakeholders.
    In addition to these strategic planning and performance monitoring 
efforts, each year we set targets and report annual results for 
performance indicators that capture high-level results achieved through 
programs in all countries receiving assistance, and explain any 
discrepancies between planned and actual results. These key foreign 
assistance program accomplishments are relayed to Congress and the 
public via our agency Annual Performance Report.
    The Department and USAID are prioritizing program evaluations that 
help provide a better understanding of not only ``what'' is being 
achieved, but how and why. To this end, in support of its January 2011 
Evaluation Policy, USAID recently updated and strengthened its support 
for program evaluations throughout all of its missions, and in 2012 the 
Department developed and launched its own policy requiring that 
bureaus, and soon embassies as well, conduct program evaluations.
    The Department and USAID are committed to continuing these ongoing 
efforts to think and plan strategically, monitor and assess our 
performance against our goals, and further strengthen our ability to 
manage for results to help us, and Congress, make informed decisions. 
If confirmed, I will ensure that the Department and AID tap into all of 
these resources to keep the committee abreast of what is being achieved 
through foreign assistance.
                                 ______
                                 

      Responses of Secretary-Designate John F. Kerry to Questions 
                   Submitted by Senator Barbara Boxer

    Question. Over the years, the State Department has made important 
strides in breaking down barriers facing LGBT employees and their 
families.

  <diamond> (a) If confirmed, how will you work to ensure that sexual 
        orientation and gender identity nondiscrimination continue 
        under your tenure as Secretary of State?

    Answer (a). Secretary Clinton set a very high standard in regard to 
lesbian, gay, bisexual, and transgender (LGBT) issues in foreign and 
workforce policy. If confirmed, I plan to continue her work by making 
clear, from the time I enter on duty, that discrimination and 
harassment of lesbian, gay, bisexual, and transgender employees is not 
tolerated. I plan to do this by issuing, within 180 days of my 
appointment, policy statements regarding the Department of State's 
position on antidiscrimination, harassment prevention, diversity, and 
equal employment opportunity, which will include sexual orientation and 
gender identity as protected bases. Furthermore, I will empower the 
Office of Civil Rights to:

          1. Continue to enforce harassment policies that were already 
        at the cutting edge of response time and investigative 
        thoroughness;
          2. Work with the Gays and Lesbians in Foreign Affairs 
        Agencies (GLIFAA), one of the Department's Employee Affinity 
        Groups, and LGBT employees to ensure our offices and overseas 
        posts are inclusive and welcoming; and
          3. Train all employees, including U.S. citizens and foreign 
        nationals, on the legal and practical aspects of LGBT equality.

    The Department also formed a transgender working group, composed of 
the Bureau of Human Resources, the Office of Civil Rights, and the 
Office of the Legal Adviser, to ensure all Department of State posts 
have the tools necessary to lead by example on issues involving LGBT 
equality. If confirmed, I will work to ensure that the Bureau of Human 
Resources and the Office of Civil Rights continue to further develop a 
workplace that embraces diversity, including LGBT diversity.

  <diamond> (b) What steps will you take to build on the benefits to 
        LGBT Foreign Service officers and their families--which were 
        put in place under Secretary Clinton--to ensure they are 
        applied equitably at all of our posts abroad as well as at 
        USAID and other foreign affairs agencies?

    Answer (b). If confirmed, I will ensure that the Department 
continues its collaboration with USAID and the other foreign affairs 
agencies on same-sex domestic partner (SSDP) issues. For example, the 
Department has already established a program that allows the non-U.S. 
citizen partners of members of foreign affairs agencies to live in the 
United States for the duration of the American partner's assignment 
even if the American partner is on an unaccompanied tour.
    The Department will advocate for equal treatment of our SSDPs in 
every country, with the aim that SSDPs are accorded the same privileges 
and immunities as opposite-sex spouses.

  <diamond> (c) What steps will you take to extend additional benefits 
        and support to LGBT Foreign Service officers and their families 
        to ensure that the State Department and USAID continue to 
        attract the top talent they need?

    Answer (c). Secretary Clinton has said, ``[extending benefits to 
same sex domestic partners] will help the Department attract and retain 
personnel in a competitive environment where domestic partner benefits 
and allowances are increasingly the norm for world-class employers.'' I 
agree and, if confirmed, will continue to ensure that we continue 
forward on this path.
    Since 2009, the Department has been working to extend the entire 
range of legally available benefits and allowances to same-sex domestic 
partners (SSDPs) of members of the Foreign Service, as well as of any 
members of the Civil Service, too, sent to serve abroad. These include 
issuance of diplomatic passports to U.S.-citizen same-sex domestic 
partners, as well as inclusion of dependent SSDPs on the employee's 
travel orders. The Department was able to make these changes by 
formally defining same-sex domestic partners as family members. 
Extending these benefits has helped the Department to compete with the 
private sector to recruit and retain the best and brightest employees.
    Domestically, there are a number of benefits where ``family 
members'' of Department employees, including SSDPs, are already 
covered. These include access to employee information and referral 
services, use of daycare facilities, childcare subsidy, long-term care 
insurance (administered by OPM), and regular sick leave, which includes 
caring for a domestic partner following childbirth.
    All Department benefits created in the future will be extended to 
domestic partners, if allowed by law. The Department is committed to 
doing everything possible within the law to ensure equality. If and as 
laws continue to evolve, the Department will respond accordingly. USAID 
is also firmly committed to ensuring that benefits are available and 
applied equitably to LGBT staff and families.
    The Department and USAID will remain committed to a diverse 
workforce and to creating a workplace free of discrimination and 
harassment. To ensure fulfillment of obligations and responsibilities, 
and create a productive work environment, the Department has shared 
guidelines published by the Office of Personnel Management in May 2011 
on the employment of transgender individuals in the Federal workplace 
and have advised all managers and supervisors to review this guidance.
    OPM's guidance reiterates the Federal Government's policy to treat 
all employees with dignity and respect and to provide a workplace that 
is free from discrimination whether based on race, color, religion, sex 
(including gender identity or pregnancy), national origin, disability, 
political affiliation, marital status, membership in an employee 
organization, age, sexual orientation, or other nonmerit factors. The 
Department's policy on discrimination and harassment already prohibits 
discrimination on the basis of gender identity. For example, upon 
verification that an employee has transitioned his or her gender 
identity, our appropriate officials are authorized to make changes to 
the employee's files to show the employee's new name and gender, in 
accordance with OPM guidance.

    Question. I am deeply concerned by recent attempts by the 
Government of Bangladesh to interfere in the management of Grameen 
Bank--a critical lifeline for many poor and formerly poor Bangladeshi 
women. Secretary Clinton has been outspoken in her defense of Grameen 
Bank's independence and its women borrower/shareholders.

  <diamond> (a) If confirmed, will you commit to speaking out against 
        actions by the Bangladeshi Government to undermine or harm the 
        integrity of Grameen Bank or interfere in its management?

    Answer (a). The world has been inspired by the work of Grameen 
Bank, which has unleashed the potential of millions of women in 
Bangladesh and around the world to not only improve their own 
livelihoods but also contribute to long-lasting economic growth in 
their communities and countries. The Department continues to follow 
closely developments at Grameen and convey its strong support for a 
timely and transparent selection of a highly qualified Managing 
Director who will ensure the integrity, autonomy, and effectiveness of 
Grameen Bank as an institution, and who will ensure that the interests 
of all the shareholders, particularly women, are protected. Grameen's 
women shareholders/borrowers have played and should continue to play an 
important role in the development of this important microfinance 
institution. Bangladesh's vibrant civil society has achieved great 
success in driving economic and grassroots development for vulnerable 
populations, especially for women, and Grameen Bank is very much part 
of that success story.

  <diamond> (b) What additional steps can the United States take to 
        increase pressure on the Bangladeshi Government to uphold human 
        rights and respect the autonomy and integrity of Grameen Bank?

    Answer (b). The U.S Government, including Congress, and key voices 
in the international community have played an important role in 
supporting Grameen Bank. If confirmed, I will continue to ensure our 
concerns about Grameen and the preservation of Bangladesh's vibrant 
civil society are raised with officials at the highest levels of the 
Bangladeshi Government. We are not alone in our support for Grameen and 
its independence. We are adding our voices to the many millions of 
Bangladeshis who take pride in and have been assisted by this unique 
institution.

    Question. As Secretary of State, what steps will you take to 
convince the Russian Government to comply with the Principles from the 
Washington Conference on Holocaust-Era Assets, the Terezin Declaration 
from the Prague Holocaust-Era Assets Conference, two Russian Court 
Decisions, and now a U.S. Federal court judgment, which ordered the 
Russian Government to return the Nazi-confiscated ``Schneersohn 
collection'' of religious books and manuscripts to Chabad, its rightful 
owner in the United States?

    Answer. I know that Secretary Clinton made resolving this matter a 
priority, and if confirmed, I will do so as well.
    I understand that the Department continues to work to encourage the 
use of diplomatic channels to help facilitate a mutually acceptable 
diplomatic solution, and if confirmed, I would support that effort 
also.

    Question. The M23 rebel group, which has been operating in eastern 
DRC, has been linked to serious human rights abuses including arbitrary 
execution, enforced disappearances, and sexual violence. In an attempt 
to stop the violence, the United Nations Security Council recently 
imposed an arms embargo on the M23 as well as a travel ban and 
financial freeze of two M23 leaders.

  <diamond> As part of a U.S. response to the ongoing crisis in the 
        DRC, do you support elevating the current United States Special 
        Representative to the Great Lakes Region to full-time U.S. 
        Special Envoy status with appropriate staffing and resources?
  <diamond> Will you urge the President to take immediate steps to 
        sanction those responsible for providing material support and 
        training to the M23 rebels--including Rwanda?

    Answer. A higher profile Special Envoy, perhaps in addition to our 
current Special Advisor for the Great Lakes and the DRC, could play a 
valuable role in supporting the efforts by the United Nations, the 
International Conference on the Great Lakes Region (ICGLR), the African 
Union, and others to help resolve the conflict in eastern Congo. If 
confirmed, I will look into this issue more closely.
    As you know, the United States and the Security Council have 
already implemented sanctions against M23 as a group and several of its 
leaders. Any future U.S. actions regarding bilateral or Security 
Council sanctions against DRC-related targets, including Rwandan 
officials, will depend on developments on the ground, the behavior of 
armed groups such as the M23 and those who have provided assistance to 
them, and our assessment of what measures would effectively promote 
peace and security in the region.

    Question. Last year, President Obama made a historic visit to Burma 
to encourage continued progress toward democratic reform. 
Unfortunately, there have been a number of concerning developments--
including the escalating conflict between the Burmese Government and 
the Kachin Independence Army--that could undermine reform pledges made 
by Burmese President Thein Sein.

  <diamond> How can the United States increase pressure on the Burmese 
        Government to implement its pledges for democratic reform in 
        the country?

    Answer. Since President Thein Sein took office in April 2011, the 
Government of Burma has made important political and economic reforms, 
including outlawing forced labor, enacting laws promoting labor rights, 
removing restrictions on free assembly, passing a new foreign 
investment law, and allowing greater press freedom. The Burmese 
Government has also achieved progress on core concerns of the 
international community, including the release of over 500 political 
prisoners, and has entered into preliminary cease-fire agreements with 
10 out of 11 major armed ethnic groups. The National League for 
Democracy was allowed to contest seats in parliamentary by-elections 
last April, and party leader Aung San Suu Kyi, a former political 
prisoner, is now a member of Parliament. The Government of Burma has 
continued these reforms since President Obama's visit, including repeal 
of a law that had curbed free speech and formation of an anticorruption 
team headed by one of the country's two Vice Presidents.
    Much work remains to strengthen reforms and ensure that Burma's 
democratic transition continues to move forward. The government must 
follow through on its commitment to set up a process for reviewing 
remaining prisoners, release all political prisoners unconditionally, 
undertake comprehensive legal reform to open more space for civil 
society to operate freely, and facilitate access to conflict areas for 
international humanitarian organizations, among other reforms. If 
confirmed as Secretary of State, I will continue to press the 
government at the highest levels and at every opportunity to undertake 
these reforms and transition to an open, democratic society.
    I am deeply concerned about the armed conflict in Kachin state, 
including the conflict's humanitarian impact and its negative 
implications for the broader process of national reconciliation. 
Despite the Burmese Government's announcement that a cease-fire was to 
take effect on January 19, media and NGO reports indicate that the 
Burmese Army continues its military offensive in Kachin state. The 
United States has called on all parties to end the hostilities and 
begin genuine dialogue to achieve sustainable peace. At the same time, 
we remain committed to seeking accountability for the human rights 
violations that have occurred in Kachin state. Senior Department 
officials, including Ambassador Derek Mitchell, continue to raise U.S. 
concerns at the highest levels of the Burmese Government.
    The President's trip to Burma in November 2012 demonstrated the 
United States resolve to supporting Burma in its political and economic 
reform efforts. On the eve of the President's visit, Burmese President 
Thein Sein announced his government's commitment to strengthen 
democratic governance, meet its international obligations, and adhere 
to international standards. In October 2012, Burma hosted the first-
ever bilateral human rights dialogue with the United States. Key agenda 
items included political prisoners, legal reform, military reform, and 
conflict in ethnic areas, including Kachin and Rakhine states. If 
confirmed, I will continue to prioritize foreign assistance that 
encourages and deepens political and economic reforms.
    The United States has also ensured that new investment reinforces 
democratic reform. Last summer, in easing sanctions, the Obama 
administration announced a set of reporting requirements for U.S. 
persons and companies investing in Burma to provide transparency and to 
create incentives for firms to support improved human rights in Burma.

    Question. In August 2012, the President of Azerbaijan, Ilham 
Aliyev, released and pardoned Ramil Safarov, an Azeri soldier who had 
been sentenced to life in prison for the vicious murder of an Armenian 
soldier.
    The Obama administration condemned the release and Assistant 
Secretary of State for European and Eurasian Affairs, Philip Gordon, 
called the pardon a ``real provocation in the region.''

  <diamond> If confirmed, what steps can the United States take to put 
        pressure on President Aliyev to reconsider his decision and 
        return Mr. Safarov to jail?

    Answer. Immediately after learning of Azerbaijani President 
Aliyev's pardon of Ramil Safarov, the United States raised its concerns 
directly with the highest levels of the Government of Azerbaijan. In 
addition, both the White House and the State Department released strong 
statements of concern over Mr. Safarov's transfer and subsequent 
pardon. Mr. Safarov was tried and convicted of a brutal murder, and the 
United States was extremely troubled to learn that he would not serve 
the remainder of his sentence.
    As a cochair of the OSCE Minsk Group, the United States continues 
working to help the sides reach a peaceful resolution to the Nagorno-
Karabakh conflict, and the United States condemns any action that fuels 
tension in the region or threatens to damage the peace process. If 
confirmed, I will continue to raise the concerns expressed by the 
United States previously and do everything I can to help the parties 
resolve the Nagorno-Karabakh conflict peacefully.

    Question. Azerbaijan has threatened to shoot down aircraft that fly 
into the newly rebuilt airport in Nagorno-Karabakh.

  <diamond> How will you respond, publicly and privately, to this 
        threat and to any other new acts of aggression from Azerbaijan?

    Answer. The United States believes that the parties to this dispute 
must resolve this dangerous situation diplomatically; the 
administration has firmly opposed any steps by any party that increase 
tensions in the region or threaten to damage the peace process in the 
Nagorno-Karabakh conflict. As a cochair of the OSCE Minsk Group, along 
with Russia and France, the United States responded swiftly when such 
threats first appeared, and the administration has continued to raise 
the issue bilaterally and through the Minsk Group cochairs. If 
confirmed as Secretary of State, I will continue working to support the 
peace process and to oppose actions that could increase tensions in the 
region or damage the peace process.

    Question. If confirmed, will you or a member of your staff commit 
to meet with the Armenian American community and religious leaders from 
a broad cross-section of the community?

    Answer. Department officials maintain an ongoing dialogue regarding 
our foreign policy with a broad cross-section of the American people, 
including members of the Armenian-American community and leaders in the 
religious community. This mutual exchange of information and ideas is 
an important element in the work of the State Department, and if 
confirmed as Secretary, I will ensure that it continues.

    Question. If confirmed, will you be an advocate within the Obama 
administration for recognition of the Armenian genocide?

    Answer. If confirmed as Secretary of State, my duty would be to 
represent the policies of the President and administration faithfully. 
As the President has emphasized in his April 24 Remembrance Day 
statements, the achievement of a full, frank, and just acknowledgement 
of the facts of what occurred in 1915 is in all our interests. He also 
has said that the best way to advance that goal is for the Armenian and 
Turkish people to address the facts of the past as a part of their 
efforts to move forward. The United States is encouraging Turkey at the 
highest levels to engage productively with Armenia on the normalization 
protocols, to open the border, to reinstitute transportation, 
communication, and utility links between the two countries, and to 
reestablish diplomatic relations. If confirmed, I will continue to 
strongly support all efforts to normalize bilateral relations between 
Armenia and Turkey so that together, they can forge a relationship that 
is peaceful, productive, and prosperous.

    Question. You have been an important voice in the Senate on the 
issue of international parental child abduction.

  <diamond> (a) As Secretary of State, will you continue to make this 
        issue a personal priority?

    Answer (a). The Department of State has no higher priority than to 
safeguard the welfare of U.S. citizens abroad, the most vulnerable of 
whom are children. I have worked tirelessly on this issue as chairman 
of the Senate Committee on Foreign Relations. If confirmed as Secretary 
of State, it will continue to be a personal and professional priority 
of mine to encourage foreign governments to act in accordance with the 
Hague Convention on the Civil Aspects of International Child Abduction, 
which requires the prompt return of abducted children to their country 
of habitual residence.

  <diamond> (b) Will you commit to raising the issue of international 
        parental child abduction in high-level meetings with foreign 
        governments, including with the Japanese?

    Answer (b). Senior Department of State officials regularly raise 
international parental child abduction in our meetings with foreign 
governments. In Japan, progress on this issue is a top priority in our 
bilateral relationship. The recent election of a new government in 
Japan gave us an opportunity to urge prompt ratification of the Hague 
Convention on the Civil Aspects of International Child Abduction as 
well as take steps to resolve existing cases. Secretary Clinton raised 
this issue in her meeting on January 18, 2013, with Japanese Foreign 
Minister Kishida. If confirmed, I will continue this emphasis as 
Secretary. In addition to its work with Japan, the Bureau of Consular 
Affairs is making significant progress, which I will support as 
Secretary of State, with the Governments of Mexico, Egypt, the Republic 
of Korea, and many other countries, seeking the prompt return of 
wrongfully removed or retained children.

  <diamond> (c) Will you ensure that the position of Special Advisor to 
        the Secretary for Children's Issues is retained to ensure that 
        high-level attention stays focused on this important issue?

    Answer (c). Since the Bureau of Consular Affairs created the 
Special Advisor for Children's Issues in 2010 and named Ambassador 
Susan Jacobs to the post, she has done tremendous work to advance U.S. 
policies on intercountry adoption and international parental child 
abduction. She has engaged foreign government officials at the highest 
levels to protect the welfare of children. As Senator, I have worked 
closely with Ambassador Jacobs on these issues, and I believe the 
position of Special Advisor plays a vital role in advancing the U.S. 
position on international children's issues.

  <diamond> (d) Will you commit to work closely with other Federal 
        agencies--including the Department of Justice, the Department 
        of Homeland Security--on ways to prevent and resolve cases of 
        international child abduction?

    Answer (d). The Department of State works closely with other 
Federal agencies to resolve and prevent cases of international parental 
child abduction. International parental child abduction is a crime 
under the International Parental Kidnapping Crime Act, and the 
Department works closely with the Federal Bureau of Investigation's 
Crimes Against Children Unit when Federal criminal charges are 
involved. The Department also works with the Department of Homeland 
Security to share information that can help prevent the departure of a 
child who is the subject of a custody order prohibiting his or her 
departure from the United States. These are just two examples of the 
many ways different branches of the Federal Government work together to 
prevent and resolve international parental child abduction, and we will 
continue to strengthen our interagency relationship if I am confirmed 
as Secretary.
                                 ______
                                 

      Responses of Secretary-Designate John F. Kerry to Questions 
                Submitted by Senator Benjamin L. Cardin

    Question. The issue of restitution of, or compensation for, 
property wrongly taken during the Holocaust or Communist eras has been 
an especially vexing issue in the post-Communist period. No country has 
adopted a perfect framework, but many have undertaken meaningful 
efforts in this area. Moreover, laws adopted in the past 2 years in the 
Czech Republic, Lithuania, and elsewhere show that progress can be made 
even after the passage of a great deal of time.
    Unfortunately, Poland stands out in Central Europe for its failure 
to adopt a general private property compensation or restitution law. 
For many years, successive governments representing all the major 
parties in Poland professed to be working on the passage of such a law. 
Last year, however, the Government of Poland reversed its position and 
asserted that the only remedy for those seeking compensation or 
restitution would be recourse to Poland's courts--a process that 
presents insurmountable obstacles for most victims of property theft 
and especially victims of the Holocaust, will ultimately be futile for 
most claimants, and even for a tiny fraction of successful claimant's 
would be drawn out and needlessly burdensome.

  <diamond> (a) Will you reengage Poland on this important issue of 
        justice with the goal of seeing a general private property law 
        actually adopted?

    Answer (a). If I am confirmed, the restitution of or compensation 
for property confiscated during the Holocaust or Communist eras, which 
ranges from real estate to works of art, will remain a high priority. I 
will continue to press European governments, including Poland, to enact 
property restitution or compensation legislation if they have not 
already done so, and, if they have, to ensure that the claims processes 
they create handle cases transparently and expeditiously with a minimum 
of bureaucratic impediment. Poland has made progress on restitution of 
communal properties and has been processing personal property claims 
through its court system. The State Department will continue to 
encourage Poland to address property claimants' concerns quickly and 
fairly.

  <diamond> (b) Will you ensure that the expertise of the Office for 
        Holocaust Issues, which has done such important work, continues 
        to be supported as a critical resource for the European Bureau?

    Answer (b). If I am confirmed, I will continue to ensure that the 
expertise of the Office of the Special Envoy for Holocaust Issues 
(SEHI) continues to be supported as a critical resource for the 
European Bureau. The State Department is committed to developing and 
implementing policy aimed at encouraging the return of Holocaust-era 
assets to their rightful owners, compensation for wrongs committed 
during the Holocaust, and Holocaust education and remembrance. We 
encourage Central and East European governments to restitute illegally 
confiscated and nationalized communal and private property to rightful 
owners and, using the guidelines of the 1998 Washington Conference 
Principles on Nazi-Confiscated Art, encourage the restitution of 
artworks to rightful owners. Also of increasing importance is the 
welfare of Holocaust survivors--many of whom today live in dire poverty 
and, because of their experiences during the Holocaust, often have 
special needs.

    Question. Last December, former Senator Lugar and I--as partners on 
the related extractives industry payment transparency initiative 
Section 1504 of the Dodd-Frank law--recently sent a letter to Secretary 
Clinton urging full and timely U.S. implementation of International Aid 
Transparency Initiative.

  <diamond> As Secretary of State, how will you engage Congress in 
        codifying some of the important achievements made by this 
        administration around transparency and accountability, 
        including the U.S. Government's participation in the 
        International Aid Transparency Initiative (IATI)?

    Answer. I greatly appreciate the work you and Senator Lugar have 
accomplished to encourage more transparent and accountable foreign 
assistance. Aid transparency will remain a key priority for the 
Department of State if I am confirmed. On December 20, 2012, the State 
Department submitted a detailed and comprehensive U.S. Government IATI 
implementation schedule to the IATI Secretariat and posted an initial 
data set in IATI's common data standard for download in XML format. 
This information is available on our Foreign Assistance Dashboard and 
can be found at http://www.foreignassistance.gov/IATI_DataView.aspx. 
This release represents a significant milestone in the U.S. 
Government's commitment to increasing foreign aid transparency and 
meets the deadline set by our membership in IATI, which gave us 1 year 
to complete an implementation schedule.
    If confirmed, I commit to working with Congress to continue to 
ensure the Department and USAID continue to meet our international 
commitments to aid transparency. In particular, I will work with the 
interagency to promote the Foreign Assistance Dashboard as a critical 
and necessary tool for meeting these commitments and encourage timely 
updates to the Web site. The Department and USAID will continue to work 
vigorously to ensure budget, financial, and programmatic information 
from every agency implementing foreign assistance is available to the 
public.

    Question. Thank you for your thoughtful answer to my question on 
the humanitarian crisis in Sudan, particularly in Darfur, Southern 
Kordofan, and Blue Nile. As you noted, the United States was 
instrumental in helping South Sudan obtain independence roughly a year 
and a half ago in July 2011. Unfortunately, this young country is now 
facing a severe humanitarian crisis of its own, as well as a profound 
governance crisis.

  <diamond> What more can the international community do to build the 
        capacity of the South Sudanese Government, civil society, 
        institutions, and systems of public finance to ensure long-term 
        sustainability, guarantee its ability to provide basic 
        services, and promote good governance?

    Answer. Since South Sudan's independence, we and our international 
partners are helping South Sudan improve its governance capability and 
address its humanitarian needs. U.S. Government programs continue to 
build accountability and strengthen systems of management, rule of law, 
and governance. As you note, humanitarian needs remain high, and the 
United States and other donors remain engaged in delivering life-saving 
support to South Sudanese in need.
    U.S. Government programs in this regard include the following:

          (1) Governance and promotion of democracy, including 
        enhancing political competition, encouraging free speech and 
        media independence, improving government responsiveness and 
        accountability, and encouraging inclusive and participatory 
        development of a national constitution;
          (2) Rule of Law and Civilian Security, including training for 
        law enforcement in community policing principles, support to 
        the judiciary, and assistance to the corrections sector to 
        improve prison conditions and management;
          (3) Building South Sudanese management capacity through the 
        provision of direct technical assistance to South Sudanese 
        leaders in key government ministries, such as the Ministry of 
        Finance and the Ministry of Petroleum and Mining;
          (4) Economic Growth through the construction of 950 km of 
        paved roads (with another 350 km planned) in a country that 
        previously lacked paved roads;
          (5) Food Security through the Feed the Future initiative, by 
        doubling agricultural productivity of 7,200 rural farmers 
        through the use of hybrid seeds and fertilizers, and training 
        130 small agricultural businesses in business development;
          (6) Health Services to control and prevent malaria, 
        tuberculosis, HIV, polio, and neglected tropical diseases; 
        improve water supplies and hygiene; and provide other basic 
        health services, including 125 primary health care clinics to 
        meet basic health care needs in areas of high conflict and 
        humanitarian need; and
          (7) Education to train supervisors and teachers, improve the 
        safety of school facilities, increase community engagement, and 
        improve women's access to education.

    U.S. democracy and governance programs support the development of 
independent media and participation of citizens in governance and 
political processes. The State Department and USAID work to ensure 
civil society participation in the political process, including in the 
consultation process for the new constitution.
    Other donors, in particular the United Kingdom, Norway, and the 
European Union, are similarly committed to these goals. Their programs 
improve transparency in governance and in oil sector revenue 
management. The administration is planning a donors' meeting on 
February 7 to discuss creative solutions to South Sudan's economic 
crisis and to find new ways to increase involvement by, and 
coordination with, nontraditional donors. If confirmed, I will continue 
to coordinate closely with these and other donors, as well as with the 
United Nations and international nongovernmental organizations.

    Question. The 1979 Taiwan Relations Act and the Six Assurances of 
1982 have contributed to the peace and stability of the Asia-Pacific 
region for the past three decades.

  <diamond> With the military balance--including air superiority--
        gradually shifting in China's favor, what are your plans to 
        implement the security commitment the United States has for 
        Taiwan under this framework?

    Answer. Consistent with the Taiwan Relations Act and the United 
States one China policy, the United States makes available to Taiwan 
defense articles and services necessary to enable Taiwan to maintain a 
sufficient self-defense capability. This longstanding policy 
contributes to the maintenance of peace and stability across the Taiwan 
Strait.
    The volume of these sales is substantial. The United States signed 
defense related contracts with Taiwan valued at $4.7 billion in 2012 
alone and notified Congress of over $12 billion in total sales during 
President Obama's first term.
    Signed contracts include an extensive retrofit and modernization of 
Taiwan's F-16 fleet, and the sale of Apache attack and Blackhawk 
transport helicopters, Patriot PAC-3 Air and Missile Defense Batteries, 
P-3C long range ocean surveillance and antisubmarine aircraft, Osprey-
class coastal mine hunters and a variety of other systems, training, 
upgrades and advanced weapons and equipment.
    If confirmed, I will continue to support U.S. policy to meet our 
commitments to Taiwan and assist Taiwan to maintain a sufficient self-
defense capability. Doing so increases stability both across the Taiwan 
Strait and within the region.
                                 ______
                                 

      Responses of Secretary-Designate John F. Kerry to Questions 
               Submitted by Senator Robert P. Casey, Jr.

    Question. State Department Personnel: How will you incentivize 
Foreign Service Officers to get out and do the challenging work of 
representing the United States while ensuring they have adequate 
security cover to do so?

    Answer. I am proud to report that the Foreign Service remains a 
very attractive career choice for thousands of people. For the three 
Foreign Service Officer Tests administered in FY 2012, 20,813 people 
took the exam. Of the Generalists and Specialists who took the Foreign 
Service Oral Assessment, 1,220 passed. This yearly process results in a 
cadre of enthusiastic, dedicated, highly qualified Foreign Service 
Generalists and Specialists, who are committed to deploying around the 
world to represent the United States. With regard to protecting our 
Foreign Service personnel, after reading the Accountability Review 
Board (ARB) report, I publicly stated ``. . . it's important for all of 
us to think in terms of going forward, that we need to do a better job 
of ensuring a free and open dialogue among ambassadors, their embassy 
security personnel, and officials in Washington where decisions on 
security, staffing levels and funding are made.''
    Secretary Clinton accepted all 29 recommendations from the Benghazi 
ARB, and I understand the Department has been working diligently to 
address and implement these recommendations. As I noted during my 
confirmation hearing, if confirmed, I will personally oversee the 
implementation of the ARB recommendations going forward, and I will 
ensure that it is a top priority for the Department. I am also 
committed to take actions above and beyond implementation of the ARB 
findings. During my tenure as Secretary, I would work to make sure that 
the security of our embassies and the protection of our personnel are 
given robust and unflagging consideration.

    Question. As we approach the 2014 transition, The State Department 
will need to adapt to the changing demands for personnel and resources 
in Afghanistan, Pakistan and the surrounding region.

  <diamond> What is your vision for the future of the Office of the 
        special Representative for Afghanistan and Pakistan?
  <diamond> Will you streamline the South and Central Asia Bureau's 
        foreign assistance process by collapsing the Central Asia work 
        of the office of the Coordinator for Assistance to Europe and 
        Central Asia into the SCA Bureau?

    Answer. I have worked closely over the last 4 years with the Office 
of the Special Representative, which was charged by Secretary Clinton 
to coordinate across a whole-of-government approach in pursuit of the 
United States national security interests in the region. I greatly 
value the work and contributions that this organization continues to 
provide through its innovative structure and approach. If confirmed, I 
plan to retain this office structure through 2014, to coincide with the 
end of the Afghan security transition.
    Under arrangements in place since 2006, the Office of the 
Coordinator of Assistance to Europe, Eurasia, and Central Asia is 
considered an integral part of the South and Central Asia Bureau (SCA), 
reports to the Assistant Secretary for South and Central Asian Affairs 
(and the Assistant Secretary for European Affairs), and coordinates on 
a daily basis with working level counterparts in the Bureau. The 
Coordinator's office is an active and full participant in 
decisionmaking on assistance issues. While this is a unique arrangement 
in the Department, far from being a burden, the mixture of perspectives 
encourages innovative and cost-effective programming. Moreover, the 
FREEDOM Support ACT of 1992 requires that a single coordinator be 
responsible for all assistance to the independent states of the Former 
Soviet Union. The office has developed expertise and insight in the 20 
years the office has overseen assistance to the region. A change in the 
Coordinator's statutory mandate would require amending the current law. 
The current approach to assistance for Central Asia has been proven 
highly effective and has facilitated SCA's development of the ``New 
Silk Road'' framework for regional economic cooperation.

    Question. I recently called for a more assertive approach to Syria, 
because a political transition to a government that reflects the will 
of the Syrian people is in the core interest of the United States. We 
should be planning now for not only a refugee crisis, but for 
contingencies in a post-Assad Syria.

  <diamond> What specific steps will you take to better coordinate the 
        international donor community's support for the moderate Syrian 
        opposition in the near term and to enhance the ability of the 
        United States to influence the reform process after Assad?

    Answer. It is my understanding that the U.S. Government has done 
extensive internal planning to prepare for a range of contingencies in 
the post-Assad environment. This planning has included significant 
consultations--bilaterally and within the Friends of the Syrian 
People--with partners who share our goal of a stable political 
transition in Syria. The Friends of the Syrian People have launched 
working groups to ensure the international community is poised to 
provide rapid support to a new Syria focus, including coordinating 
economic reconstruction and lifting sanctions after Assad's departure 
so that Syria can quickly get back on its feet.
    If confirmed, I will continue to support the administration's 
active coordination with partners on the immediate humanitarian crisis 
through, for example, regular Syria Humanitarian Forum gatherings led 
by the United Nations Office of the Coordinator for Humanitarian 
Affairs (OCHA) and the upcoming international donor's pledging 
conference in Kuwait on January 30. It is my understanding that the 
administration is supporting the Syrian Opposition Coalition (SOC) 
efforts to develop their organizational structures, build legitimacy 
inside Syria, and prepare to lead a transition to a post-Assad Syria. 
The administration is also in frequent contact with key allies and 
partners to ensure mutual reinforcement of moderate, responsible 
elements opposition, and that all Syrian voices will be represented in 
a new government.

    Question. Feed the Future has relied on a ``Country-led'' process 
in order to build buy-in and a long-term local commitment to food 
security principles. In practice, this has meant engagement with 
governments, some of which may not be democratic or adequately reflect 
the needs of their people.

  <diamond> What will you do to reform the Feed the Future program so 
        that civil society plays a real role in decisionmaking and FTF 
        assistance is not funneled only toward government priorities?
  <diamond> How will you use your position as Secretary to promote 
        science and encourage adoption of biotechnologies that can save 
        lives by combating food insecurity?

    Answer. The selection of Feed the Future focus countries depends in 
part on the ability of governments in those countries to work with the 
U.S. Government as a partner to deliver results. Feed the Future's 
country-led approach helps build local government capacity to develop 
and implement inclusive national food and nutrition security 
strategies, in direct consultation with civil society, the private 
sector, and other stakeholders. This has helped ensure that each 
country investment plan represents a national, comprehensive strategy 
for significantly reducing hunger and poverty and improving food 
security in a particular country, while promoting transparency and 
accountability.
    We know that sustainable development, food security, and nutrition 
goals cannot be achieved by government efforts alone. The U.S. 
Government values contributions and feedback from civil society 
partners. These partners help increase awareness about food security 
and nutrition priorities among donors, governments, the private sector, 
civil society partners, and the public. Valuable feedback from civil 
society has been a key consideration in the evolution of Feed the 
Future programming. For instance, Feed the Future has brought more 
focus to the importance of gender equality, in addition to the need for 
expanded opportunities for women and girls; the need for climate 
resilient agricultural development; increased integration between 
nutrition and agriculture; and the need to build up Feed the Future 
efforts to include local civil society actors in decision making 
processes related to national food security strategies.
    The announcement at the 67th U.N. General Assembly of InterAction's 
pledge of more than $1 billion in private, nongovernment funds over 3 
years for global food security investments reflects the importance that 
U.S.-based civil society organizations attach to food security and the 
crucial role they play in the effort to end world hunger by 
contributing resources, innovations, and expertise that can be 
leveraged with U.S. Government and partner government investments.
    Secretary Clinton made the inclusion of civil society a key part of 
her work at the State Department and announced the preparation of an 
action plan to ensure effective, creative engagement of civil society 
across Feed the Future countries. Under this plan, the U.S. Government 
will: Champion new technologies for broad-based dialogue with civil 
society; foster creation of new partnerships among civil society 
organizations, donors, the private sector, and partner governments; and 
promote best practices in the capacity-development, knowledge-sharing, 
and service-delivery of our civil society partners.
    Progress in the Feed the Future effort continues. The State 
Department played a key role in negotiating with G8 partners, in 
particular, in developing and launching the New Alliance for Food 
Security and Nutrition, announced by President Obama in May 2012. The 
New Alliance is a shared commitment to achieve sustained and inclusive 
agricultural growth and raise 50 million people in sub-Saharan Africa 
out of poverty over the next 10 years by aligning the commitments of 
Africa's leadership to drive effective country plans and policies for 
food security; the commitments of private sector partners to increase 
investments where the conditions are right; and the commitments of the 
G8 to expand Africa's potential for rapid and sustainable agricultural 
growth.
    If confirmed, I am committed to enhancing and expanding U.S. 
Government engagement with local and international civil society to 
achieve Feed the Future goals.
    With regard to science, genetic engineering specifically, and 
biotechnologies more broadly, play significant roles in increasing 
agricultural productivity and resilience, particularly in coping with 
the impacts of climate change and the need to improve the nutritional 
value of staple foods. It is one tool among many that we must deploy to 
improve productivity in a time of declining resources.
    U.S. Government agencies are already working with interested 
countries to develop genetically engineered plant varieties that 
address agricultural challenges for which conventional approaches have 
been unsuccessful, partnering with both the public and private sectors 
to ensure equitable access to technologies developed using 
biotechnology. Examples include disease-resistant bananas in Uganda; 
insect-resistant cowpeas in Nigeria and Ghana; nitrogen-efficient maize 
and rice; and salt- and drought-tolerant rice in sub-Saharan Africa.
    The Department of State and USAID will continue to support 
agriculture research and development. From FY 2010 through FY 2012, 
Feed the Future has funded $351 million in agriculture research and 
development, with over $142 million requested in the FY 2013 budget.
    In FY 2012, Feed the Future promoted the role of biotechnology in 
increasing agricultural productivity through programs such as the 
Program for Bio-Safety Systems in Africa, which supports the 
development and implementation of biotechnology regulatory systems to 
ensure the environmental and food safety of bioengineered crops in 
countries such as Malawi, Ghana, Mozambique, Indonesia, and Tanzania.
    If confirmed, I will continue to support the Department of State 
and USAID's efforts to work in concert with other U.S. Government 
agencies to urge governments to take maximum advantage of all available 
technologies to increase agricultural productivity sustainably, and to 
strengthen the capacity of policymakers and regulators in partner 
countries to build effective science-based biotechnology laws and 
regulatory systems that facilitate needed investments in these 
technologies and use of the resulting products.

    Question. The protection of supply routes to Afghanistan (the 
Northern Distribution Network) has required the Department to engage 
with Central Asian Governments that are undemocratic and have a history 
of human rights abuses, according to the annual Human Rights Reports.

  <diamond> As Secretary of State, how will you leverage America's 
        strategic position in the region to compel these states to 
        respect the human rights of their citizens?

    Answer. The U.S. Government's strategic position in Central Asia 
has created the opportunity to forge stronger relationships with high-
level officials in the region. If confirmed, I plan to continue 
Secretary Clinton's practice of consistently raising human rights 
concerns with my Central Asian counterparts and pressing for tangible 
reforms. Many Central Asian states look to the United States for 
development and military assistance, but without significant human 
rights improvements, our bilateral relationships cannot reach their 
full potential.
    If confirmed, I will continue the State Department's efforts to 
encourage the governments of Central Asia to take concrete steps toward 
political liberalization to build a sustainable system of democratic 
governance that can ensure the rights of all citizens. I believe that 
strengthening democratic governance, rule of law, and respect for human 
rights and fundamental freedoms leads to greater opportunities for 
economic development and societal stability.

    Question. As the Middle East becomes more volatile, what will your 
Department do to help Israel maintain its qualitative military edge 
(QME)?

    Answer. The administration's commitment to Israel's security is 
unwavering and any developments that the administration believes pose a 
threat to Israel's qualitative military edge (QME) will be carefully 
considered and responded to appropriately. Given this commitment, the 
United States protects Israel's QME in a number of important ways.
    First, Israel is the leading recipient of Foreign Military 
Financing (FMF). In FY 2013, which marks the 5th year of a 10-year, $30 
billion MOU, Israel will receive $3.1 billion. Israel is also the only 
country authorized to use one-quarter of its FMF funding for domestic 
defense procurement, which provides significant flexibility in meeting 
immediate procurement needs and supporting the Israeli defense 
industry. Additionally, Israel has privileged access to advanced U.S. 
military equipment, such as the F-35 Joint Strike Fighter. The United 
States is providing significant financial assistance and technical 
expertise to help Israel develop a comprehensive air and missile 
defense system to provide defense against short range rockets and long-
range ballistic and cruise missiles. Finally, the U.S. Government is 
taking full advantage of the bilateral consultative and political 
mechanisms in place to respond to and act on Israel's concerns and to 
ensure the region's unrest does not negatively impact Israel's QME.
    Also, as the November 2012 conflict in Gaza demonstrated, the U.S. 
role in providing Israel with funding for its Iron Dome rocket/missile 
defense systems was critical in saving lives and preventing further 
death and destruction.

    Question. Bahrain, the longtime home of the Fifth Fleet, is of 
clear strategic importance to the United States, but the human rights 
situation there has deteriorated. What reforms will you push the 
Government of Bahrain to undertake to ensure that the rights of its 
people are not violated and that civil society can function freely?

    Answer. Since the unrest began in 2011, the United States has 
continued to urge genuine political dialogue in order to achieve reform 
and reconciliation in Bahrain. If confirmed, I will ensure that we 
engage at all levels: with the Bahraini Government, political groups, 
the private sector, and civil society to underscore that political 
dialogue, reform, and the protection of human rights are in Bahrain's 
long-term interests, the strategic interest of the United States, and 
the stability of the wider region.
    The State Department has recognized progress made by Bahrain to 
implement reforms following the unrest, including instituting a new 
Code of Conduct for the police, reinstating some workers and students 
who were summarily dismissed, appointing an Ombudsman in the Ministry 
of Interior, and beginning to rebuild religious sites.
    However, I am concerned that Bahrain's work on reform remains 
unfinished, particularly in areas of freedom of expression, 
accountability for past abuses, and professionalization of the police 
force. I will press the Government of Bahrain to move decisively to 
protect basic freedoms, promote human-rights principles, allow for 
economic opportunities, build trust, and provide security for all 
Bahrainis. Many of these reforms are also recommended by the Bahrain 
Independent Commission of Inquiry (BICI) report, which the Bahraini 
Government has accepted in full. The State Department, through its 
programming, seeks to promote reforms and reconciliation and improve 
governance in areas such as commercial law, military capabilities, and 
antiterrorism capacity.
    If confirmed, I will call upon all political societies in Bahrain 
to reject and condemn violence, to work with the Bahraini Government to 
negotiate a common vision for the future, and to foster genuine 
reconciliation. These reforms will help reinforce Bahrain's long-term 
stability and deepen our bilateral relationship.

    Question. What steps will you take as Secretary to persuade the 
European Union to designate Hezbollah as a terrorist organization?

    Answer. Hezbollah's activities on a number of fronts--including 
their stepped-up terrorist campaign around the world, and their 
critical and ongoing support for the Assad regime--are deeply troubling 
and, if confirmed, countering these activities will continue to remain 
one of the Department's highest priorities. I will continue the 
Department's efforts at urging our European allies--and other countries 
around the world--to take a wide range of steps to crack down on 
Hezbollah, including sanctions, increased law enforcement and 
intelligence focus and cooperation with the United States, and strong 
public statements against Hezbollah's activities. We will continue to 
press for action against Hezbollah, emphasizing to our allies that we 
must send a message to Hezbollah that their behavior is unacceptable 
and that they can no longer continue to act with impunity, both at home 
and abroad. If confirmed, I look forward to working with Congress 
toward an EU designation and support the congressional resolution on 
this important issue.

    Question. Trade Policy: Japan is a very close friend in Asia, a 
region with many geopolitical concerns and considerations. However, 
Japan has not always played by the rules when it comes to trade. 
Specifically, Japan and other countries' currency manipulation and 
nontariff barriers to our exports have caused between 1 and 5 million 
lost jobs, many of which were in Pennsylvania.

  <diamond> How do you intend to address Japan's trade practices, 
        particularly as it potentially seeks to join the Trans-Pacific 
        Partnership agreement?

    Answer. Japan is indeed a very close ally, among the closest and 
most important alliance partners we have the world over. As you note, 
the Asia-Pacific region, where Japan is undeniably a leading force, 
presents a variety of geostrategic considerations. These considerations 
include political, security/defense, and economic dimensions. If 
confirmed, I will continue to address relevant trade issues until the 
playing field is level for our businesses and public at large. For the 
most part, Japan's tariffs on U.S. products are very low now, so 
nontariff barriers are impediments to increasing our exports to Japan 
and thereby our ability to create jobs that come with those exports. It 
is my understanding that the interagency has been working with Japan 
for several years on these nontariff barriers with limited success. 
However, in the context of the Trans-Pacific Partnership (TPP), which 
Japan has expressed interest in joining, these discussions have 
increased both in frequency and their depth. It is my understanding 
that the administration has made it clear that addressing nontariff 
barriers in the auto, insurance, and agriculture industries is 
necessary for Japan to join the negotiations. The TPP is the most 
significant Free Trade Agreement the United States has embarked upon in 
two decades. Besides opening up new markets for our products, and 
addressing new and pertinent trade issues, it is a catalyst for change, 
including in Vietnam, Malaysia, and perhaps in Japan. The 
administration is impressing upon Japan that the time is now to address 
these longstanding issues, and is hopeful that our bilateral 
discussions (and those Japan is holding with other TPP nations) will 
begin to bear fruit in advancing our goals of reducing nontariff 
barriers to trade.
                                 ______
                                 

      Responses of Secretary-Designate John F. Kerry to Questions 
                  Submitted by Senator James E. Risch

    Question. As with UNESCO, the United States lacks a veto over 
membership decisions in other U.N. specialized agencies that the 
Palestinians could target for membership. The Palestinians reportedly 
were prepared to seek membership in these U.N. organizations until the 
United States cut funding to UNESCO as required under two laws enacted 
by a Democratic-led Congress in the early 1990s. U.S. Code Title 22, 
Section 287e, states:

          No funds authorized to be appropriated by this Act or any 
        other Act shall be available for the United Nations or any 
        specialized agency thereof which accords the Palestine 
        Liberation Organization the same standing as member states. 
        (Adopted as Public Law 101-246 in 1990.)

          The United States shall not make any voluntary or assessed 
        contribution: (1) to any affiliated organization of the United 
        Nations which grants full membership as a state to any 
        organization or group that does not have the internationally 
        recognized attributes of statehood, or (2) to the United 
        Nations, if the United Nations grants full membership as a 
        state in the United Nations to any organization or group that 
        does not have the internationally recognized attributes of 
        statehood, during any period in which such membership is 
        effective. (Adopted as Public Law 103-236 in 1994.)

  <diamond> The language in these provisions is clear and provides no 
        discretion or waiver authority. You voted for these laws, will 
        you support their enforcement as Secretary of State?

    Answer. If confirmed, I will fully adhere to U.S. laws as Secretary 
of State.
    I will also seek congressional support for legislation that would 
provide authority to waive restrictions on paying U.S. contributions to 
U.N. specialized agencies that grant the Palestinians full membership 
as a state or equivalent standing. I believe that our country cannot 
afford to be on the sidelines of organizations that help advance 
American national interests.
    I support the administration's commitment to active engagement 
across the U.N. system to protect and promote American interests and 
values. From bringing together the international community to impose 
the toughest multilateral sanctions ever against Iran, to intervening 
to protect civilians in Libya in a moment of crisis, to feeding the 
hungry and helping create a new nation of South Sudan, the work of the 
U.N. is vital to America's national security and to peace and the 
stability of the international system.
    By withholding our contributions to important specialized agencies, 
not only would we cut off support for important programs that advance 
U.S. interests, we weaken our ability to promote our priorities, risk 
losing altogether our voting rights, and effectively empower others to 
determine how and when America engages. When the United States steps 
back, states with conflicting agendas can and do step in, and we could 
easily find ourselves, sidelined and impotent at multiple U.N. agencies 
and unable to advance U.S. interests.
    I believe that a more effective approach is to work constructively 
within international organizations to ensure that we can wield 
influence to promote U.S. interests, including advancing Middle East 
peace. I believe that constructive diplomacy, both bilateral and 
multilateral, will better assist in achieving our shared goals.

    Question. Since the fall of Hosni Mubarak, Israel has faced a 
renewed threat on its southern border. The Sinai has become a haven for 
terrorists and the smuggling of weapons to Gaza continues. While 
Egypt's role in brokering a cease-fire between Hamas and Israel was 
positive, other developments and Presidential decisions are less than 
promising.

  <diamond> (a) Do you support current conditions on U.S. aid to Egypt, 
        including the maintenance of the Egypt-Israel peace treaty?

    Answer (a). Egyptian leaders, including the President and the 
country's military leadership, have repeatedly assured the 
administration of their commitment to the Treaty of Peace with Israel. 
If confirmed, I will take every opportunity to underscore to the 
Egyptian leadership that preserving that peace is vital to Egypt, 
Israel, and the United States. The administration has made it 
unmistakably clear, in public and in private that Egypt's relationship 
with the United States depends on its keeping the peace with Israel. I 
will also continue to stress the importance of Egypt coordinating with 
the Multinational Force and Observers (MFO) on military deployments in 
the Sinai.
    The Sinai security environment is fluid and dangerous and it will 
require maximum cooperation by Egypt, Israel, and others to address the 
threats to regional security that exist as a result of the political 
situation there. The Sinai also presents an internal terrorist threat 
to the Egyptian Government, as was made clear in the August 5, 2012, 
attack that killed 16 Egyptian soldiers. Regarding the linkage of this 
issue to our assistance, it is in the United States interest to have 
the flexibility to provide assistance as Egypt attempts to address its 
security and sovereignty issues and as Israel seeks to ensure the 
safety and security of its borders and territory. For this reason, the 
administration supports the continuation of the inclusion of a national 
security waiver in the FY 2013 appropriations bill requirement to 
certify that Egypt is meeting its obligations under the Egypt-Israel 
Treaty of Peace.
    Preserving the Treaty of Peace is a redline for the United States. 
The waiver authority simply reflects the fact that the situation on the 
ground could be fluid, complex, and difficult to assess. The waiver 
authority requires a determination that waiver of the restriction is in 
the national security interests of the United States, and, if 
confirmed, I will carefully weigh all available information and 
implications in considering such a determination. If the United States 
sees major reversals in Egypt's democratic transition, or changes in 
its foreign and military policies that threaten the interests of the 
United States or its allies, the administration maintains the ability 
to halt assistance to Egypt.

  <diamond> (b) Despite some successes, Egypt is failing to stop the 
        smuggling of weaponry to Gaza. If confirmed, will you make it a 
        priority to work with Egypt to stop the flow of weapons to Gaza 
        and more broadly bring security to the Sinai?

    Answer (b). The flow of weapons into Gaza remains a serious 
concern, and, if confirmed, I will continue to press Egyptian leaders 
to take concrete action against weapons smuggling, while offering the 
fullest possible U.S. assistance in enhancing their capacity for 
interdiction, such as through border security equipment and training. 
Egyptian officials have shown that they understand the serious nature 
of the smuggling threat, not only to Israel and others in the region, 
but also to their own country's interests.

  <diamond> (c) What role should the United States play in helping to 
        rebuild political relations between Israel and Egypt?

    Answer (c). The United States has repeatedly stressed to Egypt the 
need for senior-level political ties with Israel and for continued 
peace between the two countries. Ultimately, peace is in Egypt's 
interest, and Egyptian leaders have said Egypt is committed to 
upholding its treaty obligations. If confirmed, I will continue to 
remind Egypt of the benefits that accrue from upholding its treaty 
obligations and from constructive dialogue with Israel, which include 
regional stability, economic benefits, and assistance in combating 
common threats, in addition to preserving its relations with the United 
States.

    Question. In December, Secretary Clinton renewed a sanctions 
exemption for China, citing a significant reduction in Beijing's 
purchases of Iranian oil. What do you consider to be a ``significant 
reduction'' in the import of Iranian oil in order for a country to 
qualify for an exemption to our sanctions?

    Answer. All major importers of Iranian oil, including China, have 
now either significantly reduced or cut entirely their purchases. 
Therefore, the revenues that the Iranian Government uses to fund its 
nuclear and proliferation activities have been significantly reduced, 
and that's our goal.
    There is always some month-to-month variability in crude oil 
purchases and China has significantly reduced its overall imports of 
Iranian crude oil. The U.S. Government will continue to engage in close 
consultations with the Chinese Government on U.S. sanctions and 
maintain pressure on Iran to comply with its international obligations.

    Question. Do you believe the war in Syria is an internal matter, or 
do you believe the United States has important national interests at 
stake?

    Answer. The United States has a strategic interest in the emergence 
of a stable, free, prosperous and democratic Syria that respects the 
rights and aspirations of all of its people. The longer Bashar al-Assad 
remains in power, the greater the likelihood of all-out sectarian 
warfare and massive refugee flows that will not only have destabilizing 
consequences for the region, but could also lead to a vacuum of 
authority inside Syria where violent extremism could flourish. The 
Syrian crisis arose as a result of Assad's violent and repressive 
response to peaceful protestors who demanded nothing more than respect 
for their legitimate and universal human rights. The United States 
cannot and will not impose a transition upon Syria, but we have been 
clear that we stand firmly on the side of the Syrian people as they 
determine their own destiny.

    Question. What do you believe the role of the United Nations is 
regarding U.S. participation in military conflicts? Do you believe that 
a U.N. resolution is an imperative for any U.S. involvement in military 
action? Can a U.N. resolution substitute for an authorization of force 
from the U.S. Congress?

    Answer. A U.N. resolution is not a necessary precondition for U.S. 
involvement in military action. For example, the U.N. Charter 
specifically contemplates that states may use force in individual or 
collective self-defense without the need for prior authorization by the 
U.N. Security Council. President Obama addressed these issues in his 
2010 National Security Strategy: ``The United States must reserve the 
right to act unilaterally if necessary to defend our Nation and our 
interests, yet we will also seek to adhere to standards that govern the 
use of force.''
    The respective roles of the President and the Congress in 
authorizing particular uses of force by the United States are governed 
by the Constitution and applicable U.S. law. U.N. resolutions do not 
govern these matters.

    Question. Do you believe France acted legally in its incursion into 
Mali this month? Under what legal authority do you believe they acted?

    Answer. France responded to a direct request for assistance from 
the transitional Malian Government authorities, who are engaged in an 
armed conflict with terrorist and extremist elements. These elements, 
having conquered large swaths of the country, were threatening to 
overcome the large population centers, including the capital of the 
country in the south. These actions are in keeping with U.N. Security 
Council Resolution 2085 (2012), which was adopted unanimously by the 
U.N. Security Council on December 20, 2012.

    Question. Do you believe the recent events in North Africa 
demonstrate that 
al-Qaeda and its affiliates still pose a serious threat to the United 
States, our interests and our allies abroad?

    Answer. Core al-Qaeda (AQ) has certainly been weakened. Even so, 
AQ-affiliated terrorist groups are cropping up elsewhere, including in 
North Africa. The recent hostage crisis in southern Algeria 
demonstrates the will and capacity of terrorist groups using the AQ 
brand to threaten U.S. citizens and our allies in North Africa. This 
attack was perpetrated by a group known as Mu`aqiin bil Dam (``Signers 
in Blood''), whose leader is affiliated with AQ. Al Qaeda in the 
Islamic Maghreb (AQIM) threatens U.S. and allied interests through its 
practice of kidnapping for ransom, which often targets Westerners. More 
broadly, these groups threaten the ongoing efforts to build democratic 
states that are peaceful and prosperous in the region. AQIM and related 
groups also threaten regional stability through their activities in 
Mali.

    Question. On January 31, 2012, in testimony before Congress, 
Director of National Intelligence James Clapper included Boko Haram in 
his worldwide threat assessment, stating, ``There are also fears that 
Boko Haram--elements of which have engaged al-Qaeda in the Islamic 
Maghreb (AQIM)--is interested in hitting Western targets, such as the 
U.S. Embassy and hotels frequented by Westerners.''

  <diamond> Do you agree with his assessment?

    Answer. While the administration assesses that Boko Haram's 
priorities remain primarily local, Boko Haram has previously carried 
out operations against Western targets and it is possible that they 
will target Western interests in the region again. Previous operations 
attributed to Boko Haram include the suicide bombing of the United 
Nations building in the Nigerian capital of Abuja on August 26, 2011, 
that killed at least 23 people and wounded scores more as well as 
several kidnappings of Westerners. In June 2012 the Department of State 
designated Boko Haram members, Abubakar Shekau, Abubakar Adam Kambar, 
and Khalid al-Barnawi, as Specially Designated Global Terrorists under 
section 1(b) of Executive Order 13224. Shekau is Boko Haram's most 
visible leader. Khalid al-Barnawi and Abubakar Adam Kambar have ties to 
Boko Haram and have close links to Al Qaeda in the Islamic Maghreb 
(AQIM).

    Question. Does Boko Haram meet the criteria for designation as a 
foreign terrorist organization under section 219 of the Immigration and 
Nationality Act (8 U.S.C. 1189)?

    Answer. Addressing the lack of security in northern Nigeria is a 
top priority for the Department of State. The Department remains 
concerned about the activities of Boko Haram and its potential impact 
on U.S. citizens or interests in Nigeria and other African nations. If 
confirmed, I will review the situation in Nigeria with respect to Boko 
Haram and take appropriate action as necessary, up to and including a 
designation of Boko Haram as a Foreign Terrorist Organization.
    I should note that the United States has already taken action 
against the most dangerous leaders of Boko Haram. On June 21, 2012, the 
U.S. Government designated three individuals as Specially Designated 
Global Terrorists--Abubakar Shekau, Khalid al-Barnawi, and Abubakar 
Adam Kambar.

    Question. Do you agree that the State Department should not wait 
until after Boko Haram conducts a terrorist attack against U.S. 
interests and/or citizens to designate them as an FTO under 219 of the 
INA?

    Answer. Addressing the lack of security in northern Nigeria is a 
top priority for the Department of State. The Department remains 
concerned about the activities of Boko Haram and its potential impact 
on U.S. citizens or interests in Nigeria and other African nations. If 
confirmed, I will review the situation in Nigeria, including with 
respect to Boko Haram activities, and take appropriate action as 
necessary. If the facts of the situation warrant a designation as a 
Foreign Terrorist Organization, I am prepared to exercise my authority 
in that respect.

    Question. There have been press reports that the Indians are 
worried about your becoming Secretary of State because you have 
traveled more to Pakistan than you have to India and they view this as 
a sort of favoritism.

  <diamond> What steps will you take with the Indians to ensure a 
        strong United States-Indian bilateral relationship?

    Answer. The U.S.-India relationship is a strongly bipartisan 
foreign policy priority which has enjoyed broad support in both 
countries--across three U.S. presidencies and three Indian governments. 
As he stated during his November 2010 visit to India, President Obama 
is committed to advancing a long-term, strategic partnership with 
India.
    If confirmed as Secretary of State, I will continue to chair the 
U.S.-India Strategic Dialogue as a catalyst for interagency action in 
implementing the President's vision of a deepened partnership to face 
shared challenges. This vision includes five key areas of great 
potential in the U.S.-India relationship: defense cooperation; 
partnering on shared interests in South and East Asia; homeland 
security, intelligence, and counterterrorism cooperation; cooperation 
in multilateral institutions; and an enhanced economic and energy 
relationship.
    India will be one of our closest partners in Asia, which will 
contribute to the security of the whole region. Building on our robust 
military exercises, dialogues, and defense procurement relationship ($8 
billion and growing), we seek to transition to a relationship of 
coproduction and, ultimately, joint research and development.
    In South and East Asia, we both have an interest in ensuring the 
region remains peaceful and offers opportunities for rising prosperity. 
India's economy is key to the success of the New Silk Road vision and 
to building a network of trade and transit linkages to its east in an 
Indo-Pacific Economic Corridor of enhanced prosperity and strengthened 
security for the nations of Southeast Asia, including Burma. Our 
consultations with India include trilateral discussions with Japan and 
with Afghanistan.
    We share with India the urgent focus on preventing another attack 
by a terrorist group against U.S. or Indian interests in the region or 
elsewhere. Our joint counterterrorism efforts and information-sharing, 
including through the Homeland Security Dialogue, have built an 
important new bridge between our respective governments.
    While in India, President Obama expressed support for reformed U.N. 
Security Council that includes India as a permanent member. If 
confirmed, I intend to continue intensive consultations with the Indian 
Government to advance our collaboration in multilateral institutions.
    Our strong economic relationship continues to underpin our 
bilateral ties; bilateral goods trade more than quadrupled between 2000 
and 2011 from $14.3 billion to $57.8 billion and total trade, including 
services, is on track to reach $100 billion in the near term. We seek 
continued growth in our bilateral trade relationship, enhanced 
investment opportunities, including through the conclusion of a 
Bilateral Investment Treaty, and further opportunities for U.S. 
businesses in Indian markets. Full implementation of the U.S.-India 
Civil Nuclear Cooperation Initiative, beginning with the expected early 
conclusion of commercial contracts for U.S. firms, remains a top 
priority. All of these economic ties rest on an increasingly dense web 
of people-to-people relationships, with over 3 million Indian Americans 
in the United States and 100,000 Indian students studying in the United 
States. People-to-people outreach will continue to be a priority.

    Question. Can you describe the importance of ensuring the safe 
return of SGT Bowe Bergdahl and what importance you will place on his 
safe return? What will you do differently than your predecessor to 
bring him home?

    Answer. As our single captured servicemember in Afghanistan, the 
safe return of SGT Bowe Bergdahl is of the utmost importance to me 
personally, and the Department of State, and the administration.
    Obtaining SGT Bergdahl's freedom is not only an important 
humanitarian mission that we must pursue for him and his family, but a 
manifestation of a solemn responsibility to every American serving in 
uniform that the United States will not rest until every missing or 
captured American servicemember is returned home. If confirmed, I 
assure you that I will maintain the highest attention to this matter. I 
will work with the Defense Department, ISAF, and the international 
community, using all the diplomatic tools at my disposal to ensure his 
expeditious return to the United States.

    Question. Please characterize the Government of Russia. Do you 
believe it is moving in the direction of greater democracy, or greater 
authoritarianism?

    Answer. Russia is at a crossroads today. It can take steps to 
modernize and democratize its political system, diversify its economy, 
and foster a robust civil society, or it can continue to impose limits 
on competition, transparency, and governmental accountability that will 
continue stifling the realization of a more open and prosperous country 
that serves all Russians.
    I am concerned by trends in Russian politics and government. For 
example, in the wake of the mass public protests that followed 
elections in 2011 and 2012, the Russian government has adopted a series 
of measures that appear aimed at restricting the workings of civil 
society and limiting avenues for public expressions of dissent.
    Russia will not thrive without strengthened rule of law so that 
whistle blowers like Sergey Magnitsky are protected from retribution 
when they shine the light on official corruption, which Russia's 
leaders have acknowledged is a cancer on their economy. And as long as 
opposition figures are thrown in jail, or the murders of courageous 
journalists such as Paul Klebnikov and Anna Politkovskaya go 
unpunished, Russia will miss the historic opportunity it has to build a 
modern and prosperous country that allows its citizens to realize their 
extraordinary potential.
    While only Russians themselves can determine Russia's future 
course, we continue to believe that political pluralism, democratic 
accountability and rule of law are the keys to unlocking Russia's 
enormous potential. As such, if I am confirmed as Secretary of State, I 
will continue to support Russian efforts to create a more free, modern, 
and democratic country.

    Question. As the Polish Institute of International Affairs pointed 
out in a recent report, the Russians ``have fuelled a feeling of 
insecurity'' among the Baltic States. However, concerns about Russia's 
intentions have not been limited just to the Baltic States. In the 
past, Russian presidents have stated there are regions in which Russia 
has ``privileged interests.''

  <diamond> Do you believe the nations on Russia's border have a right 
        to determine who they wish to ally themselves with?
  <diamond> Do you think it is in America's interests to resist Russian 
        attempts to regain de facto control over portions of the Former 
        Soviet Union and, if so, what measures would you favor?
  <diamond> What do you think the United States can do to reassure our 
        NATO allies in Eastern Europe that America will not abandon 
        them to Russian threats, even if NATO appears unwilling to 
        stand up to Moscow?

    Answer. The United States support for the independence of the 
Baltic States and the other former Soviet Republics is unwavering and 
nonnegotiable. The United States stands for the right of every 
independent country to choose its alliances and associations--
political, military, economic, or otherwise--according to its own 
interests and free from coercion of any kind. This country also stands 
by the principle that states have the right freely to choose whether to 
allow foreign forces to be stationed on their territory and that forces 
that do not have the consent of the host state should be withdrawn. 
These are principles I supported wholeheartedly in the Senate, and if 
confirmed as Secretary of State I will continue to do so.
    The United States has continued to modernize our force posture in 
Europe, aligning it with the realities of the 21st century, while also 
maintaining the capabilities we need to meet our Article 5 commitment 
to our NATO allies. Our goal remains, as NATO heads of state and 
government most recently reiterated at the 2010 Lisbon summit, that 
``in light of common security interests, we are determined to build a 
lasting and inclusive peace, together with Russia, in the Euro-Atlantic 
Area.''

    Question. After the 2012 NATO summit in Chicago, Secretary Clinton 
declared the next NATO summit should be an enlargement summit. Do you 
agree with her statement? What policies should guide membership in the 
alliance?

    Answer. If confirmed, I would continue the United States unwavering 
support for NATO's ``open door'' policy and commitment that any Euro-
Atlantic country that wishes to join the alliance and meets the 
requirements may do so; no non-NATO state has a veto over any country 
choosing its own alliances.
    The United States works bilaterally and through NATO to support 
aspirants' efforts to meet NATO standards and encourage them to take 
the steps required to become interoperable with NATO. The United States 
offers joint training opportunities, in addition to encouraging and 
supporting partner contributions to NATO's worldwide operations, in 
order to increase interoperability and build an atmosphere of 
cooperation and trust at all levels of planning and operations.
    The enlargement process has, and will, continue to serve as a 
vehicle for promoting democratic institutions and civilian control of 
the military within the countries of the Euro-Atlantic region. Through 
NATO's open door, the United States has made great strides in realizing 
the goal of a Europe whole, free, and at peace.

    Question. In 2010, the French moved forward with a plan to sell 
warships to Russia. Since then a number of NATO allies have offered to 
sell equipment to Russia. Do you believe these sales are appropriate?

    Answer. Decisions about such sales are a matter for sovereign 
states taking into account a host of factors, including international 
law and regional stability. All countries should exercise good judgment 
and restraint when it comes to deploying military equipment that could 
exacerbate tensions in any conflict region. NATO is an enduring 
alliance that has weathered more than 60 years of sweeping change. The 
administration remains committed to NATO, and to its mutual obligations 
to build a safe and secure Euro-Atlantic region.

    Question. The recently passed PNTR legislation for Russia included 
an important provision that requires the U.S. Trade Representative and 
the State Department to provide an annual report to Congress on the 
steps they are taking to advocate for American investors in Yukos Oil, 
the Russian oil company that was effectively expropriated by the 
Russian Federation in 2007. The annual report will also include a 
report on the status of the petition filed by American investors in 
Yukos to request that the State Department formally ``espouse'' the 
American claims--meaning the State Department would make compensation 
for American investors a matter of bilateral negotiations between the 
United States and Russia.
    American investors collectively owned approximately 15 percent of 
Yukos--a $12 billion stake based on the value of Yukos at the time the 
company was dissolved by Russian authorities in 2007. The American 
investors in Yukos included public pension funds, as well as more than 
70 private investment funds in at least 17 States. There also were 
approximately 20,000 individual American investors.
    As the United States and Russia do not share a bilateral investment 
treaty, without State Department intervention, American investors have 
no meaningful recourse against the unlawful expropriation of their 
property.

  <diamond> What concrete steps has the State Department taken in the 
        last 6 months to raise this issue with the Russians, and what 
        additional steps are planned for the coming months?
  <diamond> And will you move forward in formally espousing the claims 
        of American investors in Yukos and seeking compensation from 
        the Russian Federation?

    Answer. The fair treatment of U.S. investors abroad, including in 
Russia, is a priority for me, and will remain a top priority of the 
State Department if I am confirmed. It is my understanding that the 
Department has been closely following the Yukos matter, and has raised 
it with the Russian Government on numerous occasions since 2007, 
including demarches to the Ministry of Economic Development and the 
Ministry of Foreign Affairs, as well as in numerous media interviews.
    I understand that the Department is undertaking a comprehensive 
review of the espousal petition, and is also considering other possible 
avenues for seeking equitable resolution of the outstanding claims. In 
addition, the Department is closely monitoring the international 
arbitration claims brought by Yukos investors under the Spanish and 
U.K. bilateral investment treaties, the judgment rendered by the 
European Court of Human Rights on the claims brought by the Yukos 
Corporation, and the arbitration proceedings brought by majority Yukos 
shareholders under the Energy Charter Treaty. Before making any final 
decisions on the best way to address the claims of American investors, 
the Department believes these proceedings should fully run their 
course.

    Question. It has been reported in the Press that Russia is 
developing legislation that would bar visas to U.S. officials 
affiliated with the detention facility at Guantanamo Bay and that the 
list of individuals detained contains Members of the U.S. Senate and 
House of Representatives.

  <diamond> Do you or does the Department of State know what Members of 
        Congress would be on the Russian GTMO List?
  <diamond> What would be an appropriate response to Russia passing 
        such legislation?

    Answer. To my knowledge, the Department of State does not have 
official information with which to confirm or refute press reports 
about Russian Government intentions to bar Members of Congress from 
traveling to Russia.

    Question. Late in 2012, Russia passed a ``Foreign Agent'' Law and 
several other similar measures which, according to the New York Times, 
will discourage interaction with foreigners by expanding the legal 
definition of treason to include ``providing financial, technical, 
advisory, or other assistance to a foreign state or international 
organization.''

  <diamond> Have any Foreign Service Nationals at the U.S. Embassy 
        Moscow had to quit due to the passage of this law?
  <diamond> What impact will this law have on Embassy and consulate 
        operations in Russia given that the U.S. Government provides 
        payment to Foreign Service Nationals for their services?

    Answer. The Locally Engaged Staff in Moscow, Yekaterinburg, St. 
Petersburg, and Vladivostok are valued employees and serve to support 
U.S. Government policy goals.
    The new Russian law redefining the crime of treason is very broadly 
written. Though we have not yet seen how it will be enforced, the 
concern for our Locally Employed Staff is valid, and will have my 
attention if I am confirmed as Secretary of State. As a longstanding 
matter of policy, the United States does not ask local Embassy 
employees to provide sensitive information about their home countries, 
a fact I will make clear to my Russian counterpart if confirmed. There 
has been no impact on operations at the U.S. Mission in Russia since 
passage of the law.

    Question. We employ over 800 Russian nationals in our Embassy in 
Moscow, but the Russians employ no Americans at their Embassy in 
Washington. Russian employees in Embassy Moscow present an enduring 
counterintelligence threat. A number of proposals, from eliminating all 
Russian workers to merely adding American supervisors to the local 
guard force have been suggested, but none have been enacted.

  <diamond> Do you agree that steps must be taken to decrease the 
        number of FSN's serving at the U.S. Embassy Moscow?
  <diamond> What will you do to improve the security situation vis-a-
        vis Russian workers in our Embassy?

    Answer. I take the security of all mission personnel very seriously 
and if confirmed, I intend to work very closely with staff in 
Diplomatic Security to review and implement all security 
recommendations, including those of the last Inspector General's report 
for Mission Russia and those contained in the report of the 
Accountability Review Board.
    The Locally Engaged Staff in Moscow, Yekaterinburg, St. Petersburg, 
and Vladivostok are valued employees and serve to support U.S. 
Government policy goals. I believe that a reduction in the numbers of 
these professionals working for the U.S. Government would not 
contribute to an improvement in the overall security situation of our 
missions in Russia.

    Question. At present, there is very poor linkage between poor 
behavior by foreign countries and consequences in response to such 
behavior. For example and according to press reports, Russians, 
Pakistanis, and Chinese engage in routine harassment of our diplomats, 
including killing pets, violating houses, and harassing surveillance.

  <diamond> Does and should the U.S. Department of State take any 
        reciprocal actions such as restricting movements and denying 
        visas when this happens to U.S. diplomats?
  <diamond> If confirmed, what steps will you take to ensure better 
        treatment for American diplomats abroad?

    Answer. Mandated by Congress through the Foreign Missions Act (22 
U.S.C. 4301-4316) of 1982, the Department's Office of Foreign Missions 
(OFM) provides the legal foundation to facilitate secure and efficient 
operations of U.S. missions abroad, and of foreign missions and 
international organizations in the United States. In doing so, OFM 
serves the interests of the American public, the American diplomatic 
community abroad, and the foreign diplomatic community residing in the 
United States, ensuring that all diplomatic benefits, privileges, and 
immunities are properly exercised in accordance with federal and 
international laws.
    As an advocate for reciprocal agreements, OFM presses for fair 
treatment of U.S. personnel abroad while assuring foreign diplomats 
based in the United States receive the same treatment that each 
respective government provides in return.
    If confirmed, I am committed to reciprocal and fair treatment of 
our United States diplomatic and consular missions abroad and their 
personnel.

    Question. In 2001, Argentina had the largest default in history and 
turned its back on $81 billion in loans from the international 
community. In 2005, Argentine President Nestor Kirchner offered a 
``take it or leave it,'' nonnegotiable 27-cents-on-the-dollar debt 
exchange to its worldwide private creditors. President Kirchner refused 
to negotiate with Argentina's private bondholders and repudiated the 
country's outstanding debt obligations. Again in June 2010, Argentina 
temporarily offered to pay the equivalent of 25 percent of what they 
owed foreign creditors before again repudiating all outstanding debt.
    Argentina owes American bondholders $3.5 billion. With more than 
$40 billion in foreign reserves, Argentina can afford to repay what it 
owes. In the Southern District Court of New York alone, Argentina has 
refused to honor 100 court judgments ordering it to fulfill its debt 
obligations. Argentina has also repeatedly disregarded arbitral awards 
entered against it by the World Bank's dispute resolution panel, the 
International Court for the Settlement of Investment Disputes (ICSID), 
despite receiving billions of dollars in World Bank loans.
    The United States clearly has an interest in supporting the rule of 
law and seeing that US court judgments, as well as the rulings of 
international arbitral panels, are respected.

  <diamond> Do you agree that Argentina should be encouraged to meet 
        its legal obligations? If so, as Secretary of State, what new 
        steps will you take to encourage Argentina to do so?

    Answer. If confirmed, I will continue the administration's 
bilateral discussions with Argentine officials and reiterate our 
serious concerns about Argentina's failure to fulfill its private debt 
obligations to U.S. creditors, as well as its public debt to the U.S. 
Government, and press for a resolution to this longstanding bilateral 
irritant.
    It is my understanding that the Department of State has raised 
International Centre for the Settlement of Investment Disputes (ICSID) 
cases with the Government of Argentina at high levels over the past few 
years and continues to urge Argentina to pay the two U.S. companies 
that hold final and binding awards administered by ICSID. The 
Department of State also expressed concerns that Argentina has failed 
to make payments on its sovereign debt obligations, including almost 
$550 million to the United States, and has urged Argentina at the 
highest levels to normalize relations with all of its creditors, both 
public and private. By resolving its obligations to creditors and 
investors, Argentina will send a strong signal that it welcomes and 
encourages the foreign and domestic investment that is crucial for 
sustained economic growth.
    I believe it is important for our countries to manage areas of 
disagreement and will seek to rebuild a positive bilateral relationship 
based on shared values, responsibilities, and interests.

    Question. Senator Kerry, when you chaired the nomination hearing of 
Secretary Clinton you stated; ``It is my hope that we will embrace deep 
reciprocal cuts in our nuclear arsenals, and I'm eager to hear Senator 
Clinton's thoughts on this matter. Consistent with our security needs, 
I believe we should set a goal of no more than 1,000 deployed warheads, 
and that goal should be just the beginning.''

  <diamond> What analysis did you use to arrive at the 1,000 deployed 
        warhead limit?
  <diamond> While the New START Treaty established a threshold of 1,550 
        deployed warheads, do you support negotiations to reduce our 
        strategic deterrence further?

    Answer. I agree with President Obama, who stated the following in 
Seoul in March 2011: ``[W]e can already say with confidence that we 
have more nuclear weapons than we need. I firmly believe that we can 
ensure the security of the United States and our allies, maintain a 
strong deterrent against any threat, and still pursue further 
reductions in our nuclear arsenal.''
    The President directed the Implementation Study of the 2010 NPR to 
inform the guidance to the Defense Department on nuclear planning to 
determine force structure, force posture, and stockpile requirements 
needed to protect the United States and our allies and partners, and to 
inform plans for employing nuclear weapons in the extreme circumstance 
in which deterrence fails. The results of this study, when concluded, 
will inform our position in future discussions with Russia on further 
nuclear reductions.

    Question. Some in the arms control community have prepared reports, 
including the International Security Advisory Board and Federation of 
American Scientists, that have encouraged President Obama to bypass 
Congress and unilaterally reduce our nuclear arsenal.

  <diamond> Do you endorse unilateral efforts to reduce our arsenal?

    Answer. Having served proudly in the U.S. Senate since 1985, I have 
the utmost respect for the role of Congress in the conduct of U.S. 
foreign policy.
    I am mindful of the language in the Arms Control Disarmament Act, 
and similar language in other legislation. As always, the 
administration will follow the Constitution and the laws of the United 
States.
    If confirmed, I would ensure that the Department of State will 
continue its consultations with the Congress on arms control and other 
issues.

    Question. In your testimony before the committee you mentioned that 
U.S. economic policy and foreign policy are becoming more 
interconnected and difficult to distinguish. One place where challenges 
exist is the conflicts between the U.S. Department of Commerce 
Commercial Control List and State Department's U.S. Munitions' List.

  <diamond> What changes would you make and what authority are you 
        willing to cede in order to help U.S. companies improve their 
        exports?

    Answer. In August 2009, the President directed a broad-based 
interagency review of the current export control system to ensure that 
the system, designed for a bipolar world of the cold war era, could 
address the threats we face today as well as the changing economic and 
technological landscape. At the end of the review, the President 
directed agencies to undertake fundamental reforms in what we control, 
how we control it, how we enforce those controls, and how we manage our 
controls.
    It is my understanding that, since then, agencies have worked to 
implement the President's vision. A key part of this effort has been 
the work by the Departments of State, Defense, and Commerce to update 
the U.S. Munitions List (USML) and the Commerce Control List (CCL). By 
working steadily and collegially--in a field that traditionally has 
been fraught with interagency disputes--these agencies are methodically 
accomplishing this enormous task. They identified items which, because 
of their sensitivity, will stay on the USML and remain subject to the 
strict licensing requirements of the Arms Export Control Act (AECA). 
Those items of an inherently dual-use nature will be moved to the CCL, 
where they will not be decontrolled, but rather subject to the more 
flexible licensing mechanisms that are available under the Commerce 
licensing authorities while remaining subject to U.S. embargoes. This 
prioritization of our controls, to dispense with what former Secretary 
of Defense Gates has called the ``easy cases'' to our allies where we 
say ``yes'' 100 percent of the time, will enable us to better focus on 
the items and destinations of greatest concern. As required by the 
AECA, the Department will notify Congress of any planned changes to the 
USML. In fact, it is my understanding that the first such notification 
likely will occur in the next few months.
    There is still more work to be done, but when finished, these list 
reforms will focus our resources on the threats that matter most, and 
help us work more effectively with our allies in the field. They will 
bring transparency and coherence to a field of regulation which has 
long lacked both. And by enhancing the competitiveness of our 
manufacturing and technology sectors, which will help maintain and 
create jobs, they will help us to both expand our secure trade and 
strengthen our national security.
    The authorities in the AECA to control the export of goods and 
technologies on the USML are provided to the President. The President 
has delegated many of the AECA authorities to the Secretary of State. 
The President will continue to determine where the AECA functions 
should be placed within his administration to best benefit U.S. 
national security and foreign policy interests.

    Question. What is the likelihood of bringing more nuclear weapon 
states into INF?

    Answer. Twenty-five years after its signing, the Intermediate-Range 
Nuclear Forces Treaty (INF Treaty) remains a singular achievement in 
nuclear arms control, and an inspiration for future work.
    The United States believes that our world would be a safer and more 
secure place if all nations would eliminate and renounce the 
intermediate-range missiles covered by the INF Treaty.
    Indeed, in October 2007 the United States joined Russia in issuing 
a statement at the 62d session of the U.N. General Assembly calling on 
all countries to give a global character to the INF Treaty by 
renouncing the types of missiles covered by the treaty.
    Nonetheless, the administration is not convinced that a ``one-size-
fits-all'' global treaty on such missiles is the best way to address 
the issue. Accordingly, the administration will also explore options 
for addressing the issue on a regional basis.

    Question. We have heard Moscow complain that U.S. investments in 
Missile 
Defense threaten to upset the strategic balance that exists. How would 
you characterize Russia's Missile Defense Investments (both 
unilaterally and with other nations)?

    Answer. Russia's missile defense capabilities are largely focused 
on theater missile defense systems such as the S-300 and S-400, 
although Russia has maintained the Moscow ABM system since Soviet 
times. In addition, Russia also has a number of sensors that could have 
a role in a missile defense system.
    Russia follows U.S. missile defense developments closely. Russian 
officials have said publicly that Russia is putting a strong emphasis 
on improving its aerospace forces as part of its response to U.S. 
programs. If confirmed, further details could be discussed in a 
briefing with my interagency colleagues.

    Question. Is Russia's calculation for the number of nuclear weapons 
in its arsenal based solely on U.S. and NATO estimates or does Russia 
also take into consideration the size, composition and investment of 
countries like China and India when determining the size and 
composition of its deterrent?

    Answer. It is my understanding that to the best of the Department's 
knowledge, Russia's calculation for the number of nuclear weapons in 
its arsenal takes into account a number of factors, including U.S. and 
NATO estimates. Russian strategic experts have published analyses in 
the press that suggests Russia is sensitive to Chinese military 
programs. If confirmed, further details could be discussed in a 
briefing with my interagency colleagues.

    Question. Could you please describe the importance of verification 
and compliance in arms control negotiations?

    Answer. The United States places a very high priority upon 
verifying compliance with, and detecting violations of, arms control 
agreements. A key criterion in evaluating whether an agreement is 
effectively verifiable is whether the United States would be able to 
detect, and respond to, any attempt by another Party to violate its 
obligations in a way that has military significance, well before such 
an attempt became a threat to U.S. national security.

    Question. Is Russia living up to all arms control agreements to 
include the PNIs, INF, New START, and the U.S. definition of what 
constitutes a test under the CTBT?

    Answer. For issues relating to Russian compliance, I refer you to 
the Annual Compliance Report produced by the Department of State. Both 
the unclassified and classified versions of that report will give you a 
view of issues regarding compliance with all our treaty partners, 
including Russia.

    Question. Do you see China as a strategic partner or strategic 
competitor for the United States, and how do you interpret China's 
massive military buildup over recent years?

    Answer. U.S.-China relations have elements of both cooperation and 
competition. The United States should continue to work with China to 
manage our differences where we cannot resolve them and continue to 
build an increasingly cooperative partnership across the range of 
bilateral, regional, and global issues that confront us today. I 
disagree with views held by some in both the United States and China 
that conflict with the United States is an inevitable outcome of a 
rising China. In fact, the United States welcomes a strong and 
prosperous China that plays a key role in world affairs and adheres to 
international standards.
    On the military front, the United States seeks a healthy, stable, 
reliable, and continuous military-to-military relationship with China. 
Increased contacts and exchanges between our two militaries would help 
expand areas of cooperation, narrow differences, and eventually lead to 
Chinese choices that will benefit our shared long-term security 
interests.
    The United States continues to both closely monitor China's 
military modernization program and encourage China to exhibit greater 
transparency with respect to its capabilities and intentions. The 
United States also encourages China to use its military capabilities in 
a manner conducive to the maintenance of peace and stability in the 
Asia-Pacific region.

    Question. Should North Korea conduct an additional underground 
nuclear weapons test, what actions would you recommend the President 
taking unilaterally and multilaterally to further isolate them from the 
global community?

    Answer. If confirmed, I would support strong U.S. and international 
condemnation of a third nuclear test by North Korea. A nuclear test by 
North Korea would be a mistake, a miscalculation, and would set back 
the cause of resolving issues that relate to the Korean Peninsula 
diplomatically, most importantly the issue of denuclearization. This 
provocative act would directly violate North Korea's international 
obligations under United Nations Security Council resolutions, and if 
confirmed I would support a strong international response. The United 
States should continue to make clear that it will take steps necessary 
to defend the United States and our allies.

    Question. It appears that China is so concerned about instability 
in North Korea that it will do whatever is necessary to prevent a flood 
of North Korean refugees from crossing into its territory. What will 
your strategy be for getting China to be more supportive in the UNSC 
for further sanctions against North Korea?

    Answer. The United States and other six-party-talks partners should 
continue to urge the leadership in Pyongyang to choose the path toward 
peace and prosperity; staying on its current path will only lead North 
Korea deeper into isolation. The United States should continue to 
pursue its dual-track policy of pressure and engagement to sharpen the 
DPRK's choices.
    The United States and China have a shared interest in a 
denuclearized Korean Peninsula, so the United States should continue to 
encourage China to more effectively leverage its unique relationship 
with the DPRK to achieve our common goal. The United States has worked 
actively with China in the U.N. Security Council (UNSC) to develop UNSC 
Resolution 2087 and previous UNSC actions related to North Korea. If 
confirmed, I would support the administration's policy of continuing to 
emphasize to China and others the necessity of North Korean 
denuclearization and the importance of our approach to achieving that 
goal.

    Question. Should the North Koreans conduct another nuclear weapons 
test, should the United States consider relisting them as a State 
Sponsor of Terrorism?

    Answer. As a matter of law, in order to be designated as a State 
Sponsor of Terrorism, the Secretary of State must determine that the 
Government of North Korea has repeatedly provided support for acts of 
international terrorism. Available information does not indicate that 
the DPRK government has repeatedly provided support for acts of 
international terrorism since its designation was rescinded in October 
2008. A nuclear weapons test conducted by North Korea would not be 
considered such support.
    Even without being designated as a State Sponsor of Terrorism, 
North Korea remains among the most heavily sanctioned countries in the 
world. It is subject to a wide array of multilateral and unilateral 
sanctions based on its detonation of a nuclear device, ballistic 
missile activity, proliferationactivities, human rights violations, and 
status as a Communist state.

    Question. Is providing conventional weapons and funding to U.S. 
designated Foreign Terrorist Organizations enough to add North Korea 
back on the State Sponsors of Terrorism list?

    Answer. If I am confirmed, the Department of State will continue to 
apply the law as the facts warrant. It is my understanding that, based 
on currently available information, the DPRK does not meet the 
statutory criteria for designation as a State Sponsor of Terrorism. The 
Department regularly reviews the available intelligence on North Korea 
to determine whether it should be designated as a State Sponsor of 
Terrorism and will pursue immediate action if credible evidence 
supports North Korea's designation as a state sponsor of terrorism 
under the statutory criteria.

    Question. Senator Kerry, as you know, there is a growing global 
market for civilian nuclear power plants. Worldwide, 67 commercial 
nuclear reactors are under construction and an additional 158 reactors 
are planned or on order. The Commerce Department estimates the 
commercial opportunity over the next decade may be worth as much as 
$740 billion. If U.S. suppliers were able to capture nominally 25 
percent of this market, they would create or sustain up to 185,000 
high-paying American jobs.

  <diamond> Can you assure us that, as Secretary of State, you will 
        work to open up foreign markets for U.S. nuclear exports?

    Answer. Nuclear energy is an important component of the 
administration's sustainable energy platform both domestically and 
internationally. I am keenly aware of the economic opportunities that a 
growing nuclear export market provides. The United States also supports 
nuclear exports for foreign policy reasons, including energy security, 
national security, and nonproliferation. However, in comparison to 
other energy sources, nuclear power presents a unique set of 
challenges, most notably those related to safety, security, and 
nonproliferation. U.S. exports can be conducted in a way that meets 
those challenges. If confirmed, I will work to open up foreign markets 
for U.S. nuclear exports in conformity with our overall nuclear 
nonproliferation legal requirements and nuclear policy objectives.

    Question. Do you agree that America's global strategic interests 
are advanced by the commercial engagement of U.S. nuclear firms with 
foreign countries that are developing civil nuclear power, and by the 
bilateral agreements for civil nuclear cooperation that make such 
engagement possible?

    Answer. I believe that significant commercial and nonproliferation 
benefits flow from the involvement of U.S. suppliers in the global 
civil nuclear market. U.S. agreements for peaceful nuclear cooperation 
must embody and advance our nonproliferation obligations and objectives 
while supporting to the maximum degree possible the commercial equities 
associated with potential cooperation with any given partner.

    Question. Are you committed to concluding bilateral agreements for 
civil nuclear cooperation with emerging markets for civil nuclear 
power?

    Answer. If confirmed, I will continue to uphold the U.S. commitment 
to negotiating agreements for peaceful nuclear cooperation with 
countries in emerging markets where those agreements can further both 
our nonproliferation obligations and objectives and our commercial 
interests.

    Question. On the heels of State Department's first Quadrennial 
Development and Diplomacy review (QDDR), you authored legislation to 
ensure successive Secretaries of State would continue issuing this 
report. Will you issue a QDDR at the appropriate time?

    Answer. If confirmed by the Senate, I will continue the Quadrennial 
Diplomacy and Development Review process begun by Secretary Clinton. As 
you know, the committee passed a bill in September of last year 
mandating the Secretary of State to conduct a review every 4 years. As 
SFRC chairman and as Secretary-designate, I support this bill and 
encourage the House and Senate to approve the legislation in 2013.

    Question. While I applaud the efforts of the Department to develop 
this important document, as you know the Department of Defense produces 
a number of documents, including a Quadrennial Defense Review, that are 
used to help inform the drafting of the Future Years Defense Plan 
(FYDP).

    With a completed QDDR, will you also take the additional steps of 
drafting a similar long-term strategic budget and other planning and 
programming documents?

    Answer. As you know, the QDR was the inspiration for the QDDR, and 
the Departments of State and Defense continue to exchange information 
about their respective budgeting and planning processes. It is my 
understanding that, as recommended by the 2010 QDDR, the State 
Department has begun to pilot a multiyear budgeting and planning 
process in a number of bureaus that will subsequently be adopted 
agencywide.

    Question. In response to a litany of national security leaks from 
earlier last year the Director of National Intelligence on June 25, 
2012, announced steps to deter and detect unauthorized disclosures of 
classified information. Specifically, this policy change mandated that 
a question related to unauthorized disclosures of classified 
information be added to the CI polygraph used by all agencies that 
administer the examination, specifically, the CIA, DIA, DOE, FBI, NGA, 
NRO, and NSA.

  <diamond> Do you agree that INR should have the same polygraph policy 
        as other USIC components?
  <diamond> Will you pursue a policy where at a minimum, all new INR 
        personnel hires for a TS/SCI position receive a CI polygraph 
        and all existing employees with a TS/SCI clearance are subject 
        to random polygraphing like other IC components?

    Answer. INR staff are employees of the Department of State and are 
hired under the same standards as other Department employees. It is my 
understanding that it has been longstanding Department policy not to 
utilize polygraph examinations as part of the hiring or clearance 
granting processes, but to use the polygraph for investigatory purposes 
as appropriate. If confirmed, I would want to look carefully at all of 
the relevant issues before making any decisions about that policy.
                                 ______
                                 

      Responses of Secretary-Designate John F. Kerry to Questions 
                    Submitted by Senator Marco Rubio

    Question. Since December 2009, the Cuban Government has been 
holding an American development worker, Alan Gross, hostage for helping 
the Jewish community in Cuba get uncensored Internet access. The U.N.'s 
Working Group on Arbitrary Detentions has held Gross' imprisonment to 
be arbitrary. The United States should pressure the Cuban Government to 
release Alan Gross. However, the Cuban Government should not be 
rewarded with any unilateral concessions for Gross' imprisonment--
whether before or after Gross' release--for this will only endanger 
American lives in the future and encourage further hostagetaking.

  <diamond> If confirmed, would you commit not to reward the Cuban 
        Government for the arbitrary imprisonment of Americans?

    Answer. If confirmed, I will do everything in my power to protect 
the safety and security of American citizens around the globe, 
including in Cuba. Alan Gross is a 63-year-old husband, father, and 
dedicated professional with a long history of providing assistance and 
support to underserved communities in over 50 countries. His 
incarceration is unjust and his release is a humanitarian issue. If 
confirmed, I will continue to use all appropriate diplomatic means to 
secure Mr. Gross' release.

    Question. The Agency for International Development's democracy 
programs are pivotal to helping Cuba's civil society gain access to new 
technologies, basic support for the marginalized families of political 
prisoners, training for independent journalists, labor activists, and 
other targeted groups. We have read reports regarding of previous 
efforts to halt the democracy programs, which are authorized by law.

  <diamond> If confirmed, would you continue to support the Cuban 
        democracy programs?

    Answer. If confirmed, I will continue U.S. policies that promote 
democracy, freedom of expression and assembly, and human rights in 
Cuba. It is the administration's view that we should help those who 
work for positive change in Cuba, including human rights and pro-
democracy activists, independent journalists, and broader civil 
society. The Cuban democracy programs are one element of the strategy 
to support these objectives. If confirmed, I will seek ways to increase 
the independence of the Cuban people so that they may freely determine 
their own future.

    Question. While State and Treasury have worked with me to 
streamline procedures to make sure people-to-people programs are truly 
benefiting the Cuban people, reports of trips being hosted by the 
government and meeting with the neighborhood watch committees (CDRs), 
continue to take place. The President's policy states that these 
programs were designed to foment the Cuban people's ``independence'' 
from the regime; but in fact, the itineraries are controlled by the 
regime on the island.

  <diamond> Would you work to uphold the administration's original 
        intent of these trips and ensure they are not being used for 
        tourism purposes, which is against U.S. law, or for the benefit 
        of the Cuban Government?

    Answer. If confirmed, I will continue to support the 
administration's desire to increase purposeful travel; support private 
enterprise and civil society in Cuba; enhance free flow of information 
to, from, and among the Cuban people; and help promote their 
independence from the Cuban state. In May 2012, the Department of the 
Treasury's Office of Foreign Assets Control (OFAC) amended the 
``Comprehensive Guidelines for License Applications to Engage in 
Travel-Related Transactions Involving Cuba'' to require additional 
information from people-to-people license applicants, including 
information on how their proposed travel would enhance contact with the 
Cuban people and/or support civil society in Cuba and/or help promote 
the Cuban people's independence from Cuban authorities. The 
administration continues to assess implementing procedures to ensure 
that benefits to Cuban civil society of U.S. travel outweigh any 
potential benefits to the Cuban Government.
    If confirmed, I will ensure that the Department of State continues 
to work closely with the OFAC and refer to OFAC any potential 
violations of which the State Department becomes aware.

    Question. Foreign aid programs that require fiscal accountability 
and the adoption of policies for good governance, economic freedom, and 
respect for the rule of law by recipient nations are a critical 
component of our national security strategy.

  <diamond> What are your thoughts on conditioning non-HIV, nonsecurity 
        assistance on country recipients' adherence to democratic 
        governance?

    Answer. U.S. foreign assistance seeks to support good governance, 
economic freedom, and respect for the rule of law. I agree that 
assistance is most effective with partners who embrace these goals. 
However, it is also important that foreign assistance authorities 
maintain the flexibility necessary to meet our national security and 
foreign policy objectives. Imposing such conditions could unduly 
restrict our efforts, especially in contingency situations. Moreover, 
restricting assistance to countries that do not already meet a certain 
standard of democratic governance would undermine our efforts to 
provide assistance that promotes the democratic institutions necessary 
to reach a higher standard.

    Question. As Secretary of State you will chair the Board of 
Directors of the Millennium Challenge Corporation. MCC Compacts are 
highly coveted by recipient nations, for the good governance and 
international credibility they convey. However, in at least two 
occasions in the last 3 years--Honduras 2009 and El Salvador 2012--MCC 
has been slow to react to undemocratic events in recipient countries in 
the Western Hemisphere.

  <diamond> Does MCC have enough flexibility in their contracts to 
        swiftly stop funding flows even in the final months of a 
        compact?
  <diamond> If confirmed, what measures would you proposed to the Board 
        to ensure MCC reacts swiftly to undemocratic events in 
        recipient countries?

    Answer. MCC has the ability to stop funding flows, even in the 
final months of a compact, and has done so in certain extraordinary 
circumstances. For example, in May 2012 the MCC Board terminated Mali's 
compact, which was due to be completed in September 2012, because of 
the military coup.
    If confirmed, I will work with the rest of the MCC Board to weigh 
carefully the merits of swift MCC actions in response to undemocratic 
events in MCC countries. In making such evaluations, I will rely to a 
great extent on input from our embassies overseas, which provide a 
steady stream of political and economic reporting from the field. MCC 
grants are premised on a country's commitment to democratic governance 
and rule of law and I take that condition seriously.

    Question. Diplomatic requirements post-September 11, 2001, have 
exposed the State Department's need for a major structural and 
personnel overhaul. If confirmed, I hope you make a sustained effort 
and that we can work together on this endeavor, to make at State the 
deep cultural and structural reforms the Defense Department undertook 
through the Goldwater-Nichols Act.

  <diamond> Would you support the adoption of a national security 
        professionals program of some kind, designed to foster 
        interagency collaboration, as part of State's Foreign Service 
        and Civil Service?

    Answer. The Department of State and other agencies are working 
closely with the Office of Personnel Management (OPM), which has taken 
the lead to implement a Presidential Executive order to Develop 
National Security Professionals who can effectively work together, 
across agencies and levels of government.
    The National Defense Authorization Act (NDAA) for Fiscal Year 2013 
(recently enacted into law on January 2, 2013, as Public Law 112-239) 
mandates the creation of an interagency rotation program for national 
security professionals involved with such matters as emergency 
management, and stabilization and reconstruction. The Department is 
evaluating how best to implement this law within the 270-day timeframe.

    Question. To what extent would fostering interagency national 
security professionals require changes to the State Department's 
personnel system or conflict with the demands with State's internal 
career development programs?

    Answer. The Department's Foreign Service Institute (FSI) currently 
offers the National Security Executive Leadership Seminar, which is a 
training and collaborative opportunity for State and interagency 
officials; the 10-day course is part of State's contribution to the 
broader training of National Security Professionals. The Department 
will be working closely with OPM to see what changes would need to be 
made and how National Security Professional principles can be 
integrated into other ongoing efforts to improve the Civil Service 
system and processes as it implements the program called for in the 
FY13 National Defense Authorization Act.

    Question. The State Department Office to Monitor and Combat 
Trafficking and Slavery (JTIP) is frequently overridden in its 
recommendations of tier rankings in the annual TIP Report by regional 
bureaus or embassies with priorities other than trafficking 
eradication. Antitrafficking experts have raised concerns about ``grade 
inflation'' in the tier ranking process.

  <diamond> If confirmed, will you work to reduce the influence of 
        political concerns on the tier ranking system?

    Answer. If confirmed, I will make combating trafficking in persons 
(TIP) a priority not only because modern slavery is morally 
reprehensible, but because it is in the United States strategic 
interest that it be brought to an end.
    The tier rankings in the annual TIP Report have been, and will 
continue to be under my tenure if confirmed, based on the facts and the 
application of the Trafficking Victims Protection Act. If confirmed, I 
will ensure that the State Department listens to government concerns 
and continues robust diplomatic engagement on TIP issues, but grounds 
the report in thorough research and the clear performance indicators 
given by Congress in the Trafficking Victims Protection Act. When 
governments do not produce results in holding trafficking offenders 
accountable and providing comprehensive services to victims, the 
shortcomings will be documented in the report narratives. Many 
governments--including some critics--use the report's findings as a 
guide for addressing human trafficking effectively. The overall 
positive impact and results of this report have been extraordinary.
    Further, Congress has expressed clearly in section 107 of the 
Trafficking Victims Protection Reauthorization Act of 2008 its concern 
about countries remaining on Tier 2 Watch List for multiple consecutive 
years. I will continue to address Congress' concern by implementing the 
law in a manner so as to encourage governments performing weakly on 
antitrafficking goals fight trafficking more vigorously.

    Question. Countries which receive a Tier 3 rating from the 
Trafficking in Persons Report are subject to nonhumanitarian, nontrade 
related foreign aid sanctions. The President has the option of using a 
national security waiver on countries who receive Tier 3 status. Since 
2004, the President has used the waiver, either partial or full, on a 
variety of countries.

  <diamond> How effective do you believe the sanctions are in 
        influencing countries to improve their human trafficking 
        policies?
  <diamond> What is the impact of granting national security waivers on 
        the effectiveness of the sanctions and the fight against human 
        trafficking?

    Answer. The effect of the Trafficking Victims Protection Act (TVPA) 
Tier 3 sanctions is best understood in the context of the overall tier 
ranking process and the close scrutiny of foreign governments' 
activities to fight trafficking as delineated in the Trafficking in 
Persons (TIP) Report. Foreign governments routinely take 
antitrafficking measures when faced with the possibility of a downgrade 
to Tier 3, whether through criminalizing trafficking in persons, 
protecting trafficking victims, strengthening interagency coordination 
to fight trafficking, or increasing prosecutions of trafficking 
offenders.
    The United States uses a range of tools to fight human trafficking 
abroad: In addition to sanctions, we maintain robust direct diplomatic 
and public engagement campaigns on this issue, and fund dozens of 
different antitrafficking projects in countries around the world. 
Waiver decisions are made on a case-by-case basis, and in all such 
instances the President has determined that a full or partial waiver 
will either serve to promote the purposes of the act or is otherwise in 
the national interest of the United States. In many of the Tier 3 
countries, the waivers permit the U.S. Government to strengthen human 
rights programs and protect vulnerable populations, consistent with the 
TVPA's waiver provision. The targeted use of sanctions, along with the 
information highlighted each year in the TIP Report, reinforces our 
other efforts to encourage foreign governments to take responsibility 
for the human trafficking occurring within and across their borders.

    Question. If the U.S. troop presence in Afghanistan were to fall to 
as few as 10,000 after 2014, how do you believe that should affect 
planning for our enduring diplomatic presence in the country?

    Answer. The State Department is working closely with the National 
Security Staff and the Department of Defense to develop options to 
present to the President for an overall U.S. Government enduring 
presence. These options are being developed to reflect our vital 
national interests, including diplomatic and development efforts. While 
these options are under review, it would be premature to discuss them 
at this juncture.

    Question. A major part of our efforts to leave behind a stable 
Afghanistan includes persuading uncommitted members of the insurgency 
to rejoin society; which is in turn heavily influenced by the Afghan 
Government's ability to provide a better alternative to Afghans living 
under Taliban and al-Qaeda influence at this moment.

  <diamond> How would a drawdown of U.S. troops in Afghanistan to less 
        than 10,000 troops impact the Afghan Government's capacity to 
        implement development programs outside of Kabul?

    Answer. The Government of Afghanistan's capacity to deliver basic 
services and development projects to its citizens throughout the 
country has improved significantly in the last 5 years and operates, 
for the most part, independently from international military forces. 
The United States has helped Afghan ministries build their own capacity 
by improving staff training and retention, strengthening management and 
administrative processes and systems, and developing strong 
partnerships with Afghan and international nongovernmental 
organizations who assist in the delivery of basic services and 
reconstruction. While the Afghan Government has certainly benefited 
from the overall improved security environment maintained by 
international forces, both the United States Government and the Afghan 
Government anticipate that the Afghan National Security Forces will be 
able to effectively maintain those gains, and that various ministries 
will continue to improve their delivery of services up to and beyond 
the 2014 security transition.

    Question. Considering Afghanistan's neighbors, border protection 
seems pretty important to me. Post-2014, how confident are you that the 
Afghans can effectively monitor and control the access points to their 
country, particularly from Pakistan and Iran if the U.S. military 
presence drops below 10,000 troops?

    Answer. Afghanistan's ability to control its own borders is an 
important part of preserving security post-2014. The U.S. Government 
has worked with Afghanistan to strengthen its capacity to effectively 
monitor and secure its borders in order to facilitate transportation 
and trade, while limiting the flow of destabilizing elements such as 
narcotics and explosives components. Through its training mission, the 
International Security Assistance Force (ISAF) is building the 
capabilities of the Afghan Border Police (ABP), though this force 
remains challenged by factors such as limits on human capacity and some 
of the most geographically challenging border regions in the world. The 
ABP now regulates 5 airports and 14 border control points, using 
equipment that improves the monitoring of cargo and the flow of 
travelers between these border points. ISAF is also training Afghan 
counterterrorism forces that will be able to respond to cross-border 
threats from insurgents.
    We welcome cooperation between Afghanistan and its neighbors on 
border issues. On Iran, the United States does not oppose productive 
cooperation with Afghanistan on issues such as the flow of narcotics 
and refugee issues. While Afghanistan's relationship with Pakistan has 
previously suffered over issues such as cross-border firing, the two 
nations have made progress in recent months. The Pakistan and 
Afghanistan militaries have increased communication, facilitating 
clearer responses to cross-border firing. In coordination with ISAF, 
both nations are also developing standard operating plans to resolve 
these incidents before they escalate. We support this type of 
engagement, which serves to strengthen cooperation over border issues.

    Question. What assurances would you give to Afghan women's group 
and minorities about U.S. support for a post-2014 Afghanistan in which 
their rights are protected?

    Answer. Let there be no doubt that even as the U.S. role in 
Afghanistan changes during the next years of transition, the United 
States will remain committed to supporting the rights of women and 
girls in Afghanistan. As President Obama said at his joint press 
conference with President Karzai earlier this month, the United States 
strongly believes that Afghanistan cannot succeed unless it gives 
opportunity to its women. We will continue to voice very strongly 
support for the Afghan Constitution, its protection of minorities, and 
its protection of women. We will continue working closely with the 
Afghan Government and international community to advance the progress 
that has been made and we will not accept an erosion of women's rights 
and freedoms at this critical juncture.
    We will also continue to raise regularly and as a priority with 
Afghan officials the need for meaningful participation of women in key 
government institutions, independent Afghan institutions and other 
branches of government at central and local levels, we will continue to 
encourage the meaningful participation of women in any reconciliation 
process.
    It is essential that human rights and women's rights concerns 
remain a priority in any discussions of reconciliation and 
reintegration. As a part of the outcome of any process, the Taliban and 
other armed opposition groups must end violence, break ties with al-
Qaeda, and accept Afghanistan's Constitution.
    Our strategy for Afghanistan includes substantial assistance to 
women to build their capacity to participate fully in Afghan society--
in the political, economic, education, health and social realms--and 
thereby help build their country's future. We are developing a 
significant program for women during the transition period that will 
promote opportunities for women in all sectors and lead to careers in 
government, as small business leaders and other areas. As levels of 
U.S. assistance decline in Afghanistan, we will work to ensure that 
programs to protect women's rights will not be disproportionally 
affected.
    The Strategic Partnership Agreement speaks to the mutual 
commitments of the United States and the Afghan Government in 
protecting and promoting women's rights and role in society. Protecting 
the gains of Afghan women is also part of the Mutual Accountability 
Framework (TMAF) adopted in Tokyo. The TMAF commits both governments to 
improve access to justice for all, particularly women, and to ensure 
that women can fully enjoy their economic, social, civil, political, 
and cultural rights. It further calls on both governments to 
demonstrate progress on the implementation of both the Elimination of 
Violence Against Women Law and the National Action Plan for Women.
    Afghan women and girls should be proud of the progress they have 
made over the last 10 years, and now that we have entered into this 
period of transition, it's absolutely critical that all of us work 
together to protect these gains and expand on them in order for 
Afghanistan to prosper further. With the support of the United States 
and international community, there has been much progress over the past 
several years, which no one wants to see reversed. In 2001, life 
expectancy for women in Afghanistan was just 44 years of age. Now it is 
62 years. Back then, almost no girls went to school. Today, 3 million 
do. More Afghan children are living past their fifth birthday today 
than at any time in their recent past. Women today hold office at 
provincial and local levels. However, we recognize there is still a 
mountain to climb in order to solidify and advance these gains.

    Question. Secretary Clinton often talked about the need to 
simultaneously ``fight, talk, and build'' in Afghanistan. Given that 
President Obama has announced an acceleration of the withdrawal of U.S. 
combat forces, what role do you envision talks with the Taliban playing 
in U.S. Afghan policy?

    Answer. The United States remains firmly committed to supporting an 
Afghan-led peace process as the surest way to end violence and ensure 
the lasting stability of Afghanistan and the region. The U.S. role is 
to help open the door for talks between Afghans about the future of 
Afghanistan. On January 11, Presidents Obama and Karzai agreed to 
support the opening of a Taliban Political Office in Doha, and urged 
the Qataris to facilitate this effort. The Qatari government has 
publicly affirmed its support for the opening of the office. We hope 
the Taliban will now do what is necessary to open the office, which 
will pave the way for direct talks between the Taliban and the Afghan 
High Peace Council.
    We have made clear that any peace process must respect the historic 
achievements that Afghanistan has made over the past decade. As a part 
of the outcome of any political settlement, the Taliban and other armed 
opposition groups must end violence, break ties with al-Qaeda, and 
accept Afghanistan's Constitution--including provisions that protect 
the rights of all citizens, including women and minorities. If this 
happens, we believe the Taliban can be a part of Afghanistan's future.
    The Afghan Peace and Reintegration Program (APRP) is another 
program that offers an opportunity for the Taliban to reintegrate into 
Afghan society. To date, more than 6,000 former Taliban have 
reintegrated through this program.

    Question. How important is it that the United States, along with 
allies, maintains a military presence in Afghanistan beyond 2014?

    Answer. As President Obama said in his joint press conference with 
President Karzai on January 11, the United States interest post-2014 
``is to make sure that al-Qaeda and its affiliates cannot launch an 
attack against the United States or other countries from Afghan soil.'' 
This will be accomplished through two tasks--training and advising the 
Afghan National Security Force so that they can maintain full 
responsibility for security in Afghanistan, and targeted 
counterterrorism missions against al-Qaeda and its affiliates. The 
President is still reviewing options for the size of this post-2014 
force, which will also affect the size and scope of our civilian 
mission.

    Question. Given scheduled Presidential elections next year in 
Afghanistan, how do you plan to work with our Afghan partners to ensure 
that the election is a success and that the charges of vote-rigging 
that plagued the 2009 Presidential election are not repeated?

    Answer. In President Obama's and President Karzai's joint statement 
of January 11, President Karzai outlined the Afghan Government's plans 
to hold free, fair, inclusive, and democratic elections in 2014. A 
successful election would bring about a peaceful transfer of power from 
President Karzai to his successor in a process acceptable to the Afghan 
people. This would bolster the legitimacy of the government and send a 
message to all parties that their interests can be better advanced 
through political participation than through violence.
    We are realistic about the challenges for the 2014 elections, but 
we are encouraged by actions the Afghans are taking in conformance with 
their laws and constitution. Afghanistan's Parliament, the Cabinet, and 
Independent Election Commission are broadly consulting, including with 
civil society, on changes to the legislative framework for elections, 
and the best methods of identifying and registering voters to prevent 
fraud while maintaining an inclusive process. We are encouraging Afghan 
authorities to adopt laws that will strengthen democratic institutions, 
uphold the right of media to report on electoral developments, ensure 
the political independence of the election administrators, and allow 
election disputes to be resolved openly and fairly.
    USAID is the lead agency in providing assistance and administering 
programs to build the capacity of Afghan institutions and civil society 
to manage and participate in electoral processes. Both USAID and the 
State Department engage regularly through diplomatic channels with 
Afghan officials, civil society, and political leaders to support the 
Afghans' commitment as stated in the Strategic Partnership Agreement to 
free, fair, and transparent elections in which all those who 
participate do so freely without internal or external interference. We 
will continue to coordinate with the U.N. and other donors on training, 
public information campaigns, fraud mitigation, domestic observation 
efforts, and improved ways to identify eligible voters in the leadup to 
the elections.

    Question. What is your plan to help ensure that a post-Assad Syria 
is friendly 
toward the United States and is at peace with its neighbors?

    Answer. Since the start of the unrest in Syria, the United States 
has been clear that we will support the efforts of Syrians within and 
outside the institutions of government who seek to bring an end to the 
regime and build a democratic, just, and inclusive Syria. If confirmed, 
I will continue to support the administration's policy of supporting a 
Syria-led political transition by pressuring President Assad to step 
aside, by empowering the moderate, responsible elements of the 
opposition through political and nonlethal support, and by responding 
to the urgent humanitarian needs of Syrians who are suffering as a 
result of the Assad regime's brutality. Ultimately, a free and 
prosperous Syria that meets its international obligations and respects 
the rights and dignity of its people will be a constructive player in 
the region and partner for the United States.

    Question. What steps can the United States take to help ensure that 
the secular/nonextremist forces within the opposition are empowered and 
ready to participate in the post-Assad transition?

    Answer. The United States efforts to empower moderate, responsible 
forces in Syria fall into two broad categories. First, the 
administration has imposed targeted sanctions to expose and combat the 
interventions of Iran, as well as terrorist groups like Al Qaeda in 
Iraq (AQI)-affiliated al-Nusrah Front, which has sought to hijack the 
Syrian struggle for their own narrow purposes. The recent amendment of 
the AQI foreign terrorist organization designation to include the alias 
al-Nusrah Front makes it clear that the United States is aware of the 
threat of extremism to the future of a peaceful, prosperous, unified 
Syria. The administration is doing everything it can to curtail 
extremist influence.
    Additionally, the administration is empowering those in the 
opposition who seek a stable, prosperous, and unified Syria. The United 
States and our international partners actively supported the efforts of 
the Syrian people to launch the Syrian Opposition Coalition (SOC) in 
Doha in November 2012. The administration is also providing 
approximately $50 million in nonlethal support to the unarmed, 
civilian-led Syrian opposition and civil society groups, including 
local councils and grassroots organizations. This assistance provides 
training and equipment to the Syrian unarmed opposition to build up a 
nationwide network of ethnically and religiously diverse civilian 
activists, which will help promote unity among the Syrian people and 
accelerate the country's democratic transition.
    If confirmed, I will work hand-in-hand with the other members of 
the U.S. Government and international community to ensure that our 
efforts to combat violent extremism are coordinated appropriately. This 
strategy should include continuing the humanitarian and nonlethal 
assistance programs which are already underway, as well as working to 
support the implementation of a political transition as soon as 
possible.

    Question. Many Syrian activists have complained that U.S.-provided 
assistance touted by the administration has either not materialized or 
not been directed toward worthwhile groups and activities.

  <diamond> What will you do to ensure that the United States is doing 
        all possible to assist those Syrians who are trying to rid 
        themselves of the Assad regime and that any U.S. assistance is 
        being used appropriately and to a good end?

    Answer. The United States is the largest bilateral financial donor 
to the international effort to provide life-saving aid for Syrians 
suffering through this crisis. Our humanitarian assistance--provided on 
the basis of need and not political affiliation--is channeled both 
through contributions to U.N. and through other international agencies 
as well as partner nongovernmental organizations. Our aid is 
intentionally not labeled, in order to avoid endangering its recipients 
or the humanitarian workers bravely working to deliver it. Although 
violence and insecurity have significantly impeded humanitarian 
organizations and actors inside Syria from reaching all those in need, 
the United States is exploring opportunities to continue channeling 
assistance to all areas of Syria through a range of partners and 
methods. Funding for the humanitarian response has also been a serious 
concern. The United States is leading international efforts to 
encourage financial contributions to U.N.'s recently revised 
humanitarian appeals as well as urging donors to provide in kind 
assistance in close coordination with U.N. partners.
    In terms of nonlethal assistance provided to opposition and civil 
society groups, the administration is committed to ensuring this 
support reaches moderate, responsible actors who share a goal of a 
stable, prosperous, and unified Syria. The vetting of partners and 
beneficiaries of U.S. assistance in Syria is, and has always been, a 
high priority. As with all U.S. assistance worldwide, including for 
Syria, there 
are mechanisms to monitor U.S. assistance to ensure that it goes to the 
intended recipients.

    Question. Do you agree that it is clear that Russia is not willing 
to play a productive role in bringing an end to the Assad regime?

    Answer. Clearly, the United States and Russia have significant 
differences in our approach toward the crisis in Syria.
    The United States and Russia both strongly support the mission of 
U.N.-Arab League Joint Special Representative Brahimi, and both support 
the Geneva Communique of June 30 as a framework for facilitating a 
durable, Syrian-led political solution to the crisis.
    However, in order to play a constructive role, Russia should cease 
its support to the Assad regime and join the international consensus 
that Assad must step aside to make way for a government that addresses 
the legitimate aspirations of the Syrian people. As Secretary, I would 
ensure that the Department continues to call on Russia to cut off the 
regime's supply of Russian weapons, especially attack helicopters, and 
the Assad regime's access to Russian banks. I would also ensure that 
our diplomatic engagement with Moscow continues in order to persuade 
the Russians to play a constructive role in supporting a Syrian-led 
transition.

    Question. President Obama has stated that the use of chemical 
weapons by the Assad regime would cross a redline that would lead to 
intervention in Syria by the United States. Do you foresee any other 
eventuality under which the United States would militarily intervene in 
that country?

    Answer. The President has indeed been very clear and consistent 
regarding his redlines on chemical weapons (CW). If the regime were to 
use CW, lose control of it, or transfer it to a third party, the U.S. 
calculus would change. The United States continually monitors Syria's 
proliferation-sensitive materials and facilities, and this 
administration is prepared to act if necessary.
    If confirmed, I am committed to using all available, practical, and 
responsible means to end the suffering of the Syrian people. However, 
whichever judgments we make must pass the test of making the situation 
better for the Syrian people and must also take into account the long-
term human, financial, and political costs for us, Syria, and the 
region.

    Question. On January 10, President-elect Chavez of Venezuela failed 
to appear for his swearing-in ceremony as required by the Venezuelan 
Constitution at the beginning of each Presidential term. Neither the 
Venezuelan Supreme Court nor National Assembly--both controlled by 
Chavez's political allies--have followed the constitutional order in 
designating a caretaker government in Chavez's absence.
    Article 20th of the Inter-American Democratic Charter says that 
``In the event of an unconstitutional alteration of the constitutional 
regime that seriously impairs the democratic order in a Member State, 
any Member State or the Secretary General may request the immediate 
convocation of the Permanent Council to undertake a collective 
assessment of the situation and to take such decisions as it deems 
appropriate.''

  <diamond> If confirmed, what instructions would you give U.S. 
        Ambassador to the OAS Carmen Lomellin about the need for the 
        OAS to assess this ongoing situation?
  <diamond> What impact does this situation have on democratic 
        governance consensus in this hemisphere?

    Answer. If confirmed, I will work closely with the Assistant 
Secretary for Western Hemisphere Affairs and the U.S. Ambassador to the 
Organization of American States (OAS) to continue monitoring both 
President Chavez' health and the effects that it may have on an 
eventual transition of power in Venezuela. As the Obama administration 
has repeatedly said, any government transition in Venezuela should 
conform to hemispheric norms with respect to democratic practice. In 
this process, it will be important to maintain an open and active 
dialogue with our regional partners. This approach will permit us to 
work with our regional partners individually and in the OAS and other 
international bodies to address any situation which may arise and 
ensure that any transition that takes place in Venezuela is democratic, 
constitutional, peaceful, transparent, and legal.
    The hemispheric commitment to constitutional and democratic 
governance is articulated in the OAS Charter and the Inter-American 
Democratic Charter, upon which we and our regional partners place great 
value. Failure to adhere to the principles and norms contained in the 
Charters would require the attention of, and as appropriate, action by 
the OAS.

    Question. Haitian entrepreneurs identified the following obstacles 
to Haiti's competitiveness and economic growth: a shallow pool of 
talent that makes it difficult to fill middle management and skilled 
positions, a weak and unaccountable judiciary, and a failure to develop 
informal businesses into the formal sector. Sadly, these obstacles 
remain today.

  <diamond> What specific U.S. programs in Haiti are directly 
        addressing these challenges today?

    Answer. Attracting Foreign Direct Investment through business 
development services, vocational training, and increased access to 
finance is a key element of the U.S. Government Assistance Strategy for 
Haiti. The administration is working through a range of initiatives to 
create a better business environment for both Haitians and for 
investors from abroad.
    The United States is committed to supporting a responsive, 
accountable, just, and effective Government in Haiti. The 
administration has actively supported the formation of the Superior 
Judicial Council, a new body which will provide oversight of the 
judiciary--a major step toward a more accountable and independent 
judiciary in Haiti, and one that should help reduce corruption and 
impunity for crimes in a manner that respects human rights. A strong 
judiciary that is able to enforce the rule of law creates a climate 
that improves investor confidence and will show that Haiti is truly 
``open for business.'' Another key advance was the submission of 
revised Penal and Criminal Procedure Codes, developed with U.S. 
Government support, to the Council of Government in November. The U.S. 
Government is now working with both Parliament and justice system 
stakeholders to facilitate legislative passage of the draft codes, and 
is poised to provide training to police, prosecutors and magistrates on 
the new legislation, once passed.
    The administration is working with the Government of Haiti and the 
Haitian private and banking sectors to provide business development 
services, financing options, and vocational training to micro, small, 
and medium-sized enterprises (MSMEs). Specific U.S. Government programs 
include: Development Credit Authority (DCA), a credit guarantee program 
that facilitates MSME financing and mortgage lending by local financial 
institutions; and Leveraging Effective Application of Direct 
Investments (LEAD), a program that uses a matching grant mechanism to 
leverage private investments in Haitian small and medium enterprises 
(SMEs) identified through business plan competitions, and provides 
technical assistance to grantee enterprises. The administration is also 
providing support to the Government of Haiti to increase fiscal 
transparency and stability, deepen the tax base, and improve the 
business enabling environment.
    The Local Enterprise and Value chain Enhancement (LEVE) program 
currently being finalized will provide business and workforce 
development services, in partnership with local private- and 
government-run vocational training centers, in target value chains to 
cultivate a more productive labor pool with relevant skills and 
competencies. Elements of this project will also work with the informal 
MSMEs to bring them into the formal sector. The geographic focus of the 
project is on the three development corridors supported by the U.S. 
Government: Cap Haitien, Saint-Marc, and Port-au-Prince. High-potential 
sectors targeted by the program include: construction, apparel and 
textiles, and agribusiness. LEVE will also support secondary and 
ancillary sectors that strengthen the viability of these high-potential 
sectors.
    In addition, the U.S Government is currently supporting a local 
organization to prepare people to work in garment factories. This is 
often the first experience beneficiaries have had with a formal work 
schedule and workforce readiness training. The Korean garment company, 
Sae-A, which is the anchor tenant at the Caracol Industrial Park, 
donated industrial quality sewing machines to the training center. 
These programs will increase incomes and job creation through support 
to the full value chains around foreign direct investment.

    Question. In January 2012, President Martelly and then-Prime 
Minister Conille expressed strong interest in reducing their country's 
dependence and foreign aid and follow a private investment-led economic 
model.

  <diamond> How likely is Haiti to achieve this transformation without 
        Haitian diaspora participation?
  <diamond> If confirmed, what efforts would you pursue to stimulate 
        diaspora return and participation in Haiti's recovery and 
        future development?

    Answer. To succeed, any strategy to promote Haiti's development 
must be Haitian-led and reflect Haitian priorities. All Haitians can 
contribute to the country's rebuilding, both those in Haiti and those 
abroad.
    The administration recognizes that Haitian Americans have unique 
skills that will be instrumental in helping Haiti build back better 
than it was before the earthquake. Outreach to the diaspora by the U.S. 
Government includes regular meetings in Florida, New York, Boston, 
Washington, and elsewhere. The U.S. Government also helped fund the 
Haitian Diaspora Global Congress that took place in Washington in 
October.
    The State Department and the U.S. Agency for International 
Development have held a number of meetings around the country with 
diaspora organizations to advise them on how to compete for U.S. 
assistance grants and contracts for Haiti.
    USAID's Leveraging Effective Application of Direct (LEAD) 
Investments program aims to attract capital, create jobs, and generate 
income for Haitian citizens by providing matching grants to leverage 
private investments in Haitian small and medium enterprises identified 
through business plan competitions. The program further supports 
economic development through the provision of technical assistance to 
grantee enterprises. LEAD also works in the United States to mobilize 
investments from the Haitian diaspora and other U.S. funders to 
leverage the development impact of investments in Haiti.
    The administration's efforts in the area of food security have 
focused on Haitian agriculture. U.S. Government investments through the 
Feed the Future program seek to increase domestic agricultural 
productivity and farm incomes in targeted regions. Cross-cutting 
activities--such as the development of public-private partnerships; 
strengthening of local organizations to produce, market, generate 
capital, and interact with formal governing structures; and investments 
in nutrition-related activities in vulnerable households and women's 
empowerment--aim to promote agriculture as an important investment with 
sustainable business opportunities.

    Question. A major obstacle to private investment in Haiti is the 
absence of a credible land registry and the numerous, competing claims 
to plots of land.

  <diamond> Has the administration considered supporting Haitian 
        efforts to create a process that would expedite land titling 
        while simultaneously creating a system for potential litigants 
        to receive fair compensation through an expeditious legal 
        process?

    Answer. Land tenure is perhaps one of the greatest constraints to 
development in Haiti, whether it is improving housing or encouraging 
investment. Records of property ownership were incomplete before the 
earthquake; in many cases, where they did exist, documents were 
destroyed following the incident.
    The U.S. Government is engaged with the Government of Haiti in an 
effort to address this extremely complex issue. Working through the 
U.S. Agency for International Development (USAID), the U.S. Government 
supported a recently concluded $1.9 million pilot program to map land 
tenure, house ownership, and associated demographic data for over 
10,000 plots in the Delmas 32 and Carrefour-Feuille neighborhoods, 
which produced detailed information on ownership and tenure status in 
these areas. This information has been used extensively by the World 
Bank and the Government of Haiti in their planning for reconstruction 
efforts in the communities, and the methodology is being scaled up 
across the quake-affected zone, significantly increasing the impact of 
the original grant.
    USAID is also actively participating in the Haiti Property Law 
Working Group, chaired by Habitat for Humanity. The working group has 
created a manual on the rules, regulations, and practices of 
acquisition of private property in Haiti, which has been 
enthusiastically received as an authoritative guide on how to buy and 
sell property in Haiti legally.
    If confirmed, I will continue to support and improve upon these 
efforts.

    Question. Iran continues to make progress in its uranium enrichment 
program and has failed to show serious interest in negotiations with 
the P5+1. What do you believe would constitute success of any 
negotiation with Iran and what would it take for you to declare the 
diplomatic track with Iran a failure?

    Answer. Iran must demonstrate to the international community that 
its nuclear program is exclusively peaceful. Iran has not done so yet 
and has not engaged seriously in negotiations with the P5+1 countries.
    A successful outcome would require Iran to fulfill its 
international obligations and take the steps necessary to provide 
confidence to the international community that its nuclear program is 
devoted exclusively to peaceful purposes. The window for diplomacy 
remains open, but it will not remain so indefinitely.

    Question. As you may know, Robert Levinson, a Floridian and former 
FBI agent, was kidnapped on a business trip to Iran's Kish Island in 
2007. It is unclear if Mr. Levinson is being held by terrorists or by 
the Government of Iran.

  <diamond> If confirmed, would you commit to investigating Mr. 
        Levinson's case and ensuring his release?

    Answer. Determining Mr. Levinson's whereabouts and reuniting him 
safely with his family continues to be a priority for the U.S. 
Government and, if confirmed, it will be a priority for me as Secretary 
of State. The Department remains in close coordination with the FBI on 
the investigation into Mr. Levinson's disappearance in Iran almost 6 
years ago. I am committed, as is the U.S. Government, to continue to 
use all available resources until he is home and reunited with his 
family.

    Question. Strong bilateral relations with Bahrain enhance the 
prosperity and 
security of both our nations, but I am concerned about the consequences 
of almost 2 years of political instability in Bahrain. What steps would 
you take to promote a lasting solution to Bahrain's ongoing political 
crisis?

    Answer. A major non-NATO ally since 2002, Bahrain is an important 
U.S. partner in a tense region, working closely with us to pursue joint 
interests and maintain the safety and security of our naval assets and 
personnel in the region. It is firmly in the U.S. interest, and that of 
the wider region, for Bahrain to ensure the protection of its citizens' 
fundamental rights, undertake reforms, and pursue inclusive political 
dialogue in order to build a stable political and economic future.
    President Obama and Secretary Clinton have pressed Bahrain to take 
steps to forge a more inclusive political framework that is responsive 
to all Bahrainis. If confirmed, I will ensure that we will continue to 
engage with the Bahraini Government, political groups, the private 
sector, and civil society on this vision. I will continue to press for 
accountability for human rights violations, protection of freedom of 
expression, and support for meaningful political reform. Meanwhile, I 
will be vigilant in opposing any efforts by the Iranian Government to 
influence events within Bahrain.
    The surest way to maintain stability is to address the legitimate 
demands of all Bahrainis through a process of meaningful dialogue 
between the government and a broad representation of the nation's 
political leadership. Dialogue and negotiation can help Bahrain build a 
strong national consensus about its political future, strengthen its 
economic standing, and make it a more prosperous country and a more 
stable ally. The Department, through its programming, seeks to promote 
reform and reconciliation and improve governance in areas such as 
commercial law, military capabilities, and antiterrorism capacity.
    I echo what Secretary Clinton said in a recent speech at the 
National Democratic Institute: ``As a country with many complex 
interests, we'll always have to walk and chew gum at the same time. 
That is our challenge in a country like Bahrain, which has been 
America's close friend and partner for decades.''

    Question. On January 15, I joined 11 of my Senate colleagues in 
sending a letter to Secretary Clinton expressing our grave concern over 
the detainment of a U.S. citizen, Saeed Abedini, in Iran. Mr. Abedini 
was in Iran on a humanitarian mission--working with the Regime to open 
a nonreligious orphanage. On his ninth trip to Iran since 2009 for this 
purpose, the Revolutionary Guard detained him and threw him in prison. 
Mr. Abedini went before an Iranian judge just this Monday on charges 
stemming from his conversion in the year 2000 to Christianity and his 
involvement with house churches in Iran. The National Security Council 
has specifically called for his release, and we are grateful for that.

    If confirmed, would you commit to echo, as Secretary of State, the 
National Security Council's call for Mr. Abedini's release?

    Answer. The U.S. Government remains concerned about U.S. citizen 
Saeed Abedini, who is detained in Iran on a charge related to his 
religious beliefs. Mr. Abedini's attorney had only 1 day on January 21, 
2013, to present his defense. We remain deeply concerned about the 
fairness and transparency of Mr. Abedini's trial. I, along with the 
U.S. Government, condemn Iran's continued violation of the universal 
right of freedom of religion and call on the Iranian authorities to 
respect Mr. Abedini's human rights and release him. The Department of 
State is in close contact with the Abedini family and is actively 
engaged on this case.

    Question. The new Egyptian Constitution adopted in December 2012 
imposes severe restrictions on civil liberties and freedoms. I am 
particularly concerned with Article 4, which positions an unelected 
religious body as arbiter of the constitution's clauses; Article 44, 
which prohibits speech deemed blasphemous; and Article 81, which limits 
the freedoms and rights guaranteed elsewhere in the constitution to 
those not in conflict with Islamic Sharia law.

  <diamond> What impact would these constitutional restrictions have on 
        religious freedom, women's and minorities' rights, and freedom 
        of speech in Egypt?

    Answer. The administration has consistently raised its concerns 
regarding religious freedom, the rights of women and minorities, and 
freedom of speech with Egyptian Government officials, and if confirmed, 
I would continue to do the same. We should work with the Egyptian 
Government and people to ensure that the fundamental rights of all 
Egyptians are protected. We have called on the government to take the 
lead in building greater political consensus than now exists on issues 
related to the constitution and the legislation that will be considered 
by Parliament to implement the constitution. I would also support 
frequent meetings with civil society representatives and leaders from 
all faith backgrounds to demonstrate our support for freedom of 
religion and expression. The Egyptian Government has stated its 
commitment to upholding religious freedom and promoting interreligious 
tolerance, and I will work to ensure that this commitment is met.

    Question. How can U.S. assistance to Egypt help ensure that 
government's commitment to uphold internationally recognized human 
rights of all Egyptians?

    Answer. President Obama, Secretary Clinton, and our Embassy in 
Cairo have consistently made clear to their Egyptian counterparts that 
the United States supports the establishment of a full democracy in 
Egypt that protects the rights of all Egyptians. If confirmed, I would 
continue to convey that message with Egyptian leaders as Secretary. The 
administration supports a number of programs on the ground that work to 
reinforce these values, including support for election administration 
and monitoring, voter education, and programs to foster religious 
tolerance. In addition, the administration is seeking to provide Egypt 
with important financial assistance that will help supply the necessary 
economic foundation on which democratic institutions can be built.

    Question. The Blueprint for an AIDS Free Generation, released by 
the administration in November 2012, demonstrates that if proven-
effective HIV services are delivered widely in heavily affected 
countries, we can make accelerated impact on the AIDS epidemic, 
reducing HIV infection rates and mortality markedly in the next several 
years, and reducing resource needs in the future.

  <diamond> Are you committed to implementing the Blueprint's first 
        principle to ``rapidly scale up core HIV prevention, treatment, 
        and care interventions and maximize impact''?

    Answer. If confirmed, I am strongly committed to implementing the 
administration's ``PEPFAR Blueprint: Creating an AIDS-Free 
Generation.'' Scientific advances and their successful implementation 
have brought the world to a tipping point in the fight against AIDS. By 
making smart investments based on sound science and a shared global 
responsibility, the United States can save millions of lives and 
achieve an AIDS-free generation. To help reach this goal, the U.S. 
President's Emergency Plan for AIDS Relief is committed to making 
strategic, scientifically sound investments to rapidly scale up HIV 
prevention, treatment, and care interventions and maximize impact, 
particularly in high-burden countries. PEPFAR's combination HIV 
prevention strategy comprises a core set of interventions that, 
especially when pursued in concert, provides the potential to end the 
epidemic: prevention of mother-to-child transmission (PMTCT) of HIV; 
antiretroviral treatment (ART) for people living with HIV; voluntary 
medical male circumcision (VMMC) for HIV prevention; and HIV testing 
and counseling (HTC), condoms, and other evidence-based and 
appropriately targeted prevention activities.
    Through its continued support for scaleup of this core combination 
prevention package, particularly in high-burden countries, PEPFAR will 
assist in reducing new HIV infections and decreasing AIDS-related 
mortality, while simultaneously increasing countries' capacity to 
sustain these efforts over time. This will, in turn, move more 
countries past the tipping point in their HIV epidemics--the point at 
which the annual increase in new patients on ART outpaces annual new 
HIV infections--and put them on the path toward achieving an AIDS-free 
generation. The United States will work closely with other partners in 
this effort, including the Global Fund and host governments, as 
creating an AIDS-free generation is a shared responsibility. If 
confirmed, I am firmly committed to ensuring that the United States 
continues to do its part in making the Blueprint's vision a reality.

    Question. The administration has made food safety and security a 
main pillar of its foreign assistance projects. Food security is an 
especially acute problem in Africa and the Middle East where farmers 
suffer high post-harvest losses and governments are looking to 
stabilize food supplies to prevent civil unrest, and in some cases 
stockpile food in case of emergency. This is an issue in which the 
American private sector can play a major role.

  <diamond> What measures would you take to work with USAID 
        Administrator Rajiv Shah to promote the participation of 
        American private sector in the administration's food security 
        programs?

    Answer. The importance of the private sector's role in development 
cannot be overemphasized. Our economy's future growth will depend on 
growth in the rest of the world. Many of our future customers will live 
in markets outside of our borders, including in emerging economies and 
low-income countries that have been particularly vulnerable to economic 
shocks.
    I support the vision of a world where private sector investment 
drives sustainable growth and where market-led development helps create 
the conditions where assistance is no longer needed.
    The State Department and the U.S. Agency for International 
Development, through Feed the Future, the U.S. Government food security 
initiative, are engaging the private sector in a meaningful, 
comprehensive way to meet the global food security challenge. Strategic 
alliances with the private sector under Feed the Future align core 
business interests with U.S. Government development objectives. For 
example, the U.S. Government's participation in the G8's New Alliance 
for Food Security and Nutrition, has already mobilized more than $3.5 
billion in new private sector commitments from firms looking to expand 
their agriculture-related business across Africa.
    These alliances and partnerships with the private sector advance 
the impact of sustainable development and foster private sector-led 
growth in emerging markets, critical to reducing poverty, fighting 
hunger, and improving nutrition. For example, Feed the Future launched 
an alliance with Partners in Food Solutions (PFS) and Solutions for 
African Food Enterprises (SAFE) to link the technical and business 
expertise from General Mills, Cargill, and DSM to small- and medium-
sized mills and food processors. This partnership is transforming the 
food processing sector in African countries by increasing the 
availability of high quality, nutritious, and safe foods and helping to 
expand market access for farmers, traders, and other agribusinesses 
through engagement with local food processors.
    Feed the Future recently launched ``Feed the Future Partnering for 
Innovation,'' an activity to identify and promote new game-changing 
technologies for use by producers in developing country markets. 
Interested U.S. companies can submit their concepts through Requests 
for Expressions of Interest, which will be released at least twice a 
year.
    Feed the Future engagement will help America's long-term economic 
security. Current estimates state that approximately two-thirds of 
global company profits are expected to come from the developing world 
in 10 years. U.S businesses and jobs will benefit from these gains with 
healthy, more prosperous consumers in the developing world. Today, a 
significant portion of U.S. exports go to former Marshall Plan 
recipient countries, illustrating the significant impact private sector 
development can have in the U.S. economy.
    In order to help business navigate the process finding 
opportunities to partner with the U.S. Government, Feed the Future 
developed a ``Private Sector Engagement Hub.'' The goal of the hub is 
to make it clearer how the private sector can partner with the U.S. 
Government in this space and to reduce the transaction costs of forming 
partnerships. This will help businesses of all sizes to engage with 
Feed the Future.
    If confirmed, I will ensure that the State Department's work with 
USAID continues in support of these key efforts under Feed the Future 
and continues to engage U.S. companies in bringing the best America has 
to offer to the rest of the world. By helping create economic 
opportunities in developing countries, these collaborative food 
security efforts generate economic growth and promote global stability, 
which benefits us all and creates a more stable and prosperous world.

    Question. As you are aware, the Republic of Argentina has 
increasingly refused to comply with international treaty obligations, 
such as those found in the U.S.-Argentina Bilateral Investment Treaty 
(BIT) and the International Center for Settlement of Investment 
Disputes. Moreover, Argentina has also introduced stringent import 
restrictions which are the subject of several pending WTO cases, while 
continuing to expropriate foreign investments in-country. The failure 
of Argentina to operate within the confines of the established 
international economic system is having a profound and negative impact 
on international trade and investment in a number of areas.
    Unfortunately, measures taken by the United States in response to 
this situation--raising certain issues before the WTO dispute 
resolution body, withdrawing Argentina's GSP benefits, and voting 
against the appropriation of additional loans to Argentina in the World 
Bank and Inter-American Development Bank--have failed to encourage 
Argentina to comply with its international obligations.

  <diamond> What other tools are available to the U.S. Government to 
        compel states that refuse to abide by international obligations 
        and directly harm U.S. businesses and investors, to comply with 
        their international treaty obligations?
  <diamond> If confirmed, would you commit to make full use of such 
        tools?

    Answer. If confirmed as Secretary of State, I would continue to use 
bilateral discussions with Argentine officials as an opportunity to 
reiterate our concerns about Argentina's failure to comply with its 
international treaty obligations, including those related to the World 
Trade Organization and the U.S.-Argentina Bilateral Investment Treaty 
(BIT). I also will continue to raise concerns about Argentina's failure 
to fulfill its private debt obligations to U.S. creditors, as well as 
its public debt to the U.S. Government. I will press for resolution to 
these longstanding bilateral irritants.
    I am aware that the Department of State has raised the 
International Centre for the Settlement of Investment Disputes (ICSID) 
cases with the Government of Argentina at high levels on many occasions 
over the past few years, and we continue to urge Argentina to pay the 
two U.S. companies that hold final and binding awards administered by 
ICSID.
    The Department of State has also expressed concerns that Argentina 
has failed to make payments on its sovereign debt obligations, 
including almost $550 million to the United States, and has urged 
Argentina at the highest levels to normalize relations with all of its 
creditors, both public and private. By resolving its obligations to 
creditors and investors, Argentina will send a strong signal to the 
international community that it takes its international 
responsibilities seriously and that it welcomes and encourages the 
foreign and domestic investment that is crucial for sustained economic 
growth.
    If confirmed, I will continue to raise these issues with the 
Government of Argentina at the highest levels. I believe it is 
important for our countries to manage areas of disagreement so that we 
can begin to rebuild a positive bilateral relationship based on shared 
values and interests.

    Question. The unrest in Mali and the recent terror attack in 
Algeria underscore the vulnerability of North Africa to jihadist 
movements. Morocco is a steadfast U.S. ally in a tumultuous part of the 
world.

  <diamond> Will you work with the committee and our Moroccan allies to 
        ensure that Morocco has the adequate level of foreign military 
        assistance to maximize its contribution to our common security 
        objectives in the region?
  <diamond> Will you instruct your team to take full advantage of the 
        congressional authority to conduct democratic governance and 
        education programs in the Western Sahara as in other areas of 
        Morocco?

    Answer. I remain committed to our strong bilateral relationship 
with Morocco and to working with Morocco on issues of mutual concern. 
Morocco is an ally that we will continue to support through security 
assistance, including foreign military financing, as well as 
development assistance. On the Western Sahara, we will continue to 
support ongoing negotiations carried out by the United Nations, which 
are led by Ambassador Christopher Ross, the Secretary General's 
Personal Envoy. If confirmed, I will ensure that we use both diplomatic 
and assistance tools to support and foster the democratic reform 
process in Morocco and across the region.

    Question. Prior to his second Presidential election, President 
Vladimir Putin of Russia made the creation of the so-called ``Eurasian 
Union'' that would comprise Russia and other former Soviet Union 
Republics an important foreign policy objective. Speaking with civil 
society advocates on the sidelines of the OSCE Ministerial in Dublin in 
December 2012, Secretary Clinton expressed U.S. concerns with Russia's 
attempts to what she called ``re-Sovietize the region.'' We all 
remember Russia's invasion of Georgia in 2008 and the subsequent 
recognition by Russia of the secessionist entities of Abkhazia and 
South Ossetia. Azerbaijan just recently decided to close the Gabala 
Radar station thus ending the presence of the last Russian installation 
on its soil.

  <diamond> What will be your policy to ensure that independence of our 
        regional allies is preserved and their Western orientation is 
        sustained?

    Answer. The United States support for the independence of the 
states that emerged from the dissolution of the Soviet Union is 
unwavering and nonnegotiable. The United States stands for the right of 
every independent country to choose its alliances and associations--
political, military, economic, or otherwise--according to its own 
interests and free from coercion of any kind. We also stand by the 
principle that states have the right freely to choose whether to allow 
foreign forces to be stationed on their territory, and that forces that 
do not have the consent of the host state should be withdrawn. These 
are principles I supported wholeheartedly in the Senate, and if 
confirmed as Secretary of State, I will continue to do so.

    Question. Despite a change in leadership following the death of 
North Korean President Kim Jong-il and the rise of his son, Kim Jong-
un, North Korean behavior is less predictable than ever. The Bush 
administration's decision to remove North Korea from the list of State 
Sponsors of Terrorism in 2008 was, in retrospect, misguided. North 
Korea continues to support terrorist activity through harboring known 
terrorists, such as the Japanese Red Army members and is currently 
listed as ``not fully cooperating'' with U.S. efforts to reduce 
terrorism. Additionally, the regime had proven belligerent over the 
past few years with the 2010 sinking of the Cheonan as well as the 
provocative launches of long range Taepodong-2 rockets.

  <diamond> What other actions does North Korea have to take to return 
        to the State Department's list of state sponsors of terrorism?

    Answer. As a matter of law, in order to designate North Korea as a 
state sponsor of terrorism, the Secretary of State must determine that 
the Government of North Korea has repeatedly provided support for acts 
of international terrorism. Available information does not indicate 
that the DPRK government has repeatedly provided support for acts of 
international terrorism since its designation was rescinded in October 
2008. While deplorable, long range missile launches by North Korea 
would not be considered such support.
    Even without being designated as a state sponsor of terrorism, 
North Korea remains among the most heavily sanctioned countries in the 
world. It is subject to a wide array of multilateral and unilateral 
sanctions based on its detonation of a nuclear device, ballistic 
missile activity, proliferation activities, human rights violations, 
and status as a communist state. Most recently, in response to North 
Korea's December Taepodong-2 launch, the Departments of State and 
Treasury on January 24, 2013, designated two entities and four 
individuals pursuant to Executive Order 13382, which targets 
proliferators of weapons of mass destruction and their supporters. 
These targets included the North Korean entity responsible for 
orchestrating the launch and two Beijing-based individuals affiliated 
with Tanchon Commercial Bank, the financial arms of the Korea Mining 
Development Trading Corporation, Pyongyang's premier arms dealer and 
main exporter of goods and equipment related to ballistic missiles and 
conventional weapons.
                                 ______
                                 

      Responses of Secretary-Designate John F. Kerry to Questions 
                     Submitted by Senator Tom Udall

    Question. Since the 2009 coup in Honduras, the political situation 
has been understandably polarized. As Honduras prepares for an election 
this year, I would urge the State Department to work with the Honduran 
Government, the OAS and other similar organizations to ensure that 
elections are free and fair.

  <diamond> Will you make this a priority as you begin your work in the 
        State Department?

    Answer. If confirmed, I will emphasize the importance of 
guaranteeing a free, fair, and transparent process for the November 
2013 election, in which four new political parties will participate. I 
will work with the Department's Western Hemisphere team to coordinate 
with the Organization of American States, the United Nations 
Development Program, and donors to ensure that Honduran election 
authorities have adequate funds and technical capacity; civil society 
groups have access to campaign finance and spending information; 
election monitoring is widespread; and the national registry is 
accurate.
    Free and fair elections in November 2013 are essential for 
consolidating Honduras' democratic process and increasing confidence in 
public institutions. Segments of Honduran society did not recognize the 
November 2009 election, complicating national reconciliation. In this 
context, the Honduran Government recognizes the importance of the 2013 
election, and it welcomes support from the Department of State to help 
ensure that its Supreme Electoral Tribunal has appropriate resources 
and procedures. The U.S. Government is committed to providing this 
assistance.
    For the November 2012 primary election, the Embassy in Tegucigalpa 
provided 70 election observers covering 13 of Honduras's 18 departments 
(i.e., states). Voting and ballot counting generally proceeded 
smoothly. Although there were scattered reports of irregularities--
including vote buying and shortages of ballots--they were not 
widespread.

    Question. Like you, I am a strong supporter of Convention on the 
Law of the Sea. Will you continue to push for ratification, in order to 
improve our diplomatic capabilities and prevent security issues in the 
future?

    Answer. If confirmed, I will continue to press for U.S. accession, 
as it is vitally important for the United States to become a party. No 
country gains more from the Convention than the United States, whether 
in terms of freedom of navigation, offshore economic interests, or 
other oceans interests. We need to be inside the Convention actively 
promoting and defending those interests, rather than on the outside 
looking in.

    Question. Los Alamos National Labs' Climate, Ocean and Sea Ice 
Modeling Project is currently working on modeling to determine how 
melting ice in Greenland and Antarctica will impact specific regions. 
In your opinion, is there a greater role for our national security labs 
in helping to put together the scientific background to help mitigate 
the impacts of climate change, and what kind of work would be 
beneficial for them to support the Department of State's work to 
address climate change?

    Answer. Climate change is already prompting substantial changes in 
many parts of the world, and if not effectively addressed, presents a 
range of security and economic risks, many of them quite serious. The 
example you give demonstrates the value of U.S. Government research to 
better understand these impacts. Understanding the behavior of polar 
ice sheets in a warming planet, for example, is essential to 
understanding the rate and magnitude of sea level rise, which could 
have far-reaching economic and humanitarian impacts. Work done by the 
national labs and other U.S. science institutions therefore play an 
essential role in ensuring our policies and response measures are 
underpinned by the best scientific information.

    Question. The Quadrennial Defense Review stated that ``Assessments 
conducted by the intelligence community indicate that climate change 
could have significant geopolitical impacts around the world, 
contributing to poverty, environmental degradation, and the further 
weakening of fragile governments. Climate change will contribute to 
food and water scarcity, will increase the spread of disease, and may 
spur or exacerbate mass migration.''

  <diamond> Can you tell me what you will do to ensure that climate 
        change continues to be addressed in the State Department and 
        can you talk about some of the efforts that have been 
        successful in fostering sustainable development in developing 
        countries and reducing emissions in developed nations?

    Answer. Climate change is one of the most important challenges we 
face and if confirmed, I plan to make it a top priority. The 
administration has helped orient the United Nations Framework 
Convention on Climate Change (UNFCCC) negotiations in a way that 
ensures all major economies have obligations to act; launched several 
important complimentary initiatives, including the Climate and Clean 
Air Coalition and the Major Economies Forum; and is supporting the 
drafting and implementation of low emissions development strategies in 
several countries. If confirmed, I plan to continue and bolster these 
efforts. I will also look for new opportunities to make progress. I 
will work with our partners around the world, and with industry and 
environmental stakeholders, to ensure that we catalyze near- and long-
term climate action that makes both environmental and economic sense.

    Question. The ongoing friction between India and Pakistan is a 
strategic concern for the United States and the region. One potential 
option is Sandia National Labs' Cooperative Monitoring Center, which is 
a program that works to create trust between countries such as border 
monitoring. As part of its mission, Sandia's Cooperative Monitoring 
Center assists political and technical experts from around the world to 
acquire the technology-based tools they need to implement 
nonproliferation, arms control, and other cooperative security measures 
. . . it is a soft power tool that I believe could be utilized in such 
hot spots.

  <diamond> Will you consider using these kinds of science-based tools 
        to help prevent conflicts?

    Answer. I share your concerns about the potential consequences of 
conflict in South Asia and agree that we should utilize a wide range of 
tools to reinforce the efforts of leaders in the region to reduce 
friction and build trust between India and Pakistan. Sandia National 
Laboratory's Cooperative Monitoring Center has been actively supporting 
these efforts for many years by hosting a variety of workshops, 
fellowships, and training programs aimed at strengthening 
nonproliferation, arms control, and cooperative security measures 
worldwide, including in the South Asia region.
    We value the work and contributions of the Cooperative Monitoring 
Center (CMC) and, accordingly, State continues to fund specific 
projects at the CMC in support of these important goals. Our national 
labs are a rich resource we will continue to leverage.

    Question. The White House recently called for a resumption of talks 
between Israel and Palestine. How will you work to encourage direct 
negotiations between the two parties, in order to get to a resolution 
that addresses final-status issues and a two-state solution?

    Answer. The administration's commitment to resuming direct 
negotiations and achieving a negotiated Israeli-Palestinian peace 
agreement based on a two-state solution remains unchanged. As I stated 
during my confirmation hearing, I strongly believe that we must try to 
find a way forward in resuming negotiations, without which the 
possibility of a two-state solution could recede, an outcome that would 
be disastrous for all involved, including for the United States. 
Israel's elections and upcoming period of government formation, coupled 
with ongoing efforts to sustain and deepen the cease-fire in Gaza, 
provide an opportunity for both the Israelis and Palestinians to step 
back and consider how they can create a context in the coming months 
that is conducive to resuming direct talks. If confirmed, I intend to 
continue working intensively with the parties to resolve issues between 
them, lay the ground for future direct talks, and bolster Palestinian 
Authority efforts to maintain and strengthen robust institutions and a 
viable economy. This is essential to a future Palestinian state that 
will be a responsible neighbor and contribute to regional peace, 
security, and stability.

    Question. The unresolved Armenia-Azerbaijan Nagorno-Karabakh 
conflict remains a concern. The United States, along with Russia and 
France, has cochaired the OSCE Minsk Group. The OSCE Minsk Group is 
tasked with finding a just and peaceful solution to this conflict. 
Previous efforts have not yielded the needed results and today the 
negotiation process is in stalemate. Some, as a result, have criticized 
the ineffectiveness of the Minsk Group and called for reinvigorated 
efforts.

  <diamond> What is your perspective on the steps that need to be taken 
        to reinvigorate the negotiation process and move forward?

    Answer. The United States remains committed to helping the parties 
find a peaceful resolution to the Nagorno-Karabakh conflict, and the 
administration continues to believe that the OSCE Minsk Group is the 
best means to advance that goal. As one of three cochairs of the Minsk 
Group, the United States continues to play a leading role in this 
process, and if confirmed as Secretary of State, I will maintain our 
focus on this important issue.
    At the OSCE Ministerial Council in December 2012, Secretary Clinton 
and her Russian and French counterparts together called on the parties 
to demonstrate the political will needed to reach a peaceful settlement 
and to take decisive steps toward that end. The administration 
recognizes that the status quo is unacceptable, and the cochairs 
continue to explore new ideas that could bring the parties closer to a 
resolution. At the same time, the cochairs and the OSCE monitors in the 
field play a vital role in maintaining stability in the region, and new 
initiatives are designed to achieve a peaceful settlement without a 
resumption of hostilities.
    If confirmed, I will ensure that the cochairs continue their 
efforts to bring the parties closer to agreement. At the same time, 
leaders in Armenia and Azerbaijan have a crucial role to play through 
strong, constructive bilateral engagement and a frank dialogue to 
prepare their populations for peace.

    Question. Over the last 20 years, the U.S. Government played a 
pivotal role in designing and funding global health programs that save 
millions of lives each year. In your role as Secretary, how do you plan 
to continue America's legacy as a leader in global health?

    Answer. The U.S. Government has long been a leader in efforts to 
improve global health, advance development, and save lives. Development 
is a central pillar of American national security and global health is 
the largest component of U.S. foreign assistance. If confirmed, I will 
continue America's legacy of leadership in this arena through the 
continued support of Presidential Policy Directive on Global 
Development. I will strongly support the Global Health Initiative, 
which draws together expertise from across the State Department and 
other government agencies to build on the significant success of 
established programs such as the President's Emergency Plan for AIDS 
Relief (PEPFAR), the President's Malaria Initiative (PMI) and others. 
The State Department will continue to support efforts in pandemic 
preparedness and environmental health, as well partnership with other 
U.S. Government agencies in coordination of our interactions with 
multilateral organizations to ensure advancement of our health goals.

    Question. In particular how will you keep the promise to end 
preventable child and maternal deaths, stimulate groundbreaking U.S.-
funded global health research, and maintain the enormous success of 
PEPFAR, PMI, and other efforts to combat infectious diseases?

    Answer. If confirmed, I will continue to strengthen and expand our 
strategic focus on, and support for, our investments in global health 
to build on the enormous success of these efforts. This includes 
ensuring that we stay focused and continue our progress toward creating 
an AIDS-free generation, ending preventable child deaths and investing 
in women, and saving mother's lives by mobilizing the full force of the 
State Department and other government agencies. We have the evidence-
based tools and interventions to continue to see dramatic improvements 
in global health. I am committed to expand their use in the countries 
where they are most needed. I will also work to include other key U.S. 
Government agencies that have an important stake in global health, 
including the Department of Health and Human Services (HHS) and its 
agencies like the Food and Drug Administration (HHS/FDA), the 
Department of Defense, and the Department of Treasury in our whole-of-
government approach to addressing these important issues.
    The work of the State Department, USAID and its partners is 
delivering real results. Through PEPFAR, as of September 2012, the 
United States directly supported nearly 5.1 million people on 
antiretroviral therapy. That number is up from 1.7 million in 2008--a 
threefold increase in only 4 years. The ``PEPFAR Blueprint: Creating an 
AIDS-free Generation'' provides a sound vision for us to follow--that 
by making smart investments based on sound science, and a shared 
responsibility, we can save millions of lives and achieve and AIDS-free 
generation. Moreover, the number of people receiving malaria-prevention 
measures is up to 58 million, an increase of 132 percent since 2008. 
The maternal mortality rate in our partner countries has dropped 15 
percent in the past 4 years, and it is on track to drop a total of 26 
percent by next year. USAID is working closely with UNICEF and partner 
countries to develop sharpened plans to accelerate reductions in child 
and maternal mortality. These plans are increasingly funded by the 
countries themselves, allowing for more specialized use of our own 
funds, such as supporting data analysis for program planning, advocacy, 
and monitoring. I will continue to support these and other successful 
efforts, such as those in tuberculosis and neglected tropical diseases.
                                 ______
                                 

      Responses of Secretary-Designate John F. Kerry to Questions 
                Submitted by Senator Christopher Murphy

    Question. I am sure that you will agree that Poland is one of our 
strongest allies and closest friends. As a Polish-American, I am deeply 
concerned by Poland's continued exclusion from the Visa Waiver Program. 
This program would allow Polish citizens to travel to the United States 
for tourism or business without having to go through the often 
difficult and costly process of getting a visa. While I understand that 
the program is administered by the Department of Homeland Security, not 
State, this issue is of significant importance to our bilateral 
relationship with Poland.

  <diamond> If confirmed as Secretary of State, will you commit to 
        working with Congress to advocate passage of meaningful 
        legislation that would assure Poland's entry into the program?

    Answer. If confirmed, I will support the administration's position 
that Poland be included in the Visa Waiver Program (VWP).
    In December 2010, the President committed to working toward 
Poland's inclusion in the VWP and in May 2011 publicly supported 
proposed legislation introduced in the House and in the Senate to 
expand the criteria for VWP designation. At the request of Congress, 
the administration submitted letters on May 18, 2012, confirming that 
it fully endorses proposed VWP expansion legislation. If confirmed, I 
commit to working with Congress, if new legislation is introduced and 
passed in the 113th Congress, to enable Poland's designation as a VWP 
country.
    Poland is indeed one of our strongest allies and closest friends. 
While Poland does not qualify under existing laws for VWP nomination, 
many Polish citizens have been able to travel to the United States 
under our existing laws. Currently, over 90 percent of Polish citizens 
who apply for a nonimmigrant visa receive one, and that number has been 
trending higher. Polish citizens enjoy maximum visa validity (10-year, 
multiple-entry for visitors), which allows them to travel to the United 
States many times without visiting a U.S. consulate or embassy.
    Expanding VWP status to include countries like Poland, which has 
one of the fastest-growing economies in Europe, will provide a boost to 
both of our economies. Modernizing the VWP will not only preserve our 
national security through secure travel, but also enhance relationships 
with important allies like Poland.
    In order for Poland to qualify for VWP status, we would need 
legislative action to adjust one current prerequisite for VWP 
eligibility--the requirement that Poland have a nonimmigrant visitor 
refusal rate below 3 percent. As you may know, in the 112th Congress, 
legislation was proposed to revise nonimmigrant visa refusal rates to 
allow Poland to qualify given its current refusal rate. This 
legislation was not acted upon and new legislation has to be introduced 
in the 113th Congress.
    If a change to that VWP provision were enacted, I note that Poland 
is well under way to meeting existing VWP statutory requirements. For 
example, Poland has met the requirements for sharing information 
related to terrorism, and we have nearly reached agreement on text of a 
second security-related agreement involving the exchange of information 
related to serious crimes. Other requirements, such as biometric 
passports and sharing data on lost and stolen passports, are already in 
place and functioning well. We continue to collaborate with Poland on 
law enforcement cooperation criteria.

    Question. What are your views on how the United States can best 
strengthen Lebanese state institutions and support moderate allies as a 
means to preserve Lebanese sovereignty and as a bulwark against 
Hezbollah domination of the government? Would you consider traveling to 
Lebanon and meeting with members of the March 14 coalition? How can we 
work together to cut off Hezbollah's financial and military resource so 
they cannot maintain undue influence in the Lebanese political system?

    Answer. The top priority of U.S. policy in Lebanon is to bolster 
Lebanon's stability and sovereignty and counter extremist influences, 
both foreign and domestic, through: our robust security assistance 
programs to the Lebanese Armed Forces (LAF) and Internal Security 
Forces (ISF) ($106 million in FY 2012); our longstanding community-
based USAID programming ($85 million in FY 2012); our strong support 
for moderate political actors, such as President Michel Sleiman and 
Prime Minister Najib Mikati; our continuous engagement with mainstream 
political actors, including March 14 leaders; and our whole-of-
government approach to countering Hezbollah activity around the world.
    In addition to helping ensure Lebanon's stability in the face of 
immense tensions arising from the conflict in neighboring Syria, our 
support to the LAF and ISF supports the implementation of United 
Nations Security Council Resolutions 1559, 1680, and 1701. Working 
closely with the United Nations Interim Force in Lebanon (UNIFIL), the 
LAF's performance in southern Lebanon has helped ensure stability along 
the Blue Line with Israel. The U.N. mandate includes efforts to disarm 
Lebanon's militias--a goal we support through our training and 
equipping of the LAF and ISF as the sole legitimate defense forces in 
Lebanon.
    In response to the collapse of the Cabinet of Saad Hariri in 
January 2011 and the formation of a new government with a majority of 
ministers aligned with the March 8 grouping in June 2011, we reoriented 
U.S. assistance away from government ministries and toward civil 
society and local government. We have limited our engagement with the 
March 8 Cabinet to working with more centrist politicians, including 
President Sleiman and Prime Minister Mikati, to advance U.S. foreign 
policy goals. These leaders have worked with other moderate actors over 
the past 18 months to ensure Lebanon's adherence to its international 
obligations, including affording assistance to more than 223,000 Syrian 
refugees in Lebanon displaced by the conflict in Syria and fulfilling 
Lebanon's funding commitments to the Special Tribunal for Lebanon 
(STL), which indicted four suspected Hezbollah operatives in 2011 (the 
trial in absentia commences in March 2013).
    Our Ambassador in Beirut, visiting senior U.S. Government 
officials, and members of visiting CODELs regularly meet leaders of the 
March 14 bloc, and we routinely welcome March 14 leaders at high levels 
for official visits to Washington. The United States is calling for 
Lebanon's parliamentary elections to be held on time in June 2013 and 
will provide technical support to promote a free and fair vote. Should 
March 14 and its allies win a majority of seats on Parliament, the bloc 
will be in a position to form the next Cabinet.
    Countering Hezbollah's worldwide terrorist and criminal activities 
remains a major counterterrorism objective for the entire U.S. 
Government. Spearheaded by the Department of State's Counterterrorism 
Bureau, the administration is currently focused on a major diplomatic 
initiative, in partnership with the United Kingdom, to encourage 
governments around the world to take steps to crack down on Hezbollah's 
activities, including through sanctions, increased law enforcement and 
intelligence focus, and strong public statements. Our Embassy in 
Beirut, in coordination with the Departments of State and Treasury, is 
also working closely with the Lebanese Central Bank to ensure adherence 
to antimoney laundering regulations and enforcement of sanctions, 
including those against Hezbollah.
                                 ______
                                 

      Responses of Secretary-Designate John F. Kerry to Questions 
                    Submitted by Senator Ron Johnson

    Question. Did Diplomatic Security personnel in Tripoli or elsewhere 
debrief any of the evacuees flown from Benghazi to Tripoli after the 
attack?

    Answer. As the tragic events of September 11 occurred while I was 
serving in the Senate, I was not involved in the Department's response. 
In the days that followed, in my capacity as chairman of the committee, 
I was in close contact with officials in the State Department and 
across the administration. I attended the September 20, 2012, 
interagency briefing for Senators, as well as additional briefings and 
hearings that the Foreign Relations Committee held in the following 
weeks. I have been informed by relevant State Department offices of the 
following facts:

          The primary concern of the Department was the safety and 
        well-being of the personnel evacuated from Benghazi to Tripoli 
        on the morning of September 12. These individuals were not 
        debriefed by Department officials in Tripoli, as the Embassy 
        team's primary consideration was getting the evacuees urgent 
        medical care and transport out of Libya.

    I would add that the tragedy hit home for all of us in the Senate. 
One of the victims was a son of Massachusetts, and Ambassador Stevens 
was well known, too, and admired by our committee since his time as a 
Pearson Fellow working with former Senator Lugar. I was particularly 
moved by the ceremony at Andrews Air Force Base as our fallen patriots 
returned home to American soil. That ceremony underscored for me the 
importance of the Foreign Relations Committee and the role we must play 
in the process of determining, not just what went wrong, but what we 
can learn and what can be done to prevent tragedies like this one in 
the future.

    Question. Did anyone from the State Department debrief evacuated 
personnel?

    Answer. Because the events on the night of September 11 occurred 
while I was serving in Congress, I was not involved in the Department's 
response. Relevant State Department officials have advised me that the 
Department did not interview any of its evacuated personnel prior to 
their appearance before the grand jury on September 20, 2012, pursuant 
to discussions with the U.S. Attorney's Office.

    Question. Personnel from which agencies or departments debriefed 
the evacuees and on what dates?

    Answer. Because the events on the night of September 11 occurred 
while I was serving in Congress, I was not involved in the Department's 
response. However, I have been advised by relevant State Department 
offices of the following information:

          The Federal Bureau of Investigation (FBI) spoke with the 
        evacuees in Germany on September 15 and 16. The FBI also 
        recently interviewed a Diplomatic Security (DS) agent in the 
        United States.

    The State Department first interviewed its evacuees after their 
grand jury appearance on September 20.

    Question. Were there phones calls, e-mails, in-person contacts or 
any other contact made with the evacuees concerning any aspect of the 
attack? Please list which agencies had these contacts with the evacuees 
about aspects the attacks and the precise time and date of the contact.

    Answer. Because the events on the night of September 11 occurred 
while I was serving in Congress, I was not involved in the Department's 
response. However, I have been advised by relevant State Department 
offices of the following information:

          Once the attack commenced, the Diplomatic Security (DS) agent 
        in Benghazi's Temporary Mission Facility Tactical Operations 
        Center (TOC) was in periodic telephone contact with Embassy 
        Tripoli, the Benghazi Annex, and the Diplomatic Security 
        Command Center (DSCC) in Rosslyn, VA, until he joined the Annex 
        response force moving from the TOC to the main building to 
        search for the Ambassador. Upon arriving at the Annex, the DS 
        agents reestablished contact with Embassy Tripoli and the DSCC 
        until they departed Benghazi on the morning of September 12.

    The Federal Bureau of Investigation (FBI) spoke with the evacuees 
in Germany on September 15 and 16. The FBI also recently interviewed a 
Diplomatic Security (DS) agent in the United States.
    The State Department first interviewed its evacuees after their 
grand jury appearance on September 20.

    Question. Please provide to the committee the transcripts of any 
such contacts.

    Answer. Because the events on the night of September 11 occurred 
while I was serving in Congress, I was not involved in the Department's 
response. However, I have been advised by relevant State Department 
offices of the following information:

          Once the attack commenced, the Diplomatic Security (DS) agent 
        in Benghazi's Temporary Mission Facility Tactical Operations 
        Center was in periodic telephone contact with Embassy Tripoli, 
        the Benghazi Annex, and the Diplomatic Security Command Center 
        (DSCC) in Rosslyn, VA, until he joined the Annex response force 
        moving from the TOC to the main building to search for the 
        Ambassador. Upon arriving at the Annex, the DS agents 
        reestablished contact with Embassy Tripoli and the DSCC until 
        they departed Benghazi on the morning of September 12.

    The Department did not record these conversations and thus there 
are no transcripts.
                                 ______
                                 

      Responses of Secretary-Designate John F. Kerry to Questions 
                    Submitted by Senator Jeff Flake

    Question. The reports of the Accountability Review Board (ARB) and 
the Senate Homeland Security and Government Affairs Committee on 
Benghazi both address resources available for embassy security. As 
Congress works with the President to address our mounting debt and 
deficit--a chief national security concern according to former Chairman 
of the Joint Chiefs of Staff, Admiral Muller--how will you seek to 
address the recommendations in the reports to increase spending for 
embassy security?

    Answer. Diplomacy, by nature, must be practiced in dangerous 
places. The State Department takes significant measures everyday to 
protect personnel, their families, and U.S. interests overseas. If 
confirmed, I will ensure that the Department's efforts to respond to 
the recommendations of the ARB are vigorous, complete, and timely. I am 
also committed to reviewing the findings of the Senate Homeland 
Security and Government Affairs Committee to ensure that 
recommendations rise to the senior levels in the Department that are 
responsible for balancing worldwide embassy security requirements 
against the fiscally constrained environment in which the Federal 
Government is currently operating.
    If confirmed, I will seek your help in obtaining the funding 
necessary to do so. One immediate way to help meet the reports' 
recommendations to increase spending for embassy security is through 
the Department's Increased Embassy Security proposal. The Department 
urgently needs Congress' support to provide the transfer authority 
needed so that funds can be moved between the Department's operations 
accounts to provide better security at a number of our embassies around 
the world. This transfer of funds is a repurposing of existing funds, 
it incurs no additional cost to the taxpayer.

    Question. The ARB is supportive of the notion to increase the 
presence of the Marines at American embassies worldwide. However, given 
current end-strength levels for the Marine Corps and the threat of 
sequestration, what assurances can you give that the Marine Corps will 
not be further stretched in terms of dollars and manpower should the 
Marine Security Program expand?

    Answer. The security of U.S. personnel at overseas missions is of 
utmost importance. As proposed in the Department's Increased Security 
Proposal, Marine Security Guard Detachments would be assigned to posts 
that do not currently have detachments. The proposed expansion of the 
number of Marine Security Guard Detachments would have an impact on the 
resource requirements of the Department of State (DOS) and the 
Department of Defense (DOD).
    Pursuant to the Memorandum of Agreement (MOA) between the U.S. 
Department of State and the United States Marine Corps, the Marine 
Corps is responsible for salaries, benefits, and a number of other 
costs of the Marine Guard Program. Therefore, the ultimate authority 
for determining the number of Marines assigned to the DOS/MSG program 
rests with the Commandant of the Marine Corps. The Department has been 
in active and ongoing discussions with the Marine Corps on this issue.

    Question. Fiscal year 2012 was the first year in which the 
administration requested Overseas Contingency Operations (OCO) funds 
for the Department of State. What is your view on how OCO funds should 
be used by the Department of State? For what accounts do you plan to 
request OCO funds in fiscal year 2014? How do you plan to budget for 
accounts that have received OCO funds in the past once the United 
States is no longer engaged in ``overseas contingency operations?''

    Answer. OCO funding supports the efforts of the Department in 
meeting the extraordinary demands of operating in the frontline states 
of Iraq, Afghanistan, and Pakistan, and to a limited extent in other 
fragile regions. OCO funding represents those resources needed to 
support the personnel, programs, and projects that are essential to 
meeting the national security challenges of operating in especially 
challenging environments. It is used to address short-term, emerging 
requirements in very limited circumstances. It is focused on near-term 
security and stability in these still fragile regions. The FY 2014 
budget request is currently under review within the administration. 
Decisions regarding funding requests for particular accounts are not 
finalized at this time. The OCO funding provided to particular accounts 
in years past may or may not remain at similar levels in future years, 
depending on circumstances on the ground at the time and national 
security requirements.

    Question. In 2011, the Palestinian Authority (PA) was granted full 
membership status in the United Nations Educational, Scientific, and 
Cultural Organization (UNESCO), prompting a cutoff of U.S. aid to that 
entity as is required by statute. In 2012, the PA's status was upgraded 
to ``non-member observer state'' by a vote of the General Assembly.

  <diamond> As Secretary of State, what will you do to prevent future 
        efforts by the PA to conduct end-runs around negotiations with 
        Israel, further delaying the prospect of peace in that region?
  <diamond> Will you fully support and enforce current statute which 
        prohibits U.S. contributions to the United Nations or any 
        associated organization that awards the Palestinian Authority 
        the same standing as full Member States? What steps will you 
        take as Secretary of State to prevent the Palestinian Authority 
        from taking action against Israel at the International Criminal 
        Court?

    Answer. Since the November 29 vote, the administration has sought, 
in coordination with Israeli officials, to persuade the Palestinian 
leadership to refrain from further action that could deepen the sense 
of crisis, further damage U.S. interests in the U.N. and other bodies 
as well as our relationship with the Palestinians, and set back 
prospects for direct negotiations. If confirmed, I will continue the 
administration's policy of opposing firmly any and all unilateral 
actions in international bodies or treaties that circumvent or prejudge 
the very outcomes that can only be negotiated, including Palestinian 
statehood. In addition, the United States will continue to stand up to 
every effort that seeks to delegitimize Israel or undermine its 
security.
    If confirmed, I will fully adhere to U.S. laws. I will also seek 
congressional support for legislation that would provide authority to 
waive restrictions on paying U.S. contributions to U.N. specialized 
agencies that grant the Palestinians full membership as a state or 
equivalent standing. I believe that our country cannot afford to be on 
the sidelines of organizations that help advance American national 
interests.
    I support the administration's commitment to active engagement 
across the U.N. system to protect and promote American interests and 
values. From bringing together the international community to impose 
the toughest multilateral sanctions ever against Iran, to intervening 
to protect civilians in Libya in a moment of crisis, to feeding the 
hungry and helping create a new nation of South Sudan, the work of the 
U.N. is vital to America's national security and to peace and the 
stability of the international system. By withholding our contributions 
to important U.N. specialized agencies, not only would we cut off 
support for important programs that advance U.S. interests, we would 
weaken our ability to promote our priorities, risk losing altogether 
our voting rights, and effectively empower others to change how and 
when America engages. When the United States steps back, states with 
conflicting agendas can and do step in, and we could easily find 
ourselves sidelined and impotent at multiple U.N. agencies and unable 
to advance U.S. interests.
    I believe that a more effective approach is to work constructively 
within international organizations to ensure that we can wield 
influence to promote U.S. interests, including advancing Middle East 
peace. I believe that constructive diplomacy, both bilateral and 
multilateral, will better assist in achieving our shared goals.

    Question. Foreign Aid is a useful tool available to us to help 
further national security goals. However, there is little dispute that 
our mechanisms used to determine and administer foreign aid are badly 
broken and in need of reform.

  <diamond> For what goals do you support the use of foreign aid? Where 
        do you think spending cuts in foreign aid should be targeted? 
        Will you support Secretary Clinton's efforts to push a 
        Quadrennial Defense and Diplomacy Review? What do you think the 
        proper role of USAID should be--do you believe that it should 
        be represented at the Cabinet level?

    Answer. Foreign assistance programs further U.S. national security, 
advance America's economic interests, and protect Americans at home and 
abroad. If confirmed, I will continue the Department's prioritization 
of programs that:

  <bullet> Advance peace, security, and stability around the world;
  <bullet> Open new markets for Americans goods and services and 
        promote U.S. exports to help drive job creation at home;
  <bullet> Fight disease and hunger and invest in global health;
  <bullet> Provide humanitarian assistance;
  <bullet> Lift people from a state of hunger and poverty through 
        investments in agriculture;
  <bullet> Reduce the threats of climate change; and
  <bullet> Support the establishment of open and accountable 
        democracies to advance freedom, dignity, and development.

    The Department of State and USAID undergo rigorous planning and 
assessment of policy priorities, program goals, and the resources 
required to achieve them when building annual budgets. In addition, 
both the Department and USAID are implementing robust evaluation 
policies developed using U.S. and international best practices. They 
are committed to monitoring and evaluating ongoing programs to identify 
any weaknesses, gaps, or room for savings, and then adjusting when 
necessary to ensure programs are meeting their objectives as 
efficiently and effectively as possible.
    The Quadrennial Diplomacy and Development Review (QDDR) undertaken 
by the State Department under Secretary Clinton's leadership has 
successfully identified ways the Department and USAID can be more 
effective, efficient, and accountable. If confirmed, I will continue to 
strive toward this goal by both implementing the findings of the QDDR 
and regularly reviewing our programs to better direct and coordinate 
our resources. I would hope to work with Congress to see that the QDDR 
process is enacted into law. And I certainly can assure you that this 
process will be coordinated with Congress.
    I fully support the administration's ongoing efforts to reestablish 
the United States as the global leader on international development. 
The U.S. Government has a long history of providing foreign assistance 
to respond to global needs, assist people overseas struggling to build 
a better life, and make the world safer, and we rely on USAID's 
expertise to accomplish these goals as part of an integrated foreign 
assistance strategy. I support the administration's long-term 
commitment to rebuilding USAID as the world's premier development 
agency. USAID programs improve the lives of millions of men, women, and 
children by:

  <bullet> Investing in agricultural productivity so countries can feed 
        their people;
  <bullet> Combating maternal and child mortality and deadly diseases 
        like HIV, malaria, and tuberculosis;
  <bullet> Providing life-saving assistance in the wake of disaster;
  <bullet> Promoting democracy, human rights, and good governance 
        around the world;
  <bullet> Fostering private sector development and sustainable 
        economic growth;
  <bullet> Helping communities adapt to climate change; and
  <bullet> Elevating the role of women and girls throughout the world.

    Question. Right now, the United States, France, and other nations 
are assisting Mali as it seeks to oust Islamist extremists in the 
northern part of that country. And just last week terrorists attacked 
an oil field in Algeria.

  <diamond> What role did the revolution in Libya, and subsequent 
        removal of the previous regime, play in the spread of Islamist 
        extremism across Northern Africa? As Secretary of State, what 
        steps will you take to mitigate the spread of extremism?

    Answer. Al Qaeda in the Islamic Maghreb (AQIM) is an al-Qaeda-
affiliated group that evolved from the remnants of extremist groups 
that fought a brutal decade-long civil war against the Algerian 
Government during the 1990s. As a result of the Algerian Government's 
success in countering AQIM within its borders, these extremists sought 
sanctuaries outside of Algeria, including northern Mali. Taking 
advantage of long and porous borders, AQIM and other extremists spent 
many years capitalizing on instability in the Sahel region to recruit 
fighters and build stockpiles of money from kidnapping for ransom and 
smuggling. Following the fall of Qadhafi's dictatorship in Libya, a 
security vacuum developed in the country as the new Libyan authorities 
sought to reconstitute gutted institutions and prepare for the first 
free and fair elections in Libya in over 42 years. As a result, AQIM--
and other militant groups in North Africa--was able to acquire and move 
significant quantities of arms.
    If confirmed as Secretary of State, I will work with our 
international partners to provide significant support to the African-
led International Support Mission in Mali (AFISMA), which was 
authorized in U.N. Security Council Resolution 2085 (2012) adopted 
unanimously on December 20. We look forward to working with Congress to 
ensure the support necessary to make our policy in Mali successful, 
including any funding needs. While military efforts continue, we must 
also press for real and sustained political progress in Mali, including 
implementing a roadmap to restore democratic governance and holding 
elections as soon as technically possible. U.S. support is critical, 
but all efforts to return security and stability to Mali and to 
dislodge extremists from Mali and the region must be African-led and 
African-owned. Only an African-led and -owned solution will be 
sustainable.
    Beyond northern Mali, I will continue to support counterterrorism 
programs, though mechanisms including but not limited to the 
interagency Trans-Sahara Counterterrorism Partnership, with countries 
in north and west Africa. These long-term efforts are designed to 
upgrade the capacity of regional security forces, and include programs 
such as antiterrorism training, border security management training, 
countering violent extremism messaging, prison reform, military-to-
military conferences and training, conventional weapons proliferation 
abatement, and law enforcement assistance.

    Question. In her testimony before the Senate Foreign Relations 
Committee on January 23, 2013, Secretary Clinton spoke of 
``warehouses'' full of weapons that the former Libyan regime had 
stockpiled over the years. She then went on to describe how many of 
these weapons have found their way onto the black market and into the 
hands of terrorists, confirming that weapons from Libya were used in 
the attack on the oil field in Algeria last week. Secretary Clinton 
called the spread of these weapons ``one of our biggest threats.''

  <diamond> Do you agree, and if so, what will you do to stop the 
        spread of these weapons?

    Answer. The spread of loose weapons across Libya's porous borders 
threatens the stability of north Africa and the broader Sahel. These 
weapons can end up in the hands of extremist groups, which threaten our 
partner governments in the region, as well as U.S. national security 
interests. The State Department has provided counterterrorism 
assistance to north and west African governments for years, and since 
the 2011 revolution in Libya, the United States has led an 
international effort to support the Government of Libya as it accounts 
for advanced conventional weapons. Through these ongoing programs, the 
Department and the United States partners have accounted for, secured, 
or destroyed more than 5,000 man-portable air defense systems (MANPADS) 
and components. In coordination with the U.S. interagency, the State 
Department is currently providing border security training and also 
developing a border security assistance plan to help the Government of 
Libya better monitor and stop the flow of weapons and people across its 
borders.
    The United States Government has engaged the governments of all the 
countries across the region, offering additional assistance to build 
their capacities to address these threats. For example, the State 
Department has assisted the Governments of Niger and Chad to mitigate 
the threat of weapons proliferation, expanding assistance for their 
efforts to comprehensively patrol their borders and interdict weapons 
traffickers. As an essential element of this approach, the United 
States is also cooperating closely with the U.N., the European Union, 
and key international partners including the United Kingdom, Canada, 
the Netherlands, Belgium, and France, to support the governments of 
Libya and its neighbors to address these threats.
    If confirmed, I will continue to work with the democratically 
elected government in Libya and the other regional governments to 
prevent the proliferation of MANPADS, advanced conventional weapons, 
and Weapons of Mass Destruction (WMD) and WMD-related items that can 
destabilize the region and harm U.S. interests. I will also continue to 
support U.S. programs to assist these regional governments in border 
security management training and conventional weapons proliferation 
abatement.

    Question. The U.S. military withdrawal from Afghanistan is fast 
approaching. As we prepared to withdraw from Iraq, there was some 
discussion with the Iraqis of leaving behind a military force in an 
advisory role. Failure to secure a deal on immunity for American troops 
resulted in a full withdrawal, as had been laid out in the previous 
Status of Forces Agreement.

  <diamond> As Secretary of State, what provisions for immunity, or 
        lack thereof, would lead to failure to secure a deal? What will 
        you consider when negotiating terms of any potential immunity?

    Answer. As the President clearly stated during his joint press 
conference with President Karzai on January 11, 2013, ``it would not be 
possible for us to have any kind of U.S. troop presence [in 
Afghanistan] post-2014 without assurances that our men and women who 
are operating there are [not] in some way subject to the jurisdiction 
of another country.'' If confirmed, I will work to reach agreement with 
Afghanistan on terms that meet our requirement for jurisdiction over 
U.S. forces consistent with the position set out by the President.

    Question. What kind of diplomatic presence do you expect to retain 
in Afghanistan after the withdrawal of forces? How do the diplomatic 
facilities being constructed there reflect that assessment? What steps 
will you take to make sure that taxpayer dollars are not being wasted 
on the construction of facilities in Afghanistan that will either be 
underutilized, or utilized for purposes other than those for which they 
were constructed?

    Answer. The residual U.S. Government presence, including the 
diplomatic presence, has not yet been determined as the President is 
reviewing various options. The State Department has developed plans to 
support the various options and is applying lessons learned from Iraq. 
We want to get the footprint right to support the post-2014 Diplomatic 
and Development Mission in Afghanistan and are partnering with other 
government agencies in a whole-of-government approach to do so.

    Question. The New START Treaty sets the number of strategic nuclear 
warheads at 1,550. Deployed strategic launchers are limited to 700. 
Under what circumstances do you believe these numbers would be changed? 
What are acceptable levels for the U.S. nuclear arsenal? At what point 
will U.S. allies begin to question our ability to keep them under our 
``nuclear umbrella?''

    Answer. When signing the New START Treaty--a treaty that was 
roundly praised by our NATO and non-NATO allies--President Obama 
established the U.S. goal of seeking to negotiate further reductions in 
all nuclear weapons: strategic and nonstrategic, deployed and 
nondeployed.
    The President also pledged in Prague to maintain a safe, secure, 
and effective nuclear deterrent sufficient to deter any adversary and 
guarantee the defense of our allies, as long as nuclear weapons exist.
    The President directed the Nuclear Posture Review (NPR) 
Implementation Study as part of the 2010 NPR and this study is ongoing. 
The study will inform the President's guidance to the Defense 
Department on nuclear planning to determine force structure, force 
posture, and stockpile requirements needed to protect the United States 
and our allies and partners, and to inform plans for employing nuclear 
weapons should deterrence fail. The results of this study, when 
concluded, will inform our position in future discussions with Russia 
on further nuclear reductions.
    A key objective of the 2010 Nuclear Posture Review is to strengthen 
regional deterrence and reassure U.S. allies and partners. As part of 
the U.S. commitment to our Asian allies, the United States has 
institutionalized bilateral strategic dialogues on extended deterrence 
with the Republic of Korea and Japan.

    Question. In his first term, President Obama took some steps so 
that Cuban-Americans could visit their relatives in Cuba without severe 
restrictions. There were more than 400,000 Cuban-American trips to 
visit relatives last year taking advantage of this Executive order and 
all the reports are that families there are eager to see their American 
relatives. The President also made it easier for other Americans to do 
academic and religious and other nontourist travel to Cuba while also 
allowing Americans to send remittances to relatives and friends in Cuba 
without restrictions. Anecdotal reports indicate that money seems to 
help families on the island and it apparently is a big part of the 
financing for the new small businesspeople that are emerging in Cuba.

  <diamond> Do you agree that these were positive steps, and where 
        should the administration go over the next 4 years on travel 
        and contact between the Cuban and American people?

    Answer. These administration actions were positive steps to 
increase purposeful travel in support of private enterprise and civil 
society in Cuba; to enhance the free flow of information to, from, and 
among the Cuban people; and to help promote their independence from the 
Cuban state.
    If confirmed, I will strive to ensure that necessary resources flow 
to the Cuban people, consistent with U.S. law and regulations, in order 
to bolster Cuba's nascent private sector and fuel the emergence of a 
market economy that can free the Cuban people from their reliance on 
the state.
    The administration has said it will continue to advance policies 
that will enable the Cuban people to freely determine their own future. 
If confirmed, I will work diligently with Congress to ensure that these 
policies are implemented and strengthened.

    Question. The United States has had some modest cooperation between 
our Coast Guard and Cuban authorities on drug interdiction. Over the 
last year, there have been some conversations about planning for how to 
respond if there was an oil spill in the Florida Straits. We have, over 
the years, had conversations with Cuba about how to handle migration 
issues.

  <diamond> Where, if anywhere, do you think we can go next in talking 
        with the Cubans about these matters of self-interest? And if 
        we're in conversations with them about these kinds of issues, 
        do you think we can use that dialogue to talk with them about 
        some other things we'd like to get, including some kind of deal 
        that would bring home Alan Gross, the USAID subcontractor who's 
        serving a prison sentence in Cuba?

    Answer. If confirmed, I will keep the United States focus on 
bringing Alan Gross back to his family. This is, and will continue to 
be, a top priority for this administration.
    The primary U.S. policy objective in Cuba is to support the Cuban 
people's desire to freely determine their own future. While keeping 
this objective at the forefront, we continue to promote other U.S. 
policy interests in Cuba whenever possible. U.S. officials meet 
periodically with Cuban officials to discuss issues affecting U.S. 
national interests. These include oil spill prevention and response in 
multilateral fora, immigration, aviation and maritime security, and the 
operations of our respective interests sections. If confirmed, I will 
work with Congress to ensure that an appropriate level of engagement 
continues.
                                 ______
                                 

      Responses of Secretary-Designate John F. Kerry to Questions 
                   Submitted by Senator John Barrasso

    Question. Yesterday, Secretary Clinton explained that there are 
programs at the Department of State that can be reduced and are in need 
of improvements. Secretary Clinton said, ``Are there programs that we 
can reduce--make more efficient? Yes, that is part of what I have been 
trying to do. But, there are also a lot of very essential programs, 
first and foremost the security of our personnel in dangerous places, 
that we can't afford to cut more of.''

  <diamond> (a) With the state of the U.S. economy and current 
        budgetary pressures, what specific programs at the Department 
        of State would you scale back or eliminate in order to ensure 
        that funding can go to the very essential programs?

    Answer (a). This remains a time of economic recovery for our 
country. The Department of State and USAID undergo rigorous planning 
and assessment of policy priorities, program goals, and the resources 
required to achieve them when building annual budgets. If confirmed, I 
will continue to work to ensure the Department and USAID's annual 
budget requests seek to stretch every taxpayer dollar as far as 
possible without compromising our core national security mission. The 
FY 2014 budget request will reflect our efforts to fund national 
security and foreign policy priorities while meeting humanitarian needs 
as effectively and efficiently as possible.

  <diamond> (b) Are you committed to eliminating duplication and 
        redundancies within the Department of State?

    Answer (b). Both the Department and USAID are implementing robust 
evaluation policies developed using U.S. and international best 
practices. Both agencies are committed to monitoring and evaluating 
ongoing programs in order to identify any weaknesses, redundancies, 
gaps or room for savings, and adjusting when necessary to ensure 
programs are meeting their objectives as efficiently and effectively as 
possible. Building on the Quadrennial Diplomacy and Development Review 
(QDDR), the Department and USAID have undertaken a further series of 
reforms to improve both development results and the sustainability of 
U.S. foreign assistance.
    I place great value on congressional oversight of the State and 
USAID assistance programs, as it helps ensure that U.S. taxpayer 
funding goes to programs that meet our national security, foreign 
policy, and development objectives.

  <diamond> (c) What specific types of international institutions or 
        organizations should not receive U.S. funding?

    Answer (c). Organizations that operate outside the parameters of 
current U.S. laws or do not advance the interests of the United States 
and its allies should not benefit from U.S. funding.

  <diamond> (d) Given the incredible amount of debt facing our Nation 
        and the need to take steps to address the out of control 
        spending, would you support the creation of new bureaus and 
        further expand the U.S. Department of State?

    Answer (d). If confirmed, I will review the Department's 
organizational structure very carefully to determine where efficiencies 
and streamlining of operations may occur.

  <diamond> (e) What measures would you take to improve efficiency and 
        target fraud in the foreign aid programs to prevent wasteful 
        spending?

    Answer (e). If confirmed, I would continue to support and 
prioritize the strong monitoring and evaluation policies currently in 
place at the Department of State and USAID. I would also welcome the 
helpful oversight of the inspectors general of State, USAID, the 
Government Accountability Office, and Congress.

    Question. Like many U.S. industries, soda ash faces significant 
trade barriers around the world. It is a key manufacturing component of 
glass, detergents, soaps, and chemicals. Soda ash is also used in many 
other industrial processes.
    U.S. ``natural soda ash'' is refined from the mineral trona. It has 
long been regarded as the standard for quality, purity, and energy 
efficiency in production. The Green River Basin in Wyoming is the 
world's largest area for naturally occurring trona.

  <diamond> As part of your effort to promote U.S. industries in 
        international markets, can you commit to me that you will be an 
        advocate for eliminating trade barriers for soda ash and other 
        important U.S. industries in the international marketplace?

    Answer. If confirmed as Secretary of State, I will prioritize the 
Department's promotion of U.S. exports and the facilitation of U.S 
industries' participation in international markets. I understand that 
the Department is aware that some countries have pursued actions 
against the importation of soda ash, including trade remedy actions and 
other barriers to trade. I will ensure that State continues working 
closely with the Department of Commerce and the Office of the U.S. 
Trade Representative on this issue as well as to address other trade-
distorting measures. I will also require that State advocate more 
broadly for U.S. firms and U.S. industries by ensuring that our trading 
partners adhere to their international trade obligations to provide 
nondiscriminatory market access for all of our exporters, including 
those in the soda ash industry.

    Question. In July 2012, the United Nations Conference on the Arms 
Trade Treaty failed to agree on a legally binding arms treaty. This 
treaty would cover major military weapons systems all the way down to 
small arms and ammunition. The United States has agreed to continue to 
participate in the conference negotiations being held in March 2013.
    This treaty is very concerning to gunowners in Wyoming and across 
the Nation. The draft treaty proposes establishing a Secretariat. The 
Secretariat will effectively be the administrative body of the treaty. 
Article 10 of the draft requires signatories to maintain records for 10 
years on all firearm imports, shipments, and purchasers and share this 
information with the United Nations. Signatories will be required to 
submit this information on an annual basis.
    With the collection, storage and reporting of all gun transfers, 
this sounds like a gun registry to me.

  <diamond> If confirmed as the U.S. Secretary of State, will you 
        support any treaty that allows the United Nations to establish 
        and maintain a gun registry on law abiding U.S. gunowners?
  <diamond> Would you support the proposed U.N. Arms Trade Treaty?

    Answer. If confirmed, I will only support an Arms Trade Treaty that 
is consistent with U.S. law, including the Second Amendment rights of 
U.S. citizens, and that advances U.S. foreign policy interests.
    Specifically, the United States supports an ATT that enhances 
global security by stemming illicit arms transfers and ensures other 
nations adopt high standards in evaluating international arms 
transfers. We will not support a treaty that impacts domestic arms 
transfers or creates a U.N. gun registry.
    As the administration stated at the conclusion of the July 
conference, we supported convening a second conference in 2013 to allow 
sufficient time for a thorough review and further refinement of the 
text. If confirmed, I look forward to working toward a text that is 
consistent with the administration's positions and redlines and which 
the United States could support.

    Question. In 2012, the Global Zero organization released the U.S. 
Nuclear Policy Commission Report which recommended significantly 
reducing our nuclear deterrent.
    I believe these recommendations would undermine our national 
security and empower our enemies.
    The report called for the elimination of the Intercontinental 
Ballistic missile (ICBM) leg of the nuclear triad, even though the 
ICBMs are the most stabilizing leg in the nuclear triad.
    It also calls for the cancellation of the Analysis of Alternatives 
(AOA) which has been set up to study the next generation nuclear ICBM.
    Finally, this report suggested that the United States consider 
unilaterally reducing our strategic weapons.

  <diamond> Do you support the recommendations outlined in the Global 
        Zero Report?
  <diamond> Do you believe that the United States should unilaterally 
        cut our nuclear deterrent at a time when Russia and China are 
        modernizing their nuclear weapons?

    Answer. As outlined in the 2010 Nuclear Posture Review, the United 
States is reducing both the number and role of nuclear weapons in our 
national security strategy. At the same time, the President has made 
clear that, as long as nuclear weapons exist, we will maintain a safe, 
secure, and effective nuclear arsenal that guarantees the defense of 
the United States and our allies. If confirmed, I will work with 
Congress to that end. As long as nuclear weapons exist, the 
administration will maintain a strong nuclear deterrent.

    Question. During the New START Treaty debate, there were a number 
of Senators including myself who were extremely concerned that the 
treaty did not include tactical nuclear weapons.
    Throughout the debate, we were told that we must ratify this treaty 
in order to begin the conversation of reducing tactical weapons.
    On December 16, 2012, you stated on the floor of the U.S. Senate 
that: ``I hope our colleagues will stand with our allies and stand with 
common sense and ratify this treaty so we can get to the issue of 
tactical nuclear weapons.''

  <diamond> Should you be confirmed, where will your priorities be as 
        Secretary of State with respect to nuclear weapons reductions?
  <diamond> Will you push for further reductions in strategic weapons 
        or take on the real issue of tactical nuclear weapons?

    Answer. In Prague, President Obama established the U.S. goal of 
seeking to negotiate further reductions in all types of nuclear 
weapons: strategic and nonstrategic, deployed and nondeployed.
    Consistent with the New START Resolution of Ratification, the 
President certified to the Senate in February 2011 that the United 
States would seek to initiate negotiations on an agreement to address 
the disparity between the nonstrategic nuclear weapons stockpiles of 
Russia and the United States and to secure and reduce tactical nuclear 
weapons in a verifiable manner.
    The President reiterated his Prague statement in Seoul in March 
2011: ``Going forward, we'll continue to seek discussions with Russia 
on a step we have never taken before--reducing not only our strategic 
nuclear warheads, but also tactical weapons and warheads in reserve.''
    The administration is conducting a bilateral dialogue with Russia 
on strategic stability and consulting with allies to lay the groundwork 
for future negotiations.

    Question. What was the total amount of appropriations in fiscal 
year 2012 used by the Department of State on global climate change 
programs? What accounts did the funding come from? Please provide me 
specific details about all of the global climate change programs, 
including the objectives, results, and amounts of FY 2012 
appropriations spent.

    Answer. It is my understanding that the State Department 
administered $133 million in support of global climate change programs 
during fiscal year 2012. Of this amount, $96 million came from the 
Economic Support Funds account, and $37 million came from the 
International Organizations and Programs account. These funds are 
critical to U.S. diplomatic objectives, open up trade and investment 
opportunities for U.S. businesses, conserve forests, and help the 
poorest countries build resilience to extreme weather events. Specific 
details include:

  <bullet> Putting developing countries on a clean energy path, 
        increasing trade and investment opportunities for U.S. 
        businesses and improving air quality and human health around 
        the world: The State Department's FY 2012 funding has supported 
        international initiatives such as the Global Methane 
        Initiative, which includes a project network of more than 300 
        U.S.-based private sector organizations and has cut greenhouse 
        gas emissions by more than 100 million metric tons of carbon 
        dioxide equivalent since its inception in 2004.
  <bullet> Conserving forests, fostering sustainable land management, 
        and combating illegal logging: The State Department provided 
        support to the Forest Carbon Partnership Facility (FCPF), a 
        multilateral initiative that has supported 36 developing 
        countries to put into place the necessary institutional 
        frameworks to engage on Reducing Emissions from Deforestation 
        and Forest Degradation (REDD+) activities. Contributions to the 
        FCPF have allowed us to leverage our funding nearly twentyfold 
        and are contributing to dramatically strengthened forest 
        governance worldwide.
  <bullet> Building resilience in developing countries to reduce the 
        risk of damage, loss of life, and broader instability that can 
        result from extreme weather and climate events. The State 
        Department invested in two climate adaptation funds: the Least 
        Developed Countries Fund (LDCF) and the Special Climate Change 
        Fund (SCCF). Since November 2004, these funds have helped 
        nearly 50 vulnerable countries identify their most urgent needs 
        for preventing climate-related disasters and damages. The most 
        important sectors of engagement have been agriculture and food 
        security, water supply, coastal management, and public health. 
        U.S. contributions to these funds leverage additional program 
        support from other donors.

    Question. The Accountability Review Board recommended an increase 
in funding to $2.2 billion per year for security and facilities. The 
U.S. Department of State has said that they have spent more than $4.7 
billion of appropriated funds over the past 3 years to fund United 
Nations' climate change commitments. Adequate funding for the safety 
and security of U.S. Department of State personnel working around the 
globe must be our highest priority.

  <diamond> To comply with the recommendations of the Accountability 
        Review Board, will you support redirecting Department of State 
        funds used for U.N. climate change commitments to the security 
        and facilities programs at the Department of State?

    Answer. It is my understanding that, in fact, the U.S. State 
Department directly administered $459 million in climate-related 
funding over the past 3 years. The $4.7 billion figure you cite refers 
to all congressionally appropriated assistance that supports climate 
change objectives and includes funding administered by other U.S. 
Government agencies, such as USAID and the Treasury Department.
    The safety and security of U.S. personnel and facilities have been 
a top priority of mine during my time in the U.S. Senate and will 
continue to be if confirmed as Secretary of State. Strong and effective 
foreign assistance programs are a key tool to achieve core U.S. 
diplomatic objectives and defend our overseas interests, and I strongly 
believe that climate change is one of the most important challenges our 
country faces. If confirmed, I will be firmly committed both to 
ensuring the safety of Americans serving abroad and using smart and 
targeted foreign assistance programs that enhance global stability, 
expand economic opportunities, and promote American values.

    Question. On January 28, 2009, you supported U.S. policies to 
address climate change, stating: ``This is a moment of enormous 
opportunity for new technology, new jobs, for the greening and 
transformation of our economy. We simply can't afford not to act.'' Two 
weeks later, you voted for President Obama's $787 billion economic 
stimulus plan which committed $90 billion in spending on ``green'' 
energy technologies. Four years later, as many as 50 ``green'' energy 
companies receiving federal stimulus funds are failing or have already 
declared bankruptcy, most famously Solyndra. And so few ``green'' jobs 
have been created that Jay Leno joked: ``You know what's kind of 
ironic? This will be the fourth St. Patrick's Day of Obama's 
Presidency. He still hasn't created a green job. What happened to 
those? President Obama has added over $6 trillion to our national debt 
in just 4 years, almost $1 trillion of it from the economic stimulus 
alone. Unemployment remains largely unchanged at 7.8 percent. We have 
anemic economic growth.

  <diamond> Do you believe the President's ``green'' energy agenda has 
        been a success? Do you believe we should spend billions more 
        given the results of the last 4 years?
  <diamond> What happened to those ``green'' energy jobs--that 
        ``green'' energy prosperity--the President promised? Do you 
        have an answer for Jay Leno and millions of other Americans 
        concerned about the first-term results of the President's 
        economic agenda? Are you concerned that U.S. stimulus tax 
        dollars ended up funding jobs overseas?

    Answer. I have long advocated that the United States invest in 
becoming a clean energy economy to decrease carbon pollution, create 
jobs, and build resilience in vulnerable communities. Clean energy 
investments made by the President during his first term, created or 
saved hundreds-of-thousands of jobs. Furthermore, as it develops, the 
clean and alternative energy sector has the potential to become a 
multitrillion dollar marketplace of opportunity that employs 
significant numbers of American workers and spurs the creation of new 
technologies. The President has said, and I agree, that we cannot cede 
the jobs and industries of the next-generation energy sector to other 
nations. And I am confident that continued efforts to develop our 
domestic energy supplies, promote energy savings through increased 
efficiency, and support advanced research and technological 
breakthroughs will deliver increased growth and employment.

    Question. President Obama launched his National Export Initiative 
in 2010 to double U.S. exports by 2015. He reasoned: ``Because the more 
products we make and sell to other countries, the more jobs we support 
right here in America.'' The United States exports coal and is poised 
to become a net exporter of oil and natural gas products.

  <diamond> Do you support U.S. exports of coal, oil, and natural gas?
  <diamond> Do you recommend the administration approve pending 
        applications for permits to export liquefied natural gas?
  <diamond> Do you support construction of additional coal export 
        facilities in the United States?

    Answer. I strongly support increasing U.S. exports as part of our 
efforts to bolster U.S. economic growth. There are certain legislative 
requirements that affect the export of oil and gas, including that the 
Department of Energy make a public interest determination before 
approving individual applications to export liquefied natural gas 
(LNG). The Department of Energy has posted for public comment an 
independently completed study that assesses U.S. national interests in 
exporting natural gas. The comment period on that study closes 45 days 
from when it was posted in the Federal Register (December 11, 2013), 
followed by a 30-day period when it accepts reply comments. It would be 
premature for me to comment publicly while the legislatively mandated 
process is still underway.
    According to preliminary estimates, coal exports more than doubled 
between 2007 and 2012. The role of coal in national fuel supplies has 
been a part of the U.S. energy dialogues with countries such as China 
and India and with the European Union. I am not aware of a State 
Department role on the construction of coal export facilities in the 
United States.

    Question. Many foreign policy analysts believe America's energy 
bounty can increase its economic competitiveness and enhance its power 
around the world. Senator Lugar, former chairman of this committee, 
proposed the United States use its newfound abundance of natural gas to 
help its NATO allies diversify their energy imports in order to ``break 
Russian dominance'' over them through its control of their natural gas 
supplies. Other experts agree, arguing that U.S. natural gas exports 
can diminish the ``cartel behavior'' of rival suppliers like Iran and 
Russia; help persuade allies to isolate rogue states like Iran; and 
encourage the decoupling of international gas prices from oil prices 
which would reduce gas prices around the world.

  <diamond> Do you agree that natural gas exports can serve as an 
        important diplomatic tool for the United States to strengthen 
        its relationships with its allies and restore its standing 
        throughout the world?

    Answer. The development of significant new resources of natural 
gas, in North America as well as in other regions of the world, is 
already having an impact on global gas markets and on relationships 
between natural gas producers and consumers, including between Russia 
and Western Europe. Increasingly, more and more gas is traded as LNG. 
That has begun to stimulate competitive markets in gas to 
counterbalance the type of point-to-point monopolies that traditionally 
existed between suppliers at one end of the pipeline and consumers at 
the other. Extensive natural gas finds in Israel, expected to come on 
line later in 2013, are but one example of the impact that increased 
natural gas production might have on geopolitical relationships. The 
effect that U.S. exports of liquefied natural gas (LNG) might have on 
global gas markets is a subject that is receiving significant scrutiny, 
including as a part of the Department of Energy's ongoing review of the 
study it commissioned on the cumulative impact of LNG exports. I would 
add that the decision on whether to license LNG experts is, by law, one 
which the Department of Energy is charged with making. It would be 
premature to comment on LNG exports until DOE completes that review.

    Question. On June 4, 2009, you said: ``In a sense, China and the 
United States find themselves in a similar kind of strategic box. Both 
of us have increasing economic demand, increasing power-production 
demand, and both of us are predominantly dependent on foreign sources 
of fuel. So, to the degree that we both move aggressively to create 
bioalternative, renewable, wind, solar, clean coal, et cetera, we are 
significantly advantaged.'' Since then, we have figured out how to 
produce sufficient oil and natural gas resources here at home to 
satisfy all U.S. demand with enough left over to export overseas--and 
no taxpayer dollars required.

  <diamond> Do you still think China and the United States find 
        themselves in a ``similar kind of strategic box''? Or would you 
        agree that America's newly accessible, abundant, reliable, 
        affordable oil and gas resources have changed the game, 
        enabling us to meet the ``increasing economic demand, 
        increasing power-production demand,'' and wean us off ``foreign 
        sources of fuel,'' that you worried about 4 years ago?

    Answer. The development of significant new resources of natural gas 
and oil in North America is certainly a boon to our country, in terms 
of economic development and in our balance of payments, as well as for 
U.S. energy security. However, even if North America produces all the 
hydrocarbons it consumes at some point in the future, oil prices for 
Americans will still be influenced by developments in the global market 
and the overall global economy. Given that China, like the United 
States, is a top energy consumer as well as a major energy producer 
with inextricable links to the world economy, we do share a number of 
similar strategic concerns, something that could be an area of 
opportunity for us.
    From a climate change perspective, the United States and China 
remain firmly in the same strategic box. As the two largest global 
emitters of carbon dioxide, it is absolutely critical that we work 
together to address this global concern.

    Question. Would you agree that America is ``significantly 
advantaged'' by these fossil fuel resources in its relationship with 
China and other foreign nations? Do you believe the Obama 
administration should pursue policies that restrict America's carbon 
emissions even if it makes the U.S. economy less competitive with China 
and other nations?

    Answer. The competitive advantages the United States enjoys are 
broad and economy wide, stemming from natural resources, human capital, 
technological innovation, and economic freedom, which combine to create 
the world's leading economy. There is no single aspect that can be 
singled out as the principal driver of our growth or success.
    The administration's energy policies through the first term have 
led to dramatic growth and investment in new energy resources and 
technology. One of the State Department's priorities is to ensure U.S. 
companies have access to global markets and investment opportunities, 
thereby ensuring the United States remains a global leader and 
innovator, particularly in new and emerging technologies.

    Question. On June 4, 2009, you said: ``Earlier this year, while 
America Spent $80 billion in green stimulus measures, the largest such 
investment in our history, China invested $200 billion.''

  <diamond> In light of the results, do you believe the $90 billion 
        commitment was enough?
  <diamond> How about the $150 billion the Brookings Institution 
        reports the Obama administration will spend between 2009 and 
        2014?
  <diamond> Do you want us to spend $200 billion like China? How much 
        is enough? How much must we spend, how high must our debt go, 
        how expensive must our gasoline and electricity get, before it 
        is too much?

    Answer. President Obama has made it clear that leading the world in 
clean energy is critical to strengthening the American economy and 
winning the future; the countries that lead the clean energy economy 
will be the countries that lead the 21st century global economy. We can 
get there by creating markets for innovative clean technologies that 
are ready to deploy, and by funding cutting-edge research to produce 
the next generation technologies.
    The clean energy investments included within the 2009 American 
Recovery and Reinvestment Act were domestically focused, and so the 
leaders of those Departments and Agencies that were responsible for 
executing the associated investments and programs would more 
appropriately describe their successes. Looking to the future, the 
President is committed to making the investments and advancing the 
policies that will position the United States to win the global clean 
energy race. I have been clear in my support for this stance throughout 
my time as Senator, and I will continue to do so if confirmed as 
Secretary of State.
    A related point that I want to stress are the opportunities for 
American business. The International Energy Agency estimates that the 
world will invest $10 trillion in power generation through 2030, and 
that 60 percent of this will be in renewable energy. Ensuring that the 
United States can compete in this market is of great interest to 
creating jobs for American workers.

    Question. In Europe, generous government subsidies to the renewable 
energy industry have failed to provide it with enough of an advantage 
to win in the global marketplace. In response to a cascade of green 
energy insolvencies, Germany, Italy, and other European nations are 
slashing subsidies to solar companies to spare their taxpayers from 
losing billions more. Spain is reworking its ``green'' energy spending 
policies after experiencing lost jobs and growing liabilities.

  <diamond> Do you think the Obama administration should rethink its 
        ``green'' energy agenda in light of its failures and the 
        failures in other countries?

    Answer. Several countries in Europe have in recent years made some 
changes to their subsidy programs for a number of policies, including 
some for renewable and alternative forms of energy. These changes in 
many cases are related to the fiscal difficulties a number of European 
countries face. However, the EU Commission as well as several EU Member 
States have voiced their continuing commitment to supporting the 
increasing use of clean energy.
    The administration remains committed to an ``all of the above'' 
strategy that emphasizes the use of a wide range of energy sources for 
the United States, including clean energy and energy efficiency, as 
well as hydrocarbons, nuclear energy and other sources. This ``all of 
the above'' approach has reduced U.S. oil imports from about 60 percent 
of total consumption in 2005 to 40 percent in 2012. That reflects 
cohesion between domestic energy policy and our international strategy 
for energy security which supports U.S. domestic and foreign policy 
interests.

    Question. Do you believe the United States should financially 
support offshore oil and gas drilling in Brazil and other countries 
while restricting it on Federal lands here at home?

    Answer. The United States does not directly support offshore oil 
and gas drilling in other countries, as this is the realm of the 
private sector. However, the Export-Import Bank of the United States 
(ExIm) does have the ability to provide loans to foreign enterprises 
that have a high likelihood of stimulating the export of U.S. goods in 
strategic sectors and creating jobs for Americans. As Brazil ramps up 
its oil production, we support their efforts to ensure the safe, 
reliable, and efficient exploration and production of those reserves. 
American oil and gas companies are present in Brazil, which has one of 
the world's largest oil reserves. Oil and gas production is a potential 
source of revenue for those companies, and it will contribute to global 
supplies that help maintain stability in global oil markets, and that 
affects prices that consumers pay here at home. Helping Brazil access 
U.S. technology is likely to bring long-term benefits to U.S. industry, 
and foster an even stronger bilateral relationship between our two 
countries. We also actively seek out avenues to collaborate on 
scientific research in deep off-shore energy.
    It is my understanding that the U.S. Department of State does not 
govern domestic oil and production. If confirmed, I would defer to the 
U.S. Department of Interior and Department of Energy for discussions 
permitting and licensing.

    Question. Do you believe the United States should refill the 
Strategic Petroleum Reserve to pre-2011 levels, or do you think it has 
sufficient barrels to provide import protection in America in the case 
of a severe supply disruption overseas?

    Answer. The U.S. Strategic Petroleum Reserve is administered by the 
Department of Energy. According to the U.S. Department of Energy's 
Office of Petroleum Reserves, the reserve holds approximately 695.2 
million barrels of oil as of January 11, 2013, which corresponds to 
about 80 days of U.S. imports of crude oil (based on 2012 EIA data of 
net petroleum imports of 8.72 million barrels per day). The U.S.'s 
International Energy Agency requirement is 90 days of import protection 
(both public and private stocks). The United States fulfills its 
commitment with a combination of SPR stocks and industry stocks.
    As the United States in recent years has continued to reduce its 
overall imports of crude oil, the Strategic Petroleum Reserve is 
providing an increasing number of days of import cover in the case of a 
severe supply disruption overseas. The U.S. Government stands ready to 
take appropriate actions, including possibly release of reserves, in 
the case of a supply disruption.

    Question. As Secretary of State, you will decide whether or not the 
Keystone XL pipeline is in the ``national interest.''

  <diamond> Do you believe it is in our national interest to reduce 
        gasoline prices for American consumers, as IHS CERA and other 
        analysts' project crude oil imports through the Keystone XL 
        pipeline would do?
  <diamond> Do you believe it is in our national interest to cut U.S. 
        reliance on Venezuela and Middle East crude oil by up to 40 
        percent?
  <diamond> Do you believe it is in our national interest for the 
        United States to delay the Keystone XL pipeline to the point 
        that Canada, our top trading partner and closest ally, has 
        begun courting China and other alternative markets?
  <diamond> Do you believe it is in our national interest for the U.S. 
        Government to deny Americans 20,000 truly ``shovel-ready'' 
        jobs?

    Answer. There is an ongoing review process under Executive Order 
13337 of the application for a Presidential permit for the Keystone XL 
pipeline. The next step in the process will be the release of a 
Supplemental Environmental Impact Statement for public comment, 
consistent with the National Environmental Policy Act. The Department 
continues to conduct its review of the Presidential Permit application 
in a rigorous, transparent, and efficient manner. Because that process 
has not been completed, the administration is not done with its 
analysis of the issues raised by your specific questions.
    The United States remains committed to ensuring economic growth. 
Energy security and increased energy development cooperation and 
integration with our energy trading partners contribute to stable 
energy markets that support economic growth. Gasoline prices are 
largely derived from global crude oil prices. We support transparent 
and efficient market mechanisms that lead to adequate accessible and 
reliable oil supplies.
    The United States is taking vigorous steps to use less oil, and to 
use the oil we have even more efficiently. Together with increased U.S. 
oil production, these steps have reduced U.S. oil imports from 60 
percent of consumption in 2005 to less than 40 percent in 2012. 
Americans and Canadians have worked together on energy exploration and 
production, energy efficiency, new energy technologies, emissions 
standards, and environmental management for decades. Both countries 
benefit from a reliable and robust bilateral trade in energy resources 
that flow in both directions, north and south, across our border.
    Helping create jobs for Americans is a priority for the Department 
as demonstrated by its worldwide advocacy on behalf of American 
businesses abroad.

    Question. The Obama administration continually claims one of its 
signature foreign policy achievements is the ``reset'' in relations 
with Russia. You have said in the past the reset is ``paying off.'' 
Russia has vetoed U.N. Security Council resolutions pertaining to the 
slaughter in Syria, has armed the Assad regime there, serves as the 
protector at the United Nations for Iran's illicit nuclear program, 
held a parliamentary election in 2011 your own Secretary of State 
assessed to be ``neither free nor fair,'' and terminated all USAID 
programs in Russia. Just last week the Washington Post in a news 
article called the Russia reset a ``failure'' in its opening sentence.

  <diamond> What exactly was reset with Russia?
  <diamond> Is the reset still paying off?

    Answer. The United States current policy toward Russia grew from 
the recognition that the state of the U.S.-Russia relationship as the 
President took office did not serve the United States foreign policy 
interests. The administration's policy is premised on the recognition 
that we should cooperate with Russia in those areas that advance our 
mutual interests, engage Russia in a frank discussion of our policy 
differences, and firmly stand by our principles, our partners, and our 
allies. As the past 4 years have shown, this policy has produced 
significant results, including the New START Treaty to reduce strategic 
nuclear weapons, military transit arrangements to support our efforts 
in Afghanistan, the toughest multilateral sanctions to date on Iran and 
North Korea, and Russia's WTO market access commitments that will 
benefit U.S. exporters and grow American jobs. We have also created a 
bilateral commission--encompassing a wide range of cooperation in areas 
as diverse as energy efficiency, environmental protection, and defense 
and military cooperation--which continues to deliver results that 
benefit both our countries.
    At this moment, the United States is clearly going through a more 
difficult phase in our relations with Moscow. We have real and 
continuing differences with the Russian Government, and not just on 
human rights and the state of democracy in Russia but on how to address 
the crisis in Syria, and other issues.
    If confirmed, I will continue to work with Russia in areas where 
our interests overlap because it is in America's long-term strategic 
interest to do so. I will also continue to raise U.S. concerns with 
human rights and democracy, and discuss how to bridge our differences 
on issues of strategic importance to the United States.

    Question. The administration is negotiating a Bilateral Security 
Agreement with Afghanistan. In 2007, you introduced a bill, along with 
Senators Obama and Clinton, expressing the sense of the Senate that any 
bilateral agreement between the United States and Iraq ``involving 
`commitments or risks affecting the nation as a whole' '' would not 
have the force of law if it did not receive Senate consent via the 
treaty process or was not authorized by legislation (presumably as a 
Congressional-Executive Agreement).

  <diamond> Will you insist that any Bilateral Security Agreement with 
        Afghanistan be submitted to the Congress for its approval in 
        some form?

    Answer. As President Obama and President Karzai affirmed in 
January, the Bilateral Security Agreement (BSA) is in both countries' 
interests. The BSA negotiations are a joint effort to define the 
mutually agreed ``ground rules'' for a possible U.S. military presence 
in Afghanistan after 2014, in the limited roles of training, advising, 
assisting and equipping security forces, and supporting 
counterterrorism efforts.
    The BSA is expected to include provisions similar to provisions 
included in status of forces agreements that the United States 
negotiates with countries around the world. These include the terms for 
U.S. Forces' access and use of facilities, as well as the full legal 
protections they require, and which President Obama clearly described 
following his January meeting with President Karzai. The BSA may also 
address broader aspects of continuing defense cooperation between the 
United States and Afghanistan.
    If confirmed, I will ensure that Congress continues to be kept 
fully informed of our progress. As you know, the BSA remains under 
negotiation and it is thus premature to make a final determination on 
the form of the agreement. Such a determination will be guided by 
established law and practice.

    Question. In your capacity as chairman of the Senate Foreign 
Relations Committee, at a hearing in March 2011 on what initiatives the 
United States should take with North Korea, you said we should ``launch 
bilateral talks with North Korea.'' You counseled the same a few months 
later, saying we should ``engage North Korea directly.''
    President Obama did just that, completing on February 29, 2012, an 
agreement ``to implement a moratorium on long-range missile launches'' 
in exchange for 240,000 metric tons of food aid. The ink was barely dry 
on this agreement when North Korea announced it would conduct a long-
range missile test, which it did on April 13, 2012.
    Over the past 20 years, North Korea has made frequent promises to 
halt long-range missile launches and nuclear activities. It has broken 
those promises every time. This Obama administration effort at engaging 
North Korea was similar to a Bush administration effort in 2008, which 
resulted in an agreement that North Korea promptly violated. During the 
Obama administration, North Korea has conducted at least one nuclear 
test, several long-range missile tests, and murdered 46 South Korean 
sailors by sinking the South Korean ship Cheonan in May 2010.
    When the Bush administration completed its agreement, Senator Obama 
was clear at the time what the consequences should be if North Korea 
did not live up to its agreement. He said, ``If the North Koreans do 
not meet their obligations, we should move quickly to reimpose 
sanctions that have been waived, and consider new restrictions going 
forward.'' He later added, ``[W]e should lead all members of the six-
party talks in suspending energy assistance, reimposing sanctions that 
have recently been waived, and considering new restrictions.''
    It is clear that North Korea completes agreements with no intention 
of implementing them.

  <diamond> Do you believe the United States should still engage 
        directly with North Korea?

    Answer. The United States should remain committed to authentic and 
credible negotiations to implement the September 19, 2005, joint 
statement and bring North Korea into compliance with applicable 
Security Council resolutions through irreversible steps leading to 
denuclearization. However, North Korea must live up to its commitments, 
adhere to its international obligations, deal peacefully with its 
neighbors, and refrain from provocations. As President Obama stated in 
his speech last November in Rangoon, the United States is willing to 
extend its hand should the leadership in Pyongyang choose the path of 
peace and progress and let go of its nuclear weapons.

    Question. If you are confirmed, will you work with President Obama 
to implement his previous position that tougher sanctions should be 
imposed on North Korea for its continued violation of all its 
nonproliferation agreements?

    Answer. If confirmed, I would continue to call on North Korea to 
completely and verifiably denuclearize, cease its pursuit of nuclear 
weapons and related proliferation, and choose the path toward peace and 
prosperity for its country and its people. North Korea would certainly 
face additional consequences from the international community if it 
continued to recklessly disregard its international obligations and 
commitments and to threaten the security of the region.

    Question. What consequences have there been, if any, for North 
Korea's long-range missile test last month?

    Answer. In response to North Korea's December 12, 2012, launch, the 
U.N. Security Council on January 22 unanimously adopted Resolution 
2087, which tightened sanctions on North Korea to impede the growth of 
its nuclear, other WMD, and ballistic missile programs. This 
resolution, which follows public statements by more than 60 countries 
condemning the launch, demonstrates North Korea's growing isolation and 
sends a clear, united signal that provocations such as its December 
2012 launch will have consequences.
    To implement UNSCR 2087 and to impede the DPRK's illicit WMD and 
ballistic missile programs, the Departments of State and the Treasury 
on January 24, 2013, designated several entities and individuals 
directly tied to North Korea's proliferation activities. The Department 
of State designated one entity and two individuals pursuant to 
Executive Order 13382, which targets proliferators of weapons of mass 
destruction (WMD) and their supporters.

    Question. Secretary Panetta has taken the position that arms 
reductions would take place in the Obama administration only as a 
result of an arms control treaty process. He said, ``reductions that 
have been made, at least in this administration, have only been made as 
part of the START process and not outside of that process; and I would 
expect that that would be the same in the future.'' This makes sense, 
as nuclear reductions are almost always completed by treaty. As the 
Congressional Research Service has observed, ``[a]rms control treaties 
are the only category of agreement in the political-military field that 
have been concluded primarily in treaty form.''

  <diamond> Do you commit to support and implement nuclear reductions 
        only under the treatymaking power of the President articulated 
        in Article Two, Section Two, Clause Two of the Constitution, 
        requiring consent of two-thirds of the Senate?

    Answer. Having served proudly in the U.S. Senate since 1985, I have 
the utmost respect for the Senate's role in the treaty process. I am 
mindful of the language in the Arms Control and Disarmament Act, and 
similar language in other legislation. As always, the administration 
will follow the Constitution and the laws of the United States.
    If confirmed, I would see to it that the Department of State will 
continue its consultations with the Congress on arms control-related 
issues.

    Question. Russia is essentially a serial violator of arms control 
treaties. When President Obama completed New START there were a number 
of issues outstanding on the original START. The State Department is 
unable to verify Russian compliance with the Biological Weapons 
Convention or the Chemical Weapons Convention, while it affirmatively 
finds Russian noncompliance with the Conventional Forces in Europe 
Treaty and the Treaty on the Open Skies.
    In his April 2009 speech in Prague promising to rid the world of 
nuclear weapons, President Obama proclaimed ``rules must be binding. 
Violations must be punished. Words must mean something.'' In 1985, 
Congressmen Les Aspin, Harry Reid, and others wrote to Soviet General 
Secretary Gorbachev to assert that if compliance issues are not 
``resolved in a satisfactory manner, it will have serious consequences 
for the future of the arms control process.''
    Indeed, it is self-evident that parties must adhere to the 
commitments they have made for arms control to have any meaning and 
credibility. When Russia violates arms control agreements while the 
United States adheres to them, Russia gains a military advantage that 
puts U.S. national security at risk. For example, the former commander 
of U.S. Strategic Command, General Chilton, predicated his support for 
U.S. nuclear levels and New START on the assumption ``that the Russians 
in the post-negotiation time period would be compliant with the 
treaty.''

  <diamond> Do you agree with the position that for the arms control 
        process to have any meaning, parties must adhere to the treaty 
        commitments they have made?

    Answer. As President Obama said in his 2009 Prague speech, ``Rules 
must be binding. Violations must be punished. Words must mean 
something.'' Verification, the process by which we gather and analyze 
information to make a judgment about parties' compliance or 
noncompliance with an agreement, is an integral part of arms control. 
The administration, as well as previous administrations, evaluates 
effective verification of arms control agreements based on our ability 
to detect militarily significant violations before they become a threat 
to our national security. Treaty compliance is essential for creating 
the stability and predictability that aids international security 
efforts.

  <diamond> Do you agree with the position of Les Aspin and Harry Reid 
        that noncompliance should have consequences for future arms 
        control negotiations?

    Answer. Verifiable noncompliance with treaty obligations is a very 
serious issue. I believe it is important to look at the current arms 
control regimes holistically when considering future negotiations.

  <diamond> Do you agree with the position of President Obama that 
        violations of arms control obligations must be punished?

    Answer. Verifiable noncompliance with treaty obligations is a very 
serious issue and I believe that consequences related to noncompliance 
should be appropriate to the specific circumstances.

  <diamond> If we have evidence of a major arms control violation, 
        shouldn't we resolve that issue prior to negotiating future 
        arms control treaties?

    Answer. Consequences of noncompliance with treaty obligations 
should be appropriate to the specific circumstances. When dealing with 
specific issues of possible noncompliance, decisions can be made about 
whether those issues do or should affect future agreements. Given the 
large number of pressing international security issues on the agenda, 
it is important to be able to work on many issues at once. If 
confirmed, I personally look forward to tackling these many issues with 
the help of the Senate.

  <diamond> Is Russia currently in compliance with its arms control, 
        nonproliferation, and disarmament agreements and commitments?

    Answer. For issues relating to Russian compliance, I refer you to 
the Annual Compliance Report produced by the Department of State. Both 
the unclassified and classified versions of that report provide a view 
of issues regarding compliance with all our treaty partners, including 
Russia.

    Question. The 2009 Enhanced Partnership with Pakistan Act, also 
known as Kerry-Lugar-Berman bill, authorized the President to provide 
$1.5 billion in economic (nonmilitary) assistance to Pakistan each year 
for 5 years. The United States also provides significant military 
(security) assistance to Pakistan. Among the act's stated purposes of 
assistance was to help prevent Pakistani territory from being used as a 
base for terrorist attacks and to work with Pakistan to coordinate 
action against extremist and terrorist targets.
    In order for the United States to be able to provide certain 
security assistance to Pakistan, the President has to certify under the 
act, among other things, that Pakistan is committed to combating 
terrorist groups, ceasing the support of its intelligence agency to 
terrorist groups, and preventing terrorist groups from carrying out 
cross-border attacks into neighboring countries. In his final 
appearance before the Senate Armed Services Committee, outgoing 
Chairman of the Joint Chiefs of Staff, Admiral Mullen essentially 
charged Pakistan with giving aid and comfort to U.S. enemies, namely 
the Quetta Shura (leadership of the Afghan Taliban) and the Haqqani 
Network. It was in that statement that he charged the Haqqani Network 
is an ``arm'' of the Pakistani intelligence service, long enjoying 
``the support and protection'' of the Pakistani Government. The Haqqani 
Network is responsible for, among others, attacks on the U.S. Embassy 
in Kabul and an attack on the InterContinental Hotel. And of course 
Osama bin Laden was found in Pakistan.

  <diamond> Has the U.S. relationship with Pakistan improved under the 
        Kerry-Lugar-Berman bill?

    Answer. The signal sent by the Kerry-Lugar-Berman Act of a 
sustained U.S. commitment to the relationship with Pakistan is an 
important and useful one; Pakistan's long-term trajectory and 
cooperation is important to our national security interests and those 
of the region. As you know, our relationship with Pakistan has been 
very difficult over the last 2 years, based on events unrelated to our 
assistance. Following the reopening of the supply lines to Afghanistan 
through Pakistan in July 2012, we have worked to put the relationship 
on firmer, more positive footing based on the belief that we ought to 
be able to identify shared interests and act on them jointly.
    Continued implementation of the principles expressed in the Kerry-
Lugar-Berman Act (KLB) is one way we are building a constructive 
relationship with Pakistan based on joint actions to achieve progress 
on our shared interests, which include a secure, stable, and prosperous 
region. Civilian and security assistance are important parts of our 
policy of engagement.
    Through our civilian assistance we are making measurable progress 
with Pakistan in the sectors most important to Pakistan's stability: 
energy, economic growth, stabilization of the border areas, education, 
and health. For example, energy remains a key priority due to critical 
shortages that undermine Pakistan's economic and political stability; 
since October 2009 U.S. assistance has added 500 MW to Pakistan's 
electricity grid, benefiting over 6.8 million people. U.S. funded-
projects will add over 900 MW, or almost half the installed capacity of 
the Hoover Dam, by end of 2013. Our stabilization initiatives aim to 
make communities in conflict and post-conflict border regions 
inhospitable to insurgents and extend the writ of the government, 
supporting our goal of national and regional security. USAID and the 
State Department have funded the construction of over 750 km of roads 
in these extremism-prone border regions, increasing commercial activity 
and stability.
    In this same vein, our security assistance programs focus on 
strengthening Pakistan's capabilities in counterterrorism and 
counterinsurgency, and on promoting closer security ties with the 
United States. We continue to engage Pakistan on the need for progress 
on these fronts, including engagement on nuclear nonproliferation, 
sustained commitment and efforts on countering terrorism, and reducing 
security force intervention in civilian governance. While cooperation 
is not at the level we would like, we have seen positive steps in each 
of these areas, particularly in counterterrorism, and Pakistan 
continues military operations against terrorist threats. There is no 
denying that safe havens on both sides of the border continue to pose a 
serious threat to Afghans, Pakistanis, and Americans alike. It is in 
our mutual interest to work together to tackle these challenges, as 
well as the problem of the proliferation of improvised explosive 
devices and the regional threat arising from Laskhar-e-Taiba (LeT) and 
other Pakistan-based terrorist groups. With over 30,000 people killed 
since 2001, no country has suffered more from terrorism than Pakistan. 
It is in Pakistan's clear interest to address terrorism and we will 
continue to work with Pakistan to eliminate the threats in the border 
areas and the region, to make both of our nations more secure.
    These are core U.S. objectives and we must maintain a constructive 
relationship to ensure sustained progress. If confirmed, I will apply 
the resources available to me to continue deepening our cooperation on 
our shared interests.

    Question. Last year, the U.S. Department of State and U.S. 
Department of Defense initiated a process to remove a war memorial in 
Wyoming. It honors the lives of 48 soldiers who were massacred in their 
sleep by insurgents in the Philippines on September 28, 1901. The 
Department of State and Department of Defense intentionally withheld 
information about the commencement of its removal from Congress.

  <diamond> Do you support deconstructing our war memorials, which 
        honor our fallen soldiers, and moving them to foreign 
        countries?
  <diamond> What is your position on providing Congress with 
        information and notice about these types of actions?

    Answer. As a veteran myself, I believe it is a sacred duty for us 
to honor those who made the ultimate sacrifice on behalf of our 
country. I do not support transferring any war memorials to a foreign 
country without informing Congress and veterans and taking their views 
into account.

    Question. What are your views on the need for management reform at 
the United Nations?

    Answer. A strong and effective United Nations is critical to 
advancing America's national security interests, promoting our values, 
and buttressing the global economy. At its best, the U.N. can help 
prevent conflict, keep the peace, combat weapons proliferation, isolate 
terrorists and criminals, care for the neediest of the world, smooth 
the channels of global commerce, and promote universal values that 
Americans hold dear.
    Over the past 4 years, the Obama administration has demonstrated 
that the best way to achieve a strong and effective U.N. system is 
through robust U.S. engagement. As President Obama has said, the U.N. 
is both ``indispensable'' and ``imperfect''--so with our robust 
engagement comes the obligation to push for a more effective and 
efficient U.N.
    The administration continues to be committed and to lead efforts to 
achieve a reformed and renewed U.N. that saves lives, keeps the peace, 
seeds development, finds common solutions to the urgent problems of a 
new century, operates effectively--and lives within its means. The 
administration has fought hard for critical reforms, because business 
as usual is not acceptable. To live up to its founding principles, the 
U.N. must protect its reputation from actions that discredit the 
organization. In an era of financial crises and austerity, the U.N. 
must learn to do more with less. Finally, we will push for the U.N. to 
make wider and better use of public and private sector ``best 
practices.''

    Question. How will you work to address barriers to advance U.N. 
management reforms, especially those caused by the different priorities 
among Member States?

    Answer. Implementing reforms requires the United States to work 
with other Member States to build consensus, which is often a time 
consuming process that is slower than we might like. The U.N.'s other 
major financial contributors typically have similar views on reform 
priorities, and the United States works closely with these like-minded 
states. However, the Group of 77 (G77), which includes 132 self-
described ``developing'' states, represents the largest voting bloc in 
the General Assembly, and our views on U.N. reform priorities often 
differ with the G77s. By virtue of size, the G77 wields considerable 
influence during negotiations and has at times taken action to impede 
progress on reform.
    If confirmed, I would work with our Permanent Representative to the 
United Nations in New York, Ambassador Susan Rice, to continue our 
efforts to engage developing states--both in New York and bilaterally 
in capitals--to identify ways to engage the G77 constructively, and 
minimize opportunities for negative impacts on U.S. foreign policy 
objectives at the United Nations.

    Question. How will you measure and assess the progress made in 
advancing or implementing management reforms at the U.N.?

    Answer. In 2011, the administration successfully launched Phase II 
of the U.S.-sponsored United Nations Transparency and Accountability 
Initiative (UNTAI) to verify that concrete improvements in management 
and accountability are being made at 24 U.N. organizations. The 
previous administration launched Phase I to promote reforms adopted by 
the U.N. Secretariat throughout the rest of the U.N. system. Phase II 
deepens U.S. efforts to advance systemwide reforms and includes the 
U.N. Secretariat as well as other U.N. organizations.
    The State Department assesses progress annually. The results are 
used to determine weaknesses and set reform priorities for oversight 
and accountability, ethics and integrity, and financial management and 
good governance.
    In addition to this systemwide effort, Ambassador Rice and her team 
are advancing a robust agenda of reforms specific to the United Nations 
in New York. They continually seek opportunities to advance a robust 
reform agenda and monitor progress. If confirmed, I will work with 
Ambassador Rice to build on her efforts and push for continued U.N. 
reforms, including looking at possible improvements to the way that 
progress is being tracked and reported by the U.N.

    Question. What policies need to be implemented to maintain fiscal 
accountability within the U.N.?

    Answer. The United States is working with other U.N. Member States 
to limit growth in the U.N. regular budget and ensure that the U.N. 
Secretariat makes more efficient use of its existing resources. In 
December, the U.N. General Assembly agreed to a 2014-2015 budget 
planning level that is $100 million less than the amount that the 
Secretary-General requested and currently reflects no budget growth 
over three consecutive biennium budgets (2010 through 2015). This is 
resulting in a U.N.-wide effort to reduce costs and make better use of 
existing resources.
    In March, Member States will resume consideration of the U.N.'s 
accountability system. In this context, Member States are pressing the 
U.N. Secretariat to do a better job of producing and reporting on 
results, implementing recommendations of oversight bodies such as the 
U.N.'s Board of Auditors and the Office of Internal Oversight Services, 
implementing measures to prevent potential conflicts of interest, and 
making better use of monitoring and evaluation tools to determine 
whether resources are being put to their best use.
    The administration also pushed hard for public disclosure of 
internal audit reports to increase transparency and accountability 
throughout the U.N. system. Member States and the general public should 
be able to see to what extent programs are delivering results and 
whether resources are being adequately safeguarded against waste and 
abuse. The United States turned a corner last year with the adoption of 
the public disclosure decisions at the World Food Programme and the NY-
based funds and programs. Ambassador Rice and her team continue to 
press vigorously for a similar decision by the U.N. General Assembly. 
If confirmed, I would work with Ambassador Rice to achieve the same 
standard of transparency for the U.N. itself.

    Question. In November, the Palestinians took action to circumvent 
the peace process and seek a change in status at the United Nations.

  <diamond> (a) Do you believe this action promotes the peace process 
        and serves the needs of the Palestinian people?

    Answer (a). The administration firmly opposed the Palestinians' 
initiative to gain nonmember observer state recognition in the United 
Nations General Assembly (UNGA). The administration's entire senior 
foreign policy team, working in close coordination with Israeli 
counterparts, engaged with international partners at multiple levels to 
galvanize support for an alternative path that would have averted a 
vote and brought Palestinians and Israelis back to direct negotiations. 
This effort built on the administration's success since 2011 in 
blocking Palestinian attempts to seek full U.N. membership, which would 
have required a favorable recommendation from the U.N. Security 
Council. The administration consistently made clear that such action 
did not serve the interests of peace and would only serve to push the 
parties further apart, rather than provide concrete benefits to the 
Palestinian people, build trust between the parties, and advance peace 
efforts. Despite the administration's efforts to dissuade him and 
encourage a return to direct negotiations, Palestinian Authority (PA) 
President Mahmoud Abbas would not waver from his publicly stated 
position that he would approach the General Assembly.

  <diamond> (b) How would you oppose these types of efforts and 
        encourage a return to talks?

    Answer (b). Since the November 29 vote, the administration has 
sought, in coordination with Israeli officials, to persuade the 
Palestinian leadership to refrain from further action that could deepen 
the sense of crisis, further damage U.S. interests in the U.N. and 
other bodies as well as our relationship with the Palestinians, and set 
back prospects for direct negotiations. If confirmed as Secretary of 
State, I will continue the administration's policy of opposing firmly 
any and all unilateral actions in international bodies or treaties that 
circumvent or prejudge the very outcomes that can only be negotiated, 
including Palestinian statehood. In addition, the United States will 
continue to stand up to every effort that seeks to delegitimize Israel 
or undermine its security. The administration's commitment to resuming 
direct negotiations and achieving a negotiated Israeli-Palestinian 
peace agreement based on a two-state solution remains unchanged. As I 
stated during my confirmation hearing, I strongly believe that we must 
try to find a way forward in resuming negotiations, without which the 
possibility of a two-state solution could recede, an outcome that would 
be disastrous for all involved, including for the United States. 
Israel's elections and upcoming period of government formation, coupled 
with ongoing efforts to sustain and deepen the cease-fire in Gaza, 
provide an opportunity for both the Israelis and Palestinians to step 
back and consider how they can create a context in the coming months 
that is conducive to resuming direct talks. As Secretary, I intend to 
continue working intensively with the parties to resolve issues between 
them, lay the ground for future direct talks, and, simultaneously, 
bolster Palestinian Authority efforts to maintain and strengthen robust 
institutions and a viable economy--essential to a future Palestinian 
state that will be a responsible neighbor and contribute to regional 
peace, security, and stability.

  <diamond> (c) In your view, what consequences should the Palestinians 
        face if they attempt to gain membership in United Nations 
        agencies or seek to bring charges against Israelis at the 
        International Criminal Court?

    Answer (c). Since the November 29 vote, the administration has 
sought, in coordination with Israeli officials, to persuade the 
Palestinian leadership to refrain from further action that could deepen 
the sense of crisis, further damage U.S. interests in the U.N. and 
other bodies as well as our relationship with the Palestinians, and set 
back prospects for direct negotiations. If confirmed as Secretary of 
State, I will continue the administration's policy of opposing firmly 
any and all unilateral actions in international bodies or treaties that 
circumvent or prejudge the very outcomes that can only be negotiated, 
including Palestinian statehood. In addition, the United States will 
continue to stand up to every effort that seeks to delegitimize Israel 
or undermine its security.

    Question. International Religious Freedom: To what extent does 
international religious freedom factor in to your priorities as 
Secretary of State?
  <diamond> What do you believe is the U.S. Government's role in 
        advocating on behalf of minority religious communities in the 
        particularly vulnerable areas of Pakistan, Iran, Egypt, Iraq, 
        and Afghanistan?
  <diamond> Are you supportive of a Special Envoy on Religious Freedom 
        that would focus specifically on these areas in coordination 
        with the Ambassador at Large for International Religious 
        Freedom?

    Answer. I am committed to promoting religious freedom and 
tolerance, which must remain central in our bilateral diplomacy. For 
example, I have raised the importance of religious tolerance and 
diversity with President Morsi of Egypt and, if confirmed, will 
continue to urge him to respect the universal rights of Egyptians of 
all faiths.
    The administration and I fully share your concerns about religious 
freedom and protecting religious minorities in the Middle East and 
South Central Asia. However, I agree with the administration's view 
that the responsibilities of the proposed special envoy would dilute 
our ability to integrate this issue into our broader foreign policy 
agenda. It would also duplicate and potentially conflict with other 
senior-level engagement, including that of the Ambassador at Large for 
International Religious Freedom.
    The administration has been actively engaged in promoting and 
protecting the rights of members of religious minorities in the Middle 
East and South and Central Asia. The Department has taken the lead in 
coordinating and applying intense international pressure on Iran--
including through statements by President Obama and Secretary Clinton 
and financial sanctions--that has highlighted Iran's religious freedom 
abuses. U.S. officials regularly raise religious freedom concerns in 
Pakistan and Afghanistan with high-level officials in Islamabad, Kabul, 
and Washington. Senior administration officials have addressed the 
pressing need for religious freedom and protection of minorities with 
the Government of Iraq and the Kurdish Regional Government. If 
confirmed, I plan to continue that active engagement.

    Question. On December 28, 2012, Russian President Vladmir Putin 
signed into law a bill ending the intercountry adoptions between the 
United States and Russia. The law prevents U.S. citizens from legally 
adopting Russian children. The Russian law went into effect on January 
1, 2013.
    On January 1, 2013, the United States Senate unanimously passed 
Senate Resolution 628, which voiced disapproval of the Russian law. It 
also urges Russia to reconsider the law and prioritize the processing 
of intercountry adoptions involving parentless Russian children who 
were already matched with United States families before the enactment 
of the law.
    There are numerous families across this Nation who are already in 
the process of adopting children from Russia, including a family in 
Sheridan, WY. According to the Department of State, there are currently 
between 500 and 1,000 U.S. families in various stages of the adoption 
process.

  <diamond> If confirmed, what actions will you take to persuade the 
        Russian Government to allow those families already in the 
        process of adopting children from Russia to be able to complete 
        the adoption process?
  <diamond> Are you committed to urging the Russian Government to allow 
        the completion of all pending adoptions?
  <diamond> Will you continue to ensure that the U.S. Department of 
        State works with impacted U.S. families to provide them with 
        updates and information regarding their individual cases?

    Answer. I deeply regret Russia's passage of Federal law No. 272-FZ 
which bans the adoption of Russian children by U.S. citizens, restricts 
Russian civil society organizations working with U.S. partners, and 
requires termination of the U.S.-Russia Adoption Agreement. While 
Russia has the sovereign right to ban the adoption of its citizens, if 
confirmed, I will continue to underscore that this approach hurts the 
most vulnerable members of Russian society.
    The U.S.-Russia adoptions agreement, which entered into force last 
year, was negotiated under a shared understanding that while all 
efforts should be made to place children with families in their country 
of birth, when this is not possible, properly safeguarded intercountry 
adoption should be another valid path to finding children permanent 
homes. If confirmed, I will endeavor to remind Russian officials at the 
highest levels of this principle and urge them to reconsider this law.
    I am also committed to urging the Russian Government, on 
humanitarian grounds and in the spirit of our bilateral agreement, 
which remains in force through January 1, 2014, to permit all adoptions 
initiated prior to the law's enactment to move forward.
    If confirmed, I will make it a priority for the State Department to 
work with all U.S. families impacted by this ban and to keep them fully 
informed.
                                 ______
                                 

      Responses of Secretary-Designate John F. Kerry to Questions 
                     Submitted by Senator Rand Paul

    Question. In the recent past, our military has relied heavily on 
technology--aerial bombardment and drones--to engage, rather than 
putting U.S. troops into harm's way. If aerial bombardment and drone 
strikes were used against the United States, we would certainly 
consider it an act of aggression and a declaration of hostility, if not 
war.

  <diamond> Do you agree that drone strikes, aerial bombardment, and 
        the other technical means of war constitute authorization of 
        force? Should these actions be subject to congressional 
        approval?

    Answer. The respective roles of the President and the Congress in 
authorizing particular uses of force by the United States are governed 
by the Constitution and other applicable U.S. law. For example, in the 
context of the ongoing armed conflict with al-Qaeda and its associated 
forces, the United States has taken action in reliance on the 
congressional authorization provided in the Authorization for Use of 
Military Force (AUMF), Public Law 107-40, as well as the President's 
authority as Commander in Chief to protect the Nation from any imminent 
threat of violent attack. In the AUMF, Congress authorized the use of 
all ``necessary and appropriate force against those nations, 
organizations, or persons he determines planned, authorized, committed, 
or aided the terrorist attacks that occurred on September 11, 2001, or 
harbored such organizations or persons, in order to prevent any future 
acts of international terrorism against the United States by such 
nations, organizations, or persons.''

    Question. Right now there is hardly any congressional oversight 
over the use of drones--when we use them, how, where, or why. And yet, 
these drones constitute the bulk of our hostile engagement overseas. I 
would go so far as to say that our aerial capacity is defining our new 
terms of war. Yet, there has been little congressional engagement on 
this issue--what we know about the use of these drones comes from the 
Washington Post and the New York Times.

  <diamond> It would seem appropriate that Congress have an oversight 
        role into the use of drones. Do you agree?

    Answer. I agree that congressional oversight of U.S. operations 
abroad, including the use of remotely piloted aircraft to conduct 
targeted strikes, is critically important. U.S. Government agencies 
responsible for carrying out such operations are regularly engaged on 
these matters with the congressional committees that oversee them, and 
I believe this engagement should continue.

    Question. Senator Kerry, the Kerry-Lugar-Berman Act (The Enhanced 
Partnership with Pakistan Act of 2009), authorizes $7.5 billion in 
nonmilitary aid to Pakistan through 2013.

  <diamond> How would you, as Secretary of State, exert pressure onto 
        Pakistan for giving haven to Taliban-allied insurgents who have 
        killed American troops in Afghanistan?

    Answer. There is no denying that safe havens on both sides of the 
border continue to pose a serious threat to Afghans, Pakistanis, and 
Americans alike. We have long expressed our view that we are especially 
troubled by the safe havens the Taliban, Haqqani Network, and groups 
such as Lashkar-e-Taiba (LeT) have in Pakistan. The United States and 
Pakistan have a strong, shared interest in working together to tackle 
these safe havens from which terrorists threaten both of our countries. 
Pakistan has suffered greatly at the hands of extremists, with more 
than 6,000 military and civilian casualties in the past year. Pakistani 
leaders--civilian and military alike--understand that Pakistan's 
security and economic interests will be best served by a more stable 
region free from violent extremism.
    Pakistan is a key ally in the fight against extremism. Through our 
mutual efforts with Pakistan, we have been able to substantially weaken 
al-Qaeda's leadership and operational capabilities. Pakistan has also 
publicly called on the Taliban to enter into a dialogue with the Afghan 
Government, and supported U.N. sanctions against the Haqqani Network.
    We continue to press Pakistan to take additional actions against a 
range of terrorist groups, no matter whom they target or where they 
strike. This includes LeT, which carried out the horrific attacks in 
Mumbai in 2008 that killed a number of U.S. citizens.
    I support a realistic, clear-eyed dialogue with Pakistan regarding 
all aspects of the relationship and our shared interests, including 
security and counterterrorism cooperation. If confirmed, I will engage 
with Pakistan to expand our cooperation on counterterrorism challenges 
and pursue a stable, peaceful, and prosperous region. In my 
conversations with Pakistani leaders, I will underscore that 
confronting violent extremism is in Pakistan's own interests and in the 
interest of regional stability.

    Question. On top of the billions in annual security assistance we 
give to Pakistan, we recently learned that the Pentagon will give 
Pakistan $700 million in payments for protecting their border with 
Afghanistan. Yet Pakistan continues to promote hatred toward the United 
States, double deals with our enemies to kill American troops, and 
continues to develop nuclear weapons.

  <diamond> What has all this aid money bought us in terms of a 
        relationship and a reliable alliance with Pakistan?

    Answer. In December, the Department of Defense provided a 
reimbursement to Pakistan through the Coalition Support Fund (CSF) for 
its support for Operation Enduring Freedom between July and November 
2011. CSF payments are reimbursements--provided to many other countries 
for their actions to support OEF--and not assistance.
    In addition to CSF reimbursements, we provide assistance to 
Pakistan to advance core U.S. national interests, including advancing 
our goals in Afghanistan that our forces have sacrificed so much to 
achieve. We are constantly evaluating our assistance to Pakistan to 
ensure that it is consistent with our interests. Over the past 2 years, 
we have closely calibrated our security assistance to ensure what we 
provide is commensurate with Pakistan's cooperation on our mutual 
interests. Our military-to-military relationship is now on stronger 
footing and we are moving forward with a security assistance program 
that is more realistic and narrowly focused to pursue joint action on 
areas of mutual interest.
    While there are certainly areas of disagreement between our two 
nations and places where we would like to see further Pakistani action, 
including against terrorist groups operating on Pakistani territory, we 
have seen positive steps and Pakistan continues military operations 
against terrorist threats and maintains close counterterrorism 
cooperation with the United States. It is in our mutual interest to 
work together to tackle these challenges, as well as the problem of the 
proliferation of improvised explosive devices, safe havens, and the 
regional threat arising from Laskhar-e-Taiba (LeT) and other Pakistan-
based terrorist groups. With over 30,000 people killed since 2001, no 
country has suffered more from terrorism than Pakistan. We will 
continue to work with Pakistan to eliminate the threats in the border 
areas and the region, and make both of our nations more secure.
    These are core U.S. objectives, and I believe that sustained 
assistance supports progress and enhances the opportunities for further 
cooperation. If confirmed, I will apply all of the resources available 
to press for continued cooperation on our shared interests.

    Question. Both the French and Malian Governments have asked the 
United States for assistance in combating Muslim extremists. Comments 
made on January 17 by Defense Secretary Leon Panetta suggest that the 
United States is contemplating engagement.

  <diamond> Given what we know right now, do you believe direct 
        assistance in Mali or Algeria is warranted?
  <diamond> What would this assistance entail?
  <diamond> Do you intend to advise the President to seek congressional 
        authorization for this assistance?

    Answer. Before the French military intervention in January to 
counter extremists at Mali's request and the recent French and Malian 
requests for assistance, the United States had begun planning its 
support for the non-Malian troop contributing countries of the African-
led International Support Mission in Mali (AFISMA), which was 
authorized on December 20 by U.S. Security Council Resolution 2085 
(2012). The United States cannot provide direct assistance to the 
Malian Government or military due to the legal and policy restrictions 
in effect as the result of the March 2012 coup d'etat. Pursuant to 
section 7008 of the Department's FY 2012 Appropriations Act, the United 
States has terminated foreign assistance to the Government of Mali and 
has imposed policy restrictions on all other support for Mali with 
limited exceptions for elections support, humanitarian assistance, and 
other life-saving, critical assistance in the areas of food security 
and health. U.S. assistance to the U.N.-authorized mission will be 
provided in a manner consistent with the coup restrictions.
    The United States will provide training, equipment, and logistics 
support for AFISMA troop and Formed Police Unit (FPU) contributing 
countries. The United States may also pay for advisory support to 
assist these countries on planning and/or execution of the operation. 
Equipment may include communications equipment, information technology 
equipment, individual equipment (such as boots, helmets, body armor), 
generators, tents, rolling stock (e.g., vehicles, trailers), heavy 
engineering equipment, field kitchens, field defense stores (e.g., 
HESCO barriers, concertina wire, sandbags), and armored personnel 
carriers (APC). Support for FPUs may include the equipment listed 
above, as well as additional personal protective equipment (e.g., riot-
control shields, arm and leg protectors, and facemasks), handcuffs, and 
nonlethal crowd-control items (e.g., batons). Logistical support will 
support the provision of rations, equipment maintenance items, spare 
parts, strategic lift, medical evacuation flights, medical supplies, 
fuel, and lubricants.
    The United States, along with our international partners, is 
already working to accelerate the deployment of AFISMA given the recent 
events in Mali. The State Department has consulted with congressional 
staff about this activity and will submit congressional notifications 
of our intent to reprogram funds as appropriate.
    The United States is already providing the French with increased 
information sharing, and DOD has transported French troops and 
equipment to Mali. In addition, DOD currently has AFRICOM planners in 
Bamako, Mali, to support AFISMA planning efforts.
    The United States and Algeria have a strong partnership and I will 
continue the work of my predecessor to assist the Algerians in their 
fight against extremists. We support Algeria through Anti-Terrorism 
Assistance training programs, Trans-Saharan Counter-Terrorism 
Partnership efforts, and regular exchanges between military officials. 
Following the first ever Strategic Dialogue and fifth Joint Military 
Dialogue, which both occurred in October, we look forward to continuing 
to build even stronger relationships with the Government of Algeria.

    Question. Senator Kerry, you recently made comments suggesting that 
the United States should arm and train Syrian opposition forces, and 
potentially support the creation and defense of ``safe zones'' for 
Syrian civilians.

  <diamond> Do you still support taking these actions?

    Answer. I am committed to using all available, practical, and 
responsible means that hasten our goal of ending the violence in Syria 
and supporting a political transition in Syria. The U.S. Government 
continues to condemn the regime's use of airpower against peaceful 
civilians, especially its indiscriminate attacks in populated areas and 
apparently deliberate bombing of bakeries, hospitals, and schools. 
These tactics are outrageous, unacceptable, and will be addressed in 
future accountability efforts.
    There are no easy answers, but if confirmed as Secretary I would 
support continuing U.S. Government efforts to aid the opposition, 
address the urgent humanitarian needs, cooperate with international 
partners, and continue to pressure the Assad regime to end this 
senseless violence.

    Question. Is the United States currently arming Syrian rebels, 
either overtly or through back channels? Do you feel it is appropriate 
for the United States to arm Syrian rebels?

    Answer. The United States is not providing lethal assistance to the 
Syrian opposition. We remain committed to providing nonlethal equipment 
and training to unarmed, civilian-led opposition groups and providing 
humanitarian assistance to the Syrian people on the basis of need and 
not political affiliation. If confirmed as Secretary, I would work to 
broaden and accelerate this assistance to support the Syrian people, 
consulting with the Congress on associated resource requirements. I 
would not foreclose any legally available options.
    The United States is coordinating with other international partners 
also supporting the opposition--including those who have made other 
choices than the nonlethal one--to ensure that international assistance 
to the opposition is as effective and efficient as possible. In 
particular, we must be diligent in ensuring aid to the opposition does 
not benefit extremists.
    The United States is focused on facilitating a durable, political 
solution to the Syrian crisis, and to that end, continues to support 
U.N.-Arab League Joint Special Representative Brahimi's efforts promote 
the formation of a transitional governing authority with full executive 
powers as outlined in the Geneva Communique. We continue to believe 
that a political transition in Syria, led by the Syrian people and 
supported by the international community, is the best chance for 
Syria's future and for a stable and democratic transition.

    Question. Do you support air strikes on the Syrian military? Who 
should lead these efforts? Do you feel they require congressional 
approval?

    Answer. The United States has been actively working with 
international partners, bilaterally and through multilateral fora such 
as the Friends of the Syrian People, to further isolate the regime and 
support the Syrian people's calls for Assad to depart from power. We 
are also tightening sanctions and laying the groundwork for 
perpetrators of atrocities against the Syrian people to be held 
accountable. The United States has sent repeated warnings regarding any 
use of chemical weapons and has joined NATO in defending its ally, 
Turkey, by providing it with Patriot missile batteries.
    The U.S. stance that Assad must go and that a political transition 
must take place as soon as possible is crystal clear. If confirmed as 
Secretary, I would examine all available and feasible options to 
advance our goal of ending the violence and supporting a political 
transition, in close consultation with Congress. This is not to second-
guess current activities, which have seen considerable success in an 
exceptionally challenging environment, but to ensure that we are doing 
all we should as this conflict enters its 22nd month.

    Question. In Syria, President Assad is Shia, and the rebels are 
Sunni. This is a similar demographic breakdown as in neighboring 
Turkey, Lebanon, and Iran. Should we decide to get involved in Syria, 
what is the chance that we get pulled into a broader regional conflict? 
Would you support a U.S. role in this conflict?

    Answer. We continue to believe that a political transition in 
Syria, led by the Syrian people and supported by the international 
community, is the best chance for Syria's future, the stability of the 
region, and the peaceful coexistence of people from all religious 
traditions. We are supporting the Syrian Opposition Coalition as it 
builds capacity and sets a course toward the peaceful, democratic, 
inclusive future that the people of Syria deserve. However, as I have 
said, if I am confirmed I am committed to using all available, 
practical, and responsible means to end the suffering of the Syrian 
people. Any judgments we make must pass the test of making the 
situation better for the Syrian people and must also take into account 
the long-term human, financial, and political costs for us, Syria, and 
the region.

    Question. Are you aware of any U.S. Government involvement in 
selling or transferring arms to Turkey, other countries, or entities?

    Answer. We have a robust defense trade relationship with our 
steadfast NATO ally Turkey, as well as other partner nations and 
entities around the world. The statutory role of the Secretary of State 
is set out in section 622 of the Foreign Assistance Act of 1961, as 
amended (FAA), and in section 2 of the Arms Export Control Act, as 
amended (AECA). Under the authority of the President, the Secretary of 
State is responsible for the continuous supervision and general 
direction of economic and military assistance, as well as ensuring such 
programs are effectively integrated both at home and abroad, and that, 
in doing so, the foreign policy of the United States is best served.
    Transfers of defense articles and defense services to Turkey and 
any other partner are conducted in accordance with the AECA and FAA, 
including applicable notification to Congress as required.

    Question. In response to Israel ejecting Palestinians from a 
settlement in the West Bank, President Obama is said to have remarked, 
``Israel doesn't know what its own best interests are.'' Senator Kerry, 
do you agree with the President?

    Answer. The statement by the President is unsubstantiated and comes 
from an article in Bloomberg News.
    No leader has met more often with or spent more time on the phone 
with President Obama than Prime Minister Netanyahu. That relationship 
is strong and it is a relationship that allows for a free and open 
discussion of ideas and positions. And that is good for United States-
Israeli relations.
    I think that the underlying foundation of the relationship is very 
important to understanding the approach that this administration takes 
and the approach that prior administrations have taken. The U.S. 
commitment to Israel's security is unshakeable, and the administration 
has demonstrated that commitment in the unprecedented actions that it 
has taken. The administration is also committed to the peace process 
and the pursuit of peace. These commitments will not change during my 
tenure as Secretary of State, if I am confirmed.

    Question. What concrete recommendations would you offer the 
President to bring about national reconciliation in Afghanistan after 
the American combat role ends in 2014? After all, if the Taliban tries 
to step into the vacuum created by our departure, it could plunge 
Afghanistan back into civil war. In which case, what justification 
exists for having more Americans killed or wounded if what they have 
fought for comes to naught?

    Answer. The United States remains firmly committed to supporting an 
Afghan-led peace process as the surest way to end violence and ensure 
lasting stability of Afghanistan and the region. The U.S. role is to 
help open the door for talks between Afghans about the future of 
Afghanistan. On January 11, Presidents Obama and Karzai agreed to 
support the opening of a Taliban Political Office in Doha for the 
purpose of negotiations between the High Peace Council and the 
authorized representatives of the Taliban, and urged the Qataris to 
facilitate this effort. The Qatari Government has publicly affirmed its 
support for the opening of the office. We hope the Taliban will join a 
political process, including by taking those steps necessary to open 
the office.
    We have made clear that any peace process must respect the historic 
achievements that Afghanistan has made over the past decade. As a part 
of the outcome of any political settlement, the Taliban and other armed 
opposition groups must end violence, break ties with al-Qaeda, and 
accept Afghanistan's Constitution--including provisions that protect 
the rights of all citizens, including women and minorities. If this 
happens, we believe the Taliban can be a part of Afghanistan's future.
    Reconciliation will also require constructive support from across 
the region, including Pakistan, and we welcome recent steps that have 
been taken in that regard. A stable and secure Afghanistan is in the 
interest not only of the Afghan people and the United States, but of 
the entire region.
    The Afghan Peace and Reintegration Program (APRP) is another 
program that offers an opportunity for the Taliban to reintegrate into 
Afghan society. To date, more than 6,000 former Taliban have 
reintegrated through this program.

    Question. Senator Kerry, during the conflict in Vietnam, you asked 
the Senate Foreign Relations Committee, ``How do you ask a man to be 
the last man to die for a mistake?'' The mistake made in Vietnam--as in 
Afghanistan--was the erroneous assumption that such countries 
constituted a vital U.S. national security interest. You have said in 
the past that ``we still have vital national security interests in this 
region.''

  <diamond> Precisely what vital interests are being served by keeping 
        U.S. soldiers in Afghanistan past 2014? Indeed, some U.S. 
        military officers describe the Karzai regime's assembly of 
        criminal networks as ``VICE''--Vertically Integrated Criminal 
        Enterprise. Is that a regime worth fighting for?

    Answer. Our core objective in Afghanistan is to ensure that al-
Qaeda can never again use Afghanistan to launch attacks against our 
country like they did on September 11, 2001. As the President said, any 
American military presence after 2014 would be at the invitation of the 
Afghan Government, and we have been clear that any U.S. military 
presence would be focused on two missions--targeting the remnants of 
al-Qaeda and training and equipping Afghan National Security Forces to 
fight insurgents. The President, in consultation with his national 
security team and commanders on the ground, will determine the size and 
scope of our military and civilian presence as we continue our 
responsible drawdown and transition to Afghan lead through 2014. Of all 
the men and women in uniform in Afghanistan, the vast majority are 
Afghans who are fighting and dying for their country every day.
    We will make decisions based on our national interests, the mission 
the President has given our troops, the arrangements that can be worked 
out with the Afghan Government to facilitate our presence, our 
consultations with our NATO partners, and the conditions on the ground.
    President Karzai made a strong public commitment at the Tokyo 
conference in July to tackle corruption, implement key reforms, and 
build Afghanistan's institutions. Implementation of these reforms will 
be critical to Afghanistan's long-term success, and we have made it 
clear to our Afghan partners that future assistance from the United 
States depends on progress toward Tokyo commitments. We are working 
hard with our Afghan partners to address corruption by promoting 
transparency and good governance while working to prevent fraud, waste, 
and abuse. And we will continue to support the Afghan ministries, 
governors, and local leaders committed to combating corruption and 
delivering services to their people.

    Question. In July 2012, the State Department's Office of Inspector 
General 
released a report that found serious waste and incompetence in the 
Department's Office of Global Change. In addition to adopting the IG's 
proposals, how do you intend to address clear inefficiencies and poor 
management in this office?

    Answer. My understanding is that the Department's Office of Global 
Change accepted all of the recommendations of the inspector general and 
that no waste, fraud, or abuse was uncovered in the routine audit of 
the Department's climate change programs. These programs are a critical 
component of U.S. foreign policy and, if confirmed, I intend to be 
committed to their continued strong, effective, and accountable 
oversight.

    Question. Do you view a domestic carbon tax as critical to 
combating climate change abroad?

    Answer. To my knowledge, the administration is not considering any 
form of carbon tax. I believe there are many potential tools to address 
climate change. For example, over the past few years the United States 
has pursued far-reaching efficiency standards for the transport sector, 
which constitutes roughly one-third of U.S. greenhouse gas emissions. 
These efficiency standards will lead to a doubling of vehicle and 
light-truck fuel efficiency between now and the early 2020s. The 
administration has also put in place emissions standards for new power 
plants. In addition, there is a whole set of energy efficiency 
requirements with respect to appliances in buildings, which represent 
roughly another third of our emissions. Increased deployment of 
renewable energy sources and breakthroughs in alternative and clean 
energy technologies will also play an important role in addressing 
climate change while simultaneously creating new jobs and economic 
opportunities.

    Question. How much influence should the resolutions made at U.N. 
climate change conferences have on U.S. strategies toward climate 
change?

    Answer. U.S. strategies on climate change are based on what best 
advances U.S. security, economic, and environmental interests. The 
United States engages through the U.N. Framework Convention on Climate 
Change (UNFCCC) and other international bodies to help achieve the kind 
of global approach necessary to solving our shared climate problem. For 
example, by engaging in the UNFCCC negotiations, the United States has 
successfully oriented the climate negotiations in a way that demands 
participation from all countries, so that no one, including the major 
developing economies, gets a free pass.

    Question. Do you feel that the continued role of the United States 
in U.N. climate discussions represents a strategic imperative of the 
State Department?

    Answer. Climate change is one of the most important issues the 
world faces in this coming century, with profound economic and security 
implications. If confirmed, I plan to continue our leadership in this 
area, including through active U.S. efforts in the UNFCCC discussions, 
to help advance U.S. objectives and interests by promoting an effective 
global approach to climate change.

    Question. Senator Kerry, your strong support for U.S. accession to 
the United Nations Convention on the Law of the Sea is well known and I 
expect that you will continue to press for U.S. membership in the 
Convention if you are confirmed as Secretary of State. I have grave 
concerns regarding U.S. accession and I submit to you the following 
questions:
             in regard to navigational rights and freedoms
Question:
  <diamond> (1) What would the United States gain by acceding to the 
        Convention in regard to its navigational rights and freedoms? 
        In other words, is there any navigational right or freedom that 
        the United States does not currently enjoy that it would gain 
        by joining the Convention?

    Answer (1). The United States needs to become a Party to the Law of 
the Sea Convention in order to fully protect our navigational rights 
and freedoms. By becoming a Party, the United States would ``lock in'' 
the Convention's favorable set of navigational rules as treaty rights.
    While we have been relatively successful to date in relying on 
customary international law to protect our interests, it would be risky 
to assume that we can preserve forever the situation the United States 
currently relies on. Customary international law changes with the 
practice of States over time and is ultimately something we cannot 
control. It does not offer the future stability that comes with being a 
Party to the Convention. Furthermore, navigational and other rules we 
depend upon in the Convention are being interpreted, applied, and 
developed without full U.S. participation. Only as a Party can we exert 
the level of influence that reflects our status as the world's foremost 
maritime power.
    The law enshrined by the Convention is highly favorable to the 
United States and we need to lock it in.

Questions:
  <diamond> (2) Has the U.S. Navy ever been prevented from transiting 
        an international strait due to its nonmembership in the 
        Convention? If so, please provide details.
  <diamond> (3) Has the U.S. Navy ever been denied access to the 
        territorial sea of any other nation due to its nonmembership in 
        the Convention? If so, please provide details.
  <diamond> (4) Has the U.S. Navy ever been prevented from transiting 
        any archipelagic sea-lane due to its nonmembership in the 
        Convention? If so, please provide details.
  <diamond> (5) In what way, if any, has the U.S. Navy been hampered in 
        its prosecution of the ``Freedom of Navigation Program'' due to 
        its nonmembership in the Convention?
  <diamond> (6) If the United States accedes to the Convention will the 
        Navy's operations change in regard to the Freedom of Navigation 
        Program? If so, in what way?
  <diamond> (7) Is the U.S. Navy restricted in any manner whatsoever in 
        projecting force around the world or executing any aspect of 
        its mission due to U.S. nonmembership in the Convention?

    Answer (2)-(7). Questions related to U.S. Navy operations are best 
directed to the Department of Defense. I would note that, at the 
committee's June 14, 2012, hearing on the Law of the Sea Convention 
(LOSC), ADM Jonathan Greenert, Chief of Naval Operations, stated the 
following: ``The Navy's ability to retain access across the maritime 
domain and adjacent airspace, especially the strategic maritime 
crossroads, would be enhanced by accession to LOSC. As the world's 
preeminent maritime power, the United States has much to gain from the 
legal certainty and global order brought by LOSC. As a party to LOSC, 
we will be in a better position to counter the efforts of nations to 
restrict freedom of the seas. The United States should not rely on 
customs and traditions for the legal basis of our military and 
commercial activity when we can instead use this Convention. It is an 
important element of protecting our Nation's security and prosperity.''
   in regard to exploitation of the extended continental shelf (ecs)
Question:
  <diamond> (8) If the United States joins the Convention, pursuant to 
        article 82 it would be required to transfer a portion of its 
        royalties from exploitation of the ECS to the International 
        Seabed Authority (ISA) for redistribution to ``developing'' 
        countries. Do you believe that is a proper use of dollars that 
        would otherwise be held in the U.S. Treasury for the benefit of 
        the American people?

    Answer (8). It is important for the United States to join the 
Convention to fully secure our rights to an extraordinarily large area 
of seafloor and its vast resources. Article 82 payments are a small 
price to pay in exchange for giving U.S. companies the legal certainty 
to make expensive investments necessary to exploit these resources, and 
U.S. companies support both article 82 and U.S. accession to the 
Convention. I would note that payments are to be distributed to States 
Parties, not developing countries in particular; were the United States 
a Party, its approval would be required for any decisions relating to 
the distribution of payments made for oil and gas production on the 
Continental Shelf beyond 200 nm.

Question:
  <diamond> (9) Is there any precedent for the United States paying 
        royalties of any kind for exploiting its own natural resources 
        to an international organization for redistribution to other 
        countries?

    Answer (9). There is nothing unusual about payments being made 
under treaties that benefit the United States. The Law of the Sea 
Convention provides the United States with multiple benefits including 
securing sovereign rights with the legal certainty that gives our 
companies the necessary security to invest.

Question:
  <diamond> (10) Is the United States incapable of exploiting the 
        resources of its ECS unless and until it accedes to the 
        Convention?

    Answer (10). The clearest, most certain, and most effective means 
to achieve international recognition of our Continental Shelf beyond 
200 nm is as a Party to the Convention. The U.S. Chamber of Commerce, 
the American Petroleum Institute, and the companies that would 
potentially be involved in such resource development on the shelf all 
support accession because they desire the legal certainty and 
international recognition that is only available to Convention Parties.

Question:
  <diamond> (11) The United States has successfully demarcated its ECS 
        boundaries in the ``Western Gap'' area of the Gulf of Mexico 
        and has begun leasing vast areas of the ECS to American and 
        foreign oil companies for exploration. Does this not 
        demonstrate that the United States may exercise its sovereign 
        rights over the ECS without being a member of the Convention?

    Answer (11). The fact that the Western Gap is a small area with an 
established boundary may lead companies to consider undertaking 
drilling activities in that area that they are not prepared to pursue 
without greater legal certainty in other areas beyond 200 nm. However, 
no companies have actually undertaken any drilling activities in the 
Western Gap. But the most secure way to gain legal certainty and 
international recognition of all portions of the U.S. shelf beyond 200 
nm is by acceding to the Convention. As noted in the previous answer, 
the U.S. Chamber of Commerce, the American Petroleum Institute, and the 
companies that would potentially be involved in such resource 
development on the shelf all support accession because they desire the 
legal certainty and international recognition that is only available to 
Convention Parties.

Questions:
  <diamond> (12) By leasing areas of the Western Gap for exploration 
        has the United States violated the Convention or principles of 
        customary international law?
  <diamond> (13) May the United States produce oil and natural gas from 
        the Western Gap area without acceding to the Convention?
  <diamond> (14) If the United States produces oil and natural gas from 
        the Western Gap area without acceding to the Convention, will 
        the United States be in violation of the Convention or 
        principles of customary international law?
  <diamond> (15) Assuming that the United States would be in violation 
        of the Convention or customary international law by exploiting 
        the resources of its ECS without first joining the Convention:
          a. What country or private entity could bring a legal 
        proceeding against the United States and/or U.S. or foreign oil 
        exploration companies?
          b. What would be the nature of the cause of action?
          c. In what forum would such a proceeding be brought?

    Answer (12-15). The United States has not taken the position that 
it would be a violation of international law to explore or exploit 
resources on the U.S. Continental Shelf without joining the Convention. 
For U.S. industry to proceed with the massive investments and job 
creation that exploitation of such resources entails, however, it needs 
the legal certainty and international recognition of the U.S. 
Continental Shelf beyond 200 nm that can only be gained if the United 
States joins the Convention.
                      in regard to the deep seabed
Questions:
  <diamond> (16) Similarly, may the United States and its authorized 
        mining companies currently engage in deep seabed mining for 
        polymetallic nodules pursuant to the Deep Seabed Hard Mineral 
        Resources Act (DSHMRA) without violating the Convention or 
        principles of customary international law?
  <diamond> (17) Assuming that, as a non-party, the United States would 
        be in violation of the Convention or customary international 
        law by exploiting the resources of the deep seabed pursuant to 
        DSHMRA:
          a. What country or private entity could bring a legal 
        proceeding against the United States and/or its private mining 
        companies?
          b. What would be the nature of the cause of action?
          c. In what forum would such a proceeding be brought?

    Answer (16-17). The United States has not taken the position that 
without joining the Convention a DSHMRA license or permit to explore or 
mine polymetallic nodules in the deep seabed would violate 
international law. A DSHMRA license or permit does not give U.S. 
companies the security of title to a mine site they need to mine the 
deep seabed. A license or permit under DSHMRA gives the holder the 
exclusive right to explore or mine a specific area of the deep seabed, 
but only as against other U.S. citizens. A DSHMRA license or permit 
does not bar a foreign national from exploring or mining the same site.
    The Law of the Sea Convention provides the only basis for obtaining 
security of title to seafloor areas beyond any nation's jurisdiction. 
Under the Convention, Parties are obligated to recognize only ISA-
issued authorizations for deep seabed exploration and commercial 
recovery. For companies to obtain security of title to deep seabed 
mining sites, they must be sponsored by a Party to the Law of the Sea 
Convention. I would note that, in a letter to the committee in 2012 in 
support of the Convention, Lockheed Martin's Chairman and CEO, Robert 
Stevens, stated: ``the multibillion dollar investments needed to 
establish an ocean-based resource development business must be 
predicated on clear legal rights established and protected under the 
treaty-based framework of the LOS Convention.''

Question:
  <diamond> (18) According to the Restatement of the Law, Third, of the 
        Foreign Relations Law of the United States and DSHMRA, American 
        citizens and corporations may engage in deep seabed mining 
        regardless of whether the United States accedes to the 
        Convention, provided that such mining is conducted without 
        claiming sovereignty over any part of the seabed and as long as 
        the mining activities are exercised with due regard to the 
        rights of other nations engaged in mining.
          a. Do the Restatement and DSHMRA accurately reflect the 
        current law of the United States?
          b. Is it the case that Lockheed Martin currently has secured 
        vast areas of the Clarion-Clipperton Zone pursuant to DSHMRA?
          c. Has any other country or private entity attempted to 
        infringe upon any area of the deep seabed that is licensed to 
        Lockheed Martin pursuant to DSHMRA?

    Answer (18). As discussed above, for companies to obtain security 
of title to deep seabed mining sites, they must be sponsored by a Party 
to the Convention. And without such security of title, industry has 
made it clear that it will not risk the significant investment needed 
to extract these valuable resources.
    Lockheed Martin currently holds DSHRMA Exploration Licenses USA-1 
and USA-4, which cover geographic areas in the Clarion-Clipperton Zone. 
These Exploration Licenses do not confer any security of title 
internationally with respect to the areas covered by these licenses. 
The International Seabed Authority is the international organization 
through which entities seek such security of title at the international 
level for undertaking activities in any area of the deep seabed area 
beyond the jurisdiction of any nation.
    Given that DSHMRA Exploration Licenses USA-1 and USA-4 do not 
confer any security of title at the international level, it is possible 
that a Party to the Law of the Sea Convention could sponsor an entity 
to explore and exploit seabed minerals in these geographic areas and 
thereby undercut any investment made by a U.S. company to do so. This 
is why U.S. industry strongly supports U.S. accession to the 
Convention.

Question:
  <diamond> (19) If the United States joins the Convention, what 
        authority would the ISA and/or the Council have over the 
        operations of U.S. mining companies operating in the deep 
        seabed?

    Answer (19). The ISA is the organization through which States 
Parties to the Convention organize and control activities in the deep 
seabed area. The Council is the main decisionmaking body of the ISA. 
There are two key attributes of the Council to note: (1) as a Party to 
the Convention, the United States would be the only country with a 
permanent seat on the Council, and (2) important decisions must be made 
by consensus.
    With regard to U.S. or any other entities seeking to explore or 
exploit the deep seabed, the Council's responsibilities include 
approval of plans of work and related contracts and oversight of 
implementation of the contracts. The Council also develops the rules, 
regulations, and procedures by the Authority controls activities in the 
deep seabed area. As a Party, the United States would have an 
unprecedented ability to influence deep seabed mining activities 
worldwide. No other international organization gives one country, and 
one country only--the United States--a permanent membership on its key 
decisionmaking body.
 in regard to the convention's mandatory dispute resolution mechanisms
Question:
  <diamond> (20) If the United States joins the Convention, it will be 
        obligated to defend itself against lawsuits brought by other 
        Parties to the Convention.
          a. Would U.S. taxpayers bear the costs of litigating any such 
        lawsuit?
          b. In the event that a tribunal constituted by the Convention 
        rules against the United States and imposes monetary damages, 
        would U.S. taxpayers be responsible for paying such damages?
          c. Are the judgments entered by a Convention tribunal subject 
        to appeal?
          d. Are such judgments enforceable in the United States?

    Answer (20). I would note that the United States sought and 
obtained a dispute settlement system under the Convention to protect 
and advance its interests. The rules of the Convention, including those 
guaranteeing freedom of navigation, are highly favorable to our 
interests. The dispute settlement provisions are a potential tool for 
helping to ensure that other parties respect those rules. The United 
States would opt for arbitration under the Convention, which provides 
for equal sharing of costs. Monetary damages are a rare outcome of 
dispute settlement under the Convention and would be unlikely; were 
they to be ordered against the United States, it would be up to the 
United States how to address such an order. Judgments are not subject 
to appeal. In accordance with the draft Senate resolution of advice and 
consent adopted by the committee in 2004 and 2007, decisions of the 
Seabed Disputes Chamber would be enforceable only in accordance with 
procedures established by implementing legislation and other decisions 
would not be enforceable in U.S. courts.

Question:
  <diamond> (21) In 2001, the Republic of Ireland initiated a lawsuit 
        against the United Kingdom in a tribunal established by the 
        Convention, claiming that certain actions by the U.K. would 
        cause environmental damage to Ireland and the Irish Sea (the 
        ``MOX Plant'' case). By joining the Convention, would the 
        United States expose itself to similar environmental lawsuits? 
        If not, why not?

    Answer (21). No. The dispute resolution procedures do not provide 
jurisdiction over marine pollution disputes involving U.S. land-based 
sources.

Question:
  <diamond> (22) Certain countries that are Party to the Convention, 
        joined by international legal and environmental activists, have 
        openly stated their intention to bring a ``climate change'' 
        legal action against the United States if it accedes to the 
        Convention. Indeed, pursuant to certain environmental 
        provisions of the Convention, including but not limited to the 
        principle of transboundary air pollution and the precautionary 
        principle, the United States could arguably be held liable by a 
        Convention tribunal for contributing to global ``climate 
        change''.
          a. Do you give any credence to the threats made by these 
        countries or activists?
          b. If not, why not?

    Answer (22). This is an oceans treaty, not a climate treaty. These 
kinds of cases would not stand up legally, and the United States would 
vigorously contest any effort to bring such a case. The Convention 
contains no obligation to implement particular climate change policies 
or standards.

Question:
  <diamond> (23) Has the State Department or any other executive branch 
        agency conducted a study of any kind regarding potential legal 
        exposure that the United States would take on if it joins the 
        Convention?

    Answer (23). The State Department has considerable expertise on the 
Convention's dispute settlement procedures under the Convention, 
including how they operate, what they cover, what they do not cover, 
and the cases that have been brought under the Convention by existing 
Parties.

                                  <all>

</pre></body></html>
